No. 18A1280
IN THE SUPREME COURT UNITED STATES

XIAO-YING YU,
Petitioner
v.
MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET & MANAGEMENT,
SECRETARY DAVID BRINKLEY,
Respondent

Application For Stay And Injunctive Relief During The U.S. Fourth
Circuit's Pending The Reconsideration Of Recalling The Mandate Of The
Judgment, Pending Filing And Disposition of A Petition For Certiorari

DIRECTED TO THE HONORABLE
J OHN G. ROBERTS, Jr. CHIEF JUSTICE OF THE
SUPREME COURT AND CIRCUIT JUSTICE FOR THE FOURTH CIRCUIT

July 22, 2019

Xiao-Ying Yu
Mailing address:
P.O. Box 293
Abingdon, MD 21009
Telephone: 410-671-9823
Pro se Petitioner

PARTIES TO THE OROCEEDINGS
AND RULE 29.6 STATEMENT

There are no parties to the proceedings other than those listed on the
caption. ( Fourth Circuit is pending their reconsideration of recalling the mandate
of the judgment which was directed by the panel judges Motz, Keenan, and Floyd).
Petitioner has no corporate affiliations. To the best of Petitioner's knowledge,
Respondents Maryland Department of Health ("MDH") and Maryland Department
of Budget and Management ("MDBM") are Maryland State Government Agencies.
Respondents Mr. Robert R. Neall, is Secretary of MDH, and Mr. David Brinkley, is
Secretary of the MDBM. MDH does not have an authority for approval of an
Epidemiologist III Position Identification Number for Petitioner except the MDBM;
When Petitioner's application for using her friend's donated employee's leave
(during the interactive accommodation) was rejected by MDH HR, Petitioner was
directed to file appeal to the MDBM. Clearly, to the extent of employment
relationship, the MDBM has certain control to certain extent.

ii

TABLE OF CONTENTS
page
Cover Page of Application for Stay and Injunctive Relief
Parties to the Proceedings and Rule 29.6 Statement
Table of Contents
Table of Authorities
Application for Stay and Injunctive Relief
Introduction
I. Important Questions Raised due to Extraordinary Inequality
II. Prejudicial Proceedings and Opinions
Federal District Court's prejudicial dismissal of Petitioner's claims
without pre-Direction constitutes denial of Petitioner's Due Process
Right
Prevention of Petitioner from presenting the disputes about the
evidence of exhaustive administrative remedies, State's waiver
of its immunity, and retaliatory termination without mediation
at oral argument and hearing deprives Petitioner's property, Due
Process and Equal Protection Rights in Fourth Circuit
III. A stay and Junction Are Warranted for The Relief from The Damages

ii
iii
xi
1
2
2
4

4

6
9
10

Background
I. Petitioner Was in A Protected Class and She Was Qualified for an
10
Advanced Position within Her Workplace
II. Petitioner Provided Fair Notice to the Respondents and Both District
11
Court and Fourth Circuit that She Engaged in Protected Activities
Petitioner reported to internal managers regarding discriminatory
deprivation of the reclassification to Epidemiologist III as previously
approved by both Departments MDH and MDBM and willful
11
underpayment and unequal payment
Petitioner filed initial charge of age and racial discrimination
and retaliation with EEOC in Nov. 2013 due to Ms. Barra's
interference with her seniority job retaliated against her internal
reports about deprivation of her reclassification and underpayment 12
III. Petitioner indicated that retaliation caused her health condition and
diagnoses of workplace stress, major anxiety, major depressive
disorder and posttraumatic stress disorder were confirmed
through work ability evaluation by a State Medical Director
and two other health professional services which made Petitioner
become eligible to FMLA and accommodation and that she filed
14
second charge with EEOC under ADA, Title VII and ADEA
IV. Petitioner Further Demonstrated That Disability-Retaliatory
Termination without Mediation against Her EEOC Charge
under ADA as A Part of A Causal Connection between Her
ill

TABLE OF CONTAINTS (Continued page)
Page
Engagement in Protected Activities and The Adverse
15
Employment Actions
18
Jurisdiction
18
Reasons for Granting Stay and Junctive Relief
and
n
The Existence of Clear and Convincing Evidence of Retaliatio
I.
Prejudice Indicates There Is A Reasonable Probability That Certiorari
18
will be granted
A. Petitioner's pleadings of EEOC's right-to- sue letter and
related reports were refused for consideration as the
part of pleadings and factual bases leading to the Fourth
Circuit panel judges leader's affirmation (via Curiam Opinion)
of the reason of "lack of subject-matter jurisdiction" stated
19
by District Court to dismiss Petitioner's appeal
The Congress' abrogation of State's Eleventh Amendment
immunity to ADA claim and the State's waiver of its
sovereign immunity under 504 Rehabilitation Act, 29 U.S.C.
§794 (b) due to Respondents' receipt of federal CDC funding
were prejudicially neglected when the Panel-leading judge
affirmed the District Court's dismissal reason for State's
immunity to Petitioner's suit of disability-retaliatory
termination without mediation against her EEOC charge
25
under ADA to dismiss Petitioner's appeal
There were no merits when the panel-leading judge
(via curiam opinion) affirmed the District court's
reason of "failure to state claim" to dismiss Petitioner's
appeal despite acknowledging that the District
Court failed to take their burden to determine facts under
Rule 8(a)(1&2) and Rule 12(b)(1&6), and Respondents
failed to provide evidence of the termination with prior
mediation and any legitimate non-retaliatory reasons for the
32
adverse actions under McDonnell Douglas Scheme
II. It Is Fairly Prospected That Majority of This Court Will Vote to
Reverse The Judgment Below Because The Panel Judges' Direction
for Fourth Circuit to Dismiss Petitioner's Appeal Conflicts Relevant
Decisions Made by U.S. Supreme Court and Other Federal Court of
Appeals and Violates The Privileges "Secured or Protected" by the
43
Congressional Power of Enforcement
III. The likelihood of Irreparable Harm Will Be If It Cannot Be
Intervened and Reversed through Granting The Stay and
Injunctive Relief That Fourth Circuit's Judgment and
iv

TABLE OF CONTAINTS (Continued page)
Page
Related Orders Prevented Petitioner from Presenting
Her Disputes at Oral Argument and Rehearing En Banc
Depriving Her Property Right and Violating Due Process
and Equal Protection two clauses of Fourteenth Amendment
U.S.C. and Congressional Power of Enforcement
IV. Balance of equities supports a stay and injunctive relief
Relief requested
Conclusion
APPENDIX:
Exhibit No

53
66
71
71

Page

The Fourth Circuit's pending reconsideration about recalling the mandate
1.1 The Fourth Circuit ("COA4")'s denying the Petitioner's
motion to recall the mandate entered on 4/22/2019
App.1
(COA4-docket record "doc" #44)
1.2 Current pending Petitioner's motion (5/6/2019) to reconsider
the 4/22/2019 denial of recalling the mandate and
publication of the panel judges' unpublished opinion(COA4
App.2
doc#45)
COA4's order related to the mandate
2.1 COA4's (2/7/2019) "Stay of Mandate under Fed. R. App.
App.17
P. 41(d)(1) (COA4 doc#31)
App.18
2.2 COA4's "Mandate" entered 4/15/2019 (COA4-doc#41)
2.3 Petitioner's motion (4/19/2019) to recall the mandate (COA4App.19
doc#43)
3

COA4's initial opinion and judgment:
The COA4 panel-leading judge Motz-generated curiam
3.1
opinion on 1/24/2019 (COA4-doc#26)
The panel judges-directed COA4's judgment
3.2
on 1/24/2019 (COA4-doc#27)

App .29
App .31

4 Retaliatory termination without mediation (pleading-exhibit 12/8/2017
Filed with District Court-docket ECF#4, COA4-doc#4)
App .32
Petitioner's complaint filed with EEOC on 9/2/2014
4.1
4)
App.33
The retaliatory termination without mediation (11/3/201
4.2
App.35
Petitioner's (11/14/2014) appeal (filed with MDH HR)
4.3

TABLE OF CONTAINTS (Continued page)
APPENDIX:
Exhibit No

Page

5 Fourth Circuit's order related to rehearing en banc
Petition for rehearing en banc on 2/6/2019 (COA4-doc#29) App.41
5.1
COA4's denial of petition for rehearing en bane on 3/26/2019
5.2
App.63
(COA4-doc#37)
6 Petitioner's claim filed with the District Court of Maryland based on
the EEOC's right-to-sue letter (ECF#1, COA4 doc#4)
App.64
Petitioner's cover letter (11/2/2017, district court)
6.1
App.65
JS 44. Form (11/2/2017,district court)
6.2
7 Petitioner's amended claims (District Court on 12/8/2017, ECF#4,
COA4-doc#4)
7.1 Petitioner's(12/8/2017) request to amend newly discovery
evidence when she received from EEOC records, which was
deleted from the district court's transmitted records (COA4,
7.2
7.3

docekt#4)
Table of contents related to Plaintiffs 12/8/2017) Amended
Complaint and retaliatory events (COA4-doc#29, 2/6/2019)
Petitioner's amended complaint

8 EEOC's (10/16/2017) right-to-sue letter (provided to the court
on 3/22/2018 (ECF#20, COA4-doc#4)
Petitioner's rebuttal filed with EEOC (provided to the District
Court 3/22/2018, ECF#20-exhibit#3, detailed evidence
please see, COA4-doc#4, id. P352-419)
The District Court's memorandum and order on 6/26/2018
without pre-direction

App.66
App.67
App.70

App.87

App.90

App.105

Petitioner received EEOC's recording file and confirmed by FOIA
(7/6/2018). EEOC investigator's hand-written notes for the FactFinding Conference (indicating the Ms. Barra's interference with
EEOC's investigation) was filed with the District Court 7/24/2018
and refilled along with the notice of appeal on 7/26/2018 which were
returned. Petitioner provided it with (8/7/2018) notice of appeal in
the District Court, and the motion for concerns about docket records
and "Supplemental informal brief' with COA4. (COA4-doc#17&25)
vi

TABLE OF CONTAINTS (Continued page)
APPENDIX:
Exhibit No
11.1 The constructive discharge made by Human
Resource was promoted by Ms. Sara Barra
indicated by her testimony on 5/14/2015
(filed 12/8/2017, ECF#4, COA4, doc#4, id.
p.196-200)
11.2 People who attended EEOC's Fact-Finding
Conference (from COA4, doc#4 to COA4,
doc#15)
s investigator's notes (4/19/2017) indicated
EEOC'
11.3
Ms. Barra's interference with EEOC's investigation
on 4/19/2017 fact-finding conference by alleging
"10/10/14 CP (Petitioner) ask to resign or retire"
(COA4-doc#15 on10/18/2018)
11.4. Maryland Dept. Of Health HR (respondent)
constructive discharge on 10/10/2014 as Ms.
Sara Barra's motivation but not the Petitioner asked
for resign or retire as EEOC's investigator's notice
(filed 12/8/2017, COA4-doc#4, ECF#4)
12

MDH of Equal Opportunity Program Ms. Delinda
Johnson's email directed "undue hardship" as pretext.
12.1 EEOC recording file indicats that the emails from
Ms. Johnson on 7/31/201 related to the reason of "undue
hardship" to reject Petitioner's accommodation requests
was the part of the FMLA and ADA discrimination
and retaliation (filed 7/24, 7/26, 8/7/2018 with District
Court, and COA4-doc#17, entered 10/22/2018)
12.2 Ms. Johnson directed defendants' office manager
to make "undue hardship" as the pretext and to
change the office medical director's position
posting date from 7/23/2014 to 7/21/2014
and also to change the Medical Director's job
duty from supervision to no- supervision of any
staff in order to reject the Petitioner to return to
work under others' supervision instead of under
Ms. Barra' retaliation because the Petitioner's
accommodation request was sent on 7/23/2014
(COA4-doc#4, 15&17)
12.3 The Petitioner responded her attorney regarding
vii

Page

App.120

App.125

App.126

App.127

App.128

App.130

TABLE OF CONTAINTS (Continued page)
Page

APPENDIX:
Exhibit No

Maryland Department of Health's Opening
App.134
Medical Director's position which was opened 7/23/2014
12.4 Ms. Johnson retaliated against the Petitioner's ADA,
Title VII& ADEA Discrimination charge filed with EEOC
by rejection of her accommodation request on 9/3/2014,
which was followed by HR's rejection of Petitioner's request
to use employee's leave donated by her friend and Ms.
Barra's blocking Petitioner's access office email system
App.136
(COA4-doc#4, ECF#4)
12.5 Petitioner (9/29/2014) clarified the confusion regarding her
accommodation request in responding to Ms. Johnson's
rejection of accommodation. Petitioner did not receive any
response from her. However, the Office Structure of MDH
Center of Chronic Disease Prevention and Control was
changed in October 2014 to prevent the Petitioner from
returning work under Medical Director's supervision as
App.141
other co-workers (COA4-doc#4, p. 191-204)
13 The inconsistent and incorrect District Court's docket and
Fourth Circuit especially related to Petitioner's notice of appeal:
13.1 Petitioner's notice of appeal was filed timely (7/26/2018)
but was returned to her (ECF#40), and even was misrepresented as filing date on 8/2/2018 while Petitioner
filed motion to extend time to re-file her notice of appeal
App.149
(ECF#45&46)
13.2 It lacked some of transmitted recordings in Fourth Circuit
docket regarding the District Court "Transmission
of Notice of Appeal and Docket Sheet to US Court of
Appeals re 45 " stated in the District Court ECF#48
(8/2/2018); #49 "Correspondence from USCA re:..."
which Fourth Circuit (8/3/2018) instructs District Court
to correct the error of transmission made on 8/2/2018;
and #52 "Assembled Electronic Record Transmitted to
Fourth Circuit" (8/6/2018). COA4-doc#4 (entered 8/8/2018)
should reflects the transmission of District Court records,
ECF#53&54 (entered 8/7/2018) "Transmission of Notice
of Appeal and Docket Sheet to US Court of Appeals re. 53,
Yet, it indicates that there is no Petitioner's notice of appeal in
the Fourth Circuit docket records until COA4 doc#15 entered
App.155
10/18/2018 (COA4-doc#4, 7, 17&25)
viii

TABLE OF CONTAINTS (Continued page)
Page
App.158

APPENDIX:
13.3 Petitioner's notice of appeal

Petitioner's concerns about alteration and deletion of docket records
14.1 Petitioner's motion about concerns (10/22/2018, COA4App.178
doc#17) was mooted by the Panel judges
14.2 petitioner's supplemental informal brief (1/16/2019, COA4doc#25)

App.189

Petitioner's (8/29/2018) request help for the District Court's prejudice
App.208
15.1 Petitioner's letter (entered 9/4/2 018, COA4-doc#7)
15.2 The lack of intervention from COA4 (9/13/2018) for the
District Court's rejection of Petitioner's amendment of newly
discovered evidence from EEOC recording file(COA4-doc#8) App.210
16

Respondent's motion with anticipation no oral argument to be
granted and allegation about lack of the oral argument schedule
(COA4-doc#12, 10/11/2018) prior to filing their informal response
brief

App.211

17. Petitioner filed motion (4/1/2019,) in responding COA4's (3/26/2018)
denial of ordering reheaing her case en banc due to none of panel
judges to take a pool based on local rule 35(b) (COA4-doc#38).
17.1 Letter to Fourth Circuit Clerk and Chief Judge requesting
COA4's attention to control and prevent the obstruction of
equal justice from the panel judges' prejudice and alteration
App.213
and deletion of COA docket records (COA4-doc#38)
COA4's
ected
17.2 Application to suspend the panel-judges-dir
App.216
denial (3/26/2019) of her rehearing
to
Motz
judge
17.3 Motion to have disqualifying panel-leading
App.221
recuse herself
18

Petitioner's motion for civil action under Congressional power of
enforcement on 4/16/2019 in responding to COA4's notice under
local rule 40(d) refusing to consider Petitioner's (4/1/2019) requests:
18.1 COA4 's notice regarding local Rule 40(d) made by Ms. Cathi
App.237
Bennett (COA4-doc#39)
18.2 Petitioner's motion for civil action under the Congressional
.App.238
power of enforcement (COA4-doc#41&42)

19. Discriminatory and retaliatory interference and deprivation of
ix

TABLE OF CONTAINTS (Continued page)
APPENDIX:
Exhibit No

Page

Petitioner's job (supported by CDC 1305 program funding) under
seniority system and Petitioner's citation of statues related to the
Congressional abrogation of State's immunity to ADA claim and
Section 504 Rehabilitation Act COA4-doc#4 ECF#4, 12/8/2017;
ECF#20, 3/22/2018; ECF#30, 5/11/2018)
19.1 MDH employees who work and supported by MDH CDC
1305 program funding) indicates Petitioner's job duties and
unequal payment and underpayment (COA4-doc#4, ECF$4,
App.251
exhibit#9, filed 12/8/2017)
19.2 Petitioner's report (4/23/2014) to MDH managers and union
about Ms. Barra's retaliatory interference with her job
App.253
COA4-doc#4, ECF#4 related exhibit#23a&b
's
Petitioner
19.3 Ms. Barra generated disciplinary action by accusing
protected activity via internal email as violation cyber policy
(5/20/2014) retaliated against her internal report and
(11/12/2013) EEOC Title VII and ADEA charge while Petitioner
App.259
was in sick Leave, COA4-doc#4, ECF#4 related exhibit#23d
ability
work
a
for
19.4 Ms. Barra requested HR to send Petitioner
App.261
evaluation on 5/19/2014, (COA4-doc#4, ECF#4-exhibit#29
ts'
defendan
to
19.5 Petitioner's pleadings via "Plaintiffs response
motion to dismiss" (3/22/2018, COA4-doc#4, ECF#20)
containing EEOC right to sue-letter, EEOC charge form; and
Petitioner's rebuttal , and citation Section 504 Rehabilitation Ac
And other federal courts decision regarding State's waiver of their
Immunity.
19.6 Petitioner's pleadings via "Supplemental response in opposition
to Defendants' motion to dismiss" filed by her attorney (who
represent 4/17/2018) addressing the Congressional abrogation
States' immunity to ADA claim and requesting second
App.298
amendment of complaint (COA#4, ECF#30, filed 5/11/2018)
20 Maryland State Medical Director, Dr. Robert Toney's work ability
evaluation and recommended accommodation
21

Internal reports (2/2/2014) about Ms. Barra's ethnicity /national
origin discrimination on 1/31/2014 resulted in the disciplinary
actions (filed with District Court 12/8/2017, ECF#4, COA4-doc#4)
21.1 Petitioner's report via email to MDH Office of Equal
Opportunity Program director about Ms. Barra's

App.312

TABLE OF CONTAINTS (Continued page)
APPENDIX:
Exhibit No

Page

discrimination and Interference with her job on 2/2/2014
(COA4-doc#4, ECF# Exhibit#
21.2 Ms. Barra initiated retaliatory disciplinary action on
2/3/2014
21.3 Petitioner's appeal on 2/6/2014 and amendment on
2/18/2014

App.319
App.324
App.326

22.

Petitioner filed multiple requests with the District Court to amend
new discovery evidence upon her receiving EEOC's recording file
filed with District Court between Nov. 2017 (Appendix-6.1), Dec.
2017, (Appendix-7.1), and May 2018 (Appendix-19.6), COA4App.331
doc#4)

23

Ms. Barra discriminated and retaliated against Petitioner and
never discussed performance evaluation with Petitioner as
HR's instruction (see summary changes)

24.

App.333

Ms. Barra, deprived Petitioner's seniority job by changing her job
description in MS22 and Petitioner filed grievance, and reported
HR and OEOP filed with District Court 12/8/2017(ECF#4, COA4-doc#4)
24.1 Ms. Barra interference and deprivation of Petitioner's
seniority job by deletion of Petitioner's job duties from HR
form MS-22 without any reason instructed by HR in July
2013, COA4-doc#4, ECF#4, see summary changes (COA4App.334
doc#4, ECF#4
24.2 Petitioner filed grievance 8/13 and 8/14/2014, COA4-doc#4,
App.338
ECF#4
24.2 Petitioner reported managers for help to be treated equally
App.340
and be protected from Ms. Barra's retaliation

TABLE OF AUTHORITIES
Page
CASES:
Alsamhouri v. Gonzalez, 471 F.3d 209, 209-10 (1st Cir. 2006

65

Arbogast v Kansas_(2015, CA10 Kan) 789 F3d 1174, 31 AD Cas 1245

31

Armstrong v. Manzo, 380 U.S. 545, 552 (1965)

64

xi

TABLE OF AUTHORITIES

Page

CASES:
Aurecchione v. Schoolman Transp. System, Inc., 426 F. 3d 635, 63
Fed. R. Serv. 3d 283 (2d Cir. 2005)

24

Boyle v. Governor's Veterans Outreacg & Assistance Center, 925
F. 2d 71, 18 Fed. R. Serv. 3d 1099 (3d Circ. 1991)

38

Bush v. Gore 531 U.S. 1046 (2000)

71

Calderon v. Thompson, 523 U.S. 538, 549 (1998)

65

Chevron USA v. Natural Res. Def. Council, Inc. 467 U.S. 837, 842,
104 S.Ct, 2778, 81 L.Ed. 2d 694 (1984)
Cisneros v. United States of America, Intervenor. No. 98-2215, Part II.
(10th Cir. 2000)
City of Fort Lauderdale v. East Coast Asphalt Corp., C.A.5 (Fla.) 1964,
329 F.2d871, certiorari denied 85 S. Ct. 187, 379 U.S. 900, 13 L.Ed.
2d.175

10, 9

28,49

50

Clark v California Dep't of Correctionsi (1997, CA9 Cal) 123 F3d 1267,
25 ADD 146, 97 CDOS 6894, 97 Daily Journal DAR 11140, 7 AD
Cas 292, cert den (1998) 524 US 937, 141 L Ed 2d 711, 118 S. Ct.
2340, 8 AD Cas 480

29

County of McHenry v. Insurance Co. of the West, C.A.7 (Ill.) 2006, 438
F. 3d 813, id.at 439;

47

Cromer v. Brown, 88 F.3d 1315, 1325-29 (4th Cir. 1996)

53

EEOC v. Avery Dennison Corp., 104 F. 3d 858, 861 (6th Cir, 1997)

34

Firefighters v. Scotts, 467 U.S. 561,

69

First Bank, FSB v. Morales, 42 F. 3d 895, 31 Fed. R. Serv. 3d 1078
(5th Cir. 1995))

65

Fowlkes v. Ironworkers Local 40, No. 12-336-cv (2nd Cir. 2015)

46

Godon v. North Carolina Crime Control & Public Safety,
xii

TABLE OF AUTHORITIES
Page
CASES:
et al, No. 99-2509, (4th Circ. 2000)
Goldstein v. Chestnut Ridge Volunteer Fire Co., 218 F 3d 337, 354-58
(4th Cir. 2000)

53

53

Harrison v. Robert E. Rubin, Secretary of the Treasury, United States
Department of the Treasury (No. 98-5019, D.C. Cir. 1999

50

Hudspeth v. Figgins, C.A.4 (Va.) 1978, 584 F.2d 1345, certiorari
denied 99 S.Ct. 2013, 441 U.S. 913, 60 L.Ed.2d 386

52

James Bridgewater v. Michigan Gaming Control Board (282 F.
Supp. 3d 985, 2017)

31

Jones v. Calvert Group, Limited. No. 07- 1680. (4th Circ., 2009)

53

Kimel 528 U.S. 62, 120 S.Ct. 631, 145 I.Ed. 2d 522 (2000)

27, 49

Locicero v. O'Connell, S.D.N.Y.2006, 419 F.Supp.2d 521

30

Logan v. Zimmerman Brush CO. et al 102 S. Ct. 1148, 455 U.S.
422, 71 L. Ed. 2d 265, 50 U.S. L.W. 4247, 1982. SCT. 40870

46

Medlock v. Ortho Biotech, Inc., 164 F. 3d 545, 550 (10th Cir.)

34

Monell v. Department of Soc. Servs. Of City of New York, 436 U.S.
658, 700 (1978)

45

Montez v. Department of Navy, 392 F. 3d 147, 60 Fed. R. Serv. 3d. 395
(5th Cir. 2004)

23

Parisie v. Greer, 705 F. 2d 882, 36 Fed. R. Serv. 2d 535 (7th Cir. 1983)

63

Rekeweg v. Federal Mut. Ins. Co., 27 F.R.D. 431, 4 Fed. R. Serv. 2d 605
(N.D.Ind. 1961)

21

RMI Titanium Co. v. Westinghouse Elec. Corp., 78 F. 3d 1125, 34 Fed.
R. Serv. 3d 1288, 1996 FED App. 0099P (6th Cir. 1996)

24

Rohler v. TRW. Inc., 576 F. 2d 1260, 25 Fed. R. Serv. 2d 581

TABLE OF AUTHORITIES (Continued page)
Page

CASES:

35

(7th Cir. 1978)
Rush v. State Arkansas DWSN. No. 17-1457, Dec. 8, 2017 (8th Circ.)

22, 51

School Bd. of Manatee County, Fla. v. L.H. ex rel. D.H., M.D.Fla.2009,
666 F.Supp.2d 1285

22

Screws v. U.S. 325 U.S. 91, 98-100)

49

Teamsters v. United States, 431 U.S. 324 (1977)

69

Timothy Dugger v. Stephen F. Austin State University (232 F. Supp.
3d 938, 2017)

31

U.S. for Use of Chicago Bldg. Restoration, Inc. v. Tazzioli Const. Co.
N.D.I11.1992, 796 F.Supp. 1130

22

U.S. v. Martorano, 620 F.2d 912, 29 Fed. R. Serv. 2d 1242 (1st Cir. 1980)

62

U.S. Airways, Inc. v. Barnett. 535 U.S. 391 (2002) 228 F. 3d 1105

69

Veazey v. Communicatons &cable of Chi, Inc., 194 F. 3d850,853
(7th Cir. 1999)

47

STATUES PROVISIONS AND REGULATIONS:
SUPREME COURT'S RULES:
1

Rule 22

1

Rule 23
**************

29 U.S.C. § 151

46

28 U.S.C. § 1254

18
xiv

TABLE OF AUTHORITIES (Continued page)
Page

STATUES PROVISIONS AND REGULATIONS:

4, 5, 55

28 U.S.C. § 1291

1,18

28 U.S.C. § 2101

22, 51

29 C.F.R. § 1601.12 (b).

1, 18

28 U.S.C. § 1651
28 U.S.C.A § 46
Act
29 U.S.C. § 621, e. seq., The Age Discrimination in Employment
72
70,
69,
15, 16, 17, 27, 31, 32, 42, 44, 45, 48, 49, 50, 67,
29 U.S.C. §794(a)(b), Section 504 of the Rehabilitation Act,
30, 31, 32, 43, 44, 51

62
.1, 3, 4, 14

3, 5, 25, 26, 28, 29,

1, 3, 4,12,
42 U.S.C. §§ 2000e seq., Title VII of the Civil Rights Act of 1964
69, 72
67,
53,
52,
14, 16, 17, 28, 30, 31, 32, 35, 39, 42, 44, 45, 46, 48, 49, 50, 51,
1, 3, 4, 6,
(a)&(b)
42 U.S. Code § 12101, The American with Disabilities Act Law
49, 50, 51, 53, 57,
8, 14, 15, 16, 17, 25, 26, 27, 28, 29, 30, 31, 32, 42, 43, 44, 45, 48,
63, 67, 69, 70, 72
5, 17, 44, 48, 63, 69

42 U.S.C. §1983

69

42 U.S.C. §12112

27, 49

42 U.S.C. §12202-State Immunity:

26, 28, 30, 32, 51

42 U.S.C. §2000d- 4a:

3, 5, 25, 26, 27, 28, 29, 32, 49, 50

Eleventh Amendment to U.S. Const
51,57

2, 4, 6, 10, 18, 20, 27, 32, 46, 50

Fourteenth Amendment to U.S. Const
53, 62, 64, 65, 68, 70

20

Federal Rules of Appellate Procedure 27

XV

TABLE OF AUTHORITIES (Continued page)
STATUES PROVISIONS AND REGULATIONS:
RULES:

Page

Federal Rules of Appellate Procedure 34

7, 8, 55, 56, 58, 59

Federal Rules of Appellate Procedure 35

9, 63, 64, 65, 66, 68

Federal Rules of Appellate Procedure 41

8, 60, 61, 61, 62, 63, 64

Federal Rule of Civil Procedure 12(b) (1)&(6)
37, 38, 43, 52, 64

5, 6, 20, 23, 24, 25, 32, 33

3, 4, 6, 21, 22, 51

Federal Rule of Civil Procedure 15 (d)

37
4, 6

Federal Rule of Civil Procedure 56
Federal Rule of Civil Procedure 60
Federal Rule of Civil Procedure 7

3, 21, 22, 51

Federal Rule of Civil Procedure 8
43, 52, 64

5, 20, 25, 32, 33, 35

OTHER AUTHORITIES:
3, 5, 27, 32, 44, 49, 51, 57
2, 4, 8, 10, 44, 49, 53, 62, 70
4, 44, 47,48
17, 44, 48

H.R. Rep. No. 101-485 (II), at 37 (1990)
Congressional power of enforcement
Fair Labor Standard Act
National Labor Regulation Act

xvi

USCA4 Appeal: 18-1889
I

Doc: 44

Filed: 04/22/2019

Pg: 1 of 1

'hi

FILED: April 22, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1889
(1:17-cv-03260-JKB)

XIAO-YING YU
Plaintiff - Appellant
v.
ROBERT R. NEALL, Maryland Department of Health Secretary (formerly Dennis
Schrader); DAVID BRINKLEY, Maryland Department of Budget and
Management Secretary
Defendants - Appellees

ORDER
Upon consideration of the motion to recall the mandate and to vacate
decision on appeal, the court denies the motion.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

I' 2.

(Arf z

May 6, 2019
Patricia S. Connor, Clerk and Chief Judge, Robert L. Gregory
U.S. Court of Appeals for the Fourth Circuit
1100 East Main Street, Suite 501
Richmond, VA. 23219
Re: Case No. 18-1889, Xiao-Ying Yu v. Robert Neal (1:17-cv-03260-JKB),
Plaintiffs motion for publication of unpublished opinions and reconsideration of Court's
4/22/2019 order

Dear Clerk Connor and Chief Judge Gregory:
Following filing my consequential documents including application for suspension,
motions to recuse, and letter to you addressing about intentional and constant alteration of docket
records and concealment of the evidence, recent civil rights request and motion to recall the
mandate, I am respectfully submitting the motion for publication of unpublished opinions,
(which directed the Court's judgment and orders between 1/22/2019 and 4/22/2019), and for
reconsideration of the Court's 4/22/2019 order denying my request that Court recall the mandate
under Fed R. App. P. 34 (a)(2), (b), Rule 27, Local Rule 36(b), USC 28, Chap. 21 § 455, Fed R.
App. P. 41 (b)&(c); 42 U.S.C. §1983, "Due Process" and "Equal protection" clauses of
Fourteenth Amendment and Congressional enforcement power for depriving a person of rights or
privileges "secured or protected" by the Constitution or U.S. law (Screws v. U.S. 325 U.S. 91,
98-100).
The related Appendix and certificate of service and compliance are enclosed.

Respectfully submitted,
LA_
Xiao-Ying Yu, pro se
Mailing address: P.O. Box 293,
Abingdon, MD 21009

No. 18A1280
APPLICATION FOR STAY AND INJUNCTIVE RELIEF DURING
THE U.S. FOURTH CIRCUIT'S PENDING THE RECONSIDERITION
OF RECALLING THE MANDATE OF THE JUDGMENT, PENDING
FILING AND DISPOSITION OF A PETITION FOR CERTIORARI

To the Honorable John G. Roberts, Jr., Chief Justice of the Supreme Court of
the United States and Circuit Justice for the Fourth Circuit:
Pursuant to Rule 22 and 23 of this Honorable Court's rules, as well as 28 §
§1651 (a) and 2101 (f), Petitioner ("applicant" or "plaintiff' when referred
statements from previous lower courts' docket records), Xiao-Ying Yu, pro se,
respectfully requests a stay and injunctive relief of exercising the Supreme Court's
power of intervention and supervision in the current pending reconsideration
(Appendix-1) of recalling the mandate (Appendix-2) of the judgment at Fourth
Circuit, dated January 24, 2018, (Appendix-3), pending the filing and deposition of a
petition for writ of certiorari (by the deadline August 23, 2019 based on this Court's
approval of her application for extension).
The Fourth Circuit (via judgment directed by the ciriam opinion which the
panel-leading Judge Motz prepared) affirmed the Federal District Court of
Maryland's dismissal of Petitioner's claim regarding the termination of Petitioner's
employment without mediation or hearing caused by the retaliation against her
prior charges filed with EEOC under Title VII of the Civil Rights Act of 1964 ("Title
VII"), The American with Disabilities Act Law ("ADA") and The Age Discrimination
in Employment Act ("ADEA") (Appendix-4). As described below, despite
1

acknowledging that Respondents (Maryland Department of Health, "MDH",
Secretary, Robert Neall, and Maryland Department of Budget and Management,
"MDBM", Secretary, David Brinkley, or "Defendants" when referred previous
statements from the lower courts' docket records) did not provide evidential priormediation of termination and failed to provide any legitimate non-retaliatory
reasons for the adverse actions under the McDonnell Douglas Scheme, the panel
judges directed Fourth Circuit's denial of Petitioner's rehearing en banc and
affirmed deprivation of the Petitioner's property right, Due Process and Equal
Protection of constitutional rights (Appendix-5). This judgment conflicts with
decisions from other circuit court of Appeals and this Court and is inconsistent with
the Fourth Circuit's own previous judgment. It also represents a violation of clear
instruction from the Congress. For reasons explained below, there is a significant
probability that the honorable Court will grant certiorari, and if certiorari is
granted, there is also reasonable possibility that the judgment below will be
reversed or vacated. A stay and injunctive relief pending this Court's further review
is also necessary to prevent Petitioner from suffering irreparable injury and serves
the public interests under Congressional power of enforcement and the integrity of
justice.
INTRODUCTION
I

Important questions raised due to extraordinary inequality
This case raises critically important questions of Federal law and

constitutional rights:

2

Did the Fourth Circuit err by refusing to consider EEOC's right-to-sue
letter regarding her Title VII, ADA and ADEA charge, Petitioner's letters to the
District Court's clerk along with the complaints, and the statement in "Plaintiffs
Response to Defendants' Motion to Dismiss" as part of Petitioner's pleadings and
factual bases under Fed. R. Civil P. 7(a) and 15(d), and thereby affirming the
District Court's dismissal reason "lack of subject-matter jurisdiction" and
dismissing Petitioner's appeal?
Did the Fourth Circuit erroneously affirm the District Court's dismissal of
Petitioner's claim based on State's sovereign immunity to her claim, even though
they acknowledged Congressional abrogation of State's Eleventh Amendment
immunity to ADA suit and that the Respondents waived its sovereign immunity due
to the receipt of Federal CDC funding under the Section 504 of Rehabilitation Act,
29 U.S.C. §794 (b)?
Did the Fourth Circuit erroneously affirm the District Court's dismissal of
Petitioner's claim based on her failure to state claim despite acknowledging that
Respondents failed to prove evidential mediation prior to termination; and did not
provide any legitimate non-retaliatory reason for the Respondents' adverse actions
under the McDonnell Douglas Scheme?
Did the Fourth Circuit erroneously affirm the District Court's dismissal
and closure of Petitioner's claim without pre-direction, and support the District
Court's rejection of her motion for clarification and reconsideration, and her second
amendment of her claim, (that added evidence from EEOC records obtained via

Freedom of Information Act), in violation of Fed. R. Civil P. 15, 60 and 28 U.S.C. §
1291 by alleging that Petitioner's amendment would not cure the defects of lack of
subject matter jurisdiction and State's immunity?
5. Did the Fourth Circuit erroneously hold up the judgment depriving
Petitioner's property right, and violating Due.Process and Equal Protection the two
clauses of the Fourteenth Amendment to U.S.C. and Congressional power of
enforcement by pending Petitioner's motion to reconsider recalling the mandate
which was issued in the absence of prior denial of Petitioner's motion to stay the
mandate under Fed. R. App. P 41(b) and by neglecting evidence and prejudicial
prevention of Petitioner from presenting disputed issues (exhaustion of
administrative remedies, State's waiver of immunity and relief for retaliatory
termination without mediation) through an oral argument and rehearing en banc?

II.

Prejudicial proceedings and opinions
A.

Federal District Court's prejudicial dismissal of Petitioner's claims
without pre-direction constitutes denial of Petitioner's Due Process
right.

Per EEOC's (10/16/2017) right-to-sue letter, Petitioner filed claims under
Title VII, ADEA, ADA, 42 U.S.C. §1983 and Fair Labor Standards Act et al with
Federal District Court of Maryland regarding the workplace discrimination and
retaliation initiated by her supervisor Ms. Sara Barra, and tolerated and supported
by MDH and MDBM, which caused the termination of her job under seniority
system without mediation. Petitioner submitted letter along with her filing
Complaint (11/2/2017, Appendix-6) and an Amended Complaint (12/8/2017) with 39

4

exhibits (collectively referred to as the "Complaint") to the District Court clerk
requeting to amend new evidence when she receives it from EEOC's recording file
(Appendix-7).
Also, Petitioner filed "Plaintiffs response to Defendants' motion to dismiss"
and related exhibits which contains EEOC 10/16/2017 right-to-sure letter, EEOC
filing form and Petitioner's rebuttal filed with EEOC (Appendix-8&9). In these
pleadings, pro se demonstrated that willful underpayment, unequal payment,
biased rejection of accommodation and request to use employee's leave donated by
her friend, Human Resources' constructive discharge and deprivation of her
senority job and wronful termination without mediation are caused by
discrimination and retaliation based on ethnicity/national origin, age and disability.
In addition to her complaint, Petitioner responded to Respondents' motion to
dismiss on March 22 and May 11, 2018, which concerned Congressional abrogation
of state's Eleventh Amendment immunity and State's waiver sovereign immunity
under Section 504 of Rehabilitation Act as their receipt of CDC funding. (COA4doc#4, ECF No. 20&30, Exhibit #3) (ECF No. 4, exhibit#9, 21,22&26).
The District Court's decisions without pre-direction under 28 U.S.C. § 1291
denied her claims, closed her case, and deprived her civil and property rights
without a trial or a hearing. These faulty reasons are: dismissal due to lack of
subject matter jurisdiction under Rule 8(a) and 12(b)(1) without prejudice; dismissal
by failure to state a claim upon which relief can be granted based on Rule 8(a) and

5

Rule 12(b)(6) with prejudice; and dismissal because of State's immunity to ADA
complaint. The District Court rejected Petitioner's request for a second amendment
of her claim by falsely stating that Petitioner's amendment would not cure
deficiencies of lack of subject matter jurisdiction and State's immunity to
Petitioner's claim (Appendix-10; district court's 6/26/2018 memorandum and order).
B. Prevention of Petitioner from presenting the disputes about the evidence
of exhaustive administrative remedies, State's waiver of its immunity,
and retaliatory termination without mediation at oral argument and
hearing deprives Petitioner's property, Due Process and Equal Protection
rights in Fourth Circuit:
Petitioner's motion for relief (via clarification and reconsideration) and motion
for leave to file a second amendment with the newly discovered evidence of
Respondents' interference with EEOC's investigation obtained from EEOC via
Freedom of Information Act ("FOIA") (Appendix-11&12) under Fed. Civil P. 60 and
15 (within 28 days from the District court's 6/26/2018 judgment) were returned by
the District court, and her notice of appeal, which was filed in a timely manner on
July 26, 2018, was also returned, but part of it (without exhibits) was transmitted to
Fourth Circuit twice on August 2, and 6, 2018 (Appendic-13). This series of
inappropriate denials and confused actions hampered the review of Petitioner's
appeal. Within 30 days of submitting her notice of appeal, Petitioner filed a motion
for leave, and also wrote a letter (based on the clerk's instruction) requesting the
Fourth Circuit to intervene and correct the mistakes in the docket records and the
prejudicial actions of the District Court as described above, Fourth Circuit's docket
record, "COA4-doc" #5&7).

6

Yet, the inconsistent, incorrect and incomplete COA4 docket records
influenced by the District Court's biased actions were not corrected. Instead, there
were additional alteration and deletion in the Fourth Circuit docket for transmitted
records from the District Court during 18 days after Petitioner filed an informal
brief (Appendix-14, COA4-doc #17&25). The Petitioner received a letter from the
Fourth Circuit addressing the denial of newly discovered evidence (affirmed by
EEOC-FOIA on 7/6/2018) regarding Ms. Barra's interference with EEOC's
investigation and MDH Ms. Delinda Johnson's unlawful rejection of the
accommodation, which Petitioner had requested to amend since 11/2/2017 when she
filed her initial complaint with the District Court (Appendix#15, COA4-doc #7&8).
Petitioner requested oral argument'. But, she never received Fourth Circuit's
notification of oral argument under Fed. R App. P. 34 (b), which was also alleged by
Respondents (Appendix-16, COA4-doc #12).
In addition, on January 24, 2019, the Fourth Circuit (via curiam opinion
which panel-leading judge Motz prepared) denied any reversible errors made by the
District Court; affirmed the reasons of District Court's dismissal of her claims (lack
1

After Petitioner addressed necessity and importance to have oral argument in her

(10/1/2018) informal brief, Respondents filed motion to anticipate no oral argument to be
granted and stated there had not been scheduled oral argument on Oct. 11, 2018 when was
prior to the panel judges' receipt of Respondents' informal response brief, Petitioner's
informal reply brief and supplemental informal brief and related exhibits. Petitioner re
emphasized the need of oral argument to be permitted on Oct. 15, 2018 in response to
Respondents' (10/11/2018) motion, there was no clarification regarding Respondents' allege
or response to Petitioner's informal brief and motion for oral argument from the Fourth
Circuit.
7

of subject-matter jurisdiction, failure to state claim and State's immunity to ADA
suit); and mooted her motion for concerns about the alterations and deletions of the
court's docket records. Also, the panel-leading judge used a statement of local rule
34(a)(2)(c) as an excuse to dispense Petitioner's oral argument request, (see footnote
#1), and denied Petitioner's petition for rehearing en bane under local Rule 35(b)2
despite acknowledging District Court's receipt of EEOC right-to-sue letter (part of
pleadings), and Respondents' failure to provide an evidence of prior mediation for
termination or/and any legitimate non-retaliatory reasons for their adverse actions
under the McDonnell Douglas Scheme.
Petitioner filed a timely motion to stay the mandate and its related
amendment, which was not denied, yet she received the mandate (Appendix2.1&2.2, COA4-doc#36&40). Furthermore, Petitioner's application for recalling the
mandate under Fed. R. App P. 41(b) and Congressional power of enforcement was
also denied per the direction of the panel judges (Appendix 2.3&1, COA4,
docket#43&44) although Petitioner previously filed application for the disqualified
panel-leading judge to recuse herself as well as an application for suspension of the
Fourth Circuit's denial of her rehearing en bane and her request for an intervening
action to control and stop the obstruction of equal justice by the panel-leading
judge's prejudicial actions and alteration and deletion of the Fourth Circuit docket
2

Fourth Circuit was directed to deny Petitioner's rehearing en bane because none of three

of panel judges made a poll even one of them required taking a poll as a pre-condition for
determination of granting Petitioner's rehearing en bane opportunity under local Rule 35
(b), but wrongfully stated their prejudiced denial under Fed. R. App. P. 35 instead of local
Rule 35 (b) (Appendix 5.2)
8

records. (Appendix 17, COA4-doc #38). Moreover, Petitioner requested protection of
her constitutional rights on 4/16/2019 in responding to the Fourth Circuit's notice
under local Rule 40(d) to block Petitioner's requests for suspending the denial of
rehearing and recusing the pane171eading judge (Appendix-18, COA4-doc#39&41).
On May 6, 2019, Petitioner filed motion for reconsideration of the Fourth
Circuit's order denying her application to recall the mandate and request for
publication of their unpublished opinion (Appendix1.2, COA4-doc#45). Petitioner
checked with the Fourth Circuit on May 29, 2019 regarding this issue but has not
received Fourth Circuit's answer regarding the status of their recalling of the
mandate.
III. A stay and injunction are warranted for the relief from the
damages.
Petitioner could not obtain relief from the District Court and Fourth Circuit
that would have been granted if they were to consistently apply federal civil and
appeal rules and procedures and were to follow the instructions of Congress, and if
their decision did not conflict with the decisions of another United States Court of
Appeals and this Supreme Court on the same important matter including
deprivation of Petitioner's property right without mediation and hearing caused
further damages.
The irreparable damages to Petitioner's health and life are evidenced by her
complaints and informal brief and related exhibits. Additional suffering brought to
her will continue by that both District Court and the Fourth Circuit panel of judges
neglect the evidence, federal laws and constitution, and perform prejudicial actions
9

without merits if the stay and injunctive relief as well as certiorari are not granted.
The consequence of this prejudice without justification in the judicial process is that
American people will lose trust in the ability of nation to ensure equality of the
working environment, and freedom from retaliation against employee's charge filed
with EEOC, and will lost confidence in equal justice in federal courts under Due
Process and Equal Protection of Fourteenth Amendment U.S.C.. In contrast,
granting a stay will impose no harm on the Respondents' employees and
organization because granting of equal justice can only support the working
conditions within an organization.
Moreover, this Court is likely to grant certiorari based on the convincing
evidence of Petitioner's exhaustive administrative remedies, the conflicts of Fourth
Circuit's judgment with the decisions of other appellate courts and Supreme Court,
and the Congressional power of enforcement. Additionally, this Court will likely
reverse lower court's opinion if the Congress has clear instruction. Chevron USA v.
Natural Res. Def. Council, Inc. 467 U.S. 837, 842, 104 S.Ct, 2778, 81 L.Ed. 2d 694
(1984), and also because the U.S. Supreme Court had decision in the relevant case
(details please see " Reasons for granting the stay").

BACKGROUND
I. Petitioner was in a protected class and she was qualified for an
advanced position within her workplace.
It is undisputed based on Petitioner's complaint filed with District Court
that Petitioner was the only employee who was Asian American, born in a foreign

10

country and over 60 years old working as an epidemiologist for 5 years (between
2009 and 2014 in the Center of Chronic Disease Prevention and Control ("CCDPC")
of MDH (notably, Petitioner worked well and got along with her co-workers or
customers without any complaints) 3.

II.

Petitioner provided fair notice to the Respondents and both
District Court and Fourth Circuit that she engaged in protected
activities.
A. Petitioner reported to internal managers regarding discriminatory
deprivation of the reclassification to Epidemiologist III as previously
approved by both Departments MDH and MDBM and willful
underpayment and unequal payment:
Petitioner demonstrated in her complaint that she was subject to unlawful

and discriminatory employment practices and she reported these practices to the
office director, MDH secretary and MDBM Employee Regulations between March
2012 and February 2014. Both MDH and MDBM had initially approved a new
position (a new Epidemiologist III position and position identification number with
corresponding salary increase) specifically for Petitioner's reclassification due to her
increased job responsibilities in March 2011, but the approved position
identification number for Petitioner was unlawfully given to Ms. Barra, because she
is caucasin, younger than Petitioner by approximately 20 years and came to work in
the CCDPC one and half year later than Petitioner in January 2012. As a result,
3

Formal CCDPC Director, Dr. Audrey Regan highly evaluated Petitioner' work and applied

for reclassification of Epidemiologist III in 2010, which was approved by MDH and MDBM
in March 2011. Petitioner received satisfactory or outstanding performance evaluations
during 5 years of her service in MDH except June 9, 2014 when Ms. Barra generated
((

unsatisfactory" evaluation with false reasons (COA4, docket#4, ECF No. 4, exhibit#24).
11

Petitioner was not paid according to the new approved reclassfication position even
though she had already been performing the increased job duties since Jannuary
2010. Instead, the salary and title of the job were given to Ms. Barra.
Despite Petitioner's reports to MDH manager (March 2012) and secretary
(February 2014) as well as MDBM Employee Relations (August 2013), the situation
described above was not corrected. Petitioner's salary was not raised to an
equavelent level as other epidemiologists with similar experience (who had post
doctoral training and over 20 years of working experience) in MDH during the
period of her employment as both MDH and MDBM approved for her in March
2011. Futhermore, Petitioner's Amended Complaint indicated that all of her
colleagues had a salary matching their education and years of work experience plus
medical and other benefits except her (Appendix-19, COA4-doc#4, ECF No. 4,
exhibit,49). This was the initial basis for claims of willful underpayment and
unequal payment due to racial and age discrimination.
B. Petitioner filed initial charge of age and racial discrimination and
retaliation with EEOC in Nov. 2013 due to Ms. Barra's interference with
her seniority job retaliated against her internal reports about
discriminatory deprivation of her reclassification and underpayment.
Petitioner indicated that after her initial report to the office director
regarding the discriminatory deprivation of her reclassification, she was placed
under Ms. Barra's direct supervision in December 2012. Within two weeks, required
Petitioner to sign a pre-completed annual evaluation form and downgraded
Petitioner's performance evaluation from previous year's "outstanding" to

12

"satisfactory" with a warning memorandum requiring Petitioner to improve
judgment, follow directions, and polish up writing. However, Human Resource
("HR") had clear instructions about such memorandum, which was issued only for
employee with performance evaluation of "unsatisfactory". Ms. Barra never meet
and discuss about annual performance evaluation privately with Petitioner as she
had done with other employees she supervised and as required by HR for all
supervisors. In addition, Ms. Barra deprived Petitioner of seniority rights within
the CDC's supported position and responsibilities by forbidding Petitioner to access
database, to attend the office program meetings, CDC officer's site visit and CDC
funding program telephone conference. Within Seven months, Ms. Barra changed
Petitioner's job description on HR MS-22 form in July 2013. In doing so, Ms. Barra
deleted all of Petitioner's responsibilities for chronic disease projects, restricted
Petitioner's internal and external communication, changed her annual performance
evaluating standards from "professional skills" to "English writing". Ms. Barra
refused Petitioner's request (in verbally and by email) to be treated equally without
explanation for such changes. Petitioner reported to office director (next level
manager), MDH Union, HR and OEOP and MDBM managers, filed internal
grievance and appeals between March 2012 and Feb. 2014 (Appendix 7.2&7.3,
COA4, docket#4, see ECF No. 4, id. p2-3, exhibits #1, 12, 20-24). The violation was
not resolved, but On Oct 10, 2013, Ms. Barra created another internal consulting
memorandum (as the first required step by HR for making disciplinary action) to
forbid Petitioner's protected activities by seeking help from next level of manager. It

13

led to six of disciplinary actions within 4 months (February 2014 and June 2014).
Petitioner filed her first charges of age, racial harassment, discrimination and
retaliation (discriminatory and adverse events between January 2013 and
November 2013) with EEOC on November 12, 2013 (COA4-doc#4, ECF No. 4, id. p.
2-5, Exhibit #1-16). Then she was subject to further unlawful retaliation and
harassment and discrimination by Ms. Barra tolerated and supported by MDH and
MDBM.
III. Petitioner indicated that retaliation caused her health condition
and diagnoses of workplace stress, major anxiety, major
depressive disorder and posttraumatic stress disorder were
confirmed through work ability evaluation by a State Medical
Director and two other health professional services which made
Petitioner become eligible to FMLA and accommodation and that
she filed second charge with EEOC under ADA, Title VII and
ADEA.
Petitioner demonstrated that her mental health condition (obtained FMLA in
June 2014) was caused and worsened by escalating hostility in her working
environment and the retaliation exacted by Ms. Barra because Ms. Barra interfered
with her seniority job; prevented her from seeking next level of manager's help;
created 6 disciplinary actions within four months, and exposed disciplinary
suspension of Petitioner in the calendar which were able to see by co-workers to
bully and harass Petitioner. The documented disabilities and the accommodation for
Petitioner to work under other supervisor were recommended by State Medical
Director, Dr. Robert Toney and other two Psychiatrist and mental health institution
(between June and October 2014, Appendix-20). Petitioner applied another
epidemiologist III position and was evaluated as "Best Qualified" by MDH in June
14

2014 and she also requested Office of Equal Employment Program ("OEOP") officer
Ms. Johnson's consideration of accommodation to allow her return to work either in
the position she applied for or to reassign her to work with other co-worker (who
also worked for CDC funding 1305 program) together under office Medical
Director's supervision on July 21, 2014. Yet, she did not get any help from Ms.
Johnson in August 2014, except a requirement for her to continue work under Ms.
Barra's supervision in the absence of equal working condition and lack of any
official control of Ms. Barra's harassment and retaliation. MDH OEOP Ms. Johnson
biased actions led to further disability discrimination and harassment. Petitioner
filed her second charge with EEOC gor disability, ethnic and national origin and
age discrimination and retaliation under ADA, Title VII and ADEA on September 2,
2014. This charge dealt with the disability discrimination and retaliation retaliated
against Petitioner's internal appeals and first charge of age and racial
discrimination and retaliation filed with EEOC between Dec. 2013 and Aug. 2014
(Appendix 6&9, ECF No. 4, p 6-10, exhibit #17-31). And consequent adverse events
were also provided to EEOC for amendment with charge.
IV. Petitioner further demonstrated the disability-retaliatory
termination without mediation against her EEOC charge under
ADA as part of the causal connection between her engagement in
protected activities and the adverse employment actions.
Petitioner indicated that she received Defendants' adverse actions such as
unwarranted disciplinary actions which began on the day (2/3/2014) immediately
after she reported to OEOP director, Ms. Keneithia J. Taylor (2/2/2014) about Ms.
Barra's new discrimination at ethnicity/National Origin behavior because Ms. Barra
15

sent Petitioner a warning email after 7:00 p.m. with false reason on the Chinese
New Year Eve although Ms. Barra had previously approved her request to take half
the day off (1/31/2014) (Appendix 21, ECF#4, COA4-doc#4). Additionally, Ms. Yu
also reported to Ms. Taylor on 2/2/2014 that Ms. Barra retaliated and interfered
with her job including block of her submission of abstract for office program/projects
on the deadline (1/15/2014) (COA4-doc#4). It was within two months from the date
of her filing first charges under Title VII and ADEA with EEOC (COA4-doc#4, ECF
No. 4, id. p.5-9, Exhibit 17-28). She also experienced progressive disability
retaliatory actions due to her second charge with EEOC (9/2/2014). These actions
included rejection of accommodations by pretext "undue hardship" without any
explanation required by ADA, rejection of her request of using employee's leave
time donated by Petitioner's friend during the interactive accommodation process,
and blocking her access to office email on 9/3/2014, the next day immediately after
Respondent (MDH OEOP officer Ms. Johnson) received the Petitioner's EEOC
charge on September 2, 2014 (Appendix-12, COA4-doc#4, ECF#4). Consequently,
Respondents HR issued constructive discharge (10/10/2014) motivated by Ms. Barra
requiring Petitioner to resign or retire prior to OEOP Ms. Johnson's response
(10/15/2014) to the accommodation recommended by State Medical Director
(10/8/2014); Ms. Johnson made pretext of "undue hardship" (in August 2014 in
response to Petitioner's attorney's accommodation and requesting letters sent to HR
between June and July 2014 and OEOP on July 21, 2014). It is indicated by change
of the CCDCP office structure (October 2014), change of office Medical Director's job

16

description from "supervision" to "non-supervision" (7/21/2014) and prevent
Petitioner from returning to work under a different supervisor in a less hostile
environment, which, even though was recommended by the State Medical Director
for the accommodation (Appendix-20). This action led to unlawful termination
without mitigation (11/3/2014) by alleging that Ms. Yu is "an individual with
disability who, with a reasonable accommodation, cannot perform essential
functions of the position" (Appendix 7&4, COA4-doc#4, ECF#4). However, Petitioner
was never given the opportunity to work with an accommodation. The continued
the retaliation through Ms. Barra's interference with EEOC's investigation for
Petitioner's protected activities (COA4-doc#4, ECF No. 4, id. p.9-12, Exhibit #17-40)
demonstrated by new discovery evidence from EEOC's recording file (EEOC
investigator's hand notice on 4/19/2017) via FOIA request (Appendix-11). Petitioner
further indicated that both Departments, including the MDH Union manager (who
participated in the decision of termination lack of pre-mediation without informing
Petitioner), tolerated and supported Ms. Barra's harassment and discriminatory
and retaliatory behavior and actions, violating Petitioner's constitutional rights
under Title VII, ADEA and ADA, 42 § 1983 U.S. Code and National Labor
Regulation Act ("NLRA").
Petitioner filed her complaint with • the Federal District Court with 39
exhibits and EEOC's 10/16/2017 right-to-sue letter, EEOC charge form and
Petitioner's rebuttal filed with EEOC. All of the evidence described above and
stated in her pleadings was omitted, or misrepresented or misinterpreted.

17

Petitioner's complaint was prejudicially dismissed and the case was closed on June
26, 2018 without pre-direction by false reasons and affirmed by the Fourth Circuit
panel-leading judge who directed judgment to dismiss Petitioner's appeal without
allowing her to have an oral argument and a hearing on January 24, 2019. These
prejudicial actions violated Federal civil and appeal rules and procedures and
deprived her property, Due Process and Equal Protection rights of two clauses
under Fourteenth Amendment to U.S. Constitution.

JURISDICTION
The final judgment of the Fourth Circuit on appeal is subject to review by
this Court under 28 U.S.C. § 1254(1), and the Petitioner did not receive a response
regarding the status of the motion to reconsider recalling the mandate (which was
filed on May 6, 2019 and is pending) from the Fourth Circuit. This Court therefore
has jurisdiction to entertain and grant a request for a recall and stay of the
mandate pending filing of a petition for certiorari under 28 U.S.C. § 2101(f).
Additionally, this Court has jurisdiction to entertain and intervene the Fourth
Circuit's pending recalling mandate of their judgment (1/24/2019) pursuant to its
authority in aid of its jurisdiction under 28 U.S.C. § 1651(a) and the Congressopnal
power of enforcement.

REASONS FOR GRANTING STAY AND INJUNCTIVE RELIEF
Because the panel-leading judges chose unpublished opinion to affirm the
District Court's dismissal of Petitioner's claims, Petitioner requested to make their
unpublished opinion public. As this is still pending, Petitioner has to make her

18

argument based on a few sentences of the curiam opinion combined with the
reasons made by District Court's memorandum and affirmed by the panel-leading
judge to direct Fourth Circuit's judgment.

I.

The existence of clear and convincing evidence of retaliation and
prejudice indicates there is a reasonable probability that
Certiorari will be granted.
A.

Petitioner's pleadings of EEOC's right-to- sue letter and related reports
were refused for consideration as the part of pleadings and factual bases
leading to the Fourth Circuit panel judges leader' affirmation (via
Curiam Opinion) of the reason of "lack of subject-matter jurisdiction"
stated by District Court to dismiss Petitioner's appeal.
1. Facts:

Petitioner wrote to District Court (11/2/2017) that "I received EEOC's
conclusion and letter for right to sue for my second charge (dated 10/16/2017)" (see
Appendix-6, COA4-doc#4, ECF#1). She updated reports to District Court (12/8/2017)
that she held EEOC's permission letter because she requested EEOC to reconsider
their conclusion and she also requested to file second amendment with newly
discovered evidence upon receiving EEOC recordings on 3/19/2018, and 3/22/2018
(Appendix #7.1&22) 5/11/2018. Then, she provided the clear and convincing
evidentiary pleadings to District Court with EEOC's 10/16/2017 right-to-sue letter,
EEOC charge form as well as her rebuttal filed with EEOC through "Plaintiffs
response to defendants' motion to dismiss" after she received EEOC's rejection of
reconsideration following her filing complaints (Appendix-8, COA4-doc#4, ECF#20,
related exhibit#1).

19

However, the District Court (6/26/2018) falsely stated in the order that
"Plaintiff's statutory employment discrimination claims arising solely from her
alleged September 2, 2014 charge of discrimination, or based on claims not
presented to the Equal Employment Opportunity Commission at all are dismissed
pursuant to Rule 8 and Rule 12 (b)(1) for lack of subject-matter jurisdiction". Some
of these related records (Exhibit#3,4&5) transmitted by District Court were missing
and some records were altered in the Fourth Circuit docket records (COA#4,
15&23). The questions related to "Due Process of Law" during judicial proceedings
and concerns about the deletion and changes in the docket records were addressed
in "Supplemental Informal Brief' (Appendix-14.2, filed 1/16/2019, COA4-doc#25) in
addition to her letter on 9/4/2018 (COA#7), "Informal Brief(COA#10), and "Motion
for Concerns of the Docket Records" with exhibits (10/22/2018, COA#17). Petitioner
did not receive a response for this motion under Fed. Rules of Appellate Procedure
Rule 27, yet, she was denied as moot for this motion as stated in the Curiam opinion
in spite of that this motion and related exhibits were referred and stated in her
"Informal Reply Brief' and "Supplemental Informal Brief' (Appendix-23&25, COA4doc#23&25). The District Court's exclusion of EEOC's right-to sue letter as part of
Petitioner's pleadings and factual bases to dismiss her claim by faulty reason "lack
of subject-matter jurisdiction" was affirmed by the panel-leading judge and stated
in the curiam opnion.
2. Arguments

20

First of all, question is whether evidence of EEOC's permission to sue and her
request of second amendment filed with District Court between 11/2/2017 and
3/22/2018 (as described above) should be included or excluded from both the District
Court and Fourth Circuit' review as pleading including supplemental exhibits for
her exhaustive administrative remedies and request for second amendment and
should be considered as factual bases.
"[Tin the light of Rule 7(a) pleadings include only the complaint, the answer
and the reply." (Rekeweg v. Federal Mut. Ins. Co., 27 F.R.D. 431, 4 Fed. R. Serv. 2d
605 (N.D. Ind. 1961)
"[Fled. R. Civil P. Rule 7. Pleadings allowed; form of motions ad other papers
(a) Pleadings. Only these pleadings are allowed:
a complaint;
an answer to a complaint;
an answer to a counterclaim designated as a counterclaim;
an answer to a crossclaim;..."
In addition, Federal Rule of Civil Procedure Rule 15 Amended and
Supplemental Pleadings (d) instructed Court:
"[S]UPPLEMENTAL PLEADINGS. On motion and reasonable notice, the
court may, on just terms, permit a party to serve a supplemental pleading
setting out any transaction, occurrence, or event that happened after the date
of the pleading to be supplemented. The court may permit supplementation
even though the original pleading is defective in stating a claim or defense."

21

Ruth v. State Arknesas DWS No. 17-1457 (8th Cir. 2017) claim stated based
on 29 C.F.R. 1601.12(b):
" [Al change may be amended to cure technical defects, including defects or
omissions, including failure to verify the changes, or to amplify allegations therein."
Whether EEOC's 10/16/2017 right-to sue letter enclosed as the exhibit #1 in
the Petitioner's response to Respondents' motion to dismiss should be included as
the factual basis for the District Court's decision of granting Defendants' motion to
dismiss, a related case shows that it should be considered in School Bd. of Manatee
County, Fla. v. L.H. ex rel. D.H., M.D.Fla.2009, 666 F.Supp.2d 1285. It states that
portions of administrative record which were attached to counter-plaintiffs'
response to motion to dismiss, and which were central to parties' claims and
undisputed, became part of the pleadings for purposes of motion to dismiss and
could be considered by court without conversion of motion to dismiss into one for
summary judgment. Similarly, once district court's subject matter jurisdiction has
been questioned, it is appropriate for district court to look beyond jurisdictional
allegations of complaint and to view evidence submitted by plaintiff in response to
motion to dismiss. U.S. for Use of Chicago Bldg. Restoration, Inc. v. Tazzioli Const.
Co., MD111.1992, 796 F.Supp. 1130.
Therefore, according to Rule 7(a) Pleadings Allowed, and 15 (d) Supplemental
Pleadings, and Rule 29 C.F.R. 1601.12(b), and other federal district courts and
circuit courts' reports, the statement and proof of Petitioner's exhaustive
administrative remedies described above should not be neglected and excluded by
22

the District court and the Fourth Circuit for their review and fact-findings. There
was no enough justification or reason for "lack of subject-matter jurisdiction" to
derive their dismissal judgments.
Second, to the challenge of subject matter-jurisdiction, "[W]here subjectmatter jurisdiction is challenged, it is appropriate for the trial court to weight the
evidence and resolve factual disputes as necessary to determine if the court has
jurisdiction. In cases where the factual issues are central to jurisdiction and the
merits of the underlying case, the trial court must assume jurisdiction and hear the
case." (Montez v. Department of Navy, 392 F. 3d 147, 60 Fed. R. Serv. 3d. 395 (5th
Cir. 2004). "[T]he District Court should see if the plaintiff has sufficiently alleged a
basis of subject matter jurisdiction, and the allegations in plaintiffs complaint are
taken as true for purposes of the motion; look beyond the pleadings to decide factual
matters relating to jurisdiction." Compagnie Maritime Marfret v. San Juan Bay
Pilots Corp., D.Puerto Rico 2008, 532 F.Supp.2d 369. In this case, the District Court
not only excluded the Petitioner's pleadings which contains evidence of EEOC's
right-to-sue letter and her statement in cover letter to the clerk in "Plaintiffs
response to Defendants' motion to dismiss", but also refused to provide her a chance
for clarification, amendment and jury trial to hear her dispute regarding the fact of
exhaustive administrative remedy by dismissal and closure of her case without predirection.
Third, for Appellate Courts' discretion, Federal Rules Digests under Rule
12b.2, Objections as to Jurisdiction, Venue and Process states:
23

"[W]here a district court grants a defendant's motion to dismiss for lack of
subject—matter jurisdiction, an appellate court will review the district court's
factual findings for clear error and its legal conclusions de novo. The plaintiff bears
the burden of providing subject- matter jurisdiction by a preponderance of the
evidence, in a motion to dismiss for lack of subject-matter jurisdiction. After
construing all ambiguities and drawing all inferences in a plaintiffs favor, a district
court may properly dismiss a case for lack of subject matter-jurisdiction if it lacks
the statutory or constitutional power to adjudicate it." The district court's dismissal
was vacated and the case was remanded for further proceedings in case:
Aurecchione v. Schoolman Transp. System, Inc., 426 F. 3d 635, 63 Fed. R. Serv. 3d
283 (2d Cir. 2005). "[I]n an action stemming from the termination of a government
contract to supply uranium extrusion, the district court's dismissal for lack of
subject matter jurisdiction under Rule 12(b)(1) would be reviewed under the clearly
erroneous standard of review. In this action, the district court was called upon to
weight the evidence concerning the jurisdiction presented by the parties and decide
jurisdictional facts. Where a district court's ruling on jurisdiction is based in part on
the resolution of factual disputes, a reviewing court must accept the district court's
fact-findings unless they were clearly erroneous. However, review of the district
court's application of the law to the facts would be reviewed de novo." RMI Titanium
Co. v. Westinghouse Elec. Corp., 78 F. 3d 1125, 34 Fed. R. Serv. 3d 1288, 1996 FED
App. 0099P (6th Cir. 1996).

24

It is inappropriate for the District Court to dismiss Petion's complaint without
prejudice under Rule 8 and Rule 12 (b)(1) by ignoring the evidence and concluding
"she does not allege that she ever received a right-to-sue letter" and "lack of subjectmatter jurisdiction". Nor is it proper for the District Court to dismiss her claims
with prejudice under Rule 8 and 12 (b)(6) by mistakenly stating the dismissal "due
to her failure to allege proper exhaustion of her administrative remedies" and by
incorrectly decides the facts with the exclusion of EEOC's right-to-sue letter, her
(11/2/2017) cover letter to the District Clerk and biased speculation (Appendix
6.1&8). Nonetheless, the panel-leading judge at Fourth Circuit (via curiam
opinion)excluded clear and convincing evidence (EEOC's right-to-sue letter)
affirming the District Court's biased speculation that Petitioner did not exhaust
administrative remedies (which is patently untrue) depriving her property right
without mediation, a trial and or a hearing.
B. The Congress' abrogation of State's Eleventh Amendment immunity to
ADA claim and the State's waiver of its sovereign immunity under 504
Rehabilitation Act, 29 U.S.C. §794 (b) due to Respondents' receipt of
federal CDC funding were prejudicially neglected when Panel-leading
judge affirmed the District Court's dismissal reason for State's immunity
to Petitioner's suit of disability-retaliatory termination without mediation
against her EEOC charge under ADA to dismiss Petitioner's appeal.
1. Facts:
As the Petitioner's pleadings and background indicated, Petitioner's claims of
the retaliation includes that her position and seniority job duties in federal CDC
1305 funding program were deprived and interfered with by Ms. Barra although

25

Petitioner was the only epidemiologist with 100% of time devoted to CDC-1305
funds program (Appendix-19, COA4-doc#4, ECF#4) 4. Consequently, Petitioner was
rejected to be accommodated working under other supervisor as the State Medical
Director's recommendation and was terminated without mediation by falsely
stating that the disabled employee with accommodation was unable to do essential
job. Furthermore, in Petitioner's pleadings (via "Plaintiff's response to defendants'
motion to dismiss" and "Supplemental response in opposition to defendants' motion
to dismiss" (Appendix-19.3&19.4, COA4-doc#4, ECF#20&30), Petitioner addressed
the Congress's abrogation of State's immunity to ADA claims and her right to be
protected under the Section 504 of Rehabilitation Act, 29 U.S.C. §794 (b),
incorporating 42 U.S.C. §2000d-4a because the Respondents' receipt of CDC 1305
funds means that Respondents waived their Eleventh Amendment Immunity to law
suits under ADA.
4

After having received the psychiatrist's notice sent by Petitioner, Ms. Barra requested

Human Resource to have Petitioner's workability evaluation on May 19, 2014 by alleging
the impact the office DCD 1305 program activities when Petitioner was sick leave in home
for two weeks. It is not appropriate for Ms. Barra to deny her receipt of psychiatrist's notice
provided by Petitioner (who also always Cc. the psychiatrist's notice to the office director),
and her awareness of Petitioner's mental illness since April 2014 to cover her disability
discriminatory and retaliatory behaviors such as frequent calling, emails and even creating
disciplinary action for cyber issue (because of Petitioner previous report to managers via
email regarding Ms. Barra's harassment and retaliatory interference with her seniority job)
while Petitioner was sick leave.
26

However, the Congress' abrogation of State's Eleventh Amendment immunity
to ADA claims and evidence of Respondents' waiver of state sovereign immunity
were neglected when the panel-leading judge affirmed (via Curiam Opinion) the
District Court's dismissal decision for State's immunity to her ADA claim even
though the judge acknowledged that the District Court prejudicially adopted
Respondents' reasons to dismiss Petitioner's ADA claim by stating that Congress
has not abrogated Eleventh Amendment Immunity for ADA or ADEA, and
Petitioner does not assert a Rehabilitation Act claim in her complaint, or allege that
State has accepted qualifying federal funds. This faulty reason was affirmed by the
panel-leading judge and stated in the Curiam opinion
2. Arguments:
In fact, the House report on the ADA indicated, "[i]nconsistent treatment of
people with disability by state or local government agencies is both inequitable and
illogical". (H.R. Rep. No. 101-485 (II), at 37 (1990)). "[T]he Court should hold that
Congress' prohibition of disability discrimination by state governments as
employers is within its power conferred by section 5 of the Fourteenth Amendment
and that, therefore, Congress' clear abrogation of Eleventh Amendment immunity
in suits under the ADA is valid" (42 U.S.C. §12202).
Based on the analyses of Kimel 528 U.S. 62, 120 S.Ct. 631, 145 I.Ed. 2d 522
(2000) and others opinions for ADEA and ADA claim, the court "[h]old that the ADA
validly abrogated Eleventh Amendment Immunity so that Plaintiffs ADA claims

27

against the defendants are not barred by the immunity". Cisneros v. United States
of America, Intervenor. No. 98-2215, Part II. (10th Cir. 2000).
The Fourth Circuit panel-leading judge demanded to not publish their
opinion but used several sentences of curiam opinion to affirm District Court's
dismissal reason (such as "State's immunity to Petitioner's ADA claim") without
indicating how Respondents' immunity to Petitioner's ADA claim regarding
termination without mediation or hearing, (because Respondents' alleged that
disabled Petitioner with accommodation was unable to do basic job which was not
true), (Appendix 4.2&4.3)can be outside of the controlling authority of Congress'
clear abrogation of State's Eleventh Amendment Immunity in ADA suit.
In addition, Section 504 of the Rehabilitation Act provides: "[n]o otherwise
qualified individual with a disability in the United States as defined in section
705(20) of this title shall, solely by reason of her or his disability, be excluded from
the participation in, be denied the benefits of, or be subjected to discrimination
under any program or activity receiving Federal financial assistance." 29 U.S.C. §
794(a). The term "program or activity" is defined to mean all of the operations of "a
department, agency, special purpose district, or other instrumentality of a state or
of a local government," or "the entity of such state or local government that
distributes such assistance and each department or agency... to which the
assistance is extended". (29 U.S.C. §794 (b), incorporating 42 U.S.C. §2000d-4a).

28

According to the 504 Rehabilitation Act (29 USCS § 794), State is not
immune by virtue of Eleventh Amendment from suit brought against it under ADA
since the Act contains express waiver of Eleventh Amendment immunity, and by
accepting federal funds, state has accepted waiver. Clark v California Dep't of
Corrections, (1997, CA9 Cal) 123 F3d 1267, 25 ADD 146, 97 CDOS 6894, 97 Daily
Journal DAR 11140, 7 AD Cas 292, cert den (1998) 524 US 937, 141 L Ed 2d 711,
118 S. Ct. 2340, 8 AD Cas 480. Here, when the panel-leading judge affirmed the
District Court's decision of granting Respondents' motion to desmiss Petitioner's
ADA claim, they neglicted the evidence that Respondents failed to show that any
and all of Petitioner's exhibits from different resources (Appendix-19, COA4-doc#4,
ECF#4, related exhibit #9, 21, 22, 26 &29, and ECF#20, related exhibit#3) related
to the MDH's activities involving Federal CDC 1305 program funds did not exist, or
were invalid, or that Respondents never received CDC 1305 program funds.
Furthermore, the panel-leading judge ignored that Respondents failed to
demonstrate that they had not waivered State's immunity when they received
Federal CDC 1305 program funds. Finally, panel-leading judge neglected that
Respondents denied their waiver of State's sovereign immunity despite their receipt
of CDC-1305 program funding, but failed to prove why that the federal CDC 1305
program funds, (which was received and used by Respondent and many co-workers
and County Health Department in Maryland, as well as received by many other
States of the United States), addressed by Petitioner, does not qualify for "the
certain federal funds", which is defined to mean that all of the operations of "[a]

29

department, agency, special purpose district, or other instrumentality of a State or
of a local government," or "[t]he entity of such State or local government that
distributes such assistance and each department or agency... to which the
assistance is extended". (504 Rehabilitation Act, 29 U.S.C. §794 (b), incorporating
42 U.S.C. §2000d-4a).
It is important for the court to review "[d]ocuments integral to the complaint
upon which the plaintiff relied in drafting the pleadings, as well as any written
instrument attached to it as an exhibit or any statements or documents
incorporated in it by reference." Locicero v. O'Connell, S.D.N.Y.2006, 419 F.Supp.2d
521. Therefore, in this case, when the District Court is faced with a motion to
dismiss a pro se complaint alleging violations civil rights, the Court should not
omitted the fact (ECF No. 4 and related exhibits, especially Exhibil,419, 21, 22 & 26)
that MDH receives federal funding support, such as through the CDC-supporting
1305 program. Specifically, Petitioner was only the epidemiologist with 100% of
time under seniority system devoted to the CDC-1305 program (Appendix-19,
COA4- doc#4, see ECF No. 4, id. p.8 under B, and exhibit# 9, 21, 22&26) but was
interfered with and consequently terminated without mediation by replacement of
her with Ms. Barra due to rejection of accommodation based on pretext "undue
hardship" (Appendix- 12). There are no merits for Fourth Circuit to affirm the
District Court's dismissal of Petitioner's claim of ADA by denying Respondents'
wavier of State's sovereign immunity to ADA claim according to the Section 504 of
Rehabilitation Act. Related State employees' ADA complaint cases granted by

30

Federal Courts in favor to state's employees in James Bridgewater v. Michigan
Gaming Control Board (282 F. Supp. 3d 985, 2017) and Timothy Dugger v. Stephen
F. Austin State University

(232 F. Supp. 3d 938, 2017) were addressed in

Petitioner's response to respondents' motion to dismiss (Appendix-19.3, COA#4,
ECF#20, id. p. 24-26 & exhibit#3).
Furthmore, State labor agency was not entitled to constitutional immunity
from disability discrimination action in federal court since the agency waived its
immunity by accepting federal financial assistance even though the employee
worked in division which did not receive federal funds, and waiver encompassed all
of agency's operations regardless of use of federal funds. Arbogast v Kansas (2015,
CA10 Kan) 789 F3d 1174, 31 AD Cas 1245.
Therefore, dismissal of Petitioner's complaint should not be affirmed because
the District Court falsely stated that Petitioner "has failed to properly exhaust her
administrative remedies and Defendants are immune from many of her claims",
(COA4-doc#4, ECF No. 32, id. p.13, 2nd paragraph, L6-7) in spite of that Petitioner
has already addressed MDH CCDPC's receipt of CDC funding, (which Petitioner's
seniority position worked in and Section 504 of Rehabilitation Act) in her complaint
and response to Defendants' motion to dismiss (which is the part of pleading based
on Rule 7(a)). (See, ECF No. 4, Exhibit 9, 21, 22&26). Thus, Respondents is not
entitled to immunity from Petitioner's ADA suit regarding the retaliatory
depresvation of her property right for her EEOC charge of disability discrimination
and retaliation in addition to other charges under Title VII and ADEA in Federal
31

courts. It needs to be reversed that Fourth Cicuit's judgment in favor to Ms. Barra
and Respondents directed by panel judges' prejudicially ingoring the facts and
refusing to apply Congress's abrogation of State Eleventh Amendment and 29
U.S.C. §794(a)&(b), incorporating 42 U.S.C. §2000d-4a deprives Petitioner's
property right and violates Due Process and Eqaul Procetion rights of two clauses of
Fourteenth Amendment to U.S. Constitution.
Furthermore, Petitioner's pleadings established that Ms. Barra's motivating
termination of Petitioner's seniority job (supported by the CDC funds) was clear and
convincing evidence of retaliation against her ADA complaint in addition to her
charges filed with EEOC under Title VII and ADEA. Therefore, there is no merits
for the panel-leading judge to affirm the District Court's dismissal Petitioner's
appeal for "State's immunity to her ADA claim" because Respondents' adverse
actions retaliated against Petitioner's EEEOC charge (stated in Petitioner's ADA
complaint with enormous evidence, COA4-doc#4). The Fourth Circuit' judgment is
significant "congruent and proportional" to identified constitutional violations based
on Congressional abrogation of State's Eleventh Amendment immunity to ADA and
Due Process and Equal Protection two clauses of Fourteenth Amendment of U.S.
Constitution.
C. There were no merits when the panel-leading judge affirmed (via curiam
opinion) the District court's reason of "failure to state claim" to dismiss
Petitioner's appeal despite acknowledging that the District Court failed
to take their burden to determine facts under Rule 8(a)(1&2) and Rule
12(b)(I&6); Respondents failed to provide evidence of termination with

32

prior mediation, and any legitimate non-retaliatory reasons for the
adverse actions under McDonnell Douglas Scheme.
I. Facts:
Petitioner's complaint demonstrated the damages from a series of
progressive retaliations against Petitioner's charges filed with EEOC because of
disability, racial, ethnicity/national origin and age discrimination and retaliation
she had endured. It included willful unequallunder payment, disciplinary actions,
rejection of disability accommodation, constructive discharge, and employment
termination without mediation. These damages clearly demonstrate that Petitioner
is entitled to the requested relief. These adverse actions and damages, however,
were either omitted, misrepresented or misinterpreted by the District Court. The
major harassment, discriminatory and retaliatory actions that caused Petitioner's
health problems and deprivation of her property right without mediation were
taken or motivated by Ms. Sara Barra, but her name was miswritten as "Sara
Barry" in the District Court's memorandum. The panel judges leader at Fourth
Circuit (via curiam opinion) affirmed the District Court's false reason of "failure to
state claim" to dismiss Petitioner's appeal despite acknowledging acknowledged
that the District Court failed to take their burden to determine facts under Rule
8(a)(a&2) and Rule 12(b)(1&6): Respondents failed to provide an evidence of
termination with prior mediation, and did not provide any legitimate nonretaliatory reasons for their adverse actions under McDonnell Douglas Scheme as
described above (Appendix-4&7, COA4-doc#4,10&23, Petitioner's major complaint

33

with enormous evidence of 39 exhibits as well as her "Informal Brief' and "Informal
Reply Brief' filed with Fourth Circuit).
2. Arguments:
Under the McDonnell Douglas scheme, if defendants submit no evidence of
any legitimate non-retaliatory reason for its adverse actions alleged by Plaintiffs,
district court should not dismiss Plaintiffs claims. Medlock v. Ortho Biotech Inc.,
164 F. 3d 545, 550 (10th Cir. 1999); EEOC v. Avery Dennison Corp., 104 F. 3d 858,
861 (6th Cir. 1997). Here, the panel-leading judge dismissed Petitioner's appeal after
neglecting the causal connection and retaliatory evidence provided by Petitioner
through "Informal Brief' and "Informal Reply Brief' and related exhibits. The
panel-leading judge affirmed the District Court's reason "failure to state claims" to
dismiss petitioner's appeal but failed to determine whether the District Court took
the burden to prove that Respondents' disciplinary action, rejection of
accommodation, constructive discharge and termination without mediation were not
adverse action under McDonald Douglass Scheme in granting Respondents' motion
to dismiss. It is not appropriate to neglect the causal connections between
Petitioner's charges of age, raciallethnicity and disability discrimination and
retaliation filed with EEOC and consequent damages done to deprive Petitioner's
property right by Ms. Barra and Ms. Johnson (see background).
Under Federal Rules Digests Rule 8(a)(1), "[at is not essential that a
complainant set forth the statutory basis for the court's jurisdiction in order for the

34

court to assume jurisdiction, if the facts alleged provide a basis for the assumption
of jurisdiction. Similarly under Rule 8(a)(2), it is not necessary that plaintiff set
forth the legal theory on which he relies if he sets forth sufficient factual allegations
to state a claim showing that he is entitled to any relief which the court may grant.
While it may impose a heavy burden on the trial court to require it to search a
complaint for any claim which may be stated therein, it is a burden which must be
undertaken. A district court has the duty under Rule 8(a) to read a complaint
liberally and to determine whether the facts set forth justify it in taking jurisdiction
on grounds other than those pleaded, if the stated grounds do not provide
jurisdiction, and also whether the facts set forth state a claim for relief on a basis
other than the statutory basis pleaded." Rohler v. TRW. Inc., 576 F. 2d 1260, 25
Fed. R. Serv. 2d 581 (7th Cir. 1978).
In conflict with this series of directives, the District Court abused and failed
to take this heavy burden under Rule 8 (a) by ignoring all of the evidence Petitioner
provided in her pleadings. The panel-leading judge prejudicially affirmed District
Court's dismissal in spite of knowing the District Court's failure to take the
appropriate burden required to lead to dismissal of Petitioner's appeal. Although
the facts were provided in Petitioner's pleadings, the District Court used several
wrongful methods to misrepresent, misinterpret and omit facts (see below). Instead,
they alleged Petitioner's failure to state claims based on false information leading to
the prejudicial decision to dismiss Petitioner's claims and depriving Petitioner's
property right and constitutional rights.

35

The District Court misrepresented Petitioner's claim of the cause of the
willful underpayment and unequal payment as "some form of tort" instead of the
age and racial discriminatory deprivation of MDH and MDBM approved Petitioner's
reclassification. In addition, the District Court went outside the pleading to consider
false information, which led to the confusion, misrepresentation and
misinterpretation of Petitioner's claims. For example, the District Court
manipulated the fact that the Respondents (both Department of MDH and MDBM)
approved in March 2011 reclassification of Epidemiologist III for Petitioner, that
was applied for by the office director in 2010 specifically for Petitioner as that "she
(Petitioner) was told she would be promoted, but HR application process stalled,
largely because various supervisors sabotaged...Ms. Barry (Barra) promoted a
younger, white woman instead of Plaintiff' (Appendix 10, COA4-doc#4, District
Court's memorandum, id. p. 2, L10 and L12). Both parties (Respondents and
Petitioner) never made these statements, and there were no relevant records in the
District Court's docket as the District Court's memorandum made. 5 The retaliatory
5

When CCDCP former director, Dr. Audrey Regan's application of reclassification for

Petitioner to be Epidemiologist III was approved by Defendants (MDH and MDBM) in
March 2011, there was no any new supervisor recruited into CCDPC. Ms. Barra did not
have an authority to promote any employee. However, Dr. Maria Price denied herself initial
signed (in Jan 2011) the Petitioner's Epidemiologist III position-linked form MS-22 (per
HR's instruction) which was completed reflecting Petitioner's increased responding job to be
associated and matched with the DBM office of Personnel Service and Benefits' MS-44
(Supervisory Questionnaire for Subordinate reclassification Request) and MS-2024

36

downgrading of Petitioner's performance evaluation with the improvement
memorandum towards "unsatisfactory" leading to the continuous unequal payment
and willful underpayment and wrongful termination was omitted and
misrepresented in the District Court's memorandum as that "Ms. Barry (Berra)
amended Plaintiffs self-evaluation from 'outstanding' to 'satisfactory', (Appendix23, COA4-doc#4, ECF No. 32, id. p.2, Section I, L3-6, L11-12). In fact, "outstanding"
was reported 2012 MDH HR's personnel record and singed by MDH managers but
not Petitioner's self-evaluation of performance. This clearly indicated that the
panel-leading judge's affirmation of the District Court's dismissal reasons and
direction of the Fourth Circuit's judgment lacked factual and legal grounds.
"[B]ecause of the differing standards for evaluating the evidence under rule
12(b)(1) and 12(b)(6), it was a significant procedural error the issue in terms of
subject matter jurisdiction. Under Rule 12(b)(1), the court is free to weight the
evidence and satisfy itself as to the existences of its power to hear the case; under
Rule 12(b)(6), all of plaintiffs allegations will be taken as true and all inferences
favorable to plaintiff will be drawn. Further, if the court considers evidence beyond
the pleadings in a 12(b)(6) motion, the motion shall be treated as one of summary
judgment and disposed of as provided in Rule 56, and summary judgment cannot be

(Request for Position Classification Study) that MDH and DBM had approved. In Jan.
2012, Dr. Prince discriminately gave the reclassification Epidemiologist III Position
Identification Number (which was approved for Petitioner) to Ms. Barra and caused willful
underpayment and unequal payment. Dr. Prince left CCDCP in March 2013.

37

granted unless there is no genuine issue of material fact." Boyle v. Governor's
Veterans Outreacg & Assistance Center, 925 F. 2d 71, 18 Fed. R. Serv. 3d 1099 (3d
Circ. 1991). Here, the District Court failed "to weight the evidence and satisfy itself
as to the existences of its power to hear the case" when they dismissed Petitioner's
claim for "lack of subject matter under Rule 12(b)(1)". Nor did the District Court
under Rule 12(b)(6) for that "all of plaintiffs allegations will be taken as true and
all inferences favorable to plaintiff will be drawn", when stated Petitioner's claim as
"failure to state her claim" in their memorandum and order.
Further, the District Court simply adopted all allegations made by
Respondents' motion to dismiss (1/3/2018) as well as their reply (5/31/2018) to
Petitioner's response. It was beyond the Petitioner's pleadings, because Petitioner
clearly objected those false statements in her response filed with Court on March
22, 2018, and May 11, 2018, (Appendix 19, COA4-doc#4, ECF#20). Respondents
failed to file summary judgment , yet, the District Court made their decision to
grant their motion to dismiss Petitioner's claim for failure to state claim, and close
her case without pre-direction. Thus, the District Court failed to treat the
Respondents' motion to dismiss (which Petitioner objected) based on Rule 12(b)(6)
"as one of summary judgment and disposed of as provided in Rule 56, and summary
judgment cannot be granted unless there is no genuine issue of material fact".
Therefore, it has no merit that panel-leading judge affirmed District Court's
memorandum and order for granting Respondents' motion to dismiss Petitioner's
claim and closing her case by false reasons which were adopted from the

38

Respondents motion to dismiss in spite of that Petitioner objected it in her response
to Respondents' motion to dismiss without conversion of motion to dismiss into one
for "Summary Judgment".
In addition to utilizing false information provided by the Respondents,
misrepresentation, misinterpretation and going outside pleading, with which the
District Courted twisted the Petitioner's claims regarding causes and damages, the
District Court also omitted the evidence. Despite Petitione's proof of sufficient
factual matter of Respondents' retaliation against Petitioner's internal
discriminatory complaint and her first discrimination and retaliation charge of
ADEA and Title VII filed with EEOC in Nov. 2013 by her Amended Complaint
(Appendix-7, COA4-doc#4, ECF No. 4, id. p.6) with the bold subtitle "15) Ms. Yu's
reports to MDH Office of Equal Employment Program ("OEEP")
director triggered disciplinary action", yet the subsequent cause connection
of Ms. Barra's retaliatory disciplinary actions were omitted which include
Petitioner's reports of Ms. Barra's harassment and national origin discrimination
and her clarifications for Ms. Barra's frequent abuse and false confusion made to
managers (Appendix-21). Ms. Barra forbade Petitioner from seeking next level
manager's help by creating internal consulting memorandum as the first step of
disciplinary action, and by criticizing Petitioner's protected activities as "disruptive
behavior and cross chain of command" to retaliate against her internal grievance
and reports, but these cause of disciplinary actions and adverse actions were
hidden. (Appendix-21, COA4-doc#4). Additionally, Ms. Barra harassed Petitioner by

39

calling, e-mailing, and requesting mitigation meetings for disciplinary actions and accusing
her protected activities such as reports to managers and her union representative via office
email system as violation of cyber policy for reason to give her disciplinary action even
during Ms. Yu's sick leave (Appendix-21, COA4-doc#4, ECF#20). Ms. Barra's
discriminatory and retaliatory deprivation of Petitioner's seniority rights and jobs6
was misrepresented as Ms. Barra "tampered with some types of HR document, an
'MS-22', that was supposed to reflect Plaintiffs employment background"
(Appendix-24, COA4-doc#4, ECF No. 32, id. p2, 2nd paragraph, L8). Moreover, the
evidence of harm to Petitioner even after she was terminated on 11/3/2014 by
escalated retaliatory interference with EEOC's investigation on 4/19/2017 is shown
in Appendix-11, COA4-doc#4, ECF No. 4, id. p.12, under damages III. see related
new evidence shown in ECF No. 53, Exhibit id. p.6, 15-18 of 30). This harm was
omitted. Instead, it was misrepresented and misinterpreted in the District Court's
memorandum (COA41t4, ECF No. 32, id. p. 10, second paragraph, L6-7) by stating
"Plaintiff does not allege that her employer acted to her harm her after Nov. 3,

HR Position (job) description form MS-22 is developed prior to the recruiting process
based on the Department's specific request to hire an employee who has their required
educations and experiences. If employees are transferred to new job position, or application
6

of reclassification for higher grade rank of the position, their previous position (job) form
MS-22 will be replaced with their new position form MS-22 in their personnel file per MDH
and MDBM HR policy. The statement of Ms. Barra tampered MS-22 "reflect employee's
background" is faulty reason to cover Ms. Barra's discriminatory and retaliatory deletion of
Petitioner's job duties in form MS-22 and derivation of Petitioner's seniority right of her job
position in CDC funding program (Appendix 21.2&23).

40

2014."
In addition, the District Court denied Dr. Robert Toney as State Medical
Director7 who made three workability evaluations between June and Oct. 2014 and
recommended MDH to accommodate Petitioner for working under another
supervisor. The recommendation was also made by an psychiatrist and independent
psychological Institution regarding Petitioner's suffering from workplace stress,
major depressive disorder, anxiety, and posttraumatic stress disorder (Appendix-20,
COA4-doc#4, ECF No. 4, exhibit# 4&28, and ECF No. 17, exhibit from the decision
of Social Security Administration Retirement, Survivors and Disability Insurance
vs. ECF No. 32, p. 3, L3-7 and foot note #4). The District Court misrepresented and
omitted the diagnoses, cause and damages that Dr. Tony and Petitioner clearly
stated (, ECF No. 4, p7-11) with the words "Plaintiff does not clearly allege what
her disability is, but it appears to be essentially work place stress and anxiety"
(Appendix,7.3&20, COA4-doc#4, ECF No. 32, id. p.3, L5-6).
Furthermore, Petitioner provided Respondents, District Court and Fourth
Circuit sufficient facts to constitute the causes and actions of claims filed for her
second charges with EEOC (9/2/2014), and the Respondents' retaliation aganst this

The Court's memorandum denied Dr. Toney was the State Medical Director when he
provided MDH the workability evaluation (ECF No. 32, p.3, L2-3 and footnote #4). Yet,
7

Defendants never objected that Dr. Toney was the State Medical Director and his diagnoses
and evaluations along with the conclusion from independent mental health Institution even
though Dr. Toney may not be the State Medical Director in 2018. "Impression" is usually
used by a doctor to describe their opinion for the diagnoses in the case history.
41

charge started on next day 9/3/2014 after Ms. Johnson received it (Appendix- 7&12,
COA4-doc#4,.id. p.10, L2-7, Amended Complaint, ECF No. 4, Exhibit#32). It is not
proper to state in the District Court's memorandum "Plaintiff filed a second Charge
of Discrimination on September 3, 2014. (i.d. p.10.) it is unclear from Plaintiffs
complaint what the substance of this Charge was" (ECF No. 32, p.3, second
paragraph, L5-6) by ignoring the clearly written sub-title and fair notice about the
factual matter of the cause and claims regarding Petitioner's second charge under
Title VII, ADA and ADEA (Appendix-7.2&7.3, COA4-doc#4,). In addition,
immediate retaliation takend by MDH Ms. Johnson, HR and Ms. Barra on 9/3/2014
when they received Petitioner's charge on 9/2/2014 was ommited (Appendix-7&9,
COA4-doc#4, ECF No. 4, L10, exhibit#32, Petitioner's rebuttal in her response to
defendants'motion to dismiss, ECF No. 20, exhibit#2&3).
The statements in District Court's memorandum indicated above did not cite
the key facts Petitioner provided in her Amended Complaint and related exhibits as
the District Court stated (Appendix-10, COA4-doc#4, ECF No. 32, p.2, footnotes #2)
"The facts are recited here as alleged by Plaintiff', nor did the memorandum reflect
the District Court's docketed records as shown in both Petitioner's complaint
including related exhibits and Defendants' motion. It demonstrates the biased
position that the Officer or attorney who prepared the Memorandum (for Chief
Judge Bredar to sign) adopted statements directly from the Respondents' motion.
More importantly, the omission of facts and inappropriate statements described
above influenced the actual nature of the District Court's responsive ruling in favor

42

of Ms. Barra and the Respondents to dismiss Petitioner's claim for "failure to state
claim" under Rule 8 and 12 (b)(6) with prejudice (ECF No. 32&33).
Obviously, the panel judges at Fourth Circuit erroneously affirmed the
District Court's dismissal reason "lack of subject-matter jurisdiction" under
Rule12(1) even they acknowledged (based on the Petitioner's informal brief) the
District Court's failure to include EEOC's right-to-sue letter, to weight the evidence,
and to satisfy itself as to the existences of its power to hear the case (as described
above in part I). Also, they erroneously refused to provide Petitioner a chance to
dispute her case with facts via an oral argument. Furthermore, they improperly
affirmed the District Court's dismissal for "failure to state claim" under Rule 12(6)
without drawing all reasonable inferences in Petitioner's favor even though the
clear and convincing evidence of Congress' abrogation of State's immunity to ADA
claim regarding deprivation of property right, State's waiver of sovereign immunity
as receipt of CDC funds based on the Section 504 Rehabilitation Act, and the causal
connection are stated in petitioner's pleadings and her informal brief. Therefore,
there is a reasonable probability that certiorari will be granted because it has no
merit that the Panel-leading judge made the errors and abused their duties to
affirm the District Court's faulty reasons and biased dismissal without pre-direction
and to direct the Fourth Circuit's judgment for prejudicial dismissal of Petitioner's
appeal.
II.

It is fairly prospected that majority of the Court will vote to
reverse the judgment below because the panel judges' direction
for Fourth Circuit to dismiss Petitioner's appeal conflicts
relevant decisions made by U.S. Supreme Court and other federal
43

Court of Appeals and violates the privileges "secured or
protected" by the Congressional power of enforcement.
1. Facts:
Petitioner meets standards of exhaustive administrative remedies prior to
filing her complaint in District Court. Her claims are related to violation of 42
U.S.C. §2000e-5(f)3, ADA, Title VII, ADEA, 42 U.S.C.§1983 as well as Fair Labor
Standards Act ("FLSA") and National Labor Relations Act ("NLRA"). The proof of
Petitioner's exhaustive administrative remedies and citation of Congressional
abrogation of State's immunity to ADA claim (especially related to the deprivation
of employee's property right without mediation and a hearing) and the Section 504
Rehabilitation Act with the evidence of the Respondents' receipt of Federal CDC
funds are the part of Petitioner's pleading filed with the District Court prior to their
dismissal of her claim.
Fourth Circuit docket record includes that Petitioner's writing report to the
District Court Clerk Felicia C. Cannon (Appendix-6.1, 7.1&2.2, COA4-doc#4,
11/2/2017, 12/8/2017&3/19/2018) requested to amend new evidence upon her
obtaining EEOC's recording file via FOIA request. Also, Petitioner emphasized the
evidence in her "Informal Brief' and "Petition for rehearing and rehearing en banc"
(filed with the Fourth Circuit) that Respondents did not provide evidential
mediation prior to termination and failed to provide any legitimate non-retaliatory
reason for their adverse actions. However, the paneHeading judges affirmed the
District Court's reasons of "lack of subject matter jurisdiction", "failure to state
claims" and "State's immunity to many of her claims" and directed the Fourth
44

Circuit's judgment (via curiam opinion) depriving Petitioner's property right
without a hearing. The panel judges' prejudicial actions created a split among the
federal circuit courts of appeal and conflicts with the decision by U.S. Supreme
Court, even is contradictory with Fourth Circuit own decisions on the controlling
legal issues for the dismissal of claims regarding workplace discrimination and
retaliation-caused termination without mediation or hearing against Petitioner's
charge filed with EEOC under Title VII, ADEA.
2. Arguments:
The U.S. Supreme Court has ruled that individuals may bring actions under
42 U.S.Code. §1983 to offer a "Erlemedy... against all forms of official violation of
federally protected rights," Monell v. Department of Soc. Servs. Of City of New
York, 436 U.S. 658, 700 (1978).
42 U.S.Code §1983 "[E]very person who, under color of any statute..., any
citizen of the United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the constitution and
law, shall be liable to the party injured in an action at law, suit in equity, or other
proper proceeding for redress..."
However, as described above, the panel-leading judge affirmed the District
Court's dismissal of Petitioner's claims regarding the retaliatory termination
without mediation against her EEOC charges under ADA, Title VII and ADEA and
deprived Petitioner's property right without a hearing.

The Fourth Circuit's

(1/24/2019) judgment directed by the panel-leading judge's curiam opinion is in

45

conflict with the decision of the U.S. Supreme Court (Logan v. Zimmerman Brush
CO. et al 102 S. Ct. 1148, 455 U.S. 422, 71 L. Ed. 2d 265, 50 U.S. L.W. 4247, 1982.
SCT. 40870). In which, the Supreme Court urgently reversed the lower Court's
judgment which violated employee's federal rights to Due Process and Equal
Protection of the law.
The standard guide of the Supreme Court's decision whether to grant a
petition for a writ of certiorari "is in conflict with the decision of another United
States Curt of Appeals on the same important matter" Sup Ct. R. 10(a).
The first conflict is regarding the panel-leading judge' determination of the
not finding District Court's reversible errors and affirmation "lack of subject-matter
jurisdiction" in the discriminatory and retaliatory employment case. The Second
Circuit Court reviewed the dismissal of the claims about the workplace
discrimination and retaliation for lack of subject matter jurisdiction in Fowlkes v.
Ironworkers Local 40, No. 12-336-cv

(2nd

Cir. 2015). The panel judges of the Second

Circuit Court searched the district court records regarding the plaintiffs failure to
exhaust the administrative remedies for Title VII claims and the claim of breach of
the duty of fair representation under NLRA, the judges concluded that "[t]he
district court erred in its determination that Fowlkes' failure to exhaust
administrative remedies deprived it of subject matter jurisdiction over his Title VII
claims. In addition, we concluded that Fowlkes has stated a federal claim under
NLRA, 29 U.S.C. § 151, et seq. for the local's breach of its duty of fair

46

representation. Accordingly, we vacate the judgment dismissing Fowlkes amended
complaint and remand the cause to the district court."
Here, the pleadings and appeal Petitioner filed with the District Court and
Fourth Circuit contain the EEOC's right-to sue letter and the letter to the District
Court's Clerk Cannon regarding EEOC's permission to sue. Comparing with the
Second Circuit's factual and legal analyses-derived decision, it is clearly not
appropriate to conclude by the panel-leading judge that there was no reversible
error and further biasedly affirmed the District Court's dismissal of Petitioner's
claim for "lack of subject-matter jurisdiction" by alleging that Petitioner failed to
state if she had exhausted administrative remedy. Also, Petitioner's complaint and
appeal demonstrated that Union manager at Maryland Department of Health, Ms.
Barbara Perry breeched her duty of fair representation and whose action was
sufficient sever to alter the termination by participating in the decision to terminate
her employment in the absence of mediation without informing Petitioner
(Appendix-4.2&4.3, COA4-doc#4,ECF#4). 8 Because Petitioner provided ample

'Even though several exhibits indicated that Petitioner was a Union member (COA4-doc#4,
ECF No. 4, Exhibit#1, 12&20), the District Court stated "Plaintiff barely mentioned that
she is in a union, it alone alleges sufficient facts to demonstrate an unfair labor practice
that she was subjected to by said Union (whatever union it may be), or any other prohibited
conduct falling under the umbrella of that stature" In the review of case from dismissal for
failure to state claim, Court of Appeals "will consider new factual allegations raised for first
time on appeal provided they are consistent with complaint." County of McHenry v.
Insurance Co. of the West, C.A.7 (Ill.) 2006, 438 F.3d 813, id.at 439; see also Veazey v.
Communicatons &cable of Chi, Inc., 194 F. 3d850,853 (7th Cir. 1999) (allowing petitioner to

47

evidence that both Union and Respondents' managers had failed in their alleged
duty by negligently failing to address ongoing harassment, discrimination and
retaliation (ECF#20 & related exhibit#3, ECF#4 & related exhibit#1,12&20;
COA#10, 23&25). Petitioner believed that her major complaints under Title VII,
ADA, ADEA, and 42 § 1983 were also related to Fair Labor Standards Act and
National Labor Relations Act and thus she made selection of available related rules
listing on JS 44 form and wrote some federal rules within restricted area in the
JS44 form (Appendix#7). The panel-leading judge directed Fourth Circuit to dismiss
Petitioner's appeal even though the judge acknowledged that the District Court's
memorandum and Respondents' motion to dismiss and "Informal response brief'
failed to provide any proof of legitimate un-retaliatory reasons for their failure to
perform their alleged duties and adverse actions after received Petitioner's internal
grievance and appeals, EEOC charges and request of accommodation.
Nevertheless, Petitioner's evidence of EEOC's permission and her claim
related to Fair Labor Standards Act and National Labor Relations Act should not be
prejudicially neglected by the panel-leading judge to direct Fourth Circuit's
judgment when they concluded "no reversible errors", affirmed District Court's
reason "lack of subject—matter jurisdiction" to dismiss her appeal according to 42
U.S. Code §1983 and prior decisions made by this Supreme Court and the Second
Circuit.
present facts not asserted in opposition to defendant's motion to dismiss under Rule
12(b)(6)).

48

The second conflict is about the panel-leading judge's affirmation of the
District Court's dismissal due to the State's immunity to employee's ADA claim. The
workplace retaliatory termination case related employee's ADA claim is in Cisneros
v. United States of America, Intervenor. No. 98-2215, Part II. (10th Cir. 2000). Based
on the analyses of Kimel 528 U.S. 62, 120 S.Ct. 631, 145 I.Ed. 2d 522 (2000) and
others opinions for ADEA and ADA claim, the Tenth Circuit reversed district court's
decision and dismissed State employer's request for state's immunity to state
employee's ADA claim and protected state employee's property rights from
retaliation against her EEOC charge of Title VII, ADA based on ADA 42 U.S.C.
§12202 and Congress' abrogation Eleventh Amendment immunity.

The House's report on the ADA has clear instruction (see Part II described
above, H.R. Rep. No. 101-485 (II), at 37 (1990)). Therefore, Congress' abrogation of
Eleventh Amendment immunity in suits under the ADA is valid. (42 U.S.C.
§12202).

In addition, Congressional power of enforcement is applied for depriving a
person of rights or privileges "secured or protected" by the Constitution or U.S. law
(Screws v. U.S. 325 U.S. 91, 98-100).

Furthermore, Supreme Court is likely to grant certiorari and also will likely
reverse the court's judgment "[i]f the interest of Congress is clear, that is the end of
the matter". Chevron USA v. Natural Res. Def. Council, Inc., 467 U.S. at 842-3, 104
S.Ct, 2778, 81 L.Ed. 2d 694 (1984). Therefore, it should be reversed that panel-

49

leading judge prejudicially affirmed the District Court's dismissal for "State's
immunity to Petitioner's ADA claim" (by stating that Congress did not abrogate
State's immunity to employee's ADA claim), deprived Petitioner's property right
without mediation or a hearing, and violated Due Process and Equal Protection two
clauses of Fourteenth Amendment to U.S. Constitution.

The third conflict in the decision for the cases of ADA, Title VII and ADEA
EEOC charges, which were retaliated against resulting in termination of
employment, is related to the panel-leading judge's biasedly affirming the District
Court's reason for failure to state claim, miss-statutory citation in pleadings and
rejection of request for amendment to dismiss Petitioner's appeal.
"[A]s the Eleventh Amendment Immunity is a critical gate for Plaintiffs
complaint about harassment, discrimination and retaliation under ADA, a
complaint should not be dismissed merely because a plaintiffs allegations do not
state the particular legal theory. In addition, complaints in civil cases should not be
dismissed unless it clearly appears that under no theory can the plaintiff be entitled
to relief." City of Fort Lauderdale v. East Coast Asphalt Corp., C.A.5 (Fla.) 1964,
329 F.2d 871, certiorari denied 85 S. Ct. 187, 379 U.S. 900, 13 L.Ed.2d 175.
Harrison v. Robert E. Rubin, Secretary of the Treasury, United States
Department of the Treasury (No. 98-5019, D.C. Cir. 1999) is another case related to
such decisions in Title VII and ADA claim. It instructs how to determine the
statutory citation and amendments. Because district court denied Harrison's
request to amend her complaint and to correct an erroneous statutory citation, and
50

erred in the fact-findings of her claims, District of Columbia Circuit reviewed the
district court's denial of a motion to amend (Rehabilitation Act) for abuse of
discretion and reversed the dismissal of appellant's Title VII and ADA claims and
remand to the district court for further proceedings. In addition, in Ruth v. State
Arknesas DWS No. 17-1457 (8th Cir. 2017) claim under Title WI, the Judge reversed
district court's reversible error, remand with the direction to allow Ruth to amend
her pleadings based on 29 C.F.R. 1601.12(b).
In this case, Petitioner had requested multiple times (since Nov. 2, 2017) to
amend new evidence when she received EEOC's recording file via FOIA (Appendix6.1, 7.1&22). EEOC's right-to-sue letter, Congressional abrogation of State'
Eleventh Amendment immunity and Section 504 Rehabilitation Act, 29 U.S.C. §794
(b), incorporating 42 U.S.C. §2000d-4a are part of the pleadings based on Rule 7(a)
and Rule 15(d). It is prejudicial action when the panel judges affirmed District
Court's dismissal and closure of Petitioner's claim without pre-direction despite
knowing that District Court biasedly alleged reasons that Petitioner failed to state
if she exhaust administrative remedy; Congress has not abrogated Eleventh
Amendment immunity for ADA claim; Petitioner did not state what she wish to
amends; and her amendments will not be able to cure these defects (Appendix-6, 7,
22, 8&9, see COA4-doc#4, ECF#33, id. p.11-13) because those defects are not true.

9

The district court alleged that Petitioner's attorney (Petitioner found half year later after

filing claims), failed to file second amendment, despite the attorney submitted "Plaintiffs
Supplemental Response in Opposition to Defendants' Motion to Dismiss" (in addition to
51

"[P]ro se complaint alleging deprivation of rights under color of state law
should not be dismissed for failure to state a claim unless it appears beyond doubt
that plaintiff can prove no set of facts in support of his claim which would entitle
him to relief'. Hudspeth v. Figgins, C.A.4 (Va.) 1978, 584 F.2d 1345, certiorari
denied 99 S.Ct. 2013, 441 U.S. 913, 60 L.Ed.2d 386.

Here, the District Court and Fourth Circuit acknowledged that Respondents
failed to provide evidentiary mediation prior to termination of Petitioner's
employment and did not provide any of legitimate non-retaliatory reasons for their
adverse actions and its damages to Petitioner's health and property but
misrepresented, misinterpreted, and omitted facts and also made false statement by
going outside of pleadings to make dismissal reason of "failure to state claim".
(details please see Part I, subtitle part C under argument). Also, the evidence
indicated by the Petitioner's pleadings (described above) that the two of three
reasons "lack of subject matter" and "State's immunity to many of her claims" were
not existed. Given facts of the District Court's failure to take the burden to search
and determine facts under Rule 8(2) and 12(b)(6) and Respondents failure to file
summary judgment, even the panel judges should not affirm District Court's reason
of "failure to state claim" to dismiss Petitioner, pro se's appeal because enormous
factual materials provided to both District Court and Fourth Circuit in support of
her claim that would entitle her to relief.
Petitioner herself-filed "Plaintiff s Response to Defendants' Motion to Dismiss" with EEOC's
right-to-sue letter, EEOC charge form and her rebuttal) requesting second amendment
prior to the District Court's dismissal and close of Petitioner's claim without pre-direction.
52

Finally, the Curiam Opinion is even not consistent with the Fourth Circuit
owns decisions and reviewing standards in the cases of workplace retaliation under
Title VII and ADA and dismissal due to lack of subject matter jurisdiction and
failure to state claims, Godon v. North Carolina Crime Control & Public Safety, et
al, (No. 99-2509, 4th Circ. 2000); Goldstein v. Chestnut Ridge Volunteer Fire Co.,
218 F 3d 337, 354-58 (4th Cir. 2000); Cromer v. Brown, 88 F.3d 1315, 1325-29 (4th
Cir. 1996) and Jones v. Calvert Group Limited. No. 07-1680 (4th Circ., 2009). It is
no merit for the panel judges to prejudicially direct the Fourth Circuit's judgment to
dismiss Petitioner's appeal depriving Petitioner's property right without a hearing.
III. The likelihood of irreparable harm will be if it cannot be
intervened and reversed through granting the stay and injunctive
relief that Fourth Circuit's judgment and related orders prevented
petitioner from presenting her disputes at oral argument and
rehearing en banc depriving her property right, and violating Due
Process and Equal Protection two clauses of Fourteenth
Amendment U.S.C. and Congressional power of enforcement.

1. Facts:
Petitioner's request in the Fourth Circuit for intervening the District Court's
prejudicial actions (including their denial of her amendment with new discovery
evidence from EEOC) was rejected (Appendix-15, COA4doc#7&8); motion for
concerns about the docket records was mooted (Appendix-14&3.1). The Respondents
(10/11/2018) anticipated no oral argument by alleging that an oral argument has
not been scheduled (via motion for extension of time to file their response brief to
Petitioner's (10/1/2018) "Informal Brief' despite Petitioner's request to present
53

disputes of the deprivation of her constitutional rights via oral argument (Appendix3.3, COA4 docket#10, 12&14). Consequently, panel-leading judge Motz (via Curiam
opinion) dispensed Petitioner's opportunity for an oral argument in favor of
Respondents' desire and directed the Fourth Court's (1/24/2 019) denial of
Petitioner's appeal; created pre-required condition of taking a poll from three judges
in the panel as extra barrier to prevent Petitioner from obtaining the vote from the
rest of Fourth Circuit's judges determining if the Fourth Circuit allows Petitioner to
have rehearing en banc; and further denied her petition for rehearing and rehearing
en banc because none of the three judges in the panel requested a poll
(Appendix#3). Additionally, the panel judges directed Fourth Circuit to deny
Petitioner's motion to recall the mandate in the absence of prior denial of her
motion to stay which violated Rule 41(b) (Appendix-1.1). Currently, the Fourth
Circuit has not made a decision regarding Petitioner's motion to reconsider the
Fourth Circuit's denial of Petitioner's application for recall the mandate, and
publication of unpublished opinion and. It leads likelihood of irreparable harm
(described in her pleadings and brief as well as related exhibits) if this stay and
injunctive relief are denied.
2. Arguments:
First prejudice and abuse of the appellate court's discretion was indicated by
the fact that Petitioner pro se's request both verbally and in writing for help/relief
(Fourth Circuit's intervention and correction) of the District Court's (6/26/2018)
prejudicial actions was neglected. It led to the likelihood of irreparable harm to
54

Petitioner by lack of appellate court's legitimate intervene and relief or correction
for the District Court's sequential prejudice: (1) dismissal and closure of her claims
without pre-direction under 28 U.S.C. § 1291; (2) rejection of her motion for
clarification and reconsideration and her second amendment with new discovery
evidence from EEOC recording file via FOIA (affirmed on July 6, 2018), and (3)
unreasonably and wrongfully repeated transmission of Petitioner's notice of appeal,
(in the absence of her related exhibits), despite, which the District Court returned
to her, to bring the difficulties and confusion for appellate court's review and
judicial proceedings of her case.
Second prejudice and failure of performing appellate court's discretion is
indicated by that Petitioner's oral argument request was prejudicially neglected
even though Petitioner clearly stated reasons in her "Informal Brief' on October 1,
2018 according to the instruction of Fed. R. App. P. Rule 34(a) (1) "[P]arty's
Statement. Any party may file, or a court may require by local rule, a statement
explaining why oral argument should, or need not, be permitted."
In contrast, Respondents stated (via motion to extend time to file appellees'
informal response brief on Oct 11, 2018) without any reason "it is not anticipated
that this case will require oral argument and oral argument has not yet been
scheduled for this appeal." To which, Petitioner re-emphasized the necessity of an
oral argument in her motion (10/15/2018) and Petitioner's "Informal reply brief' by
providing Fourth Circuit sufficient evidence that she need an oral argument
opportunity to present the factual and legal disputes related to the deprivation of
55

her property right without mediation because which had been twisted and omitted
by the District Court's memorandum when dismissing her claims.
Fed. R. App. P. Rule 34 (b) states, "Notice of argument; Postponement. The
clerk must advise all parties whether oral argument will be scheduled, and, if so,
the date, time, and place for it, and the time allowed for each side." Local Rule 34(e)
regarding Motion to submit briefs states "As soon as possible upon completion of the
briefing schedule or within 10 days of tentative notification of oral argument,
whichever is earlier, any party may file a motion to submit the case on the briefs
without the necessity of oral argument." Both Fed. R. App. P. 34 and local Rule 34
did not specify that time of the appellate court' tentative notification of oral
argument (including requirement from all parties for a statement to explain if oral
argument should, or need not, be permitted) should be provided to all parties:
whether at earlier stage as soon as appellate court's order for briefing schedule; or
receipt plaintiffs informal brief only, (or receipt of all briefs including defendant's
response brief and plaintiffs reply brief); or at later stage after panel judges of
appellate courts' receipt of all briefs and completion of their review to schedule as
"Oral argument must be allowed in every case", unless three of panel judges derive
the denial decision of oral argument based on Fed. R. App. P. Rule 34 (a)(2)-(A) or
(B) or (C). Because "oral argument must be allowed in every case" and the denial of
oral argument is under a few "unless" conditions made by three judges in the panel,
it lacked merits for Respondent to anticipate no oral argument to be granted

56

regardless whether the notice of the oral argument's schedule it should be provided
to parties prior to receiving Respondents' informal response brief.
The Local Rule 34 with IOP 34 and "Fourth Circuit Appeal Process" (on posted
in its website) indicate that a decision of oral argument by the panel judges at
Fourth Circuit in the early stage of receipt of a plaintiffs informal brief, response
brief and reply brief (Pre-argument Review) and then determination of further
additional formal brief and possible oral argument for plaintiff pro se case after the
panel judges' review of briefs (including plaintiffs informal brief, response brief,
reply brief and supplemental brief).
Nevertheless, Local Rule 34(a) and Fourth Circuit appeal process flow-chart
that sets out the Fourth Circuit's pre-argument review procedure clearly shows any
determination of oral argument and schedule following briefing. There is no
indication that the Fourth Circuit's decision of requirement of oral argument and
schedule must be made within 10 days after receipt of plaintiffs informal brief and
prior to defendants' filing their informal response brief. Given the facts described
above that EEOC's permission to sue, Congressional abrogation of the State's
Eleventh Amendment immunity to Petitioner's ADA claim and evidentiary causal
connection of adverse actions against Petitioner's protected activities were twisted,
and omitted by Respondents and adopted by the District Court, it is possible that
Respondents misinterpreted the time of Fourth Court's tentative notification of oral
argument and schedule for all parties indicated in Local Rule 34(e).

57

Fourth Circuit granted Respondents' motion to extend time to file their
informal response brief (COA4-doc#13) without any clarification for Respondents'
allegation and anticipation of the panel judges' denial of Petitioner's request for oral
argument in spite of fact that Petitioner called and left the voice message with the
case manager Ms. Cathi Bennett (10/11 and 10/12/2018) and even filed motion
(10/15/2018) responding to Respondents' motion and urgently requesting necessary
and important oral argument (COA4 docket #14). Unless, the Fourth Circuit does
usually provide their tentative notification of oral argument with the requirement
of parties' statement within 10 days of receipt of plaintiffs informal brief prior to
receiving defendant's informal response brief and plaintiffs informal reply brief or
soon after receipt of plaintiffs notice of appeal and transmitted records from the
district court and release order of briefing schedule.
If the Respondents allegation is correct and the clerk of Fourth Circuit must
provide an notice of oral argument to all parties no later than within 10 days of
receipt of plaintiffs informal brief, it was used by Respondents to anticipate the
panel judges' decision for not-granting oral argument. Even though Respondents
did not explain whether they had wanted oral argument or not to be permitted,
there was no any answer or explanation from the Fourth Circuit and case manager
Ms. Bennett to Petitioner's calling message and motion requesting oral argument to
present dispute in responding to the Respondents' anticipation and allegation
regarding lack of oral argument schedule by October 11, 2018. It is no merits to not
provide the notification of oral argument to all parties under Rule 34(b) and local

58

rule 34 (e) or response as the Respondents' allegation; nor is it appropriate for the
panel-leading judge via curiam opinion (1/24/2019) to dispense Petitioner's right to
present disputes of the factual and legal matters by making reason with Rule 34
(a)(2)(C) in favor of Respondents' (10/11/2018) anticipation to dismiss Petitioner's
appeal based on the false information provided by Respondents (Appendix-3) Fed.
R. App. P. Rule 34 (a) (2) clearly instructs "Oral argument must be allowed in every
case unless a panel of three judges who have examined the briefs and record
unanimously agrees that oral argument is unnecessary for any of the following
reasons:

the appeal is frivolous;
the dispositive issue or issues have been authoritatively decided; or
the facts and legal arguments are adequately presented in the briefs and record,
and the decisional process would not be significantly aided by oral argument."
Nevertheless, next day after Petitioner's motion (10/15/2018) responding to
Respondents' anticipation for no oral argument, another biased action was occurred
in the District Court's transmitted records. Petitioner's COA4 docket records were
altered and some parts were deleted during transmission (COA4-do t#15&25). 10 It
indicates Fourth Circuit's biased position.

1°

COA4 docket#15 text indicated "supplemental assembled electronic records" from the

District Court (even though the District Court's original docket stated the transmission was
done on 10/16/2018 when was on the next day of Petitioner filed her response to
59

The third prejudice is the extra barrier put up by the panel judges through
both setting up a unnecessary pre-required condition to take a poll based on local
rule 35(b), even though Fed. R. App. P. 35(f) clearly instructs appellate courts that
"[A] vote need not be taken to determine whether the case will be heard or reheard
en banc", and then three judges in the panel refused to take a poll to prevent
Petitioner from obtaining the chance of the vote by the majority judges to determine
whether Fourth Circuit should have an rehearing her case en banc and further
whether the Fourth Circuit should grant her petition after rehearing. This vote is
contingent upon a poll taken by the three judges in the panel.
However, the Fourth Circuit's 3/26/2019 order was instructed by the panel
judges to write, "No judge requested a poll under Fed. R. App P. 35" rather than
correctly stated "No judge requested a poll under local Rule 35(b)".

Respondents' motion anticipating no oral argument) and entered on 10/18/2018 after
Petitioner filed her informal brief 17 days. Yet, the records of Petitioner's 7/26/2019 notice
of appeal, (which was transmitted from the District Court on 8/2 and 8/6//2018
respectively), were deleted from COA4 docket records and her 8/ 7/2018 re-filed notice of
appeal and entered 8/8/2018 (COA4 docket#4) were entered on 10/18/2018 despite there was
no any new supplemental records indicated by the COA4-doc#18 docketing test. Meanwhile,
the part of records was disappeared from COA4 docket#4. Petitioner filed "Supplement
informal brief' on Jan. 16, 2019, April 1 and April 16, 2019 regarding the alteration and
deletion of her docket records in addition to her 9/4/2018 and 10/22/2018 filed her concerns
regarding the COA4 docket records which may cause the difficulties for the judicial
proceedings and obstruct the equal justice requesting the Fourth Circuit's review and
attention (Appendix-15&14, COA4-doc#7, 12, 23&25).

60

According to local Rule 35(b): "Decision to Hear or Rehear a Case En Banc.
...A poll on whether to rehear a case en banc may be requested, with or without a
petition, by an active judge of the court or by a senior or visiting judge who sat on
the panel that decided the case originally. Unless a judge requests that a poll be
taken on the petition, none will be taken. If no poll is requested, the panel's order on
petition for rehearing will bear the notation that no member of the Court requested
a poll. If a poll is requested and hearing or rehearing en banc is denied, the order
will reflect the vote of each participating judge. A judge who joins the Court after a
petition [is it informal brief?] has been submitted to the court, and before an order
[is it court's judgment?] has been entered, will be eligible to vote on the decision to
hear or rehear a case en banc." It is obviously that, none of the three judges, (who
sat on the panel, led by judge Motz, made unpublished opinion and directed court's
affirmation of the District Court's decision to dismiss Petitioner's appeal), likes
their unpublished opinion to be subjected a review and a rehearing en banc by
majority judges of the Fourth Circuit if Petitioner is granted rehearing en bane. In
fact, rehearing Petitioner case en banc would make the majority judges in the
Fourth Circuit to learn insight how the curiam opinion led to their conclusion that
there was no reversible errors by excluding the clear and convincing evidence and
the grounds for their direction of the Fourth Circuit's judgment of dismissing
Petitioner's appeal. The extra barrier and difficulty created by the three panel
judges based on the Fourth Circuit local rule 35(b) described above is lack of merit
because the deprivation of Petitioner's chance to present disputes. The panel judges'

61

prejudice violated "Due Process of law" and "Equal protection" of the Fourteenth
Amendment to U.S. Constitution or privileges for "secured or protected" by the
Congressional power of enforcement, and led to likelihood of irreparable harm to
Petitioner.
To such panel judges' prejudicial action, there is the case U.S. v. Martorano,
620 F.2d 912, 29 Fed. R. Serv. 2d 1242 (1st Cir. 1980) stating "There was no merit to
the contention that the votes of three circuit judges were required to order
rehearing en banc in the First Circuit...Appellate Rule 35, and 28 U.S.C.A. §46(c),
plainly require that the required majority must exist among the judges in 'regular
active service,' and a judge who is yet to be appointed is not a judge in regular
service. There was no merit to the suggestion that the First Circuit, comprised of
only three circuit judges in active regular service, was barred from granting a
rehearing en banc because one three-judges panel is not authorized to overrule
another. When, as often occurs, panels contain one or more judges who are not
regular members of the court, the same danger exists in the First Circuit as
elsewhere that uniformity and stability of precedent will suffer. There is no reason
for the First Circuit to be excluded from the provisions of Appellate Rule 35(a) or 28
U.S.C.A. § 46(c). (en Banc)."

Unfortunately, Petitioner's experience described above is similar to what
occurred in the First Court due to the Local Rule 35(b) "Decision to Hear or Rehear

62

a Case En Banc"il which actually gives right to the possibility and eligibility of
panel judge's prejudice. There are double barriers to prevent Petitioner's case from
rehearing en banc as long as a judge of the panel put up a poll as pre-required
condition and consequent none of the three judges takes a poll.
In addition, "Wile grant of rehearing en bane should only have been with
respect of the jurisdictional issue presented, and to the merits." (Separate
statement of Senior Cicuit Judge Swygert, joined by Circuit Judges Cummings and
Cudahy.) Parisie v. Greer, 705 F. 2d 882, 36 Fed. R. Serv. 2d 535 (7th Cir. 1983). It is
no merit that needless of any reason from the panel judges at Fourth Circuit is
required to set a barrier with a poll as pre-required condition and then none of three
judges in the panel to take a poll to determine whether the case will be heard or
reheard en bane prior to the most judges of Fourth Circuit to vote. There is no
jurisdictional issue in this case as the faulty reasons for "lack of subject-matter
jurisdiction and state's immunity to Petitioner's ADA claim" to dismiss Petitioner's
appeal were not exist, and the reason of "failure to state claim" was lack of factual
n The original text part of this local rule 35(b) is referred in the 3rd prejudice argument
described above, in other words, it means only the panel judges, (who participated in each
specific case by various reasons, just like the panel-leading judge Motz for the Petitioner's
case), in the Fourth Circuit to decide if they allow a petitioner to have a chance to be heard
or reheard en bane depend upon panel judies' desire to make a requirement of a poll for the
extra barrier prior to the majority judges to vote if the court need to order the rehearing,
then none of judges in the panel to take a poll, and finally to make a statement in their
directed court's denying order of appellant's petition "no judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en bane." which blocked Petitioner's case to be
reheard en bane.

63

and legal grounds. These clear and convincing facts indicated that rehearing
Petitioner's case en banc should be ordered; if Petitioner's claims had been reheard
en banc under Fed. R. App. P. Rule 35, her petition would have been granted as the
case met the criteria for the appellate circuit to grant a petition.

Fourth prejudice is related to the recall of mandate. A fundamental right of
due process is the opportunity to be heard (Armstrong v. Manzo, 380 U.S. 545, 552
(1965)). However, the panel judges at Fourth Circuit not only failed to perform their
duties in determining whether the District Court had erred in granting
Respondents' motion to dismiss based on Rule 8 and Rule 12 without Respondents'
proof of granting Petitioner a mediation prior to the termination and providing any
legitimate non-retaliatory reasons for Respondents' adverse actions under the
McDonnell Douglas scheme, but also prejudicially moot Petitioner's motion for
consideration about alteration and deletion of Fourth Circuit's docket records; to
dispense with her oral argument in the absence factual and legal grounds; to
dismiss Petitioner's appeal by affirming faulty reasons; and to deny her petition for
rehearing en bane by setting up a barrier via requesting a unreasonable poll as prerequired condition and further refusal to take a poll to block petitioner's opportunity
to be heard.

Additionally, the Fourth Circuit issued the order directed by the panel judge
denying Petitioner's motion to recall mandate even though the mandate was
incorrectly entered in the absence of prior denial of Petitioner's timely filed stay for
mandate based on Fed. R. App. P. Rule 41(b) (Appendix-1).
64

" The Court of Appeals has the power to alter its judgment to confirm to
new legislation of the Petitioner's case." (First Bank, FSB v. Morales, 42 F. 3d 895,
31 Fed. R. Serv. 3d 1078 (5th Cir. 1995)).The U.S. Supreme Court has held that "the
courts of appeals are recognized to have an inherent power to recall their
mandates." Calderon v. Thompson, 523 U.S. 538, 549 (1998).
Here, Petiioner's previous sequential documents demonstrating the panel
and leading judge's actual prejudice and requesting the disqualified panel-leading
judge Motz to recuse herself, and suspending the unjust order, but did not cause the
Fourth Circuit's attention. Fourth Circuit is pending her motion to reconsider
recalling the mandate in spite of knowing that the mandate and denial order
without prior denying Petitioner's motion to stay violated Fed. R. App. P Rile 41(b)
and Due Process and Equal Protection of two clauses under Fourteenth Amendment
to U.S. Constitution.
Recall of the mandate is reviewed for an abuse of discretion. see Alsamhouri
v. Gonzalez, 471 F.3d 209, 209-10 (1st Cir. 2006). Petitioner was wishing that
Fourth Circuit will review the panel judges' abuse of their discretion by filing
sequential documents. Even though she could not obtain relief from the Fourth
Circuit's vacating, revising, reforming, or modifying its own demonstratively wrong
judgment, (directed by the panel judges), and related mandate for the purpose of
justice in this case and judicial integrity, Petitioner still appreciated the Fourth
Circuit's pending recall of the mandate which makes the necessity and importance
to respectfully request this Court's intervene and supervision through granting this
65

stay and injunctive relief for those significant prejudice in the panel judges' curiam
opinion and direction for the Fourth Circuit's judgment and orders.
A stay is appropriate if there is "(1) a reasonable probability that Four
Justices will consider the issue sufficiently meritorious to grant certiorari; (2) a fair
prospect that a majority of the Court will vote to reverse the judgment below; and
(3) a likelihood that irreparable harm will result from the denial of a stay."
Hollingsworth v. Perry, 558 U.S. 183, 189 (2010) (per curiam). The enormous clear
and convincing factual and legal arguments filed in her pleadings and appeal
related documents described above makes Petitioner believe that there is significant
probability that "Four Justice will consider the issue sufficiently meritorious to
grant certiorari" and also helps her to have a fair prospect that there is a reasonable
possibility "a majority of the court will vote to reverse the judgment below".

IV. Balance of equities supports a stay and injunctive relief.

Moreover, in close cases the Circuit Justice or the Court will balance the
equities to explore the relative harms to applicant and respondent, as well as the
interests of the public at large.

If the stay and injunctive relief are not granted and Fourth Circuit's
judgment is not intervened or reversed by the U.S. Supreme Court, the likelihood of
irreparable harms to Petitioner's health and life will be: Petitioner would bear the
life-long negative impact of willful underpayment and unequal payment (although
she worked hard for increased her responsibilities) due to the discriminatory

66

deprivation of the reclassification approved of Epidemiologist III for her by both
MDH and MDBM; she would suffer the lack of any reasonable remedy for the major
anxiety, major depressive disorder and posttraumatic stress disorder caused by Ms.
Barra's progressive harassment, discrimination and retaliation. Also, Petitioner
would suffer the loss of her income even during the interactive accommodation
period because she was disability discriminately prevented from utilizing the
employee's leave time donated by her friend since Oct. 2014; she would lose
compensation or accommodation because she was not allowed to return to work
under seniority system for CDC funding supported programs as recommended by
the State Medical Director. She would lose any compensation for the lawyer fee
besides her continuers' medical cost under the condition without payment from the
beginning of October 2014. In addition, because Petitioner was terminated without
mediation since Nov. 3, 2014 prior to her 61th birthday by Ms. Barra's retaliation
against her reports to internal managers and charges filed with EEOC under ADA,
Title VII and ADEA, Petitioner spent the family's many-years savings, which were
set aside for the emergency conditions. Petitioner has been spending her social
security benefits and part of her 403-b retirement prior to the Social Security Office
and 403 retirement managing company recommended at age of 67 for better returns
due to her disability, medical costs, the lawsuit and attorney fee. All of these would
result in irreparable damages to Petitioner and her husband's life quality and
retirement benefits if this application for stay and injunctive relief are denied.

Furthermore, if the stay and injunctive are denied, the Petitioner's lawsuit in

67

the absence of relief for retaliatory termination of Petitioner's employment without
mediation only because Petitioner sought managers' help for discriminatory
deprivation of the reclassification of Epidemiologist III approved by MDH &MDBM
for Petitioner and unequal payment and willful underpayment; also internal
grievance and EEOC charge about Ms. Barra's progressive harassment, age, racial,
ethnicity and disability discrimination and retaliation may have a chilling effect on
other employees who may wish to seek managers' help and file charges with EEOC
or Federal Courts for equal working condition and protection. Denial of the stay and
injunctive relief could negatively interfere with state agency's working
environment, EEOC's mission, and public trust and confidence in the equal justice
and equal protection under constitution through federal courts. The denial of the
stay and injunctive relief in this Court will also account for a continually worsening
situation with regard to workplace retaliation, rates of the workplace retaliatory
claims as well as the related hate crime claims filed with the courts that have
dramatically increased over the past decade. The Supreme Court can, also should
ensure that American citizens to have Due Process and Equal Protection from
workplace discrimination and retaliation claims under law for their life, health and
property in the federal court. In contrast, granting a stay and injunctive relief to
intervene and reverse the Fourth Circuit's prejudicial judgment will not result in
damages to Respondents' working environment, state agency, and the well being of
co-workers as well as public interests.

68

For the standards for granting a stay and junction relief, preliminarily, the
applicant must show that "the relief is not available from any other court or judge,"
Sup. Ct. R. 23.3. In addition to Teamsters v. United States, 431 U.S. 324 (1977), this
Court has very thoughtful analyses regarding the consideration of injunctive relief
for the case involving violation of constitution and Firefighters v. Scotts, 467 U.S.
561. This Court instructs: "Hourt can award competitive seniority only when the
beneficiary of the award has actually been a victim of illegal discrimination, but
also the policy behind §706(g) of Title VII of providing make-whole relief only to
such victims." Furthermore, this Court held that a well-established, closely adhered
to seniority system and prohibited any unlawful refusal accommodation to disabled
employee who filed Title VII, ADA and ADEA charges with EEOC by untruthful
"undue hardship" to terminate employee's employment under seniority system
according to 42 U.S.C. §1983 and 42 U.S.C. §12112. In the same way, employers are
not required to override a seniority-based system to accommodate a disabled
employee. U.S. Airways, Inc. v. Barnett. 535 U.S. 391 (2002) 228 F. 3d 1105. The
Fourth Circuit's judgment directed by the panel judges neglected this Court's rules
to refuse granting relief but to affirm the District Court's dismissal of her claim
despite acknowledging that Respondents discriminately deprived Petitioner's
reclassification of Epidemiologist III resulting in willful underpayment and unequal
payment, supported Ms. Barra's interference with her job and consequently
terminated Petitioner's employment under seniority system without mediation
because she filed charges with EEOC under Title VII, ADA and ADEA.

69

As described above and indicated by Petitioner's pleadings/informal brief and
sequential documents filed with District Court and Fourth Circuit, Petitioner tried
her best by initially seeking help from MDH and MDBM managers and Union, then
filing internal grievance/appeals and further charges with EEOC who rejected her
charge due to Ms. Barra's interference with EEOC's investigation of Petitioner's
ADA, Title VII and ADEA charges after she wait for over three years during
EEEOC's investigation. This new discovery evidence from EEOC recording file via
FOIA request and affirmation on July 6, 2018 was not allowed to be amended by the
both Courts.
Petitioner could not obtain relief from the District Court and Fourth Circuit
and the past several years of judicial process has increased the health risks for
Petitioner, (who has suffered from major depression disorder, anxiety, and
posttraumatic stress disorder). The constant and tremendous stress makes her
relive the pains when she recalled all of these terrible harassment and retaliatory
actions, and humiliation. Furthermore, no matter what facts and exhibits were
provided to the District Court and Fourth Circuit, and what errors were recognized
and also filed with both courts during the proceedings including court's prejudice,
alteration and deletion of the docket records, the District Court and the panel
judges at the Fourth Circuit prejudicially demanded to deny Petitioner's a hearing
chance and refused to grant a remedy, regardless of the federal civil procedures,
appellate procedures, decisions made by the Supreme Court and other appellate
courts, as well as the Congressional power of enforcement, which drove the

70

Petitioner in the helpless and exhausting situation.
This is the major reason Petitioner files this application for stay and
injunctive relief according to the Congressional power of enforcement while the
Fourth Circuit is pending the reconsideration of recalling mandate following filing
her application of extension for her application to stay and petition for writ of
certiorari. U.S. Supreme Court granted stay while application for a stay was
pending in lower Court, ((Bush v. Gore 531 U.S. 1046 (2000)).
RELIEF REQUESTED
Petitioner respectfully request the Honorable Court to grant the relief to her
for the damages: retroactive reclassification to the Epidemiologist III, with all
attendant back pay, benefits and other emoluments of employment; the sum of
$300,000 in compensatory damages suffered because of the discrimination and
retaliation; front pay at the Epidemiologist—III pay level (including pay increases)
until she reaches the age of 67 years when she would have retired from State
service if she had not been terminated without mediation under seniority system
for Ms. Barra's discriminatory/retaliatory treatment of her, (which should be
adjusted by subtracting the disability pension, $342.31/per month effect date:
3/1/2018); costs for reasonable attorneys' fees incurred since 2013 including this
lawsuit with interest thereon and Medical costs, other damages and further relief
the Honorable Court deems just.
CONCLUSION

71

ctive relief to intervene and
The Honorable Court should grant stay and injun
the mandate of the judgment
supervise the Fourth Circuit's pending recall for
l of Petitioner's claims about
which affirmed the District Court's dismissa
against her charges filed with
termination without mediation or hearing retaliated
r is respectfully requesting this
EEOC under Title VII, ADA and ADEA. Petitione
in her health, life and property
Court to grant Petitioner relief for the damages
onal rights, pending the timely
right resulting from deprivation of her constituti
filing and disposition of a petition for certiorari.

Re pectfu y submitted,
/z4
(4,
ao- mg Yu, pro se.
Mailing address:
P.O. Box 293
Abingdon, MD 21009

72

IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
XIAO-YING YU,
PlaintAppellant,
Case No. 18-1889

v.
*

MARYLAND DEPARTMENT OF HEALTH, *
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET & *
MANAGEMENT,
SECRETARY DAVID BRINICLEY,
Defendants-Appellees.
* * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * *

MOTION TO MOVE FOR PUBLICATION OF UNPUBLISHED OPINIONS
AND RECONSIDERATION OF THE COURT'S APRIL 22, 2019 ORDER
Plaintiff-Appellant, Xiao-Ying Yu, Pro Se., respectfully moves for
publication of previously unpublished opinions and requests that the honorable
Court reconsider the April 22, 2019 order denying Plaintiff's motion to recall the
mandate (see Appendix#1-3) pursuant to Fed R. App. P. 34 (a)(2), (b), Rule 27,
Local Rule 36(b), USC 28, Chap. 21 § 455, Fed R. App. P. 41 (b)&(c); 42 U.S.C.
§1983, "Due Process" and "Equal protection" clauses of Fourteenth Amendment
and Congressional enforcement power for depriving a person of rights or privileges
"secured or protected" by the Constitution or U.S. law (Screws v. U.S. 325 U.S.

91, 98-100). In support of her request to move for publication of previously
unpublished opinions and reconsider Court's order denying her motion to recall the

1

mandate (by direction), the Plaintiff states the following:
A.

Plaintiff moves for publication of the unpublished opinions

1. The error to dispense with the Plaintiff's oral argument and to moot
Plaintiff's concerns about docket records hidden in the unpublished opinions:
Fed R. App. P. 34 (a)(2) Standards state that "Oral argument must be
allowed in every case unless a panel of three judges who have examined the briefs
and record unanimously agrees that oral argument is unnecessary for any of the
following reasons: (A) the appeal is frivolous; (B) the dispositive issues have been
authoritatively decided; or (C) the facts and legal arguments are adequately
presented in the briefs and record, and the decisional process would not be
significantly aided by oral argument. (b) Notice of Argument; Postponement. The
clerk must advise all parties whether oral argument will be scheduled, and, if so,
the date, time, and place for it, and time allowed for each side...." The local Rule
34 (e) states "As soon as possible upon completion of the briefing schedule or
within 10 days of tentative notification of oral argument, whichever is earlier, any
party may file a motion to submit the case on the briefs without the necessity of
oral argument."
Plaintiff never received the court's notification of oral arguments under Fed.
R. App. P. 36(a)(1) (2) and (b) prior to defendants' motion to extend time and to
remove the oral argument. Because defendants submitted the motion for extension
2

of time to file their response to Plaintiff's informal brief requesting removal of oral
argument on 10/11/2018 (which was 11 days from Plaintiff's informal brief),
Plaintiff objected to it and emphasized the reasons for the necessity of the oral
argument on 10/15/2018 (COA4 docket#14). Consequently, the case manager, Ms.
Cathi Bennett, permitted the District Court to re-transmit supplemental records on
10/16/2018, and made alterations and deletions of COA4 docket records on
10/18/2018 (COA4 docket#4 and #15) in favor of the defendants and supported the
biased actions made by the District Court' . To such unlawful alteration and
deletion of the Court's docket records 18 days after Plaintiff's informal brief,

Plaintiff, Asian American pro se, was Maryland State employee supported by Federal CDC
funding and was terminated without mediation which was initiated and promoted by Plaintiff's
former supervisor, Ms. Sara Barra within two months after she filed discrimination and
retaliation complaints with EEOC under Title VII, ADEA and ADA The Union manager in
Maryland Department of Health participated in the decision of the termination without informing
the Plaintiff (see Plaintiffs complaints, District Court's record ECF1t4, exhibit 33&34, COA4,
docket#4). The evidence were prejudicially neglected and these facts are (1) Plaintiff's written
report regarding EEOC's permission to sue accompanying with her initial claim filed with the
District Court of Maryland and a hard copy of EEOC's right-to-sue letter were received by the
District Court (docketed 11/6/2017 and 3/22/2018, ECF#1, attachment#1 and ECF420,
exhibit#1, and COA4 it/1) prior to the. District Court's dismissal of her claims, (see A_ppendixttl);
(2) defendants failed to provide a evidential pre-termination mediation or hearing, (Goldberg v.
Kelly, 397 U.S. 254) and did not submit any legitimate non-retaliatory reason for their adverse
actions under the McDonnell Douglas Scheme; and (3) Congress abrogated State employer's
Eleventh Amendment Immunity for ADA complaint. Plaintiff has never been given a hearing
and pre-direction of the District Court's decision prior to the District Court's denial of her
claims. The District Court's dismissal and closure of the Plaintiff's case deprived her civil rights
and property right due to the false reasons of lack of subject matter jurisdiction, failure to state
the cause of claims and State's immunity to ADA complaint . The Plaintiff was never given a
chance of oral argument, initial hearing and rehearing en bane by this Court to affirm the District
Court's decision denying her claims and her petition which violated "Due process" and "equal
protection" of Fourteenth Amendment of U.S. Constitution (Appendix#5).
3

Plaintiff filed a motion with concerns about the docket records, an informal reply
brief, and a supplement to the informal brief. These filings were in addition to her
initial request on 9/4/2018 for this Court's intervention regarding mistakes and
biased actions on the part of the District court (COA4, docket #7, 14, 23&25).
Nevertheless, the Court's unpublished opinion, directed by the panel-leading
judge Diana Jane Gribbon Motz2, hid the original cause of the lawsuits: the
defendants' blatant retaliation for Plaintiffs protected activities and unlawful
termination without mediation. The opinion also hid the District court's biased
actions. This opinion indicates corruption and abuse of the judge's discretion to
dispense with oral argument by using a statement of local rule 34(a)(2)(c) as an
excuse3 to refuse providing Plaintiff an initial hearing for her to argue those
reversible errors which the panel judge ignored. Judge Motz further abused her
discretion, and made moot Plaintiff's motion for concerns about the docket records
Judge Motz has worked for 14 years in Assistant Maryland State Attorney General with similar
of
responsibilities like Mr. James Nelson Lewis to represent defendants' interest in the position
to
ed
accustom
is
Assistant State Attorney General for Maryland Department of Health;
representing Maryland government employers' interests; and led a panel to create biased
's
opinions including this case which directed the Court's (1/24/2019) denial of the Plaintiff
appeal and denial of (3/26/2019) petition for rehearing en banc in favor of defendants, (please
her
see Plaintiff's petition for rehearing and rehearing en banc, COA4 docket#26, 27, 29&37;
for
on
applicati
's
Plaintiff
and
g17;
docket
COA4
records,
docket
motion for concerns about
and
suspension and motion to recuse, COA4, docket#38), and deprived the Plaintiff's property
equal protection rights under Fourteenth Amendment.
ity of oral argument was
3 The decision to deprive the Plaintiff the due process opportun
copy of tentative notification of
a
Plaintiff
the
send
to
failed
prejudicially made when the Court
t on 10/11/2018, which
argumen
oral
the
remove
to
oral argument and the defendants requested
reply brief and
informal
brief,
informal
her
of
review
was occurred prior to the panel judges'
supplemental informal brief and related exhibits.

2

4

Arr

in the Curium opinion concealing the evidence of interference with an EEOC
investigation by Maryland Department of Health employee Ms. Sara Barra and the
evidence of Maryland Department of Health Office of Equal Opportunity Program
Ms. Delinda Johnson's lies regarding "undue hardship" in order to reject
accommodations recommended by the State Medical Director.
A fundamental right of due process is the opportunity to be
heard (Armstrong v. Manzo, 380 U.S. 545, 552 (1965)). In pursuit of that right, the
Plaintiff timely filed her petition for rehearing en bane and a motion to stay
mandate (COA4, docket #28, 29, 31&35) and a motion for due process of initial
hearing and reconsideration of the Court's unpublished opinion (COA4,
docket#33). Subsequently, she filed an application for suspension of the Court's
judgment and orders and a motion to request the panel—leading judge Motz to
recuse herself (COA4 docket#38, prior to the mandate). Plaintiff also filed a civil
action for Court's help to intervene with the Panel-leading judge's direction of her
case under Congressional enforcement power (COA4, docket#41&42) and further
application to recall the mandate (COA4 docket#43) between Feb. 6, 2019 and
April 19, 2019. However, the panel-leading judge intentionally and repeatedly
denied the Plaintiff the fundamental due process opportunity to be heard. The
panel-leading judge Motz'a unpublished opinion prejudicially directed the Court to
not only deny Plaintiffs appeal and petition for initial hearing/rehearing en bane
5

ted Fed. R. App. P. 41(b)

but also her application to recall for mandate which viola
and the Congressional enforcement power.

y unpublished

2. The necessary to request the publication of the previousl
opinion made on Jan. 22, 2019

y. They are not

"An unpublished decision ... means the judges can be slopp
accountable for illogic or inconsistency in the rulings...

[Unpublished decisions]
Procter R. Hug Jr., chief

are not prepared with the same kind of exactness," admits

the Dark: Forbes Magazine,
judge of the 9th Circuit McMenamin, Justice in
(Also available at
October 30, 2000, at 72 col. 3, 74 col. 1-2
http://www.nonpublication.com under "Press Clippings") The

New York Times,

e of the Seventh Circuit,

also quotes the Honorable Richard A Posner, Chief Judg

describing unpublished opinions as "sort of a formula

for irresponsibility.-

U.S. Appeals, N.Y. Times,
Glaberson, Caseload Forcing Two-Level System for
March 14, 1999, at, 26 col. 3.
t and corrupt"
"To the suspicious, unpublished will often suggest secre
145, 158
(Render, On Unpublished Opinions 73 Kentucky L.J.

(198485)). The

98 (2000).
harm from such a perception is great. Bush v. Gore, 531 U.S.
request seems like a
Obviously, the publication upon a Plaintiffs

minimal safe guard, doing no harm if the Plaintiffs fears are

6

modest and

misguided.

The Plaintiff requests this Court publish the panel judge's opinion made on
1/22/2019 to deny Plaintiff's appeal, the opinion to direct the court to deny her
petition for rehearing en banc, and motion for recall.
B. Request the Court's reconsideration of 4/22/2019 order denying Plaintiff s
application to recall for the mandate
The Ninth Circuit stated: "En banc procedures are seldom used merely to
correct the errors of individual panels." "Appellate courts often tolerate errors in
their case law because the rigors of the en banc process make it impossible to
correct all errors." Hart v. Massanari, 266 F.3d 1155 (9th Cir. 2001). It might
explain why this Court was directed to deny Plaintiff's petition for rehearing en
banc by abusing the judge's discretion and requesting a poll to be taken from other
judges of this Court to set up a barrier and to establish difficulty that deprived the
Plaintiff of property rights, due process of law (hearing opportunity), and equal
protection rights.
However, it should not be ignored that Plaintiff's consequential documents
for protection of her constitutional rights were initially filed with the District Court
on 11/2/2017, and filed with this Court prior to the mandate. It includes Plaintiff's
to prevent
recent application for suspension of the Court's judgment and orders

and control the obstruction of the Court's equal justice under Fed. App. P. Title
VII, Title 1, Rule 2 and Congressional enforcement power, the motion to recuse

4

, 10

the disqualified panel-leading judge, who deprived Plaintiff's due process and
equal protection rights under USC 28, Chap. 21 § 455, and Marshall v. Jerrico Inc.,
446 US 238, 242, 100 S. Ct. 1610, 64 L. Ed. 2d 182 (1980), and request

of

t
prohibition of alteration and concealment of evidence in the Court's docke
records, (which did not reflect Court's order and what Plaintiff filed in the court)
under Title 18 U.S. C. 1512 (c) (April 1, 2019, COA4, docket#39).
Due process would even require recusal of a judge if anything less "is
unlikely significantly to quell the concerns of the skeptic." Liljeberg v. Health
a
Services Acquisition Corp., 486 U.S. 847, 864-65 & n.12 (1988) If recusal can be
preventive measure, then surely publication at an appellant's request is a far less
burdensome preventive measure aimed at the same goal of sustaining public
158
confidence. (Render, On Unpublished Opinions 73 Kentucky L.J. 145,
(198485)).
In addition to he Plaintiff's petition for rehearing en banc for the panel
judge's biased review and prejudicial decision and motion for concerns about the
Court's docket records, the Plaintiffs application for suspension4 might seem

to

manager Ms.
offend the sentiments of the panel-leading Judge Motz and the case

The Application for suspension of the Court's order (including the judgment) contains
Court's
Plaintiffs request of the recusal of panel-leading judge Motz and request of the
by Ms. Cathi
d
manage
records
docket
Court's
the
prohibition of the alteration and deletion of
Bennett.

4

8

Xfp

chief
Bennett, because the motion to recuse and report to the Cciurt's Clerk and
,
judge about the alteration and deletion of the Court's docket records, indeed
further proposed that a different judge and case manager should decide the

Court's

review and action for Plaintiffs application for suspension Court's order to

prevent
e,

the obstructions of the Court's equal justice under law, motion to recus

application for civil rights, and application to recall for the mandate. 5 Therefore,
ly

after such motions and reports to the Court clerk and Chief Judge, it unlike
appear to be scrupulously impartial that Ms. Bennett created notice of local
41(d) to refuse the consideration of Plaintiff's application for suspension,

rule

recusal

ct and
The COA4 docket#7, 14, 17, 23&25 indicated that there are inconsistent, incorre
tted from
transmi
incomplete records in COA4 #1-4 which do not reflect the facts and the records
records of
the District Court to the Court between 8/2 and 8/7/2018. Also, the part of docket
for 17 days
COA4 docket#4 were altered and deleted. After Plaintiff filed her informal brief
ing to
respond
in
nt
argume
oral
of
need
her
2018)
(COA4, docket#10) and re-addressed (10/15/
,
(COA4
on,
extensi
of
motion
their
via
the defendants' request to deprive her oral argument right
mental
"Supple
15
docket#14 v. #12), on 10/18/2018, Ms.Bennett entered COA4 docket#
al
assembled electronic record docketed". However, she failed to provide any addition
only removed the
supplement transmitted by the District Court of Maryland on 10/16/2018 and
Court on 8/7/2018
part of records which was transmitted by the District Court of Maryland to the
4. The Plaintiffs
docket#
COA4
in
entered
(district courtECF#53, Appendix#6) and was initially
of EEOC's
ence
interfer
nt's
defenda
7/26/2018 filed appeal with the evidence (regarding the
nd
Maryla
of
Court
District
investigation provided by US EEOC-FOIA records), which the
part of
tted
transmi
refused to file and returned to Plaintiff although cashed her filing fee, but only
6,
August
2 and
her 7/26/2018 appeal without the exhibits to the Court respectively on August
and docket#1.
2018, were inconsistently stated in COA4 docket "Originating Court Information"
evidenced by the
This was confirmed with USCA Clerk Ms. Gomez and Ms. Amy Carlhem; also
transmitted
these
er,
Howev
#50).
(ECF
8
USCA4 Ms. Margaret Thomas's letter dated on 8/3/201

5

District Court to the Court
records of Plaintiff's 7/26/2018 appeal (without exhibits) from the

docket records
(8/2&8/6/2018, ECF#48&52, Appendix#6) were not found in the entire of COA4
f visited the
Plaintif
the
when
help
'
officers
clerk
Court
of Plaintiff's case 18-1889 file with two
t entered
Bennet
Ms.
8,
8/6/201
On
19.
1/11/20
Court and received a hard copies of records on
to the
Court
District
the
from
records
tted
COA4 docket#1, but failed to disclosure the transmi
Ms.
Court
the
and
8
8/7/201
and
8/6
8/2,
on
Court regarding two set of Plaintiffs notice of appeal
and
actions
cial
prejudi
court's
Thomas' response (8/3/2018) to intentionally cover the District
defendants' interference of U.S. EEOC's investigation (Appendix#6,7&8).
9

panel
(see Appendix#9) and consequential request for constitutional rights; and the
ffs
judge led by judge Motz directed the Court's (4/22/2019) order, denying Plainti
to

motion to recall for the mandate stating that "Upon consideration of the motion
recall the mandate and to vacate decision on appeal, the court denies the

motion.

For the Court-By Direction".
The Court's 4/22/2019 order denying Plaintiffs motion to recall should be
reconsidered and reversed because the Court did not issue the order to deny

the

that the
Plaintiffs motion to stay and Fed R. App. P. 41 (b)&(c) clearly directs
n for

mandate of a Court must issue 7 days after entry of an order denying motio

lished

stay of mandate. The Court's 4/22/2019 order also prevented the unpub

) to

panel-leading judge's opinion (which directed the Court's judgment and orders
be subjected to the Court's review and justification for equal justice under

law

s and

when the mandate is recalled and also violated Plaintiffs property, due proces

equal protection rights under Fourteenth Amendment and Congressio

nal

enforcement power.
The Court's decision regarding publication and the extent to which the court
is driven by whether
determines that written explanation of its decision is called for

the full opinion will benefit the bench, bar, or litigants under integrity of the
justice, Fourteenth Amendment, congressional enforcement power and

10

Court

Fed. R.

It,13

l deprivation of a

App. P 36 and local Rule 36(a) but not driven by prejudicia
plaintiff's due process opportunity to be heard at oral

argument due to the
P. 34 (a)(2)(C).

defendants' desire or untruthful excuse by using Fed. R. App.
C. Conclusion

t publish the

WHEREFORE, the Plaintiff respectfully requests that the Cour

between Jan 22, 2019

panel judge's unpublished opinions and directions submitted

ration of the Court's

and April 22, 2019, review the injustice and reconside
4/22/2019 order for the recall the mandate under local rule

36 (b), Fed R. App. P.
3, "Due Process" and

Rule 34(a)(2)&(b), Rule 41 (b)&(c), Rule 2, 42 U.S.C. §198
"Equal protection" clauses of Fourteenth Amendment,

and the Congress's
leges "secured or

enforcement power for depriving a person of rights or privi
protected" by the Constitution or U.S. law (Screws v. U.S. 325

U.S. 91, 98-100).

Respectfully submitted,
71c.
Xiao-Ying Yu, pro se
Mailing address: P.O. Box 293,
Abingdon, MD 21009

11

ff "
OF
APPENDIX RELATED TO MOTION FOR PUBLICATION
N OF
THE UNPUBLISHED OPINIONS AND RECONSIDERATIO
THE COURT'S 4/22/2019 ORDER (May 6, 2019)
Case Number: 18-1889
Page
Appendix No.
The Court's order related to the mandate and the
Plaintiff's motion to recall the mandate
1.1 The Court's denying the Plaintiffs motion to
App.1
recall the mandate entered on 4/22/2019
App.2
1.2 The Court's "Mandate" entered 4/15/2019
..App.3
1.3 The Plaintiffs motion to recall the mandate
The Court's "Stay of mandate under Fed. R. App.
App.13
P. 41(d)(1)
The Plaintiff's amendment of motion for stay mandate
.App.14
pending filing and disposition of petition certiorari
The Plaintiffs report regarding EEOC's permission
App.33
to sue on 11/2/2017(COA4, doc#4, p.17)
EEOC's conclusion and right-to-sue letter dated
App.34
10/16/2017(COA4, doc#4, p.348-350)
The Court's order and related docket records
5.1 The Curium Opinion and derived Court's order
affirming the District Court's dismissal Plaintiffs
...App.37
claims entered 1/24/2019
..App.40
5.2 The Statement of COA4 docket#26
5.3 The Court's order denying the Plaintiffs petition
App.41
for rehearing and rehearing en banc
...App.42
5.4 The statement of COA4 docket#37
The District Court's docket records indicating the
Missing transmitted records in COA4 docket records

EEOC investigator's hand-written notes for the FactFinding Conference indicating the false Information
7.1 The constructive discharge made by Human
Resource was promoted by Ms. Sara Barra

App.43

APPENDIX RELATED TO MOTION FOR PUBLICATION OF
OF
THE UNPUBLISHED OPINIONS AND RECONSIDERATION
)
THE COURT'S 4/22/2019 ORDER (May 6, 2019, continued page
Case Number: 18-1889
Page
Appendix No.
indicated by her testimony on 5/14/2015
.App.49
(COA4, doc#4, p.196-200
7.2 People who attended EEOC's Fact-Finding
Conference (from COA4, doc#4 to COA4,
App.54
doc#15)
7.3 EEOC's investigator's notes indicated Ms. Barra's
interference with EEOC's investigation
..App.55
on 4/19/2017(from COA4, doc#4 to #15)
7.4. Maryland Depat. Of Health HR (defendant)
constructive discharge on 10/10/2014 as Ms.
Sara Barra's motivation but not the Plaintiff
asked for resign or retire as EEOC's investigator's
.App.57
notice
8. MDH of Equal Opportunity Program Ms. Delinda
Johnson's email directed "undue hardship"
8.1 The emails from Ms. Johnson on 7/31/2014
related to the reason of "undue hardship" to
reject Plaintiffs accommodation requests was
the part of the FMLA and ADA discrimination
App.58
and retaliation
8.2 Ms. Johnson directed defendants' office manager
to make "undue hardship" as the pretext and to
change the office medical director's position
posting date from 7/23/2014 to 7/21/2014

and also to change the Medical Director's job
duty from supervision to no- supervision of any
staff in order to reject the Plaintiff to return to
work under others' supervision instead of under
Ms. Barra' retaliation because the Plaintiff s
ii

APPENDIX RELATED TO MOTION FOR PUBLICATION OF
THE UNPUBLISHED OPINIONS AND RECONSIDERATION OF
THE COURT'S 4/22/2019 ORDER (May 6, 2019, continued page)
Case Number: 18-1889
Page
Appendix No.
accommodation request was sent on
App.60
7/23/2014
8.3 The Plaintiff responded her attorney regarding
Maryland Department of Health's Opening
Medical Director's position which was opened
App.64
7/23/2014
8.4 Ms. Johnson retaliated against the Plaintiff s
Discrimination charge filed with EEOC on
9/3 /2014 by rejection of her accommodation
App.66
request
8.5 The Structure of MDH Center of Chronic Disease
Prevention and Control was changed to prevent the
Plaintiff from returning work under Medical
Director 's supervision as other co-workers
App.68
(COA4,doc#4, p. 202-205)
9. Ms. Bennett's applied "Local Rule 40(d) Notice
to the Plaintiffs condition entered on 4/12/2019
because misrepresented and misinterpreted the
Plaintiffs case
App.72
9.1 Ms. Bennett's 4/12/2019 notice
9.2 The Plaintiff filed her request a relief for the
deprivation of her constitutional rights (health,
life, property and equal protection) under
constitutional and federal laws including 42 U.S.
App.73
Code §1983 and Fourteenth Amendments

111

CA4 Appeal: 18-1889

1-11e0: 02/U1/2019

Doc: 32

Ng: 1 or 1

*17

FILED: Februm-y 7, 2019

UNI1ED STALLS COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1889 .
(1:17-cv-03260-.TKB)

XIAO-YING YU
Plaintiff - Appellant
v.
ROBERT R. NEALL, Maryland Depaiunent of Health Secretary (formerly Dennis
Schrader); DAVID BRINKLEY, Maryland Departliient of Budget and
Management SecretaryDefendants - Appellees

STAY OF MANDATE UNDER
FED. R. APP. P. 4I(d)(1)

Under Fed. R. App. P. 41(d)(1), the timely filing_ of a petition for rehearing
or rehearing en banc or the timely filing of a motion to stay the mandate stays the
mandate until the court has ruled on the petition for rehearing or rehearing en banc
or motion to stay. In accordance with Rule 41(d)(I), the mandate is stayed t.-Tending
further order of this court.

/s/Patricia S. Connor. Clerk

e

3=.154709

L-1

••

; ;

Pg: 1 ot

2, 2

FILED: April 15, 2019

L 71 ED STA1ES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1889
(1: 17-cv-03260-11(B)

XIAO-YING
Plaintiff - Appellant
v.
Dennis
ROBERT R. NEALL, Maryland Department of Health Secretary (formerly
Schrader); DAN/ Ill BRINKLEY, Maryland Depai talent of Budget and
Management Secretary
Defendants - Appellees

MANDATE
The judgment of this court, entered January 24, 2019, takes eFfect today.
This constitutes the formal mandate of this court issued pursui-int to Rule
41(a) of the Federal Rules of Appellate Procedure.

...'szParricia S. Connor. Clerk

+of
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
XIAO-YING YU,
Plaintiff-Appellant,
v.

*

Case No. 18-1889

MARYLAND DEPARTMENT OF HEALTH. *
SECRETARY ROBERT NEALL. and
MARYLAND DEPARTMENT OF BUDGET & *
MANAGEMENT.
SECRETARY DAVID BRINKLEY.
Defendants-Appellees.
MOTION TO RECALL THE MANDATE
ectfully requests that the.
Plaintiff-Appellant, Xiao-Yina Yu. Pro Se.. resp
judament on January 24. 2019
Court recall the mandate (4/15i/2019), vacate its
C. §1983, "Due Process** and
pursuant to Fed R. App. P. 41 (b)&(c): 42 U.S.
endment and Congressional
"Equal protection" clauses of Fourteenth Am
rights or privileges "secured or
enforcement power for depriving a person of
protected" by the Constitution or U.S. law (Screws
support her request to recall the Court's mandate

v. U.S. 325 U.S. 91. 98-100). In

and vacate the Court's iudo-rnent.

the Plaintiff states following:
entry of the order denying
A. The error of the mandate issued without
Plaintiff's motion to stay of the mandate

On April 15, 2019, the Court issued "MANDA I E." stating that "The
This
judgment of this court, entered Janiinry 24, 2019, takes effect today.
Rule

constitutes the formal mandate of this court issued pursuant to the pursuant to

er,
41 (a) of the Federal Rules of Appellate Procedure." (see Appendix,,-1). Howev
n for

Plaintiff's filed her motion to stay of the mandate along. with her petitio

te. In

rehearing en banc and the amendment of her motion to Stay of the manda
which case, there is no instruction in Fed. R. App. P. 41(a).

On Feb. 7.2019. the Court issued -STAY OF MANDATE UNDER FED. R.
APP. P. 41 (d)(1)" stating that "...In accordance with Rule 41(d)(1). the manda

te is

- 2).
stayed pending further order of this court" (COA4, docker---32, see Ape.ndix7Also, Fed. R. App. P. 41(b) directs that the mandate of a Court must issue 7

__
days

after entry of an order denying motion for stay of mandate.
The Plaintiffs amended motion to stay of the mandate (COA4. docker-436.
present
see Appendi#3) demonstrated that her petition for certiorari would
and
substantial questions related to the deprivation of constitutional rights
ignorance of the facts that were presented in Court's panel-leading judge Diana
Gribbon Motz's curium opinion which directed the Court's (1 .24 '2019) judgment.
the
In addition, she indicated that the Court's judgment conflicted with
judgments/decisions of this Court, other circuit court and the Supreme Court.

and
ff

also violated the clear instruction made by Congress. Furtheiniore. the Plainti

Are if
also addressed the necessity of amendment to Fed. R. App. P to prohibit the
obstructions of equal justice under constitutional and federal law. After Feb. 7.
2019, the Plaintiff never received the further the order of this Court regarding her
motion to. stay of the mandate but the Court's (4/15/2019) mandate.
B. Inconsistency of the case's judgment with the Supreme Court's decision
Supreme Court has ruled that individuals may bring actions under 4 -)
U.S.Code. §1983 to offer a -remedy... against all forms of official violation of
of _Yell federally protected rights," Monett v. Deparmzezn of Soc. Sens. 01 Cir).York, 436 U.S. 658, 700 (1978).
42 U.S.Code §1983 "Eveiy person who, under color of any statute.... any
citizen of the United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the constitution and
law, shall be liable to the party injured in an action at law, suit in equity. or other
proper proceeding. for redress...In order to receive this Court's equal justice under law for the Plaintiff's
claim about the retaliatory termination of her employment without a mediation.
which deprived her property and eqiini protection riehts under Fourteenth
Amendment and 42 §1983, Plaintiff, pro se, following her initial (11.2/2017) and
updated (12/8/2017) complaints; the first notice of appeal with exhibits on
706/2018, (which was not docketed but returned); and the second notice of appeal
3

t the

(8/7/2018) filed with the District Court, she has filed complaints abou

ntial

deprivation of rights and the concerns about the docket records with seque

documents in this Court (COA4 docket#7, 10, 14, 17, 23&25) between Sept

4,

iff 5
2018 and Jan. 16, 2019 prior to the Court's 1/24/2019 ordei .) However, Plaint
st

motion for concerns about the docket records was mooted, and her reque

present facts of the deprivation of her constitutional rights via oral argument
dispensed as defendants' desire (expressed COA4 docket7-12&14 ) by judge

to

was

Motz's
l of

curium opinion, which biasedly directed the Court's (1:24:2019) denia

n

Plaintiff's appeal on 1/24/2019. The Plaintiff demonstrated. (through her petitio

n for
for initial and rehearing_ en banc, motion to stay of the mandate and motio
ee supported by CDC funding
dIPlaintiff, Asian American pro se. was Maryland State employ
she filed discrimination and
and was terminated without mediation within two months after
.;Es initiated and
retaliation complaints with EEOC under Title VD. ADEA and ADA v,hich
er in Mar land
promoted by Plaintiff's former supervisor, Ms. Sara Barra. The Union manag
t informing the
Department of Health participated in the decision of the termination withou
33&34. COA4.
exhibit
Plaintiff (see Plaintiffs complaints, District Court's record
Plaintiffs written
(1
docket#4). The evidence were prejudicially neglected and these facts are
claim filed with the
report regarding EEOC's permission to sue accompanying with her initial
ed b. the District Corr:
District Court and a hard cop. of _HOC' s right-to-sue letter ere recei:
COA4
exhibit=1.
0.
ECF=2
and
(docketed 11/61'2017 and 312212018. ECF=1. attachment=
failed
ants
defend
(2)
:
44) prior to the District Court's dismissal of her claims. (see Abbendix=4)
Kell:— 397 U.S. 254
to provide a evidential pre-termination mediation or hearing. (Goldberg v.
actions under the
and did not submit any legitimate non-retaliatory reason for their aci\ erse
enth
er's
emolo\
McDonnell Douglas Scheme; and k3) Congress abrogated State
hearinc
a
en
complaint. Plaintiff has Ile\ .oeen Ei-%
Amendment Immunity for
Cieni•=1 of h-r
direction of the District Court's decision prior to the District Courts
s of lack of subject matter
reason
false
deprivation of her civil rights and property right due to the
ADA complaint and
to
it.
jurisdiction, failure to state the cause of claims and State's immun
chance of oral arcumen,
closure of her by Federal District Court of Maryland. no was she given a
decision den% ing
initial hearing and rehearing en banc by this Court to affirm the District Court's
ion" of Fourteenth
her claims and her petition which violated "Due process. and -equal protect
Amendment of U.S. Constitution (Anbendix75).
4

1, 23

judge Mote's

relief, see COA4, docket#28, 29. 31, 33&36), that the panel-leading

curium opinion constituted biased review, abused her discretion, and

deprived the

Plaintiff's constitutional rights under Fourteenth Amendment The

Plaintiff had

ice by granting

trusted in the Court and wish that the Court would correct this injust

her oral argument, or initial hearing or rehearing en banc under the
amendment. Although Fed. R. App. P. 2,5(f) clearly instructs that

Fourteenth

-A vote need not

be taken to deteiniine whether the case will be heard or reheard

en banc.-. the

intentional extra barrier and difficulty was brought through requesting

a poll. (by

be taken from

judge of the panel. or by the panel-leading_ judge Mori herself). to

time to review
other judges of the Court, (who were not provided sufficient

Plaintiffs appeal and petition), to determine whether the Plaintiff s

a

the

case should be
e under law

heard. This action farther blocked the Court's execution of equal justic
in the review of the Plaintiffs appeal and rehearing en banc for the

deprivation of

or protectedher property and equal protection rights or privileges -secured
ed the Court's

Congressional enforcement power and federal laws. it also direct

r% land State Aaoin-le% General with sim
F1 Judae Motz has worked for 14 years in AssisLant Ma
nt defendants- interest in the position of
responsibilities like Mr. James Nelson Lewis to represe
of Health: is accu-zi.omed- to
ment
Depart
nci
Assistant State Attorney General for Niaryia
ed a panel to create biased curiam
and
ts:
representing. Maryland government emploers• interes
of the Plaintiff s
opinions including this case which directed the Coup's l 1 24.2019) denial
?-nts. tpie
defend
of
favor
in
appeal and denial of (3,26 2019) petition for rehearing en ban,:
29&:37; her
27.
=26.
docket
see Plaintiffs petition for rehearing. and rehearing. en banc. COA4
tion for
applica
ff's
motion for concerns about docket records. COA4 docket =17: and Plainti
ffs propert-, and
suspension and motion to recuse.COA4. docker--38) and deprived the Plainti
equal protection rights under Fourteenth Amendment.
3

another (3/26/2019) order denying! the Plaintiffs petition for rehearing_ en banc
(COA4, docket#37).
The Court's (1/24/2019) judgment is in conflict with the decision of the
Supreme Court (Logan v. Zimmerman Brush CO. et al 102 S. Ct. 1148. 455 U.S.
422, 71 L. Ed. 2d 265, 50 U.S. L.W. 4247, 1982. SCT. 40870). In this case, the
Supreme Court reversed the lower Court's judgment which violated employee's
federal rights to due process and equal protection of the law.
C. Importance and necessity of prohibiting the obstructions of equal justice
for willful deprivation of Plaintiff's property- and equal protection rights
Consequently, on April 1. 2019. the Plaintiff filed her application for
suspension of the Court's (3/26/2 019) order. motion for the panel leading judge
Motz to recuse herself, and the letter to the Clerk Connor and Chief Jud2e Gregor--.
regarding the Plaintiffs case manager. Ms. Cathi Bennett's intentional and
retaliatory alteration of the Court's docket records and concealment of the evidence
with related appendix and affidavit to request that the Court prohibit the willful
and constant obstructions of the Court's equal justice and intentional deprivation of
the Plaintiffs property and equal protection rights under F. R. App. P Rule 2. Rule
S.
35, USC 28, Chap. 21 § 455. and Marshall v. Jerrico Inc.. 446 US 238. 242_ 100

Ct. 1610, 64 L. Ed. 2d 182 (1980) and Fourteenth Amendment
docket#38).

6

(COA4.

etiorL by mis-

Nevertheless, on April 12. 2019. Ms. Bennett abused her discr

er action will be taken in

applying "Local Rule 40 (d) Notice" to state that "no furth

9). because Ms. Bennett

this matter by this court', (COA4, docket*39. Appendix#

ibit the obstructions of

misinterpreted the Plaintiffs request. for the Court to proh
the Court's equal justice based on her own experience,

(through application for

suspension, motion to recuse and concerns of alteration
evidence), as "further relief. She also misinterpreted the
request for relief from the deprivation of the property and

and concealment of

filing date cf Plaintiffs

equal protection riahts

as

4/1/2019.
inconsistent_ incorrect and
The COA4 docket747. 14. 17. 23&25 indicated that there are
facts and the records transmitted from
incomplete records in COA4 #14 which do not reflect the
Also. the part of docket records of
the District Court to the Court between 8:2 and 8 7,2018.
her informal brief for 17 cia: s
COA4 docket#4 were altered and deleted. After Plaintiff filed
of oral -argument in responding :o
(COA4, docket#10) and re-addressed (10 15.2018) her need
right via their motion of extension. (..COA4.
the defendants' request to deprive her oral argument
d COA4 docket-# 1. 5 -Supplemental
docket#14 v. #12). on 10/1 8/2 018. Ms.Bennen entere
ver. she failed to pros ide and additional
assembled electronic record docketed- . Howe
on 10 16 2018 and oni - removed the
supplement transmitted by the District Court of Ma.r land
. of Mawr' !and to the Court on 8 7 2018
part of records which was transmitted by the District Court
d in COA4 CiOCket=4. The Pic-ii -'
(district courtECF#53. Appendix#6) and was initiall:s entere
dant's interference of E.EOC .
7/26/2018 filed appeal with the evidence (regarding the defen
EE0C-FOIA records,. which the District Court of la anc
investigation provided
filing :ems. but or:! transmit-Le:d cart of
refused to file and returned to Plaintiff although cashe.d her
Au:,_7ust and A;i2us7. 6.
ti\
her 7/26/2018 appeal without the exhibits to the Court respec
inating Court Infon-nation - and docket=1.
2018, were inconsistently stated in COA4 docket -Orig
Am\ Carlhern: also e% idenced17. the
This was confirmed with CSCA Clerk Ms_ Gomez and Ms.
(EC'- =-50L Ho toyer. these 7.:17=IcTilitte:-'1
USCA4 Ms. Margaret Thomas's letter dated on 8.3 2018
the District Court to ''ne Court
from
its)
exhib
out
it
k
l
appea
records of Plaintiffs 7,26;2018
found in the entire of COA4 docket records.
(8/2&8/ 6/2018, ECP48&52. Appendix=6) were not
r -; help when the- Plaintiff :isited the
of Plaintiffs case 18-1889 tile with two Court clerk office
On 8 6 2018. Ms. Bennett entered
Court and received a hard copies of records on 1 11:2019.
c from the District Court to the
COA4 docket1, but failed to disclosure the transmitted record
8.2. 8 6 and 8 7 '018 and the Court
Court regarding two set of Plaintiffs notice of appeal on
Thomas' response (8i.3/2018) to intentionally cover the
7&-8.
defendants' interference of C.S. EEOC's investigarjcm

Art
Within five days. on April 16, 2019, the Plaintiff brought civil action

and

e pursuant to

requested again that the Court execute the discretion for equal justic

42 U.S.C. 1983; "due process" and "equal protection" clauses of the

Fourteenth

ion to prohibit

Amendment and the Congressional enforcement power for the litigat

, which was

the deprivation of Plaintiffs property and equal protection rights

on the ,a.se
obstructed by panel-leading judge Motz's biased curium opinion based
te=IS.:2

infoirnation and unnecessary request of a poll (COA4. dockei7-3S. footno

nt alterations.

and the Plaintiffs case manager Ms. Bennett's intentional and consta
of the docket records and concealment of the evidence (footnote7-3 ).

ah ECF.

Surprisingly, when the Plaintiff filed her action on 4.162019 throu
she saw the Court's 4/15/2019 "MANDATE". The Court's judgment

affirmed the

District Courts reason to deny the Plaintiffs appeal based on the

disqualified

judge Mote's. curium opinion (see foot note=2. Appendix=1_3&4).

and while the

tion of the
curium opinion was demonstrated as biased review and viola
's- decision

Constitutional and federal laws and conflicted with the Supreme Court
by the Plaintiffs petition for rehearing en bane. The facts cannot be

neglected even

though the Plaintiffs petition for rehearing en bane was unlawfully

denied

unnecessary request of a poll. Especially, without entry of the order

denying the

Plaintiffs motion to stay of the mandate, it is not proper that the Cowl
mandate on 4/15/2019 based on Fed. R. App. P. Rule 41 (b). This led

issued the

to additional

if 27
process" and
obstruction to the Court's executing_ their discretion under "due
vation of the

"equal protection" of constitutional and federal law for the depri
Plaintiffs property and equal protection rights.

Given all of the _good causes stated above, and the evidence that have

been

ntial and
demonstrated by the Plaintiffs properly and timely filed seque
at a different
consequential documents with enormous exhibits; appendix Court
stage during judicial proceeding (footnote#18z3. Appendix#1-9. prior

to filing her

on). it was
appeal and informal brief; prior to and post the Court's 124 2019 decisi
were willfully
clear that the Plaintiff's property and the equal protection rights
deprived. Furthermore, the intentional and constant mistakes by the

clerk and the
ed "due

violat
panel-leading judge Motz' biased review and prejudicial actions

The evidence
process" and "equal protection" of constitutional and federal law.
st that the
stated above built the solid around for the Plaintiff to respectively reque
Court recall the mandate for the judges of the _Court to review. The
Court has held that "the courts of appeals are recognized to have an

C.S. Supreme

inherent power

to recall their mandates." Calderon v. Thompson. 523 U.S. 538. 549

(1998). Recall
ission Corp.

of the mandate is reviewed for an abuse of discretion. Invention Subm

tion of an

v. Dudas, 413 F.3d 411, 414-15 (4th Cir. 2005) (finding. reconsidera
appellate determination appropriate if there is a dramatic change in

law. siolificant

new evidence, or blatant error that would result in serious injustice).

Thus. the

judge-made mandate rule is not wholly inflexible. United States v. Bell,

988 F.2d

247, 251 (1st Cir. 1993) ("After all, the so-called 'mandate rule' . . . is

simply a

tionspecific application of the law of the case doctrine and, as such. is a discre
guiding rule subject to an occasional exception in the interests of justice.").
D. Conclusion
ial
WHEREFORE, in addition to her sequential documents and consecruent
requests
requests for suspension, recuse and civil action, the Plaintiff respectfully
t, and

that the Court recall the mandate and vacate the Court's 1 .24 2019 i. udgmen

manif
execute the discretion in stopping the consequences of default-caused
injustice and enforcing a comprehensive review and investigation of the

est

Plaintiff's

case under Fed R. App. P. 41 (b)&.(c). Fed. R. App. P Rule 2. 42 U.S.C

. §.1983.
, and the

"Due Process" and "Equal • protection" clauses of Fourteenth Amendment
Congress's enforcement power for depriving a person of rights or

privileges

"secured or protected" by the Constitution or U.S. law (Screws v. U.S. 325

U.S. 91.

98-100).

Respectfully submitted.
•
.,
Xiao-Ying Yu. pro se
Mailing address: P.O. Box 293.
Abingdon. Nil) 21009
10

•

USCA4 Appeal: 18-1889
P ‘X 43,3

Doc: 26

Filed: 01/24/2019

Hg: 1 of

fir

1

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1889

XIAO-YING YTJ,
Plaintiff - Appellant,
v.
ROBERT R. NEALL, Maryland Department of Health Secretary (formerly Dennis
Schrader); DAVID BRINKLEY, Maryland Department of Budget and
Management Secretary,
Defendants - Appellees.

Appeal from the United States District Court for the District of Maryland, at Baltimore.
James K. Bredar, Chief District Judge. (1:17-cv-03260-JKB)
Submitted: January 22, 2019

Decided: January 24, 2019

Before MOTZ, KEENAN, and FLOYD, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Xiao-Ying Yu, Appellant Pro Se. James Nelson Lewis, OFFICE OF THE ATTORNEY
GENERAL OF MARYLAND, Baltimore, Maryland, for Appellees.

Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 18-1889
acitlf Oit_

kf

Doc: 26

/24/2019
Filed: 01

Ng: 2 of 2

kr 3)

PER CURIAM:
Xiao-Ying Yu appeals the district court's order dismissing her civil action that
alleged claims of workplace discrimination. We have reviewed the record and find no
reversible error. Accordingly, we affirm for the reasons stated by the district court. Yu v.
Neall, No. 1:17-cv-03260-JKB (D. Md. June 26, 2018). We deny as moot Yu's "Motion
for Concerns of the Docket Records." We dispense with oral argument because the facts
and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

2

USCA4 Appeal: 18-1889
lirt/ett/1LX

U1/24/21.319

Doc: 27-2

3, 2

Hg: 1 OT 1

I mai vages:(4 or 4)

t
FILED: January 24, 2019

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1889
(1:17-cv-03260-JKB)

XIAO-YING YU
Plaintiff - Appellant
v.
ROBERT R. NEALL, Maryland Department of Health Secretary (formerly Dennis
Schrader); DAVID BRINKLEY, Maryland Department of Budget and
Management Secretary
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

‘,0qument 20-2 Filed 03/22/18 Page
32

_
.- --...--t'g. -4.3;4:11 ATION
This form is. ------;':- I. -- — ---- •,- - ...--':-.--?
_.:.:_g•-- - • - - -: -.- .-.-. -7.,.',.. .;x: -4:•'
narliPledieR -'. ;: ,. -2- 2,- : • - . ' r----V-- ''''' -•
- . -,......--v__..
' - :: , 7. ;II .•..,........ ....•
,

'
1')A' .. i. '.-

' `...... ..,...,a1;.5,4`

.._

ea stith=eat

-

AGENCY
•
I 17A

.,. ...

and EEOC .

•

lb , Ak.i.7' - , l'-'-',
'

, .,

HOMETELEPHONE ancludt Arra Code)
41 O-67l43

-

.

CITY. STATE AND ZEP CODE
Abingdon. Maryland 21009

,

-..:

DATE OF SIXIIII

11/0711953

-hrtitioritashiRsomrattatertilitigasthissrossy.isliNs>ni

gi.;SL%r
-ktit; 7: •

STRJ=

7

•

ICAISSEDiiii*EliEDIATION BASED ON

COUNTY

Frosperileitaitirm)

•,

•
faset cgpiaprias bar (es)

-

DATE OLSCRIMINATION TOOK PLACE
EARLIEST

a COLOR

•

-

•

filtAcE
ikliiii OM

•

TELEPHONE flmebefe Area Code):
410-767-6742

MY. STATE AND ZIP CODE
Baltimore, MD 2120f

--

2Pt .,, -'
- '..,.
•3
. , .:•
. - .....„....

.•

Etm.ih.Airiti.....iiristws..........iis.0.4

Ora 50 employees

.
-.
ind Mama/ Ifigiene

-4.- '-'•

.

.

•

.

,, - ,-'

ytt •t4'''I''
. '''''If:

•

LU
C EEOC

if any
NAME i ;-- -- ".---: — --: ;---:F-..
,--,---7.7.:.::::•••
'-x•-•'A-.-,
•:Dr_ ,rr,'-r•- • . ---,:. -,-,

CHARGE NUMBER

bet=

Li RETALIATION former
•
PCd ecziviiy- Charge No. 5312014-06271, intermit
NIAGE
coregiaintrigrivrances

LK NATIONAL ORIGIN
People's 0-gerbil-to of China

El RELIGION

11 SIDC

•

ild.OTHER (Specify)
Hindle week
onvootoomitipaymiy 000
conlitrobus clitkiinitanian
and retalinicia

DSIDISABILITY
..
'

Tr m PARTICULARS ARE

'

1/1/13 • •
.

I-XTEST

.

contitmiag

.

DUCONTINUING ACTION

•

era attAidoid

partatmiass
.
.

.

.

.

.

•

.

.

.

-

•

.

.

•

P.....
e==
-=.

•

.

•

-

•

CD
"rs
r-

•
.
•
•

•

'

•

'

-13

-

-

"D
s
U

•

`..,-,

•
•
.

.

.

.. .

. -÷i rrT •
• eitlic- .
tn. rfrcl

rn c= ,e;

-C3 0 rrt
•
-r7 C3
C3

..C-

.

•

1 wara this change-tiled with both the EEOC and the Stem or local
Agency, if -Notes - riVtien decessirl lir Siine and
1-4cal 1117‘01=3Eftr)
wry- I will advise the Wrens in change my address or telephone Number
and
I will cocnieralt fully with than in the processing of my enorg
t in =mud=
I sweet- or affnm that I have teed the above charge and that it is true
to the
with their procedures.
'
best of my knowledge, infer
and belief
I dectioe eerier penatty of perjury the the foregoin

g is tnit =Id comet

/x/

SIGNATURE OF COMPLAINANT
Dath:

1. Charging Party:

EEOC Form 5- modified
r

47

.

21
/
2....

-

•

DATE

Swots so sad sAtnated ho bottom Os cods-Aped wary pishiic is sag Sir cid jots:Evian
this ...:___
arl of
2C0
Sty COM27.7460.160.0:5

,/

•

1
hio:syy Polaris

-. •

351 USCA4

ArpeA

Case 1:17-cv-03260-JKB Document

4-1 Filed 12/08/17 ?age 186 51d-R, T.t.w...3z6.0
,

STATE OF MARYLAND
AGEMENT
DEPARTMENT OF BUDGET & MAN
& BENEFITS
ES
VIC
SER
OFFICE OF PERSONNEL
EET
STR
N
STO
PRE
T
WES
301
BALTIMORE, MD 21201

-A<-

ION
NOTICE OF rIERNDNAT
loyees

in the Skilled and
ary termination of emp
lin
cip
dis
the
for
Y
ONL
e
(Us
.)er than Special AppointMents
Professional ServiceS, oth

TO:

Yiao-Ying Yu
Name

213-25-7243
Social Security Number

557 Kirkcaldy Way,
Home AdHress

.3)idemiologist II
Classification

Abingdon, MD
City/State

21009
Zip Code

tal Hygiene
Depattment of Health & Men
Name of Employing Agency
nel and Pensions
le 11 of the State Personvic
e; X Professional
Under the authority of Tit
Skilled Ser
r
you
m
fro
you
th •
ate
min
ter
Article, I hereby
This termination is Wi
ILI •
)1-.
c\ive
ect
eff
on
Service positi
judice.
!Prejudice, X Without Pre
mination within
appeal, in writing, this ter
You are advised that you may
to:
after receipt of this notice
fifteen (15) calendar days
Name:
Title:
Address:

Harold Young, III, Esquire Unit
Chief, Employee Relations
201 W. Preston. Street
Baltimore, MD 21201
CAUSE(S) FOR TERMINAT=ON

ions with dates.)
and the incidents of violat
(Specify the rules violated
inefficient in the
employee is incompetent Or
the
t
Tha
(1)
B
3
5.0
4.0
COMAR 17.0.
ee's duties;.
:Performance of the employ
dual with a-disability
t the employee is an indivi
.00MAR 17.04.05.03 B (2) Tha
essential functions of
odation-cannot perform the
who with. a reasonable accomm
the position;

. She received a =Umber of
e behavior in the workplace
.Ms. Yu displayed disruptiv
the State Medical
s behavior. She was sent 'to
disciplinary actions for thi
or determined that she is.
n. The State Medical Direct
Director for an evaluatio
eseeable future.
ies effectively in the for
not able to perform job dut

225 • USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12108/17 Payii7icif

EXPLANATION FOR TERMINATION
was determined to be the appropriate discipline.)
ation
termin
why
(State
..
ment of Health and Mental
Xiao-Ying Yu has been employed by the Maryland Depart
classified as an
been
has
Hygiene (Min) since November 4, 2009. Ms. Yu
Administration since
ion
Promot
Health
Epidemiologist II in the PreVention and
November 7, 2010.
the State Medical Director
On October 8, 2014, Management received a report from
and reliably perform the
,
tently
consis
,
safely
stating that Ms. Yu is unable to
essential duties of her position.
y exam for Xiao-Ying Yu to
On'May 19, 2014, Sara Barra requested a work abilit
Ms. Yu's appointment was
work.
to
determine whether or not she is able to return
visit was delayed because
scheduled for June 16, 2014, but the results of that
Act (FMLA). The employee
Leave
the employee. was approved for Family and. Medical
employee has been
The
2014.
12,
ber
Septem
to
was on FKLA from June 23, 2014
s. Sara Barra'
matter
d
relate
health
to
due
2014
1,
May
since
absent from work
2, 2014, and
ber
Septem
oh
Yu
ing
Xiao-Y
for
requested a second work ability exam
this
During
2014.
16,
ber
Septem
on
or
Direct
l
Medica
State
;she was seen by the
was
which
tion
evalua
atric
psychi
a
e
receiv
!vi.sit, it was recommended that Ms. Yu
the State
with
tment
appoin
-up
follow
final
Yu's
Ms.
2014.
23,
':done on September
Medical Director was on October 6, 2014.
accommodations, These
On two occasions, Ms. Yu made requests for reasonable
and/or a reclassification
isor
superv
direct
her
;accommodations included changing
with her medical condition.
to an Epidemiologist III due to symptorts associated
r reviewed the requests in
Manage
Delinda Johnson, DHMB's Equal Accesi Compliance
ures. It was
proced
and
es
polici
laws,
l
Federa
accordance with State and
d an undue hardship.
create
and
determined that these requests were not reasonable
request were
the
so
on,
strati
Admini
ion
Promot
to.the Prevention and Health
denied.
perform her job duties
pl the final report, Dr. Toney stated that Ms. Yu cannot
be able to do so
likely
not
will
and
effectively under her current supervisor,
new supervisor,
a
d
grante
be
cannot
Yu
Ms.
if
in the foreseeable future. Also,
likely continue to
will
it
as
work
to
return
she.
that
ended
recomm
not
is
ting circumstances, the
Worsen her medical condition. After considering mitiga
y termination is
histor
work
Medical Director's determination, and her entire
,
action
deemed the appropriate
DATE OF NOTICE:

10

(Signed)

f31-1L4

frie4

Tiff s of Posi ion
t

0 it

APPROVED BY:-.72>sk_
Head of Principle Unit

FATE:•

of Human Resources, Department
Please forward a copy of this notice to the Office ons Division, at the time
Relati
ee
Employ
ion:
Attent
of Budget and Management,
this notice is given to the employee.

226 USCA4

krip&k,c4-43
'

3q

t36-

ot:1170.47-e_V-3.2is
Case 1:17-cv-03260-3KB Docume t 4-1 Piled 12/08/17 Paae 188

STATE PERSONNEL MANAGEMENT SYSTEM
APPEAL AND GRIEVANCE FORM

,ptemyYr

per

)

the notice of discipline must be attached
'rtach copies of arty earlier agency decisions. If appealing a disciplinary action,

EMPLOYEE'S NAME: Xiao-Ying Yu

SS#: 213-25-7243

EMPLOYING AGENCY: DHMH, PHPA

DIV. or UNIT:

EMPLOYEE'S CLASSIFICATION: Epidemiologist II
HOME ADDRESS: 557 Kirkcaldy Way, Abingdon, MD 21009

HOME PHONE #: 410-671-9823

WORK PHONE #: 410-767-5263
(
action (attach additional
inary
discipl
Issue of employee's grievance or reason given by agency for taking
ty &
pages as necessary):
On 11/3/2014, the employee received a notice of termination based on disabili
Director stated that "if Ms. Yu
disciplinary actions. No accommodation was granted even though State Med.
she be given a trial of returning
can be granted the accommodation of a new supervisor, it is recommended that
employee returns to work, and
to regular activity." Appeals of disciplinary actions are in "abeyance" until the
cient Management's actions are
therefore, the employee has not been determined to be incompetent or
activity.
the result of supervisor's retaliation fof employee's engagement in protected
of details for termination
Date grievance or discipline was discussed with appointing authority: Not aware
ee's action (attach
State the issues of fact and law, to the extent possible, that support the employ
The employee asserts there is no factual or legal basis for the agency's
dditional Dazes as necessary):
ee's discrimination complaints, i
action. Disciplinary actions resulted from supervisor's retaliation for the employ
Policies/Practices.
Employee appeals underSPPA11 710 let seq., and EEOC Prohibited Employment
different superviosr as
Employee's Requested Remedy: Employee seeks manager to allow her to work under
g access to databases and
State Medical Director recommended, restore her epidemiologist job duties includin
information and stop all retaliation for the EEOC complaints.

a

EMPLOYEE REPRESENTED BY:
Address:
Phone Number:

EMPLOYEE'S SIGNATURE:
Please Circle Appeal Category:

(:). Termination on Probation

11 Termination
20 Suspension Without Pay
22 Emergency Suspension With Pay
30 Grievance (If complaint involves a denied reclass,
give date of last audit:

t 70-0 /4
DATE SIGNED: I /,A.(k
40 Forfeiture of Annual Leave
42 Written Reprimand
50 Involuntary Demotion
60 Denial of Pay Increase
SO Retaliation for "Whistleblower" Disclosure

PROCESSING OF THIS
FAILURE TO FULLY COMPLETE THIS FORM WILL DELAY THE
APPEAL.
APPEAL OR IT MAY RESULT IN ADVERSE ACTION ON THIS
7 Ll-3C-11

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 186701p7—cv--32ho
November 14, 2014

t'34

i
Coziit-

o'

Via E-mail and Certified Mail
Mr. Harold Young, HI, Esquire
Chief, Employee Relations Unit
Department of Health & Mental Hygiene
201 W. Preston Street,
Baltimore, MD 21201
Dear Mr. Young:
On 10/27/2014, I sent a letter to Ms. Toria Livingston inquiring about the status and reason of
termination. I have not gotten a response. On 11/3, someone delivered the termination letter to my home
(see attached letter). I wish had learned this before 11/3, as I would have made a better choice.
On 2/18/2014 when I sent the appeal and addendum of the 1." disciplinary action to you and Dr.
Sharfstein, I believe that you would not like and expect me to be terminated.
As per the instruction, I have made this appeal (see attached). I am requesting that you review and
investigate the decision to terminate me as I trust you can help me to smoothly resolve this issue. I would
like to report to you the following additional information related to my appeal.
I.

•

Cause of the termination: Ms. Yu displayed disruptive behavior in the workplace. She received a
number of disciplinary actions for this behavior

In order to respond to Sara Barra and HR properly and better communicate with management and HR, I
have spent over $23,000 in lawyer fees.
In consideration of creating a healthy working environment and CCDPC, CCDB and PHPA management,
I actively reported to the next level of management, as well as PHPA managers, about Ms. Sara Barra's
disruptive behavior (bullying, discrimination, harassment and retaliation) and bore theses unfair
treatments for years. I sent a number of reports to PHPA managers and HR indicating that the problems
and negative impacts on CCDPC and PHPA were not from me. In responding to these reports, Sara Barra
claimed-that my reporting facts and providing recommendations to managers constituted disruptive
behavior and initiated mitigation meetings and progressive disciplinary actions (even when I was out on
sick leave), changed my password to prevent me from accessing my office mail on 8/28/2014 (while I
was waiting for DI-M--1 HR Ms. Delinda Johnson's response to our reasonable accommodation request),
and required workability examinations on 5/19/2014, when I had only been out on sick leave for 12 days,
and again on 9/2/2014 when I was on FMLA leave.
I believed change of supervisor would be a reasonable accommodation. Because CCDPC director Ms.
Kristin Pier and PHPA planned, in 4/2014, to reorganize CCDPC office structure to best utilize each
employee's experience as Ms. Kristin Pier informed each of us, changing me to another group would
allow me to do my job duties and avoid the worsening my depression and anxiety. After sending the
reasonable accommodation request with MIME form, doctor's medical documentation and lawyer letter
to Ms. Delinda Johnson on 8/19/2014 as per her instruction, I wrote several e-mails to my lawyer in
August and on 9/2 and asked the lawyer to check with Ms. Johnson to see if she could consider the
accommodation to change supervisor, as I was hoping to find a solution with DHM1-1 instead of filing a
complaint with EEOC and also because returning to work and escaping from Sara Ban-a's

228 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17

Arri 7

46

°

-PIP
harassment and retaliation were my goal. I did not hear from the lawyer until the evening of the 9/2/2014,
when I got the e-mail from the lawyer that she sent the complaint file to EEOC and also to Ms. Johnson.
The following day, (9/3/2014) Ms. Johnson denied our accommodation request.
Again, on 9/29, 10/10 and 10/24, I explained in my e-mails to Ms. Johnson again that my health problem
is only caused by Sara Barra's bullying and retaliation. I stated that the completion of my reclassification
would be helpful for me to effectively work without Sara Barra's restriction and suppression, but that I
am willing to wait for a good time for management to do this and hoped she would reconsider the
accommodation as State Medical Director recommended.
Therefore, giving me disciplinary actions and denying State medical director's recommendation and
denying my reasonable accommodation request with the reason that it would create an undue hardship to
the PHPA lack factual basis. The assertion "employee is incompetent or inefficient in the performance of
the employee's duties" (COMAR 17.04.05.03 B1) is premature. The 6 appeals/grievance have been filed
but not resolved.
II. Cause of the termination: employee disability
In the "Cause(s) For Termination", it states "The State Medical Director determined that she is not able to
perform job duties effectively in the foreseeable future". In the "Explanation For Termination", it states
"On October 8, 2014, Management received a report from the State Medical Director stating that Ms Yu
is unable to safely, consistently, and reliably perform the essential duties of her position". These
statements are misrepresentations of what the State Medical Director concluded and recommended "Ms.
Yu is unable to safely, consistently, and reliably perform the essential duties of her position as an
Epidemiologist H under her current supervisor" (see his reports on 10/8 as well as 6/18 and
9/18/2014). In accordance with his recommendation, I have not applied for the disability benefit which
was one option DHMI-1 HR Ms. Livingston provided, but was hoping Ms. Johnson and Ms. Livingston
would consider the State Medical Director's recommendation. Because I was never granted a reasonable
accommodation, the assertion that "the employee is an individual with a disability who with a reasonable
accommodation cannot perform the essential functions of the position" (COMAR 17.04.05.03 B2) lacks
factual and legal basis.
Finally, I am concerned about Ms. Michelle Spencer's role as appointing authority in this case, as Ms.
Spencer signed my MS-22 on 7/24/2014 when Ms. Barra deleted and restricted my job duties and project
involvement. At that time, I explained to Ms. Spencer in person and in writing about the unfairness of the
situation, but an investigation was not completed. The change of my MS-22 triggered the series of the
internal memorandums and disciplinary actions against me, worsening the retaliation.
I hope with your kind help and investigation about Ms. Barra's claims of "disruptive behavior and 2014
PEP", management can reconsider mitigating circumstances and allow me to return to work with different
supervisor based on CCDPC and PHPA plan in 4/2014, my 5 years performance in DI-LMH (most PEP are
outstanding except Sara Barra made) and previous reports to you, other HR officers and managers. I
would very much appreciate your attention and consideration and look forward to hearing from you.

Sincerely yours,

Xiao-Ying

229 USCA4

Case 1:17-cv-03260-3KB Document 4-1 Filed 12/08/17 Pagejj,K4417.16V-3-2-bo
<&8`.
earrykoti--15,-126/
November 14,2014
Via E-mail and Certified Mail
Joshua M. Sharfstein, M.D.
Secretary
Department of Health & Mental Hygiene
201 W. Preston Street,
Baltimore, MD 21201
Dear Dr. Sharfstein:
On 10/27/2014, I sent a letter to Ms. Toria Livingston inquiring about the status and reason of
termination. I have not gotten a response. On 11/3, someone delivered the termination letter to my home
(see attached letter). I wish had learned this before 11/3, as I would have made a better choice.
On 2/18/2014 when I sent the appeal and addendum of the l e disciplinary action to you and Cc. to Mr
Young, I believe that you would not like and expect me to be terminated.
As per the instruction, I have made this appeal (see attached). I am requesting that you review and
investigate the decision to terminate me as I trust you (I also sent the letter to Mr. Young) can help me to
smoothly resolve this issue. I would like to report to you the following additional information related to
my appeal.
I.

Cause of the termination: Ms. Yu displayed disruptive behavior in the workplace. She received a
number of disciplinary actions for this behavior

In order to respond to Sara Barra and HR properly and better communicate with management and HR, I
have spent over 523,000 in lawyer fees.
In consideration of creating a healthy working environment and CCDPC, CCDB and PHPA management,
I actively reported to the next level of management, as well as NAPA managers, about Ms. Sara Barra's
disruptive behavior (bullying, discrimination, harassment and retaliation) and bore theses unfair
treatments for years. I sent a number of reports to PHPA managers and HR indicating that the problems
and negative impacts on CCDPC and PHPA were not from me. In responding to these reports, Sara Barra
claimed that my reporting facts and providing recommendations to managers constituted disruptive
behavior and initiated mitigation meetings and progressive disciplinary actions (even when I was out on
sick leave), changed my password to prevent me from accessing my office mail on 8/28/2014 (while I
was waiting for DHMH HR Ms. Delinda Johnson's response to our reasonable accommodation request),
and required workability examinations on 5/19/2014, when I had only been out on sick leave for 12 days,
and again on 9/2/2014 when I was on FMLA leave.
I believe a change of supervisor would be a reasonable accommodation. Because CCDPC director Ms.
Kristin Pier and PHPA planned, in 4/2014, to reorganize CCDPC office structure to best utilize each

•

employee's experience as Ms. Kristin Pier informed each of us, changing me to another group would
allow me to do my job duties and avoid the worsening my depression and anxiety. After sending the
reasonable accommodation request with DHMH form, doctor's medical documentation and lawyer letter
to Ms. Delinda Johnson on 8/19/2014 as per her instruction, I wrote several e-mails to my lawyer in
August and on 9/2 and asked the lawyer to check with Ms. Johnson to see if she could consider the

230 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 192 of106--/T-CV-326:
acc.ommodation to change supervisor, as I was hoping to find a solution with DHMH instead of filing a
complaint with EEOC and also because returning to work and escaping from Sara Barra's bullying,
harassment and retaliation were my goal. I did not hear from the lawyer until the evening of the 9/2/2014,
when I got the e-mail from the lawyer that she sent the complaint file to EEOC and also to Ms. Johnson.
The following day, (9/3/2014) Ms. Johnson denied our accommodation request.
Again, on 9/29 and 10/24, I explained in my e-mails to Ms. Johnson again that my health problem is only
caused by Sara Barra's bullying and retaliation. I stated that the completion of my reclassification would
be helpful for me to effectively work without Sara Barra's restriction and suppression, but that I am
willing to wait for a good time for management to do this and hoped she would reconsider the
accommodation as State Medical Director recommended.
Therefore, giving me disciplinary actions and denying State medical director's recommendation and
denying my reasonable accommodation request with the reason that it would create an undue hardship to
the PHPA lack factual basis. The assertion "employee is incompetent or inefficient in the performance of
the employee's duties" (COMAR 17.04.05.03 B1) is premature. The 6 appeals/grievance have been filed
but not resolved.
II. Cause of the termination: employee disability

•

In the "Cause(s) For Termination", it states "The State Medical Director determined that she is not able to
perform job duties effectively in the foreseeable future". In the "Explanation For Termination", it states
"On October 8, 2014, Management received a report from the State Medical Director stating that Ms Yu
is unable to safely, consistently, and reliably perform the essential duties of her position". These
statements are misrepresentations of what the State Medical Director concluded and recommended "Ms.
Yu is unable to safely, consistently, and reliably perform the essential duties of her position as an
Epidemiologist II under her current supervisor" (see his reports on 10/8 as well as 6/18 and
9/18/2014). In accordance with his recommendation, I have not applied for the disability benefit which
was one option DHMH HR Ms. Livingston provided, but was hoping Ms. Johnson and Ms. Livingston
would consider the State Medical Director's recommendation. Because I was never granted a reasonable
accommodation, the assertion that "the employee is an individual with a disability who with a reasonable
accommodation cannot perform the essential functions of the position" (COMAR 17.04.05.03 B2) lacks
factual and legal basis.
Finally, I am concerned about Ms. Michelle Spencer's role as appointing authority in this case, as Ms.
Spencer signed my MS-22 on 7/24/2014 when Ms. Barra deleted and restricted my job duties and project
involvement. At that time, I explained to Ms. Spencer in person and in writing about the unfairness of the
situation, but an investigation was not completed. The change of my MS-22 triggered the series of the
internal memorandums and disciplinary actions against me, worsening the retaliation.
As you know, you supported our D1LMH GIS grant application (see your letter on 12/30/2013). I have
been the lead and made the application with our core team members (see 1/2014 GIS grant application).
This application received a much higher score (in the high 80's) than the 2013 application written by Ms.
Barra. I followed up with Sara Barra (on 2/20/2014) after she and I received the notice of this GIS
application from CDC/NACDD, but I have not heard any response. I am hoping you will investigate the
"disruptive behavior and 2014 PEP" Sara Barra claimed and created for terminating me before you go to
Johns Hopkins Bloomberg School of Public Health. I believe your investigation will help management to
reconsider mitigating circumstances and allow me to return to work as the State Medical Director

231 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 1

APP,4°

3,24J.)
q3

recommended. If I have management's support, I can continue leading our team and sending our
s,
improved-GIS application by the 1/9/2015 deadline. - Doing this would require basic working condition
such as access to databases and information, (that Sara Barra has never allowed me), with a different
supervisor or even report temporarily to CCDPC office director Ms. Pier, as occurs in other DHMH
the
offices. I believe a change of supervisor is possible and reasonable given the plans to re-organize
for our
CCDPC office structure in 4/2014. This work would allow DHMH to better utilize the GIS tool
related
and
programs
Maryland chronic disease control and prevention programs as well as for other
in
policy making and changes. I hope to continue my valuable work, given my 5 years performance
ips
DHMH (most PEP are "Outstanding" except those made by Sara Barra), my good working relationsh
and
with DI-ErvfH team members and other offices; CDC, NACDD, CSTE and colleagues in other States,
very
past efforts to solve problems by communicating with managers, HR officers and you. I would
you, if it
much appreciate your kind consideration and look forward to hearing from you and meeting with
is possible.
Sincerely yours,

Xiao-Ying
Enclosed:
Termination letter
The Appeal (termination letter)
HR Ms. Toria Livingston's letter
State Medical Director's letter on 10/8, 9/18 and 6/18/2014
GIS grant supporting letter
2014 GIS grant application
2013 GIS grant application (Sara Ban-a generated), and
My DHMH ID card and key for my office desk (in certified mail only)

232 USCA4

r411'z 5' 1

4

4'r,

February 6, 2019
Patricia S. Connor, Clerk
U.S. Court of Appeals for the Fourth Circuit
1100 East Main Street, Suite 501.
Richmond, VA. 23219
Re: Case No. 18-1889, Xiao-Ying Yu v. Robert Neal (1:17-cv-03260-JKB),
Petition for Panel Rehearing and Rehearing En Banc and related exhibits
Dear Clerk Connor:
On January 24, 2019, I received the Curiam Opinion and judgment and instruction
for Petition Rehearing/ Rehearing En Banc.
I just searched this Court's website and realized there are "Petition for Initial
Hearing En Banc". However, I never have had any hearing in this Court or received any
instruction for "Petition for Initial Hearing". Based on my case situation, I am seeking

your

help for "Petition Initial Hearing" if there is more opportunity to be granted by this Court
than "Petition for Panel Rehearing and Rehearing En Banc". If so, please instruct me

for

further procedure.
To avoid missing the deadline, I file through "Petition for Initial Hearing En Banc"
based on the proceedings in my case. Meanwhile, I will pay petition fee and upload through
Petition for panel rehearing and petition for rehearing En Banc as the document I receive

d

from pacer e-file email on 1/24/2019.
The certificate of compliance and certificate of service are also enclosed.

Respectfully submitted,

Xiao-Ying Yu, pro se

Cc. Chief Judge: Robert L. Gregory

No. 18-1889

IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

XIAO-YING YU,
Plaintiff-Appellant
v.
MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET & MANAGEMENT,
SECRETARY DAVID BRINKLEY,
Defendants-Appellees

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MARYLAND

APPELLANT'S PETITION FOR PANEL REHEARING
AND REHEARING EN BANC

February 6, 2019

Xiao-Ying Yu
Mailing address:
P.O. Box 293
Abingdon, MD 21009
Telephone: 410-671-9823
Pro se plaintiff-appellant

TABLE OF CONTENTS
page
Petition for Panel Rehearing and Rehearing En Banc
I. Introduction
II. Grounds for Panel Rehearing and Rehearing En Banc

1
1
.2

Panel rehearing and Rehearing En Banc are warranted because
overlooking/mis-apprehending the material, factual and legal matters
provided in Plaintiffs complaints, Informal Brief Informal Reply Brief and
Supplemental Informal Brief and related exhibits led to biased
fact-findings and affirmation of the reasons stated by district Court
to dismiss Plaintiffs claim

2

The Curiam Opinion affirming the reason of lack of subject matter
Jurisdiction" and 'failure to state claims" to dismiss Plaintiffs
Claims stated by district Court conflicts with relevant decisions
by U.S. Supreme Court, this Court and other Federal
Circuit Courts

6

It needs to be heard through Panel Rehearing and Rehearing En Banc
That the Curiam Opinion affirming the reason "State's immunity
to employee's ADA complaint" to dismiss Plaintiff's claim stated by
District Court conflicts with relevant decisions with the standard review and
decision by U.S. Supreme Court, this Court and other Federal Court of
Appeals

13
16

III. Conclusion
Appendix

Page
Exhibit No.
App-1
Initial complaint report 11/2/2017 regarding EEOC's permission to sue
App-2
letter
EEOC's (10/16/2017) right-to-sue
Table of contents related to Plaintiff's 12/8/2017) Amended Complaint
..App-5
And summary of retaliation events
request
and
Plaintiff's 12/8/2017 (ECF#4) report to district court
App-8
to amend EEOC's records (Missed from ECF#USCA4 docket records #4)
Plaintiff's 3/19/2018 (ECF#19) updated report to district court and request
App-9
to amend EEOC's records (Missed from USCA4 docket records #1)
10/16/2017
EEOC's
submitted
Plaintiff's 3/22/2018 report (ECF#20)
right-to-sue letter, 9/2/2014 filed EEOC charge sheet and outline of her
rebuttal filed with EEOC on 4/3/2015, and updated request to amend
App-12
EEOC's records (Missed from USCA4 docket records #4)
11

TABLE OF CONTENTS
Page
Appendix
Exhibit No.
Plaintiffs "Informal Reply Brief' and "Supplemental Informal
Brief' referred Exhibits which was included in her "Motion for
Concerns of Docket Records" (original exhibitNo. 5 on 10/22/2018)

.App-13

JS44 form Plaintiff filed with District Court by selection of NLRA

.App-41

TABLE OF AUTHORITIES
Page
I. Cases
Cisneros v. United States of America, Intervenor. No. 98-2215, Part II.
(10th Cir. 2000)
Cromer v. Brown, 88 F.3d 1315, 1325-29 (4th Cir. 1996)
EEOC v. Avery Dennison Corp., 104 F. 3d 858, 861 (6th Cir, 1997)
Espinoza v. Fry's Food Stores of Arizona, Inc., D.Ariz.1990, 806 F. Supp. 855.
Fowikes v. Ironworkers Local 40, No. 12-336-cv (2nd Cir. 2015)
Godon v. North Carolina Crime Control & Public Safety,
et al, No. 99-2509, (4th Circ. 2000)
Goldstein v. Chestnut Ridge Volunteer Fire Co., 218 F 3d 337, 354-58
(4th Cir. 2000)
Harrison v. Robert E. Rubin, Secretary of the Treasury, United States
Department of the Treasury (No. 98-5019, D.C. Cir. 1999)
Hudspeth v. Figgins, C.A.4 (Va.) 1978, 584 F.2d 1345, certiorari
denied 99 S.Ct. 2013, 441 U.S. 913, 60 L.Ed.2d 386
Jones v. Calvert Group, Limited. No. 07-1680. (4th Circ., 2009)
Kimel 528 U.S. 62, 120 S.Ct. 631, 145 I.Ed. 2d 522 (2000)
Medlock v. Ortho Biotech, Inc., 164 F. 3d 545, 550 (10th Cir.)
Rush v. State Arkansas DWSN. No. 17-1457, Dec. 8, 2017 (8th Circ.)
Strothers v. City of Laurel, Maryland (4th Cir. 2018)
S. Walk at Broadlands Homeowner's Ass'n v. OpenBand at Broadlands,
LLC, 713 F. 3d 175, 184(4th Cir. 2013)

iii

15
10
..14
12
11,12
10
10
16
.7
7,8,11
.14
13,14
9, 10
8
7

TABLE OF AUTHORITIES
Page
H. Statues and Rules
Statues
1
28 U.S.C. § 46 (c&d)
11
29 U.S.C. § 151
1,5
29 U.S.C. § 1291
.9, 10
29 U.S.C. § 1601.12 (b)
2,14
..2,
Act
29 U.S.C. § 621, e. seq., The Age Discrimination in Employment
...13, 15, 16
29 U.S.C. §794(a)(b), Section 504 of the Rehabilitation Act,
11, 12, 16
10,
1964........2,
of
Act
Rights
Civil
the
42 U.S.C. §§ 2000e seq., Title VII of
2,12,13,14,
42 U.S. Code § 12101, The American with Disabilities Act Law (a)&(b)
....15, 16
2
42 U.S.C. §1981
2
42 U.S.C. §1211214
42 U.S.C. §12202-State Immunity•
16
42 U.S.C. §2000d-4a•
13, 14, 15
Eleventh Amendment to U.S. Const
1,6
Fourteenth Amendment to U.S. Const
2, 12,13
National Labor Regulation Act
Rule
7
.4
1
1

Federal Rules of Appellate Procedure 10
Federal Rules of Appellate Procedure 27
Federal Rules of Appellate Procedure 35
Federal Rules of Appellate Procedure 40

2, 5, 6
..9,10
1, 15
2, 5, 6

Federal Rule of Civil Procedure 12 (1)&(6)
Federal Rule of Civil Procedure 15 (d)
Federal Rule of Civil Procedure 54
Federal Rule of Civil Procedure 8

iv

No. 18-1889
PETITION FOR PANEL REHEARING AND REHEARING EN BANC
I. INTRODUCTION
After filing Appellant's "Informal Brief' and "Informal Reply Brief'
appealing the District Court of Maryland's judgment that dismissed her claims
(pursuant to EEOC's 10/16/2017 right-to-sue letter, Exhibit #1) of workplace
retaliation, Appellant, ("Plaintiff') filed "Supplemental Informal Brief' indicating
that part of docket records transmitted by District Court to the Fourth Court of
Appeals (USCA4) was missing. On 1/24/2019, Plaintiff received the two page
Curiam Opinion and one page judgment from this Court which affirmed District
Court's decision. According to Federal Rules of Appellate Procedure ("FRAP")
Rule 35, 28 U.S.C. §46(c&d) and 40 as well as this Court's procedure, Plaintiff
herein respectfully moves this Honorable Court for Panel Rehearing and Rehearing
En Banc because some material, factual and legal matters were overlooked; the
Curiam Opinion and consequent Judgment conflict with decisions of the U.S.
Supreme Court, this Court and other Federal Court of Appeals without providing
details to Plaintiff; and questions related to "due process of law" during the judicial
proceedings under Rule 54, 29 U.S.C. § 1291 and Fourteenth Amendment, the

omissions of facts and changes of docket records stated in Plaintiffs appeal are
exceptionally important and were not addressed. Plaintiff states the following:

1

II. GROUND FOR PANEL REHEARING AND REHEARING EN BANC
A. Panel Rehearing and Rehearing En Banc are warranted because
overlooking/mis-apprehending the material, factual and legal matters
provided in Plaintiff's complaints, Informal Brief, Informal Reply Brief and
Supplemental Informal Brief and related exhibits led to biased fact-findings
and affirmation of the reasons to dismiss Plaintiff's claims stated by District
Court.
1. Plaintiff's claims of retaliation under ADEA, ADA and Title VII were
overlooked or mis-apprehended which led to affirmation of the reason of "failure
to state claim" to dismiss Plaintiff's claims stated by District Court:
Plaintiff's complaint was based on Title VII, ADEA, ADA, 42 U.S.C.
§1981&NLRA et al.1 This complaint was filed in response to damages from
harassment, discrimination, and retaliation initiated by her immediate supervisor,
Ms. Sara Barra and tolerated and supported by MDH and MDBM managers
including the Union between Dec. 2013 and 2014 after Plaintiff's previous charges
were filed with EEOC (Exhibit#2). However, the damages from the progressive
retaliation including willful unequal/under payment, disciplinary actions, rejection
of disability accommodation and employment termination without mediation were
either omitted or misrepresented. Defendants demanded dismissal of Plaintiff's
claims for failure to state a claim and denial of her request of a second amendment.
District Court dismissed her claims under Rule 8 and 12(b)(6) with prejudice
(ECF#32&33, order 1 b). Even though the established causal connections (between
Regarding other related federal laws, see details in amended complaint, the opposition,
supplemental response in opposition to motion to dismiss and informal brief (ECF#4, 20, 30 ,
COA#10, 23&25).
2

Plaintiff's protected activities and adverse actions) and consequent damages as the
major complaint were demonstrated by enormous evidence in Plaintiff's
complaints and 39 exhibits as well as her "Informal Brief' and "Informal Reply
Brief' filed with this Court, these material, factual and legal matters were
overlooked/mis-apprehended as "find no reversible error" and only "workplace
discrimination" stated in the Curiam opinion leading to this Court to affirm District
Court's dismissal of Plaintiff's claims with the reason of "failure to state a claim"
with prejudice.
2. EEOC's right-to-sue letter and related reports provided to District Court were
ignored or omitted leading to the decision to affirm the reason of "lack of subject
matter jurisdiction" to dismiss Plaintiff's claims stated by District Court.
Plaintiff reported to District Court (11/2/2017) "I received EEOC's
conclusion and letter for right to sue for my second charge (dated 10/16/2017)"
(see ECF#1, COA docket No. "COA#"4, Exhibit.1). She updated reports to
District Court that she hold EEOC's permission letter because she requested EEOC
to reconsider their conclusion and she also requested to file second amendment
with newly discovery upon receiving EEOC recordings on 12/8/2017 (Exhibit#3);
3/19/2018 (Exhibit#4), and 3/22/2018 (Exhibit#5). Meanwhile, she provided

District Court EEOC's 10/16/2017 right-to-sue letter after she received EEOC's

3

rejection of reconsideration following her filing complaints (ECF#20, related
exhibit#1).
However, some of these related records (Exhibit#3,4&5) transmitted by
District Court were missing and some records were changed in the USCA4 docket
records (COA#4, 15&23) because District Court's receipt of EEOC's right-to-sue
letter and related reports was neglected for dismissal of Plaintiff's claims by "lack
of subject matter". This matter was initially stated in Plaintiff's "Response to
Defendants' Motion to Dismiss" on 3/22/2018 (ECF#20). The questions related to
"due process of law" during judicial proceedings and concerns about the deletion
and changes in the docket records were addressed in "Supplemental Informal
Brief" (1/16/2019, COA#23) in addition to her letter on 9/4/2018 (COA#7),
"Informal Brief'(COA#10), and "Motion for Concerns of the Docket Records"
with exhibits (10/22/2018, COA#17). Plaintiff did not receive a response for this
motion under Fed. Rules of Appellate Procedure Rule 27, yet, she was denied as
moot for this motion as stated in the Curiam opinion even though this motion and
related exhibits were referred and stated in her "Informal Reply Brief' and
"Supplemental Informal Brief' (Exhibi#6).
Obviously, without intentionally making these errors, such as denial of

receipt of EEOC's right-to-sue letter and failure to acknowledge the established
causal connection between Plaintiff's EEOC charges and defendants' adverse

4

actions; ignorance and deletion of Plaintiff's reports (USCA4 docket records)
regarding EEOC's permission to sue, and Plaintiff's request to amend new
discovery upon receiving EEOC's complete recordings on 11/21& 12/8/2017,
3/19&3/22/2018 (Exhibit#1, 3-5)2, District Court was unable to dismiss Plaintiff's
claim under Rule 8, &12(b)(1)&(6) for the reasons stated in their judgment (failure
to state claim; lack of subject matter jurisdiction; failure to provide what type of
information for amendment, and amendment would not cure the defects). District
Court failed to have "an express determination that there is no just reason to delay"
and "an express direction for entry of judgment" per instruction of Federal Civil
Procedure 54 (b) and 28 U.S.C. §1291 prior to closure of Plaintiff's case and denial
of her request for second amendment by stating any amendment would not cure
this defect. Therefore, these errors are not harmless but are reversible errors
according to the definition of Reversible Error in Wikipedia "[I]n United States
law, a reversible error is an error of sufficient gravity to warrant reversal of a
judgment on appeal. It is an error by the trier of law (judge), or the trier of fact (the
jury, or the judge if it is a bench trial), or malfeasance by one of the trying
attorneys,

which

in

results

an

unfair

trial."

(https ://en.wikip edia. org/wiki/Reversible_error)
District Court falsely stated Plaintiff does not allege that she received a right —to-sue letter in
the judgment and has not moved to amend her complaint a second time (COA#4, ECF#32. P.34); the established causal connections and related legal matters were described in her Amended
Complaint, the Response, Supplemental Oppositions and Informal Brief and Informal Reply
Brief (ECF No. 4, 20, 30 and COA#10, 23&25).

2

5

Air,
Because these reversible errors were not identified in the Curiam Opinion
and Plaintiff's concerns about these errors stated in her "Motion for Concerns of
the Docket Records" and related exhibits were denied as moot in the Curiam
Opinion; and also due to that the Curiam Opinion stated "we dispense with oral
argument because the facts and legal contentions are adequately presented in the
material before this court and argument would not aid the decisional process",3
these reversible errors need to be heard through Panel Rehearing and Rehearing En
Banc in this Court. 4
B. The Curiam Opinion affirming the reasons of "lack of subject matter
jurisdiction" and "failure to state claim" to dismiss Plaintiff's claims stated by
District Court conflicts with relevant decisions by U.S. Supreme Court, this
court and other Federal Court of Appeals.
I. The factual essence of claims about whether Plaintiff really failed to exhaust
administrative remedies and if Plaintiff provided information of EEOC's right-tosue and the established causal connections must first be articulated prior to
determining whether District Court errors are reversible.
According to commands in "Civil Litigation Management Manual" for pro
se cases, District Court is obligated to check subject matter jurisdiction and give
Plaintiff opportunity to cure defects. District Court could allow Plaintiff to file
second amendment of her complaint or to grant jury trial prior to closure her case.
However, District Court refused to provide any of these opportunities for Plaintiff
3 Defendants requested this Court for not having oral argument (see COA#12 &14)

Plaintiff reported that these material, factual and legal matters (COA#4, 7, 10, 17, 23&25) were overlooked;
and her motion was denied as moot and her request for oral argument was rejection. Plaintiffs right to be
heard for the questions related to due process of law in District Court's proceeding under Fourteenth
Amendment and consequent changes of the docket records is warranted.

4

6

Instead, District Court adopted the false reasons of "lack of subject matter of
jurisdiction" and "failure to state claim" to dismiss her claims under Rule 8 &12
(b)(1)&(6). Pro se complaint alleging deprivation of rights under color of state law
should not be dismissed for failure to state a claim unless it appears beyond doubt
that plaintiff can prove no set of facts in support of his claim which would entitle
him to relief Hudspeth v. Figgins, C.A.4 (Va.) 1978, 584 F.2d 1345, certiorari
denied 99 S.Ct. 2013, 441 U.S. 913, 60 L.Ed.2d 386.
District court referred their previous case for making the reason of "lack of
subject matter jurisdiction" to dismiss Plaintiff's claims. However, this case (S.
Walk at Broadlands Homeowner's Ass 'n v. OpenBand at Broadlands, LLC, 713 F.
3d 175, 184(4th Cir. 2013)) was not comparable with Plaintiff' situation because
District Court received the information of EEOC's permission to sue along with
Plaintiff's initial pleading as described above. Even though her reports to District
Court regarding this matter (transmitted by the District Court to USCA4) were
missing, Plaintiff's "Supplemental Informal Brief' in addition to her letter and
"Motion for Concerns of the Docket Records" and related exhibits should be able
to bring this to Court's attention (Exhibit#6) under Federal Rules of Appellate
Procedure Rule 10. The Record on Appeal (a)(1) &(e).

This Court judge Traxler, Shedd and Senior Judge Hamilton stated how to
identify if there were false reasons for district court to dismiss an employee's claim

7

5-3
by the reasons of lack of subject matter jurisdiction and failure to state claim in the
alleged claims of workplace retaliation: Jones v. Calvert Group Limited. No. 071680. (4th Circ., 2009).
Also, this Court Chief Judge Gregory (joined by judge Diaz and Harris)
hold the workplace harassment, discrimination and retaliation claims, Strothers v.
City of Laurel, Maryland (4th Cir. 2018) and addressed 8 key points to determine
whether the factual issues existed in plaintiff's complaint and if plaintiff stated her
retaliation claims by demonstrating a prima facie retaliation, such as: proof of
plaintiff engaged protected activities; her immediate supervisor's harassment and
discrimination; sufficient severe or pervasive adverse actions to alter terms or
conditions of her employment and create abusive environment; determination if
employer was negligent in failing to address ongoing harassment of employee; and
examine the causal connection. "[WJe therefore concluded that Strothers has
shown, at the summary judgment stage, sufficient facts to support a causal
connection between her complains about Koubek's harassment and her termination
by the City." He reversed the decision of district Court of Maryland and remanded
for further proceedings consistent with this opinion.
2. The Information related to EEOC's permission to sue and EEOC's right-to-sue

letter enclosed in Plaintiff's reports along with her complaints and her "Response
to Defendants' Motion to Dismiss" which were filed with District Court should be
permitted to serve as the supplemental pleadings under Rule 15 (d), and the
Curiam Opinion affirming the reason of "lack of subject matter jurisdiction" to
dismiss Plaintiff's claims lacked factual and legal ground.
8

As described above, District Court stated "Plaintiff does not allege that she
received a right—to-sue letter" to dismiss her claim and rejected her request for
second amendment stated in multiple letters and "Supplemental Response in
Opposition to Defendants' Motion to Dismiss " (filed by her attorney, 5/11/2018,
ECF#30).
Question is whether evidence of EEOC' s permission to sue and her request
of second amendment filed with District Court between 11/2/2017 and 3/22/2018
(as described above) should be kept in the docket records and permitted to serve as
supplemental pleading for her exhaustive administrative remedies and request for
second amendment. Federal Rule of Civil Procedure Rule 15 Amended and
Supplemental Pleadings (d) instructed Court:
"SUPPLEMENTAL PLEADINGS. On motion and reasonable notice, the
court may, on just terms, permit a party to serve a supplemental pleading
setting out any transaction, occurrence, or event that happened after the date
of the pleading to be supplemented. The court may permit supplementation
even though the original pleading is defective in stating a claim or defense."
In Ruth v. State Arknesas DWS No. 17-1457 (8th Cir. 2017) claims under
Title VII, the Judge reversed district court's reversible error, remand with the
direction to allow Ruth to amend her pleadings based on 29 C.F.R. 1601.12(b):
" A change may be amended to cure technical defects, including defects or

omissions, including failure to verify the changes, or to amplify allegations
therein."
Therefore, according to Rule 15 (d) and 29 C.F.R. 1601.12(b), affirming
District Court's dismissal of Plaintiff's claim for lack of subject matter jurisdiction
and prohibition her from filing second amendment for not being able to cure the
defects and filing too late lacked factual and legal ground.
3. The Curiam Opinion affirming the reasons of "lack of subject matter
jurisdiction" and 'failure to state claim" to dismiss Plaintiff's claims stated by
District Court conflicts with standard reviews and relevant decisions made by this
Court, other federal Court of Appeals and U.S. Supreme Court.
First, the Curiam Opinion is not consistent with the judgment which the
Judge Motz herself participated along with this Court's former Chief Judge
Wilkinson and Judge Niemeyer for the claims of retaliation under Title VII and
civil rights in the case Godon v. North Carolina Crime Control & Public Safety, et
th
al, (No. 99-2509, 4 Circ. 2000). Godon was dismissed by district court for failure
to state a claim upon which relief can be granted under Rule 12(b)(6). This Court
stated "[T]he current forecast of the evidence, when viewed in a light most
favorable to Godon, tends to show that she was terminated because she spoke as a
citizen on matters of public concern. See Goldstein v. Chestnut Ridge Volunteer
Fire Co., 218 F 3d 337, 354-58 (4th Cir. 2000); Cromer v. Brown, 88 F.3d 1315,
1325-29 (4th Cir. 1996)" Accordingly, this Court affirmed in part, vacated in part,
and remanded for Godon's case.
10

Second, the Curiam Opinion conflicts with the previous decisions made by
this Court Judges Traxler, Shedd and Hamilton (senior Judge), for the alleged
claims of workplace retaliation and dismissal due to lack of subject matter
jurisdiction: Jones v. Calvert Group Limited. No. 07-1680. (4th Circ., 2009): This
Court stated: "[w]e vacate the judgment against Jones on the merits of her age, sex,
and race claims and we remand to the district court for dismissal of those claims
for lack of subject matter jurisdiction because of Jones's failure to exhaust
administrative remedies. (the Court footnote#1: Jones seeks no relief from this
court regarding the dismissal of her breach of contract cause of action)."
Regarding determination of reversible errors, Second Circuit Court reviewed
the dismissal of the claims of the workplace discrimination and retaliation for lack
of subject matter jurisdiction in Fowlkes v. Ironworkers Local 40, No. 12-336-cv
(2nd Cir. 2015). The judge examined the records regarding the plaintiff's failure to
exhaust the administrative remedies for Title VII claims and the claim of breach of
the duty of fair representation under National Labor Relations Act (NLRA), the
judges concluded that " [t]he district court erred in its determination that Fowlkes's
failure to exhaust administrative remedies deprived it of subject matter jurisdiction
over his Title VII claims. In addition, we concluded that Fowlkes has stated a

federal claim under NLRA, 29 U.S.C. § 151, et seq. for the local's breach of its

11

Apr
duty of fair representation. Accordingly, we vacate the judgment dismissing
Fowlkes amended complaint and remand the cause to the district court."
Here, the complaints and appeal Plaintiff filed include the claim of that
Union manager breeched her duty of fair representation and whose action was
sufficient sever to alter the termination (ECF#4). Because Plaintiff provided ample
evidence that both Union and defendants' managers had failed in their alleged duty
by negligently failing to address ongoing harassment, discrimination and
retaliation (ECF#20 & related exhibit#3, ECF#4 & related exhibit#1,12&20;
COA#10, 23&25), she believed that her major complaints under Title VII, ADEA
and ADA were also related to Fair Labor Standards Act and National Labor
Relations Act and thus she made selection of related rules on JS 44 form
(Exhibit#7). It is not proper for District Court to allege that Plaintiff did not
correctly categorize legal theories (ECF#32, p12, 1st paragraph, L12-13) and
decide "To the extent Plaintiff has attempted to bring any of these claims, they will
be dismissed" because the pleading does not need to correctly categorize legal
theories giving rise to the claims, and the court will not dismiss complaint merely
because plaintiffs allegations do not support particular legal theory advanced.
Espinoza v. Fiy's Food Stores of Arizona, Inc., D.Ariz.1990, 806 F. Supp. 855.

Nevertheless, Plaintiff's claim under NLRA should not be neglected in
Curiam Opinion and judgment prior to affirming District court's decision even

12

Irf 58
though Plaintiff was unable and can not provide more details about Union
manager's failure of her duty and specific detail section of NLRA by pages
limitation of her complaints, her "Informal Brief' and this petition.
C. It needs to be heard through Panel Rehearing and Rehearing En Banc that
the Curiam Opinion affirming the reason of "State's immunity to employee's
ADA complaint" to dismiss Plaintiff's claim stated by District Court conflicts
with relevant decisions by U.S. Supreme Court, this court and other Federal
Court of Appeals.
Plaintiffs claims of the retaliation include that her position and seniority job
duties in federal CDC 1305 funds program were deprived and interfered with by
Ms. Barra although Plaintiff was the only epidemiologist with 100% of time
devoted to CDC-1305 funds program (ECF#4). Also, Plaintiff addressed the
Congress's abrogation of State's immunity to ADA claims and her right to be
protected under the Section 504 of Rehabilitation Act, 29 U.S.C. §794 (b),
incorporating 42 U.S.C. §2000d-4a as the State's receipt of CDC 1305 funds which
means defendants waived their Eleventh Amendment Immunity to law suits under
ADA (ECF#20&30). These factual and legal matters were overlooked when the
Curiam Opinion affirmed District Court's decision for State's immunity to her
ADA claim.
Under the McDonnell Douglas scheme, if defendant submits no evidence of
any legitimate non-retaliatory reason for its adverse actions alleged by Plaintiff,
district court should not dismiss Plaintiffs claims. Medlock v. Ortho Biotech Inc.,

13

164 F. 3d 545, 550 (10th Cir.); EEOC v. Avery Dennison Corp., 104 F. 3d 858, 861
(6th Cir. 1997). Here, defendants did not provide evidence of a legitimate, nonretaliatory reason for their adverse actions that were indicated by the causal
connections between Plaintiff's EEOC charges and the retaliation and damages
done by Ms. Barra and Ms. Johnson (ECF#4, p. 6-13; COA #10 &23).
However, District Court adopted the defendants' reasons for Eleventh
Amendment Immunity to dismiss Plaintiff's ADA claim by stating that Congress
has not abrogated Eleventh Amendment Immunity for ADA or ADEA, and
Plaintiff does not assert a Rehabilitation Act claim in her complaint and has not
alleged that State has accepted qualifying federal funds.
In fact, the House report on the ADA indicated, "inconsistent treatment of
people with disability by state or local government agencies is both inequitable and
illogical". (H.R. Rep. No. 101-485 (II), at 37 (1990)). "The Court should hold that
Congress' prohibition of disability discrimination by state governments as
employers is within its power conferred by section 5 of the Fourteenth Amendment
and that, therefore, Congress' clear abrogation of Eleventh Amendment immunity
in suits under the ADA is valid" (42 U.S.C. §12202).
Based on the analyses of Kimel 528 U.S. 62, 120 S.Ct. 631, 145 I.Ed. 2d 522
(2000) and others opinions for ADEA and ADA claim, the court "hold that the
ADA validly abrogated 11th Amendment Immunity so that Plaintiff's ADA claims

14

Aff
against the defendants are not barred by the immunity". Cisneros v. United States
of America, Intervenor. No. 98-2215, Part II. (10th Cir. 2000).
Thus, District Court failed to indicate how defendants' immunity to
Plaintiff's ADA claim can be outside of the control of Congress' clear abrogation
of Eleventh Amendment Immunity in suits under the ADA especially when
Plaintiff's seniority job (supported by the CDC funds) was terminated against her
ADA claim; Defendants failed to provide evidential materials to show that any and
all of Plaintiff's exhibits from different resources (ECF#4, related exhibit #9, 21,
22, 26 &29, and ECF#20, related exhibit#3) related to the activities involving
Federal CDC 1305 program funds did not exist, or were invalid, or that defendants
never received CDC 1305 program funds. Furthermore, defendants failed to
demonstrate that they had not waivered State's immunity when they received
Federal CDC 1305 program funds. Finally, defendants failed to indicate that the
federal CDC 1305 .program funds, (received and used by defendant and many coworkers and County Health Department in Maryland, as well as received by many
other States of the United States), does not qualify for "the certain federal funds"
which is defined to mean that all of the operations of "a department, agency,
special purpose district, or other instrumentality of a State or of a local

government," or "the entity of such State or local government that distributes such

15

assistance and each department or agency... to which the assistance is extended".
(504 Rehabilitation Act, 29 U.S.C. §794 (b), incorporating 42 U.S.C. §2000d-4a)
In the case Harrison v. Robert E. Rubin, Secretary of the Treasury, United
States Department of the Treasury (No. 98-5019, D.C. Cir. 1999) related to Title
VII and ADA claim, because district court denied Harrison to amend her complaint
to correct an erroneous statutory citation and erred in finding her claims, District of
Columbia Circuit reviewed the denial of a motion to amend (Rehabilitation Act)
for abuse of discretion. Therefore Court reversed the dismissal of appellant's Title
VII claims and remand to the district court for further proceedings.
III. Conclusion
Plaintiffs appeal is based on the ground that District Court made erroneous
findings of facts; ruled on errors of laws and failed to provide due the process of
law in judicial proceedings in order to dismiss Plaintiffs claims. However, these
materials, factual and legal matters of District Court's proceedings and decisions
were overlooked, and the Curiam Opinion and judgment conflict with relevant
decisions made by this Court and other federal Court of Appeals as well as U.S.
Supreme Court. Plaintiff respectfully requests this Court to reverse/partially
reverse the judgment of District Court with appropriate remedies, or vacate District

Court's judgment against Plaintiff on claims under Title VII and ADA and remand

16

to District Court for further proceedings, including reasonable discovery and jury
trial with the opinions and decisions made by this Court.

Res ectfully submitted

Dated February 6, 2019

iao-Ying Yu, pro se
Mailing address:
P.O. Box 293
Abingdon, MD 21009

17

47:54z
Appeal: 18-1889

Doc: 37

Hier:

vg: J. U f
FILED: March 26, 2019

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1889
(1:17-cv-03260-JKB)
XIAO-Y1NG YU
Plaintiff - Appellant
v.
ROBERT R. NE ALL, Maryland Department of Health Secretary (formerly Dennis
Schrader); DAVID BRINKLEY, Maryland Department of Budget and
Management Secretary
Defendants - Appellees

ORDER
The court denies the petition for rehearing and rehearing en bane. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en bane.
Entered at the direction of the panel: Judge Motz, Judge Keenan, and Judge
Floyd.
For the Court
is! Patricia S. Connor, Clerk

Case 1:17-cv-03260-JKB Document 1-1 Filed 11/06/17 Page 1 of 1
6, 1
November 2, 2017
Clerk Felicia C. Cannon
United States District Court
For The District Court Of Maryland
101 West Lombard Street
Baltimore, MD 21201

ENTERED
---.--- FILED
LODGED,,RECEIVED
V 06 2017
AT FALTIMORE
CLERK U.S. DISTRICT COURT
DISTRICT OF MARYLANDDEPUTY
EY

JKB17CV3260

Dear Clerk Cannon:
I filed a charge of age, national origin and disability discrimination and retaliation with EEOC in
Baltimore Office on 9/3/2014 because of adverse actions in retaliation for my previously filing a
charge of my former supervisor Ms. Sara Barra's harassment, age and race discrimination and
retaliation behavior with EEOC on 11/12/2013. I was granted the right to sue by EEOC on
11/26/2013, although I did not filed lawsuit.
On 10/21/2017, I received EEOC's conclusion and letter for right to sue for my second charge
(dated 10/16/2017). However, I have some concerns and am hoping that the EEOC director will
reconsider the conclusion.
While I am waiting for EEOC's reconsideration and a copy of the administrative file for this
charge, I am filing this complaint because the statute of limitation is 3 years for filing a
complaint about willful underpayment and wrongful termination. I am requesting to amend my
complaint and related exhibits and also provide certificate of service and summons to defendants
when I receive complete information from EEOC.
Enclosed please find the Civil Cover Sheet, the Complaint I completed according to the video
instruction on your website and filing fee with personal check 5400. Please instruct me on how
to successfully file my complaint in the Honorable Court. Your kind attention and consideration
are highly appreciated.
Very respectfully submitted,
iao- g Yu
557 Kirkcaldy Way
Abingdon, MD 21009
Home phone: 410-671-9823

17 USCA4

Aree.1;,k
.IS 44 (Rev. 06/17)

Case 1:17-cv-03260CalIDCOMERailfkid 11/06/17 Page 1 of 1

. The JS 44 civil cover sheet and the information contained herein neither replace nor supplement the filing and service of pleadings or other papers as required by law, except as
provided by local rules of court. This form, approved by the Judicial Conference of the United States in September 1974, is required for the use of the Clerk of Court for the
purpose of initiating the civil docket sheet. (SEE INSTRUCTIONS ON NEXT PAGE OF THIS FORM.)

DEFENDANTS
Maryland Department of Health, Secretary:
Mr. Dennis Schrader
FILEDarsr
ecretai
Maryland Department of Budge Losibilar
EC
Mr. David Brinkley

1. (a) PLAINTIFFS
Xiao-Ying Yu
(b)

Harford County

County of Residence of First Listed Plaintiff

(EXCEPT IN U.S. PLAINTIFF CASES)

NO
County of Residence of First Listed Defendant

(C) Attorneys (Firm Name. Address, and Telephone Number)

0 6 2017

Baltin; 0rettT enn

(IN U.S. PLAINTIFF CASES OAcW RK US. DISTRICT COURT

JKR17CV326U

NOTE:

IN LAND CONDEMNATION CASES, LeWTHE LOgfilliSk%

THE TRACT OF LAND INVOLVED.

III. CITIZENSHIP OF PRINCIPAL PARTIES (Place an 'X'' in One Box for Plaimif

II. BASIS OF JURISDICTION (Place on rn One Box Only)

and One Box for Defendant)

(For Diversity Cases Only)

3 Federal Question

0 1 U.S. Government
Plaintiff

(U.S. Government Not a Party)

0 2 U.S. Government
Defendant

0' 4 Diversity

IV. NATURE OF SUIT

Place on -X - in One Box On)

(Indicate Citizenship of Parties in Item III)

,

. CONTRACT
I 10 Insurance
0 120 Marine
0 130 Miller. Act
0 140 Negotiable Instrument
0 150 Recovery of Overpayment
& Enforcement of Judgment
0 151 Medicare Act
0 152 Recovery of Defaulted
Student Loans
(Excludes Veterans)
0 153 Recovery of Overpayment
of Vetaan's Benefits
0 160 Stockholders' Suits
0 190 Other Contract
0 195 Contract Product Liability
0 196 Franchise

REAL1PROPERTY
ci 210 Land Condemnation
0 220 Foreclosure
0 230 Rent Lease & Ejectment
0 240 Torts to Land
0 245 Tort Product Liability
0 290 All Other Real Property

PERSONAL INJURY
310 Airplane
tt 315 Airplane Product
Liability
IL 320 Assault, Libel &
Slander
U 330 Federal Employers'
Liability
13 340 Marine
U 345 Marine Product
Liability
U 350 Motor Vehicle
I; 355 Motor Vehicle
Product Liability
11 360 Other Personal
Injury
U 362 Personal Injury Medical Malpractice
, CIVILRICaEES
3( 440 Other Civil Rights
0 441 Voting
X 442 Employment
0 443 Housing/
Accommodations
X 445 Amer. w/Disabilities Employment
0 446 Amer. w/Disabilities Other
0 448 Education

V. ORIGIN (Place an "X"' in One Box Only)
0 2 Removed from
A Original
State Court
Proceeding

Citizen of This State

PTF DEF
a I Incorporated or Principal Place
EI
of Business in This State

Citizen of Another State

17 2

Citizen or Subject of a
Foreign Country

fl 3

.7t:,t;,.:YORFETEUIRECPENALTY

TORTS

11

PERSONAL INJURY
0 365 Personal Injury - •
Product Liability
0 367 Health Care/
Pharmaceutical
Personal Injury
Product Liability
0 368 Asbestos Personal
Injury Product
Liability
PERSONAL PROPERTY
0 370 Other Fraud
0 371 Truth in Lending
380 Other Personal
Property Damage
0 385 Property Damage
Product Liability

9 625 Drug Related Seizure
of Property 21 USC 881
0 690 Other

0 4 Reinstated or
Reopened

a

Q5 . 115
6 U6

3 Foreign Nation

Click here for. Nature of Suit Code Descriptions.
omr.RsTATErrEs
RANKRUnet;
' 422 Appeal 28 USC 158
' 423 Withdrawal
28 USC 157

soaiasEcuRrry

' 861 H1A (139511)
0 862 Black Lung (923)
' 863 DIWC/DIWW (405(g))
0 864 SSID Title XVI
' 865 RSI (405(g))

FEDERAL TAXSETES .
0 870 Taxes (U.S. Plaintiff
or Defendant)
0 871 IRS—Third Parry
26 USC 7669

5 Transferred from
Another District
(spedfi)

PIT DEF
44
11 4

1:1 2 Incorporated and Principal Place
of Business In Another State

PROPERTYRIGHTS .
0 820 Copyrights
0 830 Patent
0 835 Patent - Abbreviated
New Drug Application
0 840 Trademark

I1( 710 Fair Labor Standards
Act
X 720 Labor/Management
Relations
0 740 Railway Labor Act
' 751 Family and Medical
Leave Act
P111.90NER PETIT-10PM'; 0 790 Other Labor Litigation
Habeas Corpus:
0 791 Employee Retirement
0 463 Alien Detainee
Income Security Act
0 510 Motions to Vacate
Sentence
0 530 General
0 535 Death Penalty
GRATION
Other:
9 462 Naturalization Application
0 540 Mandamus & Other
0 465 Other Immigration
0 550 Civil Rights
Actions
0 555 Prison Condition
0 560 Civil Detainee Conditions of
Confinement

0 3 Remanded from
Appellate Court

:
3:
ELAND
DEF!

7

0 375 False Claims Act
' 376 Qui Tam (31 USC
3729(a))
0 400 State Reapportionment
0 410 Antitrust
0 430 Banks and Banking
450 Commerce
0 460 Deportation
0 470 Racketeer Influenced and
Corrupt Organizations
0 480 Consumer Credit
0 490 Cable/Sat TV
0 850 Securities/Commodities/
Exchange
0 899 Other Statutory Actions
0 891 Agricultural Acts
0 893 Environmental Matters
0 895 Freedom of Information
Act
0 896 Arbitration
0 899 Administrative Procedure
Act/Review or Appeal of
Agency Decision
0 950 Constitutionality of
State Statutes

0 6 Multidistrict
Litigation Transfer

Cite the U.S. Civil Statute undeEwhich you are filing (Do not ciscjarisdgerional statutes .nles s divosizy): _

❑ 8 Multidistrict
Litigation Direct File
4

1-A.a4i.2.1

AAA, ADEA ,`Tifik. VII of-tie enti't RI/K Att. filift.g.r, *2 i I ,S.C... f lygi Ecria9layeisetiNT. 631fJAVor AdVI. CAUSE OF ACTION Brief description
of ca :
iidtaul.
di
y et•scrin)fulivn and reikt4ftn "fai #7 Pm/try-41 g
to44 EF-Pc ,;) 24i ,
0
REQUESTED IN
COMPLAINT:
RELATED CASE(S)
IF ANY
DATE
inn

CHECK IF THIS IS A CLASS ACTION
UNDER RULE 23, F.R.Cv.P.

DEMANDS 50) 00 P

,

CHECK YES only if demanded in complaint
JURY DEMAND: *Yes allo

(See instructions):

JUDGE

DOCKET NUMBER

SIGNATURE OF ATTORNEY OF RECORD
r•C, /MC s,or ^WI N./

18 USCA4

RpsdA- 7:
December 7, 2017
Clerk Felicia C. Cannon
United States District Court
For The District Court Of Maryland
101 West Lombard Street
Baltimore, MD 21201
Re: Civil Action No. HO 17-cv-3260

dog a

BALTIMORE-NIGHT BOX

21117 DEC -8 PH

I

U.S. BANXRUPTCY COURT
DISTRICT OF

YLAND

Dear Clerk Cannon:
artment of Health
mons for each defendant (Maryland Dep
I submitted 2 copies of completed sum
your order
Management) on December 6, 2017 as
and
get
Bud
of
ent
artm
Dep
nd
ryla
Ma
and
requested (dated 11/16/2017).
my previous
ne, I am submitting my amendments for
pho
the
r
ove
tion
ruc
inst
cer
offi
r
you
As
ted exhibits.
complaint (filed on 11/2/2017) and rela
my
case in EEOC and requested a copy of
my
te
tiga
ves
rein
to
t
ues
req
my
d
file
I
Although
EEOC. I would
inistrative Office, I have not heard from
charge file in Philadelphia EEOC Adm
C.
soon as I receive a response from EEO
like to submit additional information as
s. Your kind
signed complaint and related 39 exhibit
Enclosed please find the updated and
appreciated.
attention and consideration are highly

Very respectfully submitted,
2uao-Ping Yu
557 Kirkcaldy Way
Abingdon, MD 21009
Home phone: 410-671-9823

Arp
No.18-1889: Exhibit No. 2-Petition for Panel Rehearing and Rehearing En Banc
TABLE OF CONTENTS OF AMENDED COMPLAINT DEC. 2017
page
1
Jurisdiction in this case is based on
.2
The facts of this case are (Three stages)
.2
Cause of claims and allegations
Cause and retaliation related to the 1St charge filed with EEOC under ADEA and Title VII
2
I. Underpayment of salary
3
II. Reports of retaliation for engagement in protected activities
3
Downgraded Ms. Yu's performance evaluation
4
Refused response
4
Made confusion
.4
file
Missing MS-22 and evaluation forms in Ms. Yu's personnel
4
Blocked Ms. Yu to access to job-related information
4
reports
and
data
Yu's
Refused to use Ms.
4
Forbade Ms. Yu to report her work and clarify the confusion at staff meeting
.4
Ms. Yu sought the office director's help
.5
Changed Ms. Yu's MS-22 job description
5
Requested CDC to replace Ms. Yu
5
Ms. Yu filed grievance
5
Ms. Barra generated internal consulting memorandum
5
Ms. Yu filed charge in EEOC
6
1/3/2013
as
Ms. Barra generated same improvement memorandum
Ms. Yu's reports to MDH Office of Equal Employment Program ("OEOP")
6
Director triggered disciplinary action
6
1st disciplinary action
6
2nd disciplinary action
7
3td disciplinary action
7
4th disciplinary action
7
action
5th disciplinary
Cause of disability and retaliation related to the 2nd charge with EEOC
III. Damages to Ms. Yu's health and further discrimination and retaliation
7
(Complaint Filed in U.S. EEOC under Title VII, ADEA and ADA)
8
1) Damages to Ms. Yu's health by•
.8
Frequent confusion
Refusing to respond or rejecting Ms. Yu's requests for normal
8
Working condition
award
8
received
Yu
Ms.
that
learned
Harassment after Ms. Barra
9
Retaliation
9
Abuse
...9
Bullying
9
2) Diagnoses
9
3) Approved FMLA
1

TABLE OF CONTENTS OF AMENDED COMPLAINT DEC. 2017-Continued
Page
Harassment following disability diagnosis
Accommodation request
Emergency and hospitalization
The charge of discrimination and retaliation filed in EEOC under
Title VII, ADEA and ADA
Retaliation against the charges filed with EEOC in 2013 & 2014
Counts and Allegations of damages supporting her case of actions and
request of relief
I. Willful underpayment
II. Disability-discrimination, harassment and retaliation after Ms. Yu filed
charge in EEOC under ADA in 2014
1) Immediate retaliation
2) Refusal to respond to Ms. Yu's accommodation requests
3) Rejection of accommodation recommended by State Medical Director,
Psychiatrist and Psychological Institution
Ms. Barra contacted HR, which triggered HR's termination plan
Restructure of the office as pretext of "undue hardship"
4) Rejection of Ms. Yu's friend's donated employee's leave
5) Unlawful termination
III. Retaliation for Complaints reported to MDH managers and filed in EEOC
In 2013 and 2014 under Title VII and ADEA

9
.10
10
10

.10
10
10
10
10
11
..11
11
11
11
12
13

3. The relief I wanted the court to order

2

Xiao-Ying Yu's termination resulted
from the supervisor's retaliation

More engagement in protected
activities, retaliation worsened:
Got more frequent harassment and
progressive disciplinary actions
(once per month), Sick, FMLA and
required accommodation

Sara Barra did not allow the
Complainant to meet Dr.
Donald Shell when he
requested to meet each
CCDPC employee: Reported
Sara's discriminatory behavior
to next level management (Dr.
Shell) on 3/1312012, and
12/5/2012 and sought help as
she was fearful about working
under Ms. Barra's supervision

Reported to EEOC the retaliation
9/2/2014, got the rejection of
accommodation request and
rejection of leave of absence 9/3

Retaliation —Downgraded Performance
evaluation 1/2/2013: Complainant sought
help from Dr. Shell, then was
recommended to report to HR relations,
but employee was afraid to get into a
more complicated and worse situation, so
bore all of the unfairness and did not
report to HR

DHMH restructured CCDPC Office
and changed Ms. Yu's job title
10/2014

Retaliation-internal memorandumsto
restrict the Complainant to function as
MS 22 and CDC 1305 grant required:
Filed the initial EEO complaint
on11/12/2013. As the rejection of the
grievance (to MS-22) by PHPA, sought
help from DHMH HR Employee
Regulations on 12/2/2013 and DHMH
EEO 1/9, 1/30, 2/2/2014 regarding Ms.
Barra's discrimination, bullying,
harassment, unfairness and retaliation

DHMH HR required Ms. Yu to
resign or retire on 10/10/2014, EEO
denied the accommodation on
10/14/2014
Got Disciplinary termination on
11/3/2014
Sent the appeal of termination on
11/14/2014

Retaliation-Prevented the
Complainant from participating in
projects and accessing to database&
information: sought help from Dr.
Shell and was fearful about loss of
job

Retaliation -Deleted employee's job
duties &projects, restricted the
communication and focused on
"writing " as the performance
standard (revised MS22): Sought
help from Dr. Shell and PHPA
director, then report to Union&
generated 1" grievance

Disciplinary actions:
on 1/15/2014
2/3/2014 Due to the Complainant's checking the status of CSTE abstract submission by calling Dr. Shell work phone
report per PHPA requested on 3/13/14. The
detailed
page
one
provided
Complainant
the
although
list
e-mail
grant
1305
about
CDC
with
3/18/2014 Due to checking
condition and information, but she was not allowed.
Complainant requested several times from Ms. Barra's permission to participate in 1305 program with basic working
e-mail list and claimed that was due to her report to CDC.
4/23/2014 As Ms. Barra learned that CDC officer was aware of the Complainant's suspension for checking CDC
to Ms. Barra on 4/18 and not heard a response. The
5/20/2014 Because Ms. Barra sent her the memo with restriction of her job duties, the Complainant explained
Complainant sent the clarification to PHPA managers and cc'ed to Union representative and director on 4/25/2014.
6/9/2014. Ms. Barra gave her "unsatisfactory" annual PEP and disciplinary action with denial of annual increase.
11/3/2014. termination

d 12/08/17 Page 1 of 17

Case 1:17-cv-03260-JKB Document 4 File

4-tra

Afeadix 1,

RT BALTIMORE-NIGHT BOX

IN THE UNITED STATES DISTRICT COU
FOR THE DISTRICT OF MARYLAND

2017 DEC -8 PM 1: 14

U.S. BANKRUPTCY COURT
ED
,......__ENTER DISTRICT Cr 9AP.YLAND
ilm===.1.6.30a0 ..--XCENED

Xiao-Ying Yu
557 Kirkcaldy Way, Abingdon, MD 21009
(Full name and address of the plaintiff)
Plaintiff(s)

Civil No.: JKB-cv-3260
(Leave blank To be filled in by Court.)

vs.

Maryland Department of Health
Secretary: Mr. Dennis Schrader
201 W. Preston Street,
Baltimore, MD 21201
Maryland Department of Budget and
Management
Secretary: Mr. David Brinkley
301 W. Preston Street,
Baltimore, MD 21201
(Full name and address of the defendant(s)
Defendant(s)

* * * ***

COMPLAINT
1. Jurisdiction in this case is based on:
ents of the state where plaintiff is a resident)
0 Diversity (none of the defendants are resid
ision of the United States
g Federal question (suit is based upon a federal statute or prov
Constitution)
0 Other (explain)

Complaint (Rev. 12/2000)

1

23 USCA4

4 Filed 12/08/17 Page 2 of 17
Case 1:17-cv-03260-JKB Document
2. The facts of this case are:
the
following cause of claims and alleges
Plaintiff .Vao-Ying Yu brings forth the
following:
I. Underpayment of Salary:
er Secretary Dr. Joshua Sharfstein to seek
On 2/18/2014, Ms. Yu wrote email to form
was
underpayment (Exhibit "E"#1). The problem
his help about micsing reclassification and
4.
n she was wrongfully terminated on 11/3/201
not resolved and was remain unsolved whe
Please see the facts and background below:
person at age over 60. who was the
Ms. Yu was only Chinese and oldest
onic
artment of Health ("MDH"), Center of Chr
epidemiologist working in Maryland Dep
was
She
4.
") between 11/ 4/2009 and 11/3/201
Disease Prevention and Control ("CCDPC
I at grade 16 and pay step 9. Her salary was
reinstated on 11/4/2009 as Epidemiologist
t budget limitation.
dropped from $67,800 to $51,860 due to gran
ctor. Dr. Audrey Regan increased Ms.
In February 2010, CCDPC former office dire
nic
ase and stroke program to all types of chro
Yu's iob responsibilities from heart dise
to
supervision level changed from "General"
diseases such as diabetes. obesity, and her
by
Yu that she would increase Ms. Yu's salary
"Manager" level. Dr. Regan verbally told Ms.
ess.
$10,000 thru HR appropriate application proc
Regan.' s application for Ms. Yu's
In March 2011, Ms. Yu learned that Dr.
and
and Maryland Department of Budget
reclassification was approved by MDH
The
ologist III Position Identification Number.
Management ("DBM") with the Epidemi
r
ist III and corresponding salary incr ease afte
decision was made to grant her Epidemiolog
Cathie Thompson and Dr. Maria Prince.
the discussion between Dr. Regan. HR. Ms.
plete the HR required MS-44 and MSYet, in May 2011, Dr. Prince refused to com
the
ease of Ms. Yu job duties and changes of
2024 forms with the facts (about the incr
nonon taking the easiest way to give Ms. Yu
supervision level since 1/2010) insisting
9,
I to Epidemiologist IL grade 17, payment step
competitive promotion from Epidemiologist
Yu
tioned once to Ms. Yu. But, she promised Ms.
$55,332 in 2011, which she previously men
year
emiologist II to Epidemiologist III the next
for non-competitive promotion from Epid
RR)
ngston at HR (instead of Ms. Thompson at
(2012). Dr. Prince requested Ms. Toria Livi
the several months later.
to proceed this "reclassification" process in
acting office director in January 2012.
After Dr. Regan resigned, Dr. Prince became
n
tion and did not allow Ms. Yu to apply whe
Dr. Prince opened the Epidemiologist III posi
III
Identification Number of Epidemiologist
Ms. Yu checked with her. The Position
ary
a job duties with underpayment from Janu
previously approved for Ms. Yu (who did extr
te
Epidemiologist II position as Ms. Yu, is whi
2010) was given to Ms. Sara Barra. who was
July of 2011. Ms. Barra was promoted from
and young, and transferred to the office in
Epidemiologist II to III.
director. Dr. Donald Shell, requested that
In March 2012. the newly appointed office
t with
Ms. Yu's coworkers were allowed to mee
everyone meet with him privately. While
out
with
,
included from this private meeting
him. Ms. Sara Barra forbade Ms. Yu to be
acting deputy office director from 1 /1/2012 to
offering any explanation (Ms. Barra was the
Complaint (Rev. 1212000)

2
24 USCA4

72.

17
ent 4 Filed 12/08/17 Page 3 of
Case 1:17-cv-03260-JKB Docum
to give her the same
Shell on 3/13/2012 and asked him
12/15/2012). Ms. Yu emailed Dr.
Shell's consent to her
n, and she greatly appreciated Dr.
opportunity her coworkers were give
luding the deprived
about the unfair treatment inc
request Ms. Yu reported to him
e email
by MDH and DBM, deleting her offic
ed
rov
app
III
gist
iolo
dem
Epi
as
reclassification
ording to
her to do her job and projects acc
ing
llow
disa
and
1.
201
rch
Ma
in
box completely
MS-22 job form (E2).
ing asked Dr.
5/2012, Ms. Yu verbally and in writ
12/
and
2
201
.
Oct
of
dle
mid
the
In
ra's interference
and reported to him about Ms. Bar
e
issu
tion
ifica
lass
rec
her
ck
che
Shell to
information which
accessing database andprogram
from
her
tin.L
ven
pre
as
h
suc
job
with her
treatment problems
ification-underpayment and unfair
ass
recl
The
job.
her
for
d
uire
req
were
were not resolved (E3).
supervisor on 12/19/2012.
Instead, Sara Barra became Ms. Yu's
r 2014, Ms. Yu
process between July and Octobe
During interactive accommodation
m ("OEOP")
Office of Equal Opportunity Progra
H
MD
at
n
nso
Joh
a
ind
Del
Ms.
requested
allow her to escape
missing reclassification form and to
irly
unfa
the
r
side
con
to
s
time
l
severa
ther supervisor or office
liation and to return to work in ano
Ms. Barra's harassment and reta
evaluated by DHMH
Epidemiologist III position and was
where Ms. Yu had applied for the
2014 (E4).
HR as the "Best qualified" in June

t in Protected Activities:
Reports of Retaliation for Engagemen
as her co-workers
ll to give her the same opportunity
Ms. Yu's request for Dr. She
ra as a "failure to
3/13/2012 was regarded by Ms. Bar
(because Ms. Barra rejected her) on
s engagement in protected

IL

chain of command". Ms. Yu'
follow instructions, and crossing the
nagers including HR..
4 (via multiple reports to MDH ma
activities between 2012 and 201
ut discrimination and
appeals in MDH and charge abo
OEOP and filing grievance and
EOC") under Title
ment Opportunity Commission ("E
ploy
Em
al
Equ
.
U.S
in
filed
on
retaliati
yment Act ("ADEA") on
Age discrimination in Emplo
and
Act
hts
Rig
il
Civ
the
of
VII
liations:

progressive reta
ruptive behavior-. Ms. Yu received
"dis
as
led
labe
e
wer
013
2/2
11/1
improvement
"outstanding" to "satisfied- with
from
tion
lua
eva
e
anc
downgrading perform
two weeks. Then Ms. Yu

ame Ms_ Yu's supervisor for
memorandum after Ms. Barra bec
12/17/2013 and
ilar improvement memorandum on
sim
this
of
y
cop
d
har
r
the
ano
d
receive
ion with 180 days on
well as the termination on probat
further received "unsatisfied" as
against Ms. Barra's
e Ms. Yu's filed the ,grievance
6/9/2014. Additionally. becaus
l Memoranda
013. she received the two Interna
4/2
8/1
on
H
MD
in
job
her
with
interference
d step prior to giving
4/15/2014. (which was HR require
from Ms. Barra on 10/10 /2013 and
iplinary actions between
thermore. Ms. Yu received 5 disc
employee disciplinary action) Fur
ory memoranda post Ms. Yu's

Ms. Barra's retaliat
2/3/2014 and 6/9/2014 according to
Please see following facts:
engagement in protected activities.
Yu's
e evaluation: After Ms. Barra received Ms.
Downgraded Ms. Yu's performanc
1)
Ms. Yu as she
. 2012. Ms. Barra refused to discuss

self-Performance Evaluation in Dec

rkers she supervised_ On 1/3/2013.

wo
did for all other white or young co-

e evaluation from "outstanding" to

downgraded Ms. Yu's performanc
Complaint (Rev. 1212000)

with

Ms. Barra

"satisfied" and

3

25 USCA4

12/08/17 Page 4 of
Case 1:17-cv-03260-JKB Docume 1 47 Filed

•

17

to improve
um" (Ms. Barra pre-generated) for her
requested Ms. Yu to sign the "Memorand
sonnel file)
ting" (which was inserted into her per
"follow instruction, judgment and wri
with
nt memorandum is only for employees
eme
rov
imp
the
that
ted
ruc
inst
tut
h
althoug
"unsatisfied" performance evaluation.
to
January 2013, Ms. Yu requested to talk
Refused response: Between Dec. 2012 and
no time
, Ms. Barra either responded that she had
Ms. Barra several times about her projects
or did not respond Ms. Yu's emails.
cago
ra contacted the funding organization Chi
Made confusion: In Feb. 2013. Ms. Bar
hma and
ere Ms. Yu prepared proposed for Ast
University School of Public Health (wh
ut their time
study) and did confusing summary abo
Chronic Obstructive Pulmonary Disease
the
office manager and Dr. Shell to reject
age
our
disc
and
lead
mis
to
n
Pla
the
of
frame
project.
/2013.
in Ms. Yu's personnel file: On 2/21
Missing MS-22 and evaluation forms
not any
ton, Ms. Barra and Dr. Shell that there was
Ms. Yu reported to HR Ms. Toria Livings
Barra
luations in Ms. Yu's personnel file. Ms.
eva
e
anc
orm
perf
the
or
-22
MS
ion
ript
job desc
had only
them back into her personnel file, but she
put
and
s
form
sing
mis
all
find
to
ed
agre
/2013, she
Ms. Yu reminded Ms. Barra again on 6/20
returned part of these forms. Although
her personnel
those negative memoranda were kept in
did not hear from Ms. Barra. However,
file (E5).
3. Ms.
information: In March and June 201
Blocked Ms. Yu to access to job-related
rmation
access to office programs and related info
Yu wrote emails to Ms. Barra requesting
not receive any response from Ms. Barra.
which was required for her job. She did
Barra
: In the beginning of June 2013. Ms.
orts
rep
and
a
dat
s
Yu'
Ms.
use
to
d
use
Ref
Behavior"
c matched data for the office "Healthy
refused to use Ms. Yu's provided specifi
rted to Dr. Shell
to Ms. Yu's emails So, Ms. Yu repo
grant application, and did not respond
d data" and
grant application without specific matche
about her concern of "failure of office
sought Dr. Shell's help.
:
clarify the confusion at a staff meeting
Forbade Ms. Yu to report her work and
chronic
Yu to provide 5 of fact sheets of various
On 6/24/2013, Ms. Barra requested Ms.
her these
ough. Ms. Yu had previously provided
disease reports for the office website. Alth
to load them
lth Factsheet". Ms. Barra did not allow
reports including "Maryland Men's Hea
rmation
ed to load the National Men's health Info
ruct
inst
ra
Bar
Ms.
.
ead
Inst
.
web
the
onto
as co-works
ade Ms. Yu to report her work progress
onto the web. However, Ms. Barra forb
ting her,
at the staff meeting by frequently interrup
did and did not allow her to clarify this
ition, Ms.
eve that Ms. Yu was incompetent. In add
beli
to
rs
othe
and
rs
age
man
lead
mis
thus
ated
email (E6) and refused to use Ms. Yu's upd
via
r
avio
beh
s
Yu'
Ms.
ed
iciz
crit
ra
Bar
ind Ms.
that Ms. Yu wrote multiple emails to rem
reports for two years in spite of the fact
2014 (E7).
web between June 2013 and April
Barra to load updated reports on. the
ght Dr. Shell's help
sou
: On 6/28/2013, Ms. Yu
Ms. Yu sought the office director's help
ation via
ry behavior (making confusion and isol
liato
reta
and
ent
ssm
hara
ra's
Bar
Ms.
for
to allow
Ms. Yu's job assignment) and asked him
controlling office meeting invitations and
ra as
dition (ES). This was criticized by Ms. Bar
her to work under a normal working con
Complaint (Rev. 12/2000)

4

26 USCA4

AirT+

4 Filed 12/08/17
Case 1:17-cv-03260-JKB Document

Page 5 of 17

"disruptive behavior".
sed
cription: On 7/2/2013, Ms. Yu received the revi
9) Changed Ms. Yu's MS-22 job des
rt in the
to retaliate against Ms. Yu's earlier repo
job MS-22 from Ms. Barra (dated 6/12/2013
her
to respond to her email and rejecting
sing
refu
ra's
Bar
.
Ms
ut
abo
ll
She
Dr.
June to
duties and
tion). Ms. Barra changed Ms. Yu's job
lica
app
nt
gra
ce
offi
for
data
ed
vid
pro
and indicated
seniority system (which was specified
er
und
s
ject
/pro
gram
pro
her
all
ted
dele
tion and
m, E9); restricted Ms. Yu's communica
gra
pro
5
130
H's
MD
d
orte
upp
C-s
CD
by
s from
nged her performance evaluation standard
exchange of information with others; cha
ng point
Yu up for failure as writing is not her stro
professional skills to "Writing" to set Ms.
this revised
level from "Manager" to "General" on
and major job focus); and supervision
ns that HR
-22 was not based on any justificatio
MS22 form. Ms. Barra's revising MS
nge of
cription, such as the condition in the cha
des
job
e's
loye
emp
g
ngin
cha
for
ed
instruct
the office as
no any new employee was recruited in
supervisor, ob or restructure. There was
ra. but
Ms. Yu wrote several emails to Ms. Bar
Ms. Barra reported to EEOC on 4/19/2017.
rding Ms.
onding to some of Ms. Yu's concerns rega
she insisted on her changes without resp
c and required working conditions (E 10).
Barra's restriction of epidemiologist basi
file on
ified MS-22 into Ms. Yu's personnel
Nevertheless, Ms. Barra put her mod
Michelle
Shell and higher level manager. Ms.
7/25/2013 although Ms. Yu sought Dr.
een July and August 2013 (Ell).
Spencer's help verbally and in writing betw
Ms. Yu from
Yu: On 7/25/2013. Ms. Barra prevented
101 Requested CDC to replace Ms.
by CDC' to
State Chronic Disease program) invited
functioning as the epidemiologist (the
CDC
Scorecard Team". Ms. Barra requested
vey
Sur
tem
Sys
alth
"He
d
C-le
CD
in
participate
Yu could be
e and informed CDC and Ms. Yu that Ms.
to replace Ms. Yu with her own nam
allowed to remain in the team as a listener.
further
013, Ms. Yu filed her first grievance and
4/2
8/1
On
ce:
van
grie
filed
Ms. Yu
e with her
Barra's unfair treatment and interferenc
Ms.
inst
aga
3
/201
12/2
on
I-1R
to
rted
repo
in MDH (E12).
job including the changes of her MS-22
3. Ms. Barra
ing memorandum: On 10/4/201
Ms. Barra generated internal consult
on for the
meeting without informing her the reas
required Ms. Yu to attend personnel
to Ms. Yu's
responded that the meeting was related
ra
Bar
Ms.
.
ally
Fin
s.
day
4
for
ting
mee
rt about her
Yu provided Ms. Barra with written repo
contacts with Dr. Shell. Although Ms.
Yu an Internal
vet, on 10/10/2013, Ms. Barra sent Ms.
contact and work with Dr. Shell (E13),
king as
personnel file to prevent Ms. Yu from wor
her
into
(put
ing
nsel
Cou
of
dum
oran
Mem
liation).
ing Dr. Shell's help for Ms. Barra's reta
her MS-22 job description and from seek
ce director Dr.
iplinary action if Ms. Yu provide the offi
with the threaten of taking the disc
regardless
tion related to office program/project
Shell any recommendation and informa
sed to respond to Ms. Yu (E14).
whether Dr. Shell need or Ms. Barra refu
Union
On 10/1 8/2013, Ms. Yu filed the

um as

response to Ms. Barra's Memorand

ager for the
e has the right to report to next level man
loye
emp
that
ion
ruct
inst
e's
tativ
esen
repr
her job was interfered. EIS).
issues (when she was treated unfairly and
and
filed the discrimination at age and race
Ms. Yu filed charge in EEOC: Ms. Yu
with
13
(Case# #531-2014-00271C) on 11/12/20
retaliation charge under Title VII. ADEA
Complaint (Rev. 1212000)

5

27 USCA4

Afri•rc ed 12/08/17 Page 6 of 17

Document 4 Fil
Case 1:17-cv-03260-JKB

t Ms. Yu did not file
right to sue on 11/26/2011 bu
the
ed
ant
sgr
wa
and
,
ore
EEOC in Baltim
the lawsuit (E16).
1/3/2013: After Ms. Yu
ovement memorandum as
pr
im
e
sam
ted
era
gen
rra
th the
Ms. Ba
H manager's instruction wi
MD
the
on
sed
ba
13
/20
erference
reported to MDH HR on 12/2
against Ms. Barra's unfair int
nce
eva
gri
13
/20
8/14
Yu
.
provement
detailed facts regarding Ms
against Ms. Yu with same im
d
ate
ali
ret
rra
Ba
.
Ms
.
13
evaluation,
with her job on 12/17/20
tisfied" mid-cycle performance
"sa
her
for
13
/20
1/3
on
de
" performance
memorandum she ma
employees with "unsatisfied
e
giv
to
r
iso
erv
sup
for
d
which HR instructe
evaluation.
eworking time as
Ms. Barra to decide on her tel
ed
ask
Yu
.
Ms
h
ug
ho
alt
y.
Additionall
t Ms. Yu unreasonably
ed Dr. Shell on 12/13/2013 tha
ort
rep
y
sel
fal
rra
Ba
.
Ms
e,
her preferenc
Ms. Yu's request.
and misled Dr. Shell to reject
day
Fri
h
eac
on
ork
ew
tel
to
("OEEP”)
requested
ual Employment Program
Eq
of
e
fic
Of
DH
M
to
ts
Ms. Yu's repor
. Keneithia J.
reported to OEOP director, Ms
Yu
_
Ms
:
ion
act
ary
lin
cip
director triggered dis
n, harassment and
t Ms. Barra's discriminatio
ou
ab
4
01
1/2
1/3
d
an
1/9
Taylor between
database and training
g Ms. Yu from accessing the
tin
ven
pre
ly
ent
qu
fre
ing
lud
's new
retaliation inc
ed to her about Ms. Barra
ort
rep
Yu
s.
M
4,
01
12
rning email
course (E17). Then on 2/2
e Ms. Barra sent Ms. Yu a wa
aus
bec
or
avi
beh
n
igi
Or
nal
discrimination at Natio
ed her request to
. Barra had previously approv
Ms
h
ug
ho
alt
eve
ar
Ye
w
on the Chinese Ne
. Taylor on 2/2/2014
Ms. Yu also reported to Ms
y.
all
ion
dit
Ad
8).
(E1
off
of
take half the day
ing block of her submission
lud
inc
job
her
th
wi
d
ere
erf
int
that Ms. Barra retaliated and
jects (E19).
first reprimand
abstract for office program/pro
ted the mitigation meeting and
tia
ini
rra
Ba
.
Ms
:
ion
Ms.
disciplinary act
's 2/2/2014 reports to OEOP
Yu
.
Ms
t
ins
aga
d
ate
ali
ret
14
had not
disciplinary action on 2/3/20
stracts in the past, yet, she
ab
t
mi
sub
to
ice
off
ted
en
ed Ms. Barra's
Taylor. Ms. Yu often repres
not as Ms. Yu had not receiv
or
ct
tra
abs
an
d
tte
mi
sub
ed Ms. Yu's
known whether office
of 1/15/2014. Ms. Barra reject
daY
the
g
rin
du
ail
em
ion
ation to generate
response her clarificat
. Yu's provided data and inform
Ms
d
use
t
bu
ct,
tra
abs
her
t
t her
request to submi
rification and concerns abou
cla
's
Yu
.
Ms
nd
po
res
to
d
ore the
another abstract. and refuse
submission of the abstract bef
the
ut
abo
ell
Sh
.
Dr
th
wi
d
SPrnrtaRTY of the
abstract. So, Ms. Yu checke
confusing and biased
de
ma
rra
Ba
.
Ms
r,
ve
we
Ho
ing her falsely stating
deadline of 1/15/2014.
's personnel file without inform
Yu
.
Ms
o
int
t
pu
and
ng
eti
t was
mitigation me
ed the disciplinary action tha
eiv
rec
Yu
.
Ms
t
tha
ce"
ren
rra. This
at EEOC "Fact -Finding-confe
abstract without thru Ms. Ba
the
for
es
tim
l
era
sev
ell
Sh
.
d the addendum to
due to her contacted Dr
m. On 2/18/2014. Ms. Yu file
du
ran
mo
me
13
/20
/10
10
's
violated Ms. Barra
morandum sent to
13 response to Ms. Barra's me
/20
/18
10
's
Yu
.
Ms
th
wi
ng
the appeal, alo
e (E20).
arfstein and Union representativ H as the only epidemiologist
HR. former secretary. Dr. Sh
MD
by
ed
: Ms_ Yu was assign
gram. but
b. 2nd disciplinary action
MDH CCDPC office 1305 pro
d
rte
po
sup
C
CD
for
rk
wo
to
and any CDC-1305
(100% salary supported)
g in CDC-conference calls
tin
ipa
rtic
pa
m
fro
r
he
d
d to
nte
Ms. Barra preve
ngs as well. Ms. Barra refuse
eti
me
ort
rep
ss
gre
pro
d
an
Jan 2014.
program related work plan
ue in March and June 2013 and
iss
s
thi
ing
ard
reg
ts
ues
req
l
epidemiology
respond Ms. Yu's severa
rdinator. (who works for States
coo
C
CD
the
ted
tac
con
Yu
.
On 3/11/2014, Ms
0)

Complaint (Rev. .12/200

6

28 USCA4

ge 7 of 17
cument 4 Filed 12/08117 Pa
Case 1:17-cv-03260-JKB Do

viously communicated
C information and Ms. Yu had pre
CD
s
ase
rele
and
l
cal
e
enc
fer
con
eted since she had not
if her name had been accidently del
with). about the email list to check
orted
gist (who worked for CDC-supp
iolo
dem
epi
te
sta
er
oth
as
n
atio
received any inform
gh Ms. Yu's
rmation on 2/26/2014. Althou
info
gy
iolo
dem
epi
C
CD
ed
eiv
1305 program) rec
t to MDH
ut her checking email list was sen
abo
tion
iga
mit
of
ns
stio
que
response to the
linary action
eless, Ms. Barra initiated a discip
erth
nev
,
ted
ues
req
as
014
5/2
3/1
Manager on
tacted the CDC
simply because Ms. Yu had con
014
8/2
3/1
on
n
sio
pen
sus
for 5 days
sferred to the office
she used to do before Ms. Barra tran
as
list
ail
em
the
ck
che
to
r
ato
coordin
on 3/26/2014 (E21).
in July 2011. The appeal was sent
conference call on
nd CDC-1305 program meeting
Ms. Barra blocked Ms. Yu to atte
014. Ms.
CDC grant attended. On 4/1 5/2
the
in
ed
list
o
wh
rs
rke
wo
co3/18/2014 but all
requested
dum (dated 3/31/2014 after Ms. Yu
ran
mo
Me
l
rna
Inte
ond
sec
Yu
.
Barra's sent Ms
white and young
that Ms. Barra only allowed the
se
aba
dat
e
car
lth
hea
ess
acc
to
the right
tions preventing Ms. Yu
t to access) with additional restric
gis
iolo
dem
epi
not
is
o
wh
ple
peo
normal working conditions.
from doing her job under basic and
ion for 3
. Barra initiated 4th disciplinary act
Ms
.
014
2/2
4/2
On
:
ion
act
3rd disciplinary
r was aware of
. Barra learned that the CDC office
Ms
as
ve
Lea
l
nua
An
of
ure
feit
days of For
and also wrote to
linary action although Ms. Yu told
cip
dis
"
ion
ens
usp
s-s
day
"5
's
Ms. Yu
her checking CDC email
CDC about her suspension due to
ort
rep
not
did
she
t
tha
ra
Bar
.
Ms
014 (E22)
several
list. The appeal was filed on 4/23/2
sick in home. Ms. Barra called her
s
wa
Yu
.
Ms
en
Wh
:
tion
'ac
4th disciplinary
. Yu violated cyber
ion on 5/20/2014 stating that Ms
act
ry
lina
cip
dis
h
4t
d
iate
init
times and
Union on 4/22/2014 to
. Yu emailed MDH managers and
communication policy because Ms
) and her
randa (10/10/2013 and 3/31/2014
mo
me
her
in
de
ma
ra
Bar
.
Ms
clarify the confusion
So, Ms. Yu
Ms. Yu's clarification for a week.
der
pon
res
to
d
use
ref
and
,
-22
revised MS
eal was filed on
retaliation from them. The app
's
rra
Ba
.
Ms
t
ins
aga
n
tio
tec
sought pro
tected activities (E23).
liated disciplinary action for her pro
reta
ra's
Bar
.
Ms
t
ins
aga
014
7/2
5/2
action with
rra initiated 5th disciplinary
Ba
.
Ms
14.
/20
6/9
On
:
ion
well as the
e 5th disciplinary act
ial Ms. Yu's annual increase as
den
and
tion
lua
eva
nce
ma
for
"unsatisfied" per
by Sara Barra as
plan. The reason was explained
s
day
180
h
wit
ion
bat
pro
on
termination
nts". However, Ms.
ropriate complete work assignme
app
.
ely
"tim
of
ure
fail
m
fro
ng
Health
resulti
ets and reports of Maryland Men's
she
t
fac
ed
vid
pro
Yu
.
Ms
oad
Barra refused to upl
d to use Ms.
and obesity for two years. refuse
es
bet
dia
ke,
stro
e.
eas
dis
rt
hea
Fact sheet and
managers and
caused negative impressions among
and
.
tion
rma
info
and
a
dat
ded
Yu's _provi
Ms. Yu to clarify this
mance. Sara Barra did not allow
for
per
lob
's
Yu
.
Ms
ut
abo
rs
rke
co-wo
at the staff meeting (E24).
taliation
rther Discrimination and Re
Fu
d
an
h
alt
He
's
Yu
.
Ms
to
III. Damages
A):
under Title VII, ADEA and AD
EA
(Complaint Filed in U.S. EEOC
liation charge under Title VII, AD
reta
and
tion
ina
crim
dis
ond
sec
Ms. Yu filed her
was emailed to
9/3/2014 in U.S. EEOC which
on
)
68C
024
14-20
531
se#
(Ca
and ADA
r lawyer. Then Ms. Yu
n on 9/2/2014 by Ms. Yu's forme
nso
Joh
a
lind
De
.
Ms
OP
OE
ME
MI
Complaint (Rev. 12/2000)

7

29 USCA4

8
t 4 Filed 12/08/17 Page
Case 1:17-cv-03260-3KB Doourn e "

of 17

terminated on
on on 9/3/2014 and was
ati
od
mm
co
ac
r
he
of
n
rejectio
tion into her
received Ms. Johnson's
adverse events of termina
se
the
d
en
am
to
OC
EE
sted
t of Justice, Civil
11/3/2014. Ms. Yu reque
complaint in Departmen
A
AD
ed
fil
o
als
d
an
e
fil
e
existing retaliation charg
y Section.
Right Division, Disabilit
's health by:
lly
1). Damages to Ms. Yu
Ms. Barra often intentiona
e,
ov
ab
d
ibe
scr
de
ts
fac
the
nfusions
Frequent confusions: As
itions by making some co
nd
co
ng
rki
wo
le
rab
ole
cted to int
reports to
made Ms. Yu to be subje
a time and non-updating
kin
or
ew
tel
r
fo
st
ue
req
"
sonable
Dr. Shell. cosuch as Ms. Yu's "unrea
y and communicate with
rif
cla
to
r
he
ad
rb
fo
t
bu
rs,
laint about her unfair
mislead DHMH manage
ation for Ms. Yu's comp
ali
ret
in
ers
rtn
pa
d
ate
workers and projects rel
).
and retaliation (E6.7, 25
nditions:
treatment. discrimination
sts for normal working co
ue
req
's
Yu
s.
M
g
tin
ec
to Ms. Barra
Refusing to respond or rej
several emails and talked
ote
wr
Yu
s.
M
.
14
20
h
d Marc
n as coworkers
Between March 2013 an
th normal working conditio
wi
job
r
he
do
to
r
he
ow
other
and asked Ms. Barra to all
ase, receiving CDC and
tab
da
to
ss
ce
ac
as
ch
su
ologists did.
did not
and other MDH Epidemi
ogram meetings. Ms. Yu
pr
e
fic
of
g
din
en
att
d
an
ormation
or calendar
organizations program inf
except Ms. Yu by email
ers
oth
d
ite
inv
rra
Ba
s.
M
wever.
from the list
hear from Ms. Barra. Ho
ngs and removed her name
eti
me
m
gra
pro
d
an
ce
ren
review, or to be
notice for CDC Tele-confe
had not been allowed to
Yu
s.
M
.
ng
ini
tra
d
an
e
e
nity to participate in -th
to access to the databas
rtu
po
op
l
ua
eq
an
n
ve
gi
tion, was not
the only
aware of CDC's instruc
plan although she was
ng
ki
or
w
m
gra
pro
g 1305
duties were taken
discussing and preparin
grant (E26). Ms. Yu's job
s
thi
by
ed
ort
pp
su
)
ary
name
epidemiologist (100% sal
progress report and her
d
an
n
pla
ing
rk
wo
ram
hanced prog
t) that Ms.
away from CDC-1305 en
ung (non epidemiologis
yo
d
an
ite
wh
er
oth
by
replaced
explanation to
and responsibilities were
4/28/2014 without any
d
an
4
01
7/2
3/2
on
C
to CD
nacrers' help:
Barra instructed to send
ht different level of mA
ug
so
d
an
t
en
sm
ras
ha
s
thi
ain - of
Ms. Yu.. Ms. Yu suffered
vior" and "crossing ch
ha
be
e
tiv
up
isr
"d
as
by Ms. Barra
which were criticized
ter Ms. Barra
commend".
s. Yu received award: Af
M
t
tha
ed
rn
lea
rra
Ba
t
Harassment after Ms.
Territorial Epidemiologis
d
an
te
Sta
of
cil
un
Co
to
t to be submitted
. when
blocked Ms. Yu's abstrac
linary action on 2/3/2014
cip
dis
st
fir
ted
tia
ini
d
an
1/15/2014
nference
("CSTE") conference on
itation for 2014 CSTE co
inv
d
an
ard
aw
the
ed
eiv
s. Yu rec
s. Yu received
Ms. Barra learned that M
t to her why and how M
or
rep
Yu
s.
M
d
ste
ue
req
reported to Ms.
on 2/6/2014. Ms. Barra
h 2014. although Ms. Yu
arc
M
d
an
b.
Fe
n
ee
tw
ails to
invitation and award. Be
repeatedly sent Ms. Yu em
rra
Ba
s.
M
.
TE
CS
r
fo
iously done
annual leave time
Barra what she had prev
e except using her own
nc
ere
nf
TE
co
CS
the
d
en
att
attaching
not allow Ms. Yu to
ailed Ms. Yu twice with
em
e
sh
.
ion
dit
ad
In
.
related)
yee's request of
(regardless it is her lob
rity to disapprove emplo
tho
au
r's
iso
rv
pe
su
t
ding
ou
ab
s no any employee inclu
document of HR policy
wa
e
er
th
r,
ve
we
Ho
g.
or trainin
end the same
attending a conference
ir annual leave time to att
the
e
us
to
ed
uir
req
re
we
who
of Budget and
epidemiologist in MDH
sought a help from Dept.
Yu
s.
M
.
14
20
in
or
to
or
CSTE conference pri
8
0)

Complaint (Rev. 12/200

30 USCA4

2

fi
12/08/17 Page 9 of 17
Case 1:17-cv-03260-JKB Document 47 Piled

•

icer Ms. Awida
ations. the Mediation Program Off
Rel
or
Lab
and
yee
plo
Em
ent
em
Manag
Pena.
M Employee
3/2014, Mr. Joseph Horvath at DB
Retaliation: In the morning of 3/1
rvath, the mediator,
tion meeting. DBM officer. Mr. Ho
dia
me
zed
ani
org
ns
atio
Rel
or
Lab
and
Ms. Barra denied
ly, Ms. Barra and Ms. Yu attended.
Nal
Mc
l
hae
Mic
.
Ms
r,
ecto
Dir
ion
Un
er normal working
uest for allowing her to work und
all facts and rejected Ms. Yu's req
e. In the afternoon,
Ms. Barra answered it is not possibl
conditions and other's supervision.
h
g about Ms. Yu's email checking wit
etin
me
tion
iga
mit
of
t
ues
req
a
Yu
.
Ms. Barra sent Ms
eted.
program email list was accidently del
5
130
C's
CD
the
on
e
nam
her
if
an CDC officer
ference
anized an office 1305 program telecon
org
ra
Bar
.
Ms
.
014
8/2
3/1
On
se:
Abu
was sick,
rkers except Ms. Yu. When Ms. Yu
wo
coall
ited
inv
and
cer
offi
C
with CD
ediately attend the
sick leave and required her to imm
e
tak
to
t
ues
req
her
sed
refu
ra
Bar
nsion. Ms. Barra
disciplinary action of 5 days-suspe
mitigation meeting for initiating the
ll and
Ms. Barra that she did not feel we
told
she
ugh
tho
n
eve
t
ues
req
's
Yu
rejected Ms.
ril 2014.
e several times during March and Ap
leav
al
son
per
or
e
leav
sick
ing
tak
asked for
near to Ms.
h Financial Officer (whose office is
Bullying: When Ms. Yu checked wit
conference and the
for employee to attend job-related
Barra) about the travel supportpolicy
sation stating "Do
ked in and interrupted their conver
process of application, Ms. Barra wal
action
Ms. Yu by sharing the disciplinary
lied
bul
ra
Bar
.
Ms
"
nd!
ma
com
of
not cross chain
could see it
office calendar so all co-workers
lic
pub
her
on
Yu
.
Ms
t
ins
aga
"suspension"
c bullying and
The frequent confusion, chroni
7)
(E2
4
201
ril.
Ap
and
Feb
en
betwe
g. flushing
cks include extra thirst hand sharkin
atta
ic
pan
Yu
.
Ms
de
ma
n
ofte
nt
me
harass
tachycardia chest pain.
21 Diagnoses:
gnosed with
rkability evaluation and was dia
Ms. Yu was required to have wo
umatic Syndrome
jor depressive disorder and Post Tra
"workplace stress. major anxiety, ma
med workability
or. Dr. Robert Toney. (who perfor
Disorder" by State Medical direct
logy
provider and Independent Psycho
lth
hea
her
t);
ues
req
's
HR
H
MD
evaluation at
June, September
ey requested) respectively in April.
Ton
Dr.
and
HR
H
MD
(as
tion
Institu
and October 2014 (E28).
Approved FMLA:
between 6/23 and 9/12/2014.
Ms. Yu was approved with FMLA
gnosis:
Harassment following disability dia
te time sheet as
. Yu went to back office to comple
On 5/12/2014. ten minutes after Ms
g. In the
to her requesting mitigation meetin
ail
em
an
t
sen
ra
Bar
.
Ms
,
ted
ues
Ms. Barra req
on after she
was aware of Ms. Yu's health conditi
ra
Bar
.
Ms
h
oug
alth
4.
201
e
Jun
May and
uently emailed and
provider's notices. Ms. Barra freq
lth
hea
's
Yu
.
Ms
of
l
era
sev
ed
eiv
rec
ed Ms. Yu's sick leave
gs and denied that she receiv
etin
me
tion
iga
mit
the
for
Yu
called Ms.
o, Ms. Barra sent
d her prior to her reports to HR. Als
aile
em
ays
alw
Yu
.
Ms
ich
wh
orts
rep
e: and
mails and regular mails to her hom
Ex
Fed
by
ices
not
on
acti
y
nar
ipli
her duplicate disc
leave for 2
on 5/19/2014 when she was on sick
tion
lua
eva
lity
abi
rk
wo
for
her
requested
's health condition
liatory behaviors worsened Ms. Yu
weeks. These harassment and reta
(E29).
Complaint (Rev. 12/2000)

9

31 USCA4

7f

10 of 17
ument 4 Filed 12/08/17 Page
Case 1:17-cv-03260-JKB Doc

Accommodation request:

HR and OEOP. On
was filed on 7/23/2014 with MDH
est
requ
tion
oda
omm
acc
Yu's
Ms.
H required stating
ommodation request form as DHM
acc
her
ed
plet
com
Yu
Ms.
4.
201
8/6/
under Ms. Barra's
lems and she could not do her job
reasons that caused her health prob
to correct the unlawful
ed above. Ms. Yu also requested
harassment and retaliation mention
applied for (E30).
to other Epidemiologist position she
missing reclassification; and assign
the form on 8/19/2014.
Her former lawyer edited and sent
:
Emergency and hospitalization
emergency room
had severe vomit, she was sent to
and
p
Because Ms. Yu could not eat. slee
een 8/20 and 8/22/2014.
on 8/20/2014 and was in hospital betw
er Title VII.

liation filed in EEOC und
The charge of discrimination and reta
Delinda Johnson
did not receive MDH OEOP Ms.
AEDA and ADA: Because Ms. Yu
dition for her to work

est to correct hostile working con
response for her accommodation requ
er supervision of Ms.
but was required to only work und
or to assign her to other position,
process, she filed
ng the interactive accommodation
duri
on
liati
reta
and
ent
ssm
hara
Barra's
ared) in EEOC on 9/3/2014.
charge (which her former lawyer prep

porting her

nts and allegations of damages sup
Plaintiff brings forth the following cou
case of action and her request of relief
I. Willful underpayment:

sal to complete
led the evidence of unlawful refu
Defendant ignored and concea
n number to Ms.
demiologist III position identificatio
reclassification and giving the Epi
odation process.
Ms. Yu) during interactive accomm
for
DBM
and
H
MD
by
d
rove
(app
Barra
extra jobs she did
ayment given Ms. Yu for years and
MDH refused to correct the underp
er Secretary Dr.
Yu sought MDH managers and form
for MDH since 2010 although Ms.
n greatly inhibiting
rivation. The deprivation had bee
Sharfstein' help for the unlawful dep
ment, brought
aged Ms. Yu's career develop
dam
has
and
duty
job
her
ing
form
Ms.Yu's per
ncial condition as
health and personal and family fina
her
on
act
imp
e
ativ
neg
nt
ifica
sign
well.

d Charge
ent and Retaliation after Ms. Yu File
H. Disability-Discrimination, Harassm
2014:
in EEOC under ADA in
Employment
Johnson at MDH Office of Equal
Immediate retaliation: After Ms.
er

and retaliation und
Yu's complaint of discrimination
Program ("OEOP") received Ms.
2014, she rejected
and ADA filed in U.S. EEOC on 9/2/
Title VII Civil Right of Act, AREA.
"undue hardship".
t without any explanation about
ues
req
ion
dat
mo
om
acc
s
Yu'
Ms.
cover the

e's leave to
using her friend's donated employe
Meanwhile, Ms. Yu's request of
to office mail was
was rejected by HR and her access

•

interactive accommodation process
(E31).
blocked by Ms. Barra on 9/3/2017

odation requests: Ms. Yu responded to Ms.

Refusal to respond to Ms. Yu's accomm

tile working condition
with detailed evidence about hos
Johnson's rejection on 9/29/2014
onse to consider
Yu did not receive Ms. Johnson's resp
she had been subjected to (E32). Ms.
Complaint CRev. 12/20001

10

32 USCA4

11 of 17
/0
B Document 4 Filed 12 8/17 Page
Case 1:17-cv-03260-JK
go

ated as
she applied for and was evalu
ich
wh
ion
sit
po
t
gis
olo
mi
d Ms.
assigning her for other epide
OP director, Ms. Taylor an
OE
h
ug
ho
alt
es,
sid
Be
.
14
multiple
"Best qualified" in June 20
11/12/2013 and 9/2/2014 and
on
OC
EE
in
d
file
s
rge
cha
Ms. Barra's
Johnson received Ms. Yu's
tremendous evidence of
th
wi
4
01
9/2
9/2
d
an
14
her lob. Ms.
reports between 1/9/20
st Ms. Yu and interfere with
ain
ag
on
ati
ali
ret
d
an
n
tio
under seniority
harassment, discrimina
the same CD-1305 program
in
rk
wo
to
her
e
dat
mo
om
program; and to
Johnson refused to acc
-workers who work for 1305
co
er
oth
as
r
iso
erv
sup
t
en
system with differ
. Yu.
dition Ms. Barra made for Ms
con
ng
rki
wo
ing
ass
har
t
tor, Psychiatrist
rec
cor
nded by State Medical Direc
me
om
rec
n
tio
da
mo
om
acc
itimate
3) Rejection of
HR and EEO received the leg
MH
DH
.
14
20
/8/
10
On
n:
Independent
and Psychological Institutio
or, Dr. Robert Toney and
ect
dir
l
ica
ed
M
te
Sta
by
d to change Ms.
recommendations made
tion in which they suggeste
ua
sit
the
ng
cti
rre
co
for
n
de by her health
Psychology Institutio
coincided with the one ma
on
ati
nd
me
om
rec
his
(T
Yu's supervisor,
. Barra stated
provider) (E4 and 28 ).
's termination plan: Ms
HR
d
ere
gg
tri
ich
wh
,
HR
during 10/8 and
Ms. Barra's contacted
ria Livingston at MDH HR
To
.
Ms
th
wi
d
cte
nta
co
rmance evaluations
on 5/16/2015 that she
ciplinary actions and perfo
dis
of
on
ati
orm
inf
e
vid
d Cc.
10/10/2014 to pro
o sent a letter to Ms. Yu an
wh
n,
sto
ing
Liv
.
Ms
by
en
tak
nate her
(E33). This trigged the action
or resign, otherwise to termi
ire
ret
to
Yu
.
Ms
ce
for
to
to Ms. Barra on 10/10/2014
dation process (E34).
ommodation:
during interactive accommo
ndue hardship" to reject acc
"u
of
xt
ete
pr
as
ice
off
the
ntal
Restructure of
accommodate Ms. Yu's me
to
d
use
ref
OP
OE
MH
DH
n at
tructuring
On 10/14/2014, Ms. Johnso
began the CCDPC office res
y
the
d,
tea
Ins
y.
ne
To
.
Dr
al director no
disability recommended by
al Director's job (made medic
dic
Me
e
fic
Of
the
of
n
tio
due hardship" and
including the modifica
s created the pretext for "im
ion
act
ese
Th
.
s
y
rector's supervision as
longer to supervise an
under the office Medical Di
rk
wo
to
g
re
m
fro
prevented Ms. Yu
/2014 (E35).
. Yu filed her
Ms. Yu requested since 7/2
yee's leave: Although Ms
plo
em
ted
na
do
d's
en
fri
's
the interactive
4) Rejection of Ms. Yu
ployee leave for period of
em
ted
na
do
d's
en
fri
r
he
9/3 and 10/15/2014
application to use
usted her annual leave), on
ha
ex
she
ter
(af
s
ces
pro
n
ployee's
accommodatio
using her friend's donated em
for
st
ue
req
's
Yu
.
Ms
ed
ain (E36). Ms.
MDH HR respectively reject
9/18. and then 10/8/2017 ag
on
on
ati
lic
app
ted
ple
com
tion on
leave. Ms. Yu sent the
Kollner denied her applica
ia
nth
Cy
s.
M
tor
ec
dir
the
t have any
Margaret Embardino and
nated, so that Ms. Yu did no
mi
ter
s
wa
Yu
.
Ms
t
tha
s EE37).
11/7/2014 with the reason
ctive accommodation proces
era
int
the
g
rin
du
s
wa
ile
wh
Yu as Dr. Toney
income for October 2014
ed to accommodate Ms.
us
ref
DH
M
n:
tio
na
mi
ter
ful
g to subsequent
s) Unlaw
ing leave of absence leadin
tak
Yu
s.M
ed
ow
all
dis
ut a
recommended and
. The termination was witho
MH
DH
in
g
irin
reh
m
fro
r
he
in the decision
termination and preventing
Barbara Perry participated
.
Ms
ion
Un
d
an
ng
eti
me
Ms.
prehearing or mitigation
Nally was prohibited to help
Mc
.
Mr
or
ect
dir
n
nio
(U
.
. Yu
making but did not inform Ms
prohibited by MD
OC in my rebuttal). These are
EE
ed
ort
rep
I
er
aft
ion
Un
t
Yu and lef
Complaint (Rev. 12/2000)

11

33

USCA4

/112,11
4 Filed 12/08/17 Page 12 of 17
ent
se 1:17-cv-03260-JKB Docum

Ca

-based
A(1-5). This constitutes disability
m
Fro
ent
ym
plo
Em
04
02.
03.
14.
COMAR
discrimination and retaliation.
05.03.
ce indicate: by quoting COMAR17.04.
The causes listed in the termination noti
odation. cannot
bility who, with a reasonable accomm
disa
with
al
vidu
indi
"an
is
Yu
Ms.
that
the opportunity
ition" (E38). Ms. Yu was never given
perform essential functions of the pos
ut prejudice" is
termination with the condition "witho
to work with an accommodation. The
t to be rehired
(2) policies and violates Ms. Yu's righ
against ADA and COMAR 14.03.02.04
of the civil
U.S.C. V7, 2000e et seq.,. Title VII
in DIEVIH. The termination violates 42
loyee
hibited from retaliating against an emp
pro
are
ers
ploy
Em
c.
"...
law
4
196
of
rights Act
an with
42 U.S. Code 4 12101. The Americ
.":
law
this
er
und
int
pla
com
a
g
for makin
a disability in
not discriminate against a person with
can
ers
ploy
Em
"a.
Law
Act
ities
abil
Dis
assignment,
ludes interviews. testing. hiring. job
any aspect of employment. This inc
benefits. b.
tions. layoffs. compensation, leave and
evaluations, discipline, training, promo
plaint
against an employee for making a com
ing
liat
reta
from
ited
hib
pro
also
are
Employers
dation and
ent Guidance: Reasonable Accommo
em
orc
Enf
:
OC
EE
and
",
law
this
under
tyh a disability is protected from disabili
Hardship No.33 that "an employee wit
Undue
.
including disability-based harassment"
based discrimination by a supervisor,
to
t for "undue hardship" and refused
-tex
pre
as
ice
off
d
ture
truc
res
t
dan
Defen
-hostile
work under seniority system with non
to
rn
retu
Yu
.
Ms
w
allo
to
and
date
accommo
discrimination
ng MS Barra's disability-harassment
ecti
corr
and
ling
trol
con
by
,
ons
diti
con
life and Ms. Yu
s health condition. career. and family
and retaliation. This damaged Ms. Yu'
9).
filed an appeal to this termination (E3
d
orted to DHMH managers and file
III. Retaliation for Complaints rep
ADEA
2013 and 2014 under Title VII and

in EEOC in

s civil and
cealed evidence of violating Ms. Yu'
MDH Ms. Barra and Ms. Johnson con
constitutional rights:
ing in
ch Ms. Yu reported to Dr. Shell beginn
Ms. Barra treated Ms. Yu unfairly. whi
M in March
assification approved by MDH and DB
March 2012 including missing her recl
to Ms. Barra in
number which was unlawfully given
2011 with the position identification
was the
oming Ms. Yu's supervisor and also
bec
ra
Bar
.
Ms
to
r
prio
was
s
Thi
2.
Jan. 201
on.
initial cause of the Ms. Barra's retaliati
ally
was in retaliation for Ms. Yu's continu
Ms. Barra 's revising Ms. Yu's MS-22
to respond Ms.
ng of June 2013, Jas Ms. Barra refused
seeking Dr. Shell's help in the beginni
lication):
Ms. Yu provided for office grant app
Yu's emails and refused to use the data
inst Ms. Yu's
aga
(10/10/2013) was retaliation
Ms. Barra's creating Internal Memo
king rights_ bullying
. Barra's violating her equal wor
Ms
for
)
013
4/2
(8/1
ce
van
grie
filed the
description and
er seniority system in her MS-22 job
her, deleting all of her projects und
treatment as
was not epidemiologist and unfair
who
ple
peo
ng
you
and
te
whi
to
gave them
ll's help since 3/13/2012.
well, which Ms. Yu hard sought Dr. She
disciplinary actions on 2/3/2014 was the
Ms. Barra's initiated 1s` of progressive
Complaint (Rev. 12/2000)

12

34 USCA4

19' 87ent 4 Filed 12/08/17 Page 13 of 17
Case 1:17-cv-03260-JKB Docum
ent and
ut Ms. Barra's discrimination, harassm
retaliation against Ms. Yu's reports abo
ction of
4. And Ms. Johnson's (9/3/2014) reje
retaliation to MDH OEOP on 2/2/201
ination
of "undue hardship" and consequent term
accommodation without any explanation
charge in EEOC in 2013 and 2014.
was retaliation against Ms. Yu's filed
.
OC false information, (regarding Ms
EE
ed
vid
pro
ra
Bar
.
Ms
and
n
nso
5. Ms. Joh
in her
ry actions), and perjured witness
lina
cip
dis
and
dum
ran
mo
me
d
ate
Barra's cre
misled
inding Conference" on 4/19/2017 that
ct-F
"Fa
and
5
/201
2/19
on
nt"
eme
Stat
"Position
on.
and worsened Ms. Yu's health conditi
EEOC's investigation and conclusion,
disability
damages of willful underpayment and
As described above, in addition to the
. Code 121011
ng Fair Labor Standards Act. 42 U.S
discrimination and harassment violati
ce: Reasonable
Law, and EEOC: Enforcement Guidan
The American with Disabilities Act
e are related to
ip No.33, tremendous facts of this cas
Accommodation and Undue Hardsh
activities
Yu's previous protected civil rights
.
Ms
for
ion
liat
reta
e
ssiv
gre
pro
chronic and
ce and
March 2012; filing complaints, grievan
e
sinc
rs
age
man
MH
DH
to
rts
repo
after her
and 9/3/2014
charges filed in EEOC on 11/12/2013
and
3
201
ust
Aug
e
sinc
H
MD
in
eals
app
law; 42 U.S.C.
e VII of the civil rights Act of 1964
under 42 U.S.C. §§ 2000e et seq.. Titl
d
vities and conduct. Defendants tolerate
acti
ul
awf
Unl
187
§
e
Cod
.
U.S
29
§1981&1983;
for years
rimination and retaliation behavior
disc
nt.
me
ass
har
ra's
Bar
.
Ms
ted
and suppor
rights and
communication opportunity. civil
and
g
rkin
wo
al
equ
's
Yu
.
Ms
ng
violati
career, and her
d Ms. Yu's mental and physical health,
constitutional rights, not only damage
king environment.
family life, but also damaged MDH wor
all issues raised in this complaint.
Plaintiff hereby requests a jury trial on
3. The relief I want the court to order

is:
, pain and suffering,

0 (lost pay, front pay, under pay
IA Damage in the amount of : $750,00
lawyers fee, etc.)

put
. Yu's personnel file which Ms. Barra
An injunction ordering: Clear up Ms
by the
le
itab
equ
other relief deemed just and
without Ms. Yu's awareness and any
Honorable Court.
. so
searching employment lawyer's help
0 Other (explain): Ms. Yu continues
ted if she can find.
additional lawyer fee may be reques

00411 I 'h/zAt7

(Signature)

(bate)

Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon, MD 21009
Home phone: (410) 671-9823
of
(Printed name, address and phone number
Plaintiff)
Complaint (Rev. 12/2000)

13

35 USCA4

17
3 d 12/08/17 Page 14 of
4 File
etejcuml
Case 1:17-cv-03260-JKB Do

nce Privacy Policy

Privacy Rules and Judicial Confere

rt should not
policy, any paper filed with the cou
nce
fere
Con
l
icia
Jud
and
Act
Under the E-Government
e address; the full name of person
y number, full birth date, or hom
urit
sec
ial
soc
s
ual'
ivid
ind
an
contain
ress the privacy concerns
l account number. These rules add
ncia
fina
e
plet
com
a
or
or;
min
a
known to be
tronic case files.
resulting from public access to elec

•
Complaint (Rev. 112000)

14

36 USCA4

ent 4 Filed 12/08117 Page 15 of

Case 1:17-cv-03260-JKB Docum

ED
TEDTO THE COMPLALISTT FIL
LATED
EXHIBITS RELA
ND
LA
RY
MA
OF
IN FEDERAL DISTRICT COURT
. 7, 2017)
Dec
,
260
cv-3
(Case No. JICB 17-

17

BALTIMORE-NIGHT BOX

EC -8 pm 4: 20
7117 DEC
U.S. BhNXRUPTCY COURT
DISTRIepTae `!ARYL AND

Exhibit.
artment of Health former
Ms. Yu's letter to Maryland State Dep
/2014
Secretary Dr. Joshua Sharfstein on 2/18
ice director Dr. Donald Shell
Ms. Yu's letter to CCDPC former Off
On 3/13/2012
about unfair treatment
Ms. Yu's 12/5/2012 letter to Dr. Shell
atachment
and missed reclassification via email
ared by her former
Ms. Yu's accommodation requests prep
lawyer on 7/23/2014 and 8/19/2014
MS-22 of job written
Ms. Yu's report about missing forms
on 2/21/2013
description and performance evaluation
reports Ms. Yu provided
Ms. Barra refused to load the updated
ification in June 2013
for office web, and forbad Ms. Yu's clar
updated web reports in
Ms. Yu remaindered. Ms. Barra to use
2013 and 2014
his help for Ms. Barra's
Ms. Yu's letter to Dr. Shell and sought
with her job in June 2013
harassment and retaliation to interfere
C-1305 grant application
Ms. Yu's job description stated in CD written description to
Ms. Barra changed Ms. Yu's MS-22 job
ough Ms. Yu requested
interfere with her job in July 2013 alth
nity and condition
her to give her same working opportu
her level manager about
Ms. Yu's reported to Dr. Shell and hig
on for her in July 2013
Ms. Barra's changing MS-22 in retaliati
3 and report to HR on
Ms. Yu's grievance filed on 8/14/201
treatment
12/2/2013 against Ms. Barra's unfair
of her job related to
Ms. Yu's reports to Ms. Barra about part
her contacts with Dr. Shell
ing memorandum
Ms. Barra's 10/10/2013 internal consult
rnal consulting
Ms. Yu's response to Ms. Barra's inte
memorandum on 10/18/2013
11/12/2013 against
Ms. Yu's first charge filed in EEOC on
at age and race and
Ms. Barra's harassment, discrimination
ting her right to sue on
retaliation and EEOC's decision gran
11/26/2013
Ms. Keneithia Taylor
Ms. Yu's report to MDH OEOP director
Barra's
Ms.
ut
between 1/9/2014 and 1/31/2014 abo
harassment, and retaliation
Ms. Barra's National origin
Ms. Yu reported to Ms. Taylor about
discrimination on 2/1/2014
Ms. Barra's interference
Ms. Yu reported to Ms. Taylor about

1

.5
.8
.16
18
21
22
23
25
.35
37
40
46
47

.48
51

55

1
37 USCA4

/17 Page 16 of 17
Case 1:17-cv-03260-3KB Document 4 Filed 12/08

EXHIBITS RELATED TO 1 tLE, COMPLAINT FILED
ued Page
IN FEDERAL DISTRICT COURT OF MARYLAND-Contin
(Case No. JKB 17-cv-3260, Dec. 7, 2017)
Page

Exhibit
with her job on 2/2/2014
linary
Ms. Barra requested mitigation and initiated 15 discip
014
2/18/2
action on 2/3/2014, and Ms. Yu's appeal on
against Ms. Barra's initiated disciplinary action
Ms. Yu's response to the mitigation meeting, disciplinary
ed
action and filed her appeal against Ms. Barra's initiat
f'd disciplinary action (5 days suspension) due to
ation)
checking CDC-1305 program (epidemiological inform
email list
of
Ms. Barra's initiated ri disciplinary action (3 days
forfeiture annual leave) on 4/22/2014 alleging Ms.
Yu leaked her checking CDC email list led 5 dayssuspension to CDC and Ms. Yu's appeal
)
Ms. Barra's initiated 4th disciplinary action (5/20/2014
of
against Ms. Yu's clarification of Ms. Barra's confusion
2
MS-2
ed
chang
and
the internal consulting memorandum
l
when Ms. Yu was sick in home and Ms. Yu's appea
l of
Ms. Barra's initiated 5th disciplinary action of denia
e
annual increase and "unsatisfied" annual performanc
plan)
days
180
with
tion
evaluation (termination on proba
on 6/9/2014 and Ms. Yu's appeal
Yu
Ms. Barra made confusion to Dr. Shell but forbade Ms.
to clarify it in Dec. 2013
1305
Ms. Barra blocked Ms. Yu to access to CDC-supported
grant information
others
Ms. Barra's sharing Ms. Yu's disciplinary actions with
evaluation
ability
work
y's
Tone
rt
State Medical Director Dr. Robe
tion
mitiga
attend
Ms. Barra's requirement for Ms. Yu to
meeting and do work ability evaluation in May 2014
Yu
MDH opened "Epidemiologist III" position and Ms.
tion
moda
accom
st
applied in June 2014 and reque
MDH's retaliation after received Ms. Yu's charge filed
in EEOC on 9/2/2014
Ms. Yu's further explanation about her accommodation
request on 9/29/2014
014
Ms. Barra's false reports to HR between 10/8-10/10/2
plan
triggered HR termination
MDH HR Ms. Toria Livingston's letter 10/10/2014

59

64

72

81

.89

99
117
.121
124
125
135
142
147
152
157
162

38 USCA4

8/17 Page 17 of 17
Case 1:17-cv-03260-JKB Document 4 Filed 12/0

8-6

•

EXHIBITS RELATED TO THE COMPLAINT FILED
ontinued Page
IN FEDERAL DISTRICT COURT OF MARYLAND-C
(Case No. JKB 17-cv-3260, Dec. 7, 2017)
Page

Exhibit
CCDPC office structure changes in Oct. 2014 and rejection
of accommodation recommended by State Medical Director
Dr_ Robert Toney on 10/14/2014
Appeal to DBM Ms. Margaret Embardino per MDH HR's
rejection of Ms. Yu's request to use her friend's donated
employee leave to cover interactive accommodation process
in Sept-Oct 2014
Ms. Yu's request to use her friends donated employee's
leave was denied by DBM Personnel service and Benefits
after she received termination notice
38_ Termination notice
39. Appeal with cover letters to DMH HR and former Secretary
Dr. Sharfstein on 11/14/2014

•

163

167
.185
186
188

3
39 USCA4

of
Case 1:17-:cV03260-3KB Doument 20-1 Piled 03/22118 Page 1
U.S, AgpAL, EMPLOYMENT orrogrpmy CPMWSSIPN . ,
"Baltemare Ada bffiee
City Czcszart Buldiug
10 *adz Howard St, 3r6 Floor
b7
Baltimatt, MD 21201
Intake Information Dwain (800) 669-4000
It take Imiminstiun Gump TIY: (800) 669-6820
Baltimore Dili:a Mak (410) 209-2237
Try (410) 962-6065
TAX (410)209-2221
FAX (410) 962-4270

Dr. Xaio-Ying Yu
557 Kirkcaldy Way,
Abingdon, Maryland 21009
Re: EEOC Charge No.: 531-2014-02468C
Yu v. ivraryland Department of Health and Mental Hygiene
Dear Dr. Yu:
We:ave reviewed the information provided by both you and your previous employer, hereafter
referred to as "Respondent." In addition, I reviewed your rebuttal and the information secured
during the Fact-Finding Conference held on April 19, 2017 at 10:00 a.m..
You alleged that you were subjected to harassment due to your race (Asian), national origin
(China), age (61), disability and discharged in retaliation for engaging in protected activity in
violation of Title VII of the Civil Rights Act of 1964, as amended, the Age Discrimination in
Employment Act of 1967, as amended, and the Americans with Disabilities Act Amendment Act
(ADAAAO of 2008.
Respondent denied all allegations of discrimination and contends that Sara Bars. became your
new supervisor on December 19, 2012. During the Fact-Finding Conference held on. April 19,
2017, Ms. Bara indicated that she did not discriminate RowiTIqt you due to your race, age, national
our position as
l - individual in am
origin, disability or age. At the time, you were then_y
Epidemiologist II in the unit Ms. Bare stated that due to the addition of more work, more people
The MS-22 Job Description was refined and expanded for the other new sv...ff
were
members. Ms. Bara indicated that there were several times in which you. met with Dr. Schell
regarding research abstract and. other matters and Ms. Bara advised' you to go thru her before
discussing issues with internal and external partners. The disciplinary actions you received were
in reference to you still going to these internal and external partners to discuss mattrs before
meeting with Ms. Baas or to argue your point. Although you complained of discrimination,
was unable to finorl any evidence to support your claim and unable to find a misal connection of
retaliation that led to your termination.
As you know, the Fact-Finding Conference was held on April 19, 2017 and attended by Delinda
Johnson, Equal Access Compliance Manager, DEMET.L., Sara Bara, formerly Chief Epidemiology
4 Special Projects and Nicholas Johanson, Assistant Attorney General, DITIv£H, and on
-tslf.
conference call Peter Y. Qui, Esq. of the Law Office of Peter Y. Qui listened in on your bel
As you aware, you came to the fact-finding conference and handed me a doctor's note from

Dr. Sharen Bisson, MD, indicating that you were not medically able to attend a conference
without the support and active participation of your attorney. After handing me the note, I still
held the fact-f ading conference because the other attendees had arrived.

348 USC'i4

7
/18 Page 2 of r-1
Case 1:17-cv-03260-3KB Document 20-1 Filed 03/22

s together and
The Fact-Fintiing Conference was an efficient way of getting all the player
the decision
discussing the issues that brought the complaint about in the first place. I have made
to recommend a no-cause fnng
of Ledyarcl
On Sept.5, 2017,1 received 811 email from James M. Ray 11 of the Law Firm
an
office
our
to
visit
your
Ray, LL.}' indicating that he no longer ta:iiki‘ented you_ During
you.
August 29, 2017, you also indicated that Mt Ray no longer represented
:
•
and Notice of Rights which affords you the
ssal
Dismi
a
issued
being
are
you
Therefore,
a lawsuit against the
opportunity to take this matter into Federal Court You have the right to file
of Rights. if you
Notice
employer within 90 days from the date you receive the Dismissal and
to
right pursue this
fail to file a lawsuit within the appropriate time flame, you will lose the
matter in coUrt.
, please write to the
Should you wish to obtain a copy of the administratiVe file for this charge
-referenced 90-day
above
the
following address to Make such a request. You must do so within
this matter. Please be
petiod, which can be extended if you do file a lawsuit in court concerning Furthearacrre,
ure.
advised that there may be a fee if you make such a request for file disclos
r does not extend the
manne
timely
a
in
ents
docum
please note that failure to receive requested
time-period for filing a lawsuit
File Disclosure
HEOC-Philadelphia District Office
801 Market Street, Suite 1300
PhilAdelphia, Peamsylvania 19107
Should you have any questions, I can be reached at (410) 209-2762 or via
christie_boyd@eeoc.gov.

email at

Sincerely,
"AL
e/eas
Christie D. Boyd
Investigator

349 USCA4

APM
03/22/18 Page 3 of
Case 1:17-cv-03260-JKB Document 20-i Filed

3

ISSION

U.S. EQUAL EMPLOYMENT OPPORTUNITY COMM

eoc Fccelsi vie

DISMISSAL AND NOTICE OF RIGHTS
To:

From:

Xlao-Ying Yu
557 /Griccaidy Way
Abingdon, MD 21009

EEOC Charge No.

Baltimore Field Office
10 South Howard St
3rd Floor
Baltimore, MD 21201

On behalf of person(s) aggfieved whose identity is
CONFIDENTIAL (29 CFR §1801.7(a))
EEOC Representative

531-2014-0.2468

Telephone No.

Christie D. Boyd,
Investigator

(410) 209-2762

GE FOR THE FOLLOWING REASON:
THE EEOC IS CLOSING ITS FILE ON THIS CHAR
any of the statutes enforced by the EEOC.
The facts alleged in the charge fail to state a claim under
d by the Americans With Disabilities A.

Your allegations did not involve a disability as define

.

r of employees or is not othenvise covered by the salutes

The Respondent employs less than the required numbe

n
xl

) of the alleged
other words, you waited too long after the date(s
Your charge was not timely filed with EEOC; in
discrimination to file your charge
de that the
upon its investigation, the EEOC is unable to conclu
The EEOC Issues the following determination: Based
iance with
compl
in
is
dent
respon
the
that
certify
not
does
s. This
information obtained establishes violations of the statute
.
charge
this
by
raised
been
having
that might be construed as
the statutes. No finding is made as to any other issues
charge.
fair employment practices agency that investigated this
The EEOC teas adopted the findings of the state or local
Other (briefly state)

- NOTICE OF SUIT RIGHTS -

(See the ark(ionai hionfiation attached to this lam.)

or the Age
the Genetic information Nondiscrimination Act,
Title VII, the Americans with Disabilities Act,
that we will send you.
sue
to
right
your
the only notice of dismissal and of
Discrimination in Employment Act: This will be
court. Your
state
or
l
federa
in
e
charg
this
on
federal law based
You may file a lawsuit against the respondent(s) under
e will be
charg
this
on
receipt of this notice; or your right to sue based
laWsuit must be filed WITHIN 90 DAYS of your
under state law may be different)
lost. (The time limit for filing suit based on a claim
willful violations) of the
federal or state court within 2 years (3 years for
Equal Pay Act (EPA): EPA suits must be tiled in
than 2 years (3 nears(
more
red
occur
ay due for any violations that
alleged EPA underpayment. This means that backp
40 •
before you file suit may not be collectible.

4

7 On behalf

Co

-41044;t-4

Enriosures(s)

Rosemarie iE hoc*);
r
1"ire

nin

jiff

Mete Mailed)

cc: Nicholas E. Jobansson
Assistant Attorney General
Office of the Attorney General, State of

Maryland
ne
Hygie
al
Ment
7
Department of Health
Suite 302
300 West Preston Street
Baltimore, Maryland 21201

350 USCA4

Z2c-c—f

Case 1:17-cv-03260-JKB Document 20-3 Filed 03/2 2/18 Page
Ate,

Jtx,t

EEOC Charge No.531-2014.-02468C 1
Yu v. Maryland Department of Health and Mental Hygiene and Sara Barra

Rebuttal of DITMII EEO, Ms. Delinda Johnson's Position Statement by XiaoYing Yu
Updated 4/13/2015
Re: EEOC Charge No. 531-2014-02468 (filed by Xiao-Ying Yu on 9/2/2014, received by
EEOC on 9/3/2014)
Xiao-Ying Yu vs. DHMH and Sara Barra

HIGHLIGHTS OF THE POSITION STATEMENT VS. THE REBUTTAL
Highlights of the DHM:11 Position Statement
1. Denies the Complainant's mental disability and rejects reasonable accommodations: Delinda
Johnson (Ms. Johnson) states in the Position Statement on page 19, paragraph 6, "the Complainant
does not meet the 'regarded as' requirement necessary underADA because she was not subjected to a
prohibited action due.to any real or perceived disability."; On page 23, paragraph 7, "DHMH engaged
in an interactive prort'ss with the Complainant in an effort to accommodate her based on
disabilities; however, it was determined that the accommodations she requested to be assigned a
new supervisor or receive a reclassification to a higher level position were unreasonable and created
an undue hardship. Alternative options were explored with the Complainant, but she declined to
consider additional options. Medical documentation by both the Complainants health care provider
and State Medical Director indicated that she was unable to return to work, thus unable to perform
the essential functions of her job." It also states on page 22, paragraph 2 that "the Complainant was
advised of her options to retire or resign by October 24, 2014. Effective November 3, 2014, the
Complainant was no longer employed with PHPA, DHMH."
Denies all the evidence of discrimination and retaliation provided by the Complainant:
Ms. Johnson concluded on page 22, paragraph 3 "The Complainant provides no supporting evidence
that she was subjected to discrimination based on her race, age, national origin, disability, or that
she was subjected to retaliation for opposing alleged discriminatory activity."
Accuses the Complainant of exhibiting repeated and excessive behavior. Ms.
Johnson concluded on page 22, paragraph 6: "The Complainant had difficulty accepting
rejection and following the direction of PHPA management as evidenced by her repeated
excessive behaviors despite receiving counseling and eventual disciplines. On more than
one occasion, when presented with rejection she exhibited unprofessional behavior to the
Bureau Director on his work issued call phone for non-emergency related issues despite
requests to cease; repeated contacts to, federal funding agency, despite both the fender's
and PHPA manager's request to cease; making defamatory statements about her
supervisor being untruthful and intentionally misleading to PHPA management, without
any evidence, even though the examples she provided were previously reviewed and
resolved; and being disruptive to her colleagues by interrupting their work day to discuss
issues related to rejections she received regarding her work."
Denies discrimination and retaliation against the Complainant: Ms. Johnson stated on page 3,

352

U SCA4

Case 1:17cv-03260-JKB Document 20-3 Filed 03/2
2/18 Page 2 of 68
tr,
OC Charge No.53/ -2014-02468C 1 2
Yu v, Maryland Department of HJth and
Mil Hygiene and Sara Barra

bottom paragraph that "Ms. Barra,
the Complainant's immediate supervisor, did not treat the
Complainant differently compared to other employees
she supervised"; on page5-(7), "Ms. Ban-a
has
not threatened the Complainant or subjected her to 'abuse' at any time during her employme
nt"; on
page 5-(9), " Ms. Barra does not have knowledge about the Complainant's medical conditions."; on
page 6 —(11), "The Complainant was not retaliated against for filling the Charge No. 531-2014-00271
with the EEOC on November 12,2013", and on page 7, paragraph 4, "The Complainant was not
subjected to discrimination or retaliation through her employment with PHPA.". Also, it concluded
on page 24, paragraph 1: "The Complainant was not discriminated against, did not suffer a hostile
work environmental and no adverse action was taken against the Complainant in retaliation of her
initial EEOC charge of discrimination?'
Denies that poor performance evaluations (PEP) were due to retaliation: the Position
Statement stated on page4, paragraph (2): "The Complainant's race, age, national origin, disability,
or 'cultural differences' were not considered when determining her performance ratings throughout
her employment with DHMH; nor was the lower score she received on her PEP retaliatory for her
protests against alleged discriminatory activities. Rather, it was based on her poor work performance
during her most current rating period."
Denies that the change of Job description (MS-22 form) was because of retaliation the
Position Statement stated on page 7, paragraph 4, "The complainant was the only epidemiolost
under Ms. Barra's supervision. Therefore, there are no similarly situated employees for the
Complainant to make valid comparisons of disparate treannent"; however, it stated on page 4,
paragraph 3, "As employees were recruited and hired to work in the Complainant's unit, Ms. Barra
revised and adjusted employee's position descriptions to adequately divide responsibilities
amongst her staff."
Denies interference with the Complainant's job: Ms. Johnson stated on page 9, paragraph 4,
"The Complainant's revised position description did not restrict her from making contact with
internal and external, nor was she denied access to materials; she has access to all materials necessary
in the office, including electronic folders that other staff accessed." Also, it stated on page 22,
paragraph 5 that "as Chief of Special Projects, it was also reasonable that Ms. Barra has decisionmaking authority over decisions related to the 1305 grant. The Complainant was simply unwilling
to accept Sara Barra's supervisory authority over her."
Conclusion of the position Statement: On page 24: "The Respondent concludes that the
allegations made by the Complainant should be dismissed. The Complainant was not disCriminated
against, did not suffer a hostile work environment and no adverse action was taken against the
Complainant in retaliation of her initial EEOC charge of discrimination or alleging discrimination to
PHPA management. The rules were not applied in an arbitrary or discriminatory manner_ Therefore,
the Department of Health and_Mental Hygiene requests a finding ofNo Probable Cause."
Highlights of the Rebuttal
1. Discrimination and retaliation Ied to rejection of accommodation and termination: The medical
diagnosis of the Complainant's mental disability was submitted to the DHMH HR on numerous
occasions. The Complainant's request for reasonable accommodation (based on the recommendations by
the State Medical Director and her health provider) was rejected for no other reason than discrimination
and retaliation, which led to her subsequent termination. The Position Statement is full of conflicting and
false information that could be misleading to the EEOC investigators.

353 USCA4

Case 1:17-cv-03260-JKB Document 20-3 Piled 03/2 2/18 Page 3 of 68

I

7 2.

EEOC Charge No531-2014-02468C
Yu v. Mary/and Department of Health and Mental Hygiene and Sara Barra

13

Repeated complaints of discrimination to DUMB EEO prompted the first disciplinary action in
retaliation: The Complainant has provided ample supporting evidence of discrimination by Ms. Barra to
DHMH EEO, HR, Center for Chronic Disease prevention and Control (CCDPC) ex-Office Director and
PHPA managers. When the Complainant made a series of complaints in oral and written communication
describing the discrimination and retaliation she had suffered from her supervisor to the DHMH EEO
between 1/9/2014 and 2/2/2014, she received an immediatedisciplinary action the next day on 2/3/2014.
This is the first (trigger) of progressive disciplinary actions that followed her initial charge filed in
Federal EEOC on 11/12/2013. This is clearly retaliation against protected activities.
Protected activities are not "repeated and excessive behavior": The Complainant was not permitted
to work according to her job description in the MS-22 form which requires the Complainant to
communicate and provide recommendations and relevant information as epidemiologist to the Office
Director and the Medical Director on a daily or weekly basis. This was evidenced by Ms. Barra's internal
memos and e-mails. The Complainant also has the obligation to communicate on issues related to
discrimination and retaliation. What Ms. Johnson called 'repeated and excessive behavior' included the
Complainant's mitigation factors, two grievances and five appeals related to the retaliation and
disciplinary actions including the clarification to the PHPA manager about her supervisor's internal
memos and adverse actions. The alleged "repeated and excessive behavior" is actually the Complainant's
protected activities intensified by escalated discrimination and retaliation.
Ms. Ban-a treated the Complainant differently from other employees: Examples of harassment:
Ms. Barra requested the Complainant to supply the burden reports for the office website, but she refused
to upload the new reports for over two years. This caused negative impressions among managers and coworkers about the Complainant's job performance. Ms. Barra did not allow the Complainant to clarify
this at the staff meetings. Additionally, Ms. Barra gave the Complainant a performance evaluation with
"unsatisfactory" that was explained by Ms. Barra as the result from the failure of "timely, appropriate
complete work assignments". Ms. Barra tried to isolate the Complainant by sharing the disciplinary
action "suspension" against her in the calendar so all the co-workers could see it. This cruelty caused the
Complainant extreme stress and mental disability.
The process of performance evaluation (PEP) for the Complainant did.not conform to DHMB
BR policy: Ms. Barra's constant downgrading of the Complainant's performance evaluation was because
of retaliation against the latter's complaints of unfair treatment by Ms. Barra. Even when the
Complainant received a "satisfactory" in evaluation, Ms. Barra always sent an internal memorandum with
a request for improvements which, however, is only required in mid-cycle PEP "unsatisfied" cases by
DHMH HR PEP policy. Ms. Johnson tried to defend Ms. Barra's retaliation and stated incorrectly on
page(s) 7-8 that "When an employee receives a rating of "satisfactory" during the mid-cycle, supervisors
are permitted to issue a performance evaluation memorandum in lieu of completed performance
evaluation form". Because "Satisfactory" form does not include any improvement memo, Ms. Johnson
addressed this policy and applied it wrongfully to the Complainant's mid-cycle PEP "satisfactory" forms
specifically made by Ms. Barra's retaliation (with improvement memos) to mislead EEOC investigator.
Since 12J5/2012, when the Complainant reported to her ex-Office Director, Dr. Shell, about Ms. Barra's •
discrimination and retaliation, Ms. Barra had never sat down and discussed the self-evaluation and the
internal memorandum* with the Complainant privately as she did for other employees instructed by
DHMH HR policy. According to DHMH HR policy, Ms. Barra, as a supervisor, should at least discuss it
once with the Complainant before requesting Complainant to sign the performance appraisal she made,
but she never did since she became the Complainant's supervisor on 12/19/2012.
The revision of the Complainant's job description (MS-22) was not warranted: The justifications
given by the Position Statement were false. The Complainant's job description was revised by Ms. Barra
on 6/12/2013 when there was no newly hired epidemiologist or data analyst in the office to work on heart

354 USCA4

Case 1:17-cv-03260-JKB Document 20-3 Filed 0

3/22/18 Page 4 of 68

"
if 3
EBOC Charge No.531-2014-02468C 4
Yu v.Maryland Department of Health and Mental Hygiene and Sara Barra j

disease, stroke, and diabetes, and no changes to the 1305 grant that the Complainant was designated to
work on, nor was the Complainant informed of any "inappropriate workplace behavior" as described in
the Position Statement. However, Ms. Barra deleted from MS-22 the Complainant's job duties and
projects, created a set of restrictions limiting the Complainant's internal and external communication, and
changed the performance standards from epidemiologist professional skills to "writing." Those changes
were inenieciitated for the purpose of discrimination and retaliation. The Complainant requested Ms.
Barra to treat her equally as other epidemiologists in DHMH by e-mails, but Ms. Barra rejected her
requests. Therefore, the Complainant filed grievance against Ms. Barra on
4/2013. After the
Complainant received the PHPA's rejection of her grievance on 11/18/201, she appealed to DHMH HR
Employee Relations to request their reconsideration of the revised MS-22 and sought their help to stop
Ms. Barra's retaliation. She attached the original rejection with her response in her appeal.
Ms. Barra's interference with the Complainant's job created formidable situations: The
Complainant was not only forced out of projects, but also blocked from receiving CDC instructions,
including CDC 1305 grant, and limited in accessing data and information. Even in such a difficult
situation, the Complainant still tried to work things out with Ms. Barra. She expressed her willingness to
work under Ms. Barra's supervision by verbal and written communication. The Complainant never
received any response from Ms. Barra regarding those requests. Ms. Barra's interference with the
Complainant's job created formidable situations and it was described in various reports by the
Complainant to superiors at different levels.
Concerns about witnesses and individuals that are listed in the exhibits: The witnesses listed in the
Position Statement are highly biased because one of them, Ms. Erica Smith, directly benefits from Ms.
Barra's discriminating actions. She was given most of the Complainant's responsibilities even though at
that time she was not an epidemiologist or evaluator in the office nor was she under Ms. Barra's
supervision. Ex-Medical Director, Vanessa Walker Harris, (working in the CCDPC office during
10/2013-6/2014, was misrepresented by Ms. Johnson as the current Office Medical Director), who was
influenced by Ms_ Barra, met everyone but the Complainant to discuss work in the office since she first
came in 10/2013. The Complainant complained about this to DHMH EEO in writing on 2/2/2014. It is
highly biased that the Position Statement specifically included (see the position statement exhibits) those
individuals (65 years old, non American-born and non Caucasian) as current employees under Ms.
Barra's supervision to defend Ms. Barra's discrimination and harassments, even though they already left
the office.
Conclusion: The Complainant was discriminated against, harassed, and retaliated by Ms. Barra
because she had reported her complaints followed by further clarifications to various officers, including
the next level managers, ex-office director since 3/13/2012 and the PHPA manager since 7/28/2013.
The Complainant has filed complaints with her Union since 8/12/2013, HR Employee Relations on
12/2/2013, DHMH EEO between 1/9/2014 and 2/2/2014, and Federal EEOC on 11/12/2013 and 9/2/2014
about Ms. Barra's unfair treatment and discrimination against age, race, national origin, and disability as
well as harassments and retaliation. The escalated discrimination and retaliation are the causes for the
rejection of the Complainant's request for accommodation by DHMH EEO and the subsequent
termination. Although the requests of "abeyance condition" for the Complainant's appeals to Ms. Barra
for the disciplinary actions by the Union representative on 7/2/2014 were approved because of her FMLA
until the Complainant returns to work, these appeals were blocked by DHMH EEO's refusal to allow the
Complainant to return to work under a different supervisor and subsequent termination. Therefore, the
Complainant is asking for EEOC's investigation into her case and doing her justice.

T H te, REBUTTAL

355 USCA4

Rebuttal of Maryland Department of Health and Mental Hygiene
EEO, Ms. Delinda Johnson's Position Statement by Xiao-Ying Yu
Re: EEOC Charge No. 531-2014-02468 (531-2014-02468c) filed by Xiao-Ying Yu on
9/2/2014, received by EEOC on 9/3/2014
Xiao-Ying Yu vs. Maryland Department of Health and Mental Hygiene and Sara Barra

HIGHLIGHTS OF THE POSITION STATEMENT VS. THE REBUTTAL
Highlights of the DHMH Position Statement

p1

Denies the Complainant's mental disability and rejects reasonable accommodations.
Denies all the evidence of discrimination and retaliation provided by the Complainant.
Accuses the Complainant of exhibiting repeated and excessive behavior.
Denies discrimination and retaliation against the Complainant.
Denies that poor performance evaluations were due to retaliation.
Denies that the change of Job description (MS-22 form) was because of retaliation:
Denies interference with the Complainant's job by forcing her out of projects.
Conclusion of the position Statement.
Highlights of the Rebuttal (for your convenience, including related exhibits)

p2-4

Discrimination and retaliation led to rejection of accommodation and termination (key exhibits
#1a,b&c, 2,4,5,22a&b, 20, 21,13c&d, 3a, 23,24a&b)
Repeated complaints of discrimination to DHMH EEO prompted the first disciplinary action
in retaliation (#31, 32, 34a&b, 36, 37, 43, and 44)
Protected activities are not "repeated and excessive behavior" (#11a,b&c, 46a&b, 54a,b&c,
53, 55a&b, 56a&b, 51, 57,58,59and EEOC Charge No. 531-2014-00271)
Ms. Barra treated the Complainant differently from others (#60,39,40, 41, 42a&b, 44,
62,63,65,66,67, 70, 71, 72, 73b,74,75, 76, 77, 78,79,80a&b and 81)
The process of performance evaluation for the Complainant did not conform to DHMH HR
policy (#49 & 50)
The revision of the Complainant's job description (MS-22) was not warranted (#52, 54a,b&c,
56a&b)
Ms. Barra's interference with the Complainant's job created formidable situations (#79,
82a,b&c, 83, 84b, and 69)
Concerns about witnesses and individuals listed in the exhibits (#71, 81,85, 52, and 57)

9. Conclusion

THE REBUTTAL

p5

Discrimination and retaliation led to rejection of accommodation and
p5
termination
1.1. The pretext in the position statement related to the retaliation of reasonable
P5
accommodation
s
1.1.1. Contradictory statement
p5-6
1.1.2. Inconsistencies
p6
1.1.3. Incoherencies
1.1.4. The Position Statement misinterpreted, and disrupted the timeline of the
p6-8
events on purpose
1.2. Adverse action after DHMH EEO Ms. Johnson received the Complainant's Federal
P9
EEOC charge file on 9/2/2014
p9
1.2.1.Rejection of reasonable accommodation:
p9
1.2.2. Denial of using the friend's donated leave:
1.2.3. Rejection of accessing her office mail box:
1.2.4. Misinterpretation and misrepresentation of State Medical Director's recommendation
p9-10
for the reasonable accommodation
p10
on
informati
1.2.5. Request of resign or retire with disability benefits
1.2.6. Notice of termination by restricting the appeal within DHMH HR
p10-11
Employee Relations
1.3. The termination notice is related to disability-based discrimination and retaliation
1.3.1. The termination on 11/3/2014 lacks factual and legal basis for
pl I
COAM 17.04.05.03
Director's
Medical
State
of
1.3.2. The termination notice is based on the misrepresentation
p11-12
medical documentation
pI2
process
appeal
ant's
Complain
the
1.3.3. The termination notice blocked
1.3.4. The Complainant's termination with the condition "without prejudice" is against the
ADA and COMAR 14.03.02.04 (2) and contradicts with the DHMH HR policy p12
1.3.5. It is unlawful to discriminate on the basis of disability against a qualified individual
p12
with a disability to return to work under a different supervisor
1.4. Summary:Rejection of reasonable accommodation-based termination violates
P12
ADA policy
pI2
disability
1.4.1. Position Statement dies the Complainant's mental
p12-13
1.4.2. The Complainant's termination violates ADA EEOC's policy

Repeated complaints of discrimination to DHMH EEO prompted the first
p13
disciplinary action in retaliation.

2.1. Initial report via e-mail to DHMH EEO director, Ms. Keneithia Taylor about
p13
Ms.Barra's discrimination and retaliation
2.2. Meet DHMH EEO Director Ms. Taylor with Union Michael McNally together and
p13-14
oral report her details about Ms. Barra's discrimination and retaliation
2.3. Follow up DHMH EEO Ms. Taylor with some questions and Ms. Barra's new adverse
p14-15
actions
2.4. Complaints about discrimination to DHMH EEO prompted the first
disciplinary action in retaliation

3. Protected activities are not "repeated and excessive behavior."

p15-16
p16

3.1. Timeline of discrimination and retaliation and related protected activities were
p17
illustrated in a summary diagram
3.1.1. Background
3.1.2. Ms. Barra's retaliation began on 1/2/2013

p17
p18-19

3.2. Reported discrimination, harassment and disability as well as retaliation to various
p19
office managers
3.2.1. Oral and written complaint reports to ex-office director since 3/2012
3.2.2. Oral and written complaint reports to PHPA director between 7/2013
and 8/2013
3.2.3. Oral reports to DBM Division of Employee and Relations 8/2013
and 3/2014
3.2.4. Oral and written complaint reports to the Union since 8/2013
3.2.5. Oral and written complaint reports to EEOC 11/12/2013 (charge
case #531-2014-00271)
3.2.6. The appeal e-mail to DHMH HR Employee Relations Director and
PHPA deputy Director in response to PHPA rejection of the grievance
against Ms. Barra's revised MS-22
3.2.7. Oral and written complaints to DHMH EEO between 1/9/2014
and 2/2/2 014
3.2.8. Written complaints and clarification to Ms. Barra and current
office director Ms. Kristi Pier 4/18/2014
3.2.9. Written complaints and clarifications to PHPA managers on 4/18,
4/22 and 4/25/2014
3.2.10. Approved the application of FMLA by DHMH HR
3.2.11. Partial denial of the Complainant's application for using her
friend of state employees donated leave
3.2.12. Application of reasonable accommodation to DHMH EEO

p20-22
p22

P23
P23

p23
p23-24
p24
p24
p24
p24-25

between 7/23/2014 and 10/31/2014
3.2.13. Appeal of termination to DHMH HR officers, letters to HR
lawyer and ex-DHMH Secretary between 11/15/2014 and 2/8/2015

p25
p25

3.3 Appeals against progressive disciplinary actions and related background/mitigation
p25
- factors were misinterpreted by Ms. Johnson's Position Statement
3.3.1. Appeal against the first disciplinary action reprimand on 2/3/2014
3.3.2. Appeal against disciplinary action 5 days suspension on 3/18/2014
3.3.3. Appeal against disciplinary action forfeit of 3 days annual leave
on 4/23/2014
3.3.4. Appeal against disciplinary action-reprimand on 5/20/2014
3.3.5.Appeal against disciplinary action-"Unsatisfactory" PEP and denial
of annual increase 6/9/2014
3.3.6. Appeal against rejection of reasonable accommodation-based termination
on 11/3/2014

4. Ms. Barra treated the Complainant differently from others

4.1. Ms. Barra treated the Complainant differently than others
4.1.1. Ms. Barra rejected the Complainant's request to use working
time to attend Council of State and Territorial Epidemiologist (CSTE)
annual conference
4.1.2. Ms. Barra forced the Complainant to give her suggestion of
epidemiology and evaluation reports to Ms. Erica Smith
4.1.3. Ms. Barra was unwilling to understand the Complainant's
explanations and suggestions
4.2. Harassments related to protect activities

p25-29
p29-32
p33-35
P35-37
p37-40
p40-41
p41

p4I

p41
p42
p42-43
p43

4.2.1. Ms. Barra intentionally hurt and harassed the Complainant by
p43
publicizing her actions such as suspension on the Google Calendar
4.2.2. Ms. Barra sent a warning e-mail to the Complainant on Chinese
p44
New Year's Day(1/31 /2014
p44-45
cases
4.2.3. Ms. Barra refused to use the Complainant's work in many
4.2.4. Ms. Barra forbad the Complainant to learn about the travel
p45-46
grant support from other employee
make
to
ion
4.2.5. Ms. Barra misrepresented the Complainant's conversat
p46
the. Complainant appears unreasonable about the Tele-working issue
about
Barra
Ms.
by
provided
n
4.2.6. Ms. Johnson used false informatio
4/15/2014. communication meeting to accuse the Complainant's
p46-48
inappropriate behavior.
p48-49
projects
all
of
deletion
4.2.7. Restriction of the Complainant's job duties and

4/91
4.2.8. Rejection of the Complainant's request for taking sick leave

p49

The process of performance evaluation for the Complainant did not
p49
conform to DHMH HR policy. .
5.1. The Complainant was required to sign but was never aware of the
improvement memo related to the writing, judgments and follow
instruction before 1/2/2013

p49

5.2. The downgraded PEP was after the Complainant reported Dr.
Shell on 12/5/2012 about Ms. Barra's discrimination (unfairness)

p49

5.3. Ms. Barra never discusses with the Complainant privately about her PEP. p49
5.4. Ms. Barra's adding "improvement internal memo" for the Complainant's
"satisfactory" PEP is not confirming DHMH HR policy about Performance
evaluation.

p50-51

5.5. The process of PEP and disciplinary actions are contractor with defends
p.51
made by Ms. Johnson

The revision of the Complainant's job description (MS-22) was
not warranted

p51

6.1. Ms. Barra had taken away the Complainant's job duty to non protected
class person

p52-53

6.2. Ms. Barra deleted the Complainant's job duties and projects for a new
epidemiologist who wasn't recruited in the CCDPC office

p.53

6.3. Ms. Barra deleted the existing epidemiologist's projects and divided her
responsibility among Ms. Barra's staff who has not yet been recruited

p5.3

6.4. Ms. Barra focused on the "writing" as the Complainant's performance
standard

p53

6.5. Ms. Barra refused to maintain the supervision as "managerial level"
in her revised MS-22.

p53-54

6.6. Ms. Johnson statement also demonstrated Ms. Barra's discrimination
and retaliation.

p54

6.7. Ms. Barra refused to consider the Complainant's comments about MS-22 p54
P53

7. Ms. Barra's interference with the Complainant's job created
formidable situations
7.1. Ms. Barra's initiated actions are related to the Complainant's protected
activity
7.1.1. PEP related to protective activities
7.1.2. MS-22 related to protective activities:
7.1.3. Ms. Barra's initiated internal memo related protective activities
7.1.4. Disciplinary actions related to protected activities
7.1.5. Ms. Barra repeatedly interfered with the Complainant job performance
by assignment

p.54

p.54
p.55
p55-56
p56
p56
p57-58

7.2. The Complainant's willing to do her best under Ms. Barra's supervision
p58
and support
tely
immedia
Barra
7.2.1. Reported her internal and external work to Ms.
p.58
after Ms. Barra became her supervisor
7.2.2. The Complainant did not get any response even made several
p58
appointments with Ms.Barra to discuss the project
p58-59
s
program
7.2.3. Required Ms. Barra to allow her to access information of office
p.59
7.2.4. The Complainant expressed willing to better working with Ms. Barra
p59
ologist
epidemi
other
as
7.2.5. The Complainant asked Ms. Barra to treat her same
7.2.6. The Complainant explained her communications with ex-Office
p59-60
Director, Dr. Shell and hope Ms. Barra allow her to do her job

Concerns about witnesses and individuals listed in the exhibits.

p60

8.1. Concerns about witness DHMH EEO and Ms. Barra selected
8.1.1. Ms. Erica Smith was given most of the Complainant's job responsibilities
by Ms. Barra
8.1.2. Ex-office medical director-Dr. Vanessa Walker Harris discriminated the
Complainant
8.2. Concerts about the listing name of employees
8.2.1. There are two employees who left the office
8.2.2. Dr. Donald Shell is the ex-CCDPC Office Director, but also current
cancer and Chronic Disease Bureau director
8.2.3. Current CCDPC Office Director: Ms. Kristi Pier

p60

Conclusion
Exhibits

p60
p61
p62
p62
p62-63
p63
p63
p64-68

/18 Page 64 of 68
Case 1:17-cv-03260-JKB Document 20-3 Filed 03/22
EEOC Charge No.531-2014-02468C 1
Bans
Yu v. Maryland Department of Health and Mental Hygiene and Sara

64

10. Exhibits
4
la. DHMH EEO Ms. Johnson rejection of accirmerlation0903-2D1
14
0902-20
file
lb. DHM1-1 HR EEO Ms. Johnson received the EEOC Charge
2. DHMH HR Ms. Johnson rejection accornodation10-14-2014
DHMH HR Ms. Toria Livingston letter-force to resign-retire10-10-2014
E-mail corn with DHMH HR Ms. Livingstort10-24 -10-27-2014
4. Reasonabie.Acccemrriodation.Request.7-23-2014
5. ReasonableAccomrnodationRequest. OHM-IADA08-19-2014
6. Sick leave report to Ms. Barra5-1 to 5-12-2014
7. Ms. Barra requests during sick leave 0513-05-18-2014
8. Ms. Barra required doctor notice 0606-2014
9. Ms. Barra demand doctor notices0608-06-19-2014
10a. Ms. Barrarejected taking leave0318-21114
11)b. Ms. Barra rejected taking off 0418-4423-2014
11a. Reported Ms. Banes cliscrimination0312-13-2012-pl
lib. Reported Ms. Barra cfiscrimination0312-13-2012-p2
11c. Reported Ms. Barra discrimination0312-13-2012-p3
IL OHMT-I CCDPC Oranization structure
I3a. FMLA completed application-380E-0825-2014
DHMH HR approval FIALA0827-2014
FMLA completed application-380E-0624-2014
I3d. DHIVAH HR approval FMLA0630-2014
take donated leave
13e. Rv1LA completed application-MS308E-10-03-2014 require
14. DHMH HR irtstruced employee to apply donated leave06-2014
15a. Application to use donated teaveMS-402 E-to-E

415 USCA4

Case 1:17-cv-03260-JKB Document 20-3 Filed

03/22/18 Page 65 of 68

EEOC Charge No.531-2014-02468C 1
Sara Barra
Yu v. Maryland Department of Health and Mensal Hygiene and

655

friend donated leave-pl
friend donated leave-p2
16. DHMH ERR disapproval of donated leave0904-2014
donated leave Sept- 2014
Appeal to DBM Ms.Ernbarcrino per DHMH rejection
Dr. Bison Medical dociffnerdastiontl918-2014
Completed appeal MS-406-use donated leave0917 -2014
Medi,d1 release form0918-2014
DHMH FIR disapproval of donated leave10-14-2014
DBM rejection donated leave 11-07-2014
Ms. Baia blocked the access to office ma 0903-2014
State Medical director letter09-18-2014& 10,08-2014 letter
EEC Ms. Johnson-ADA from 0929 to 10-24-2014
Requested DfDl- -1 HR Ms. Johnson response1031-2014
B. Termination letter U-03-2014
Appeal-form termination 11-14-2014
Appeal DHMH HR Mr. Young11-14-2014
Appeal DHMH Dr. Sharfstein11-14-2014
Requested DHMH Dr. Sharfstein refief-1207-2014
rx. Reminded DHMH Secretary 12-11-2014
26. E-rnais to OHMH-appeal-terminate Nov-Dec-2014.
201627a. DHMH HR lawyer Mr. Daring between 1.754466/
2014
72b. Terminate-hearing req. by DI-PAH Mr. Doring.12-23Frnal reap from DHMH Dr. Sharfstein 12-19-2014
State medical threctot0618-2014 letter
Mr. Yarbor request abeyance-appeals0702-2014

416 USCA4

Filed 03/22/18 Page 66 of 68
Case 1:17-cv-03260-JKB Document 20-3
EEOC Charge No.531-2014-02468C 66
Yu v. Maryland Departs-1mA of Health and Mental Hygiene and Sara Barra
on& retzliation01094314
31. Reported OHMH HR EEO Ms. Taylor Ms. Barra cfiscriminati
1314
32. Union Mr. McNarly4-Yu met DHMH EEO Ms. Taylor 1-30-2
33. Reported to DiM1-1 EEO Ms. Talor-0131-2014
Reported DHMH EEO Ms. Taylor disc National orig0201-2014
Reported DHMH EEO Ms. Taylor discr&retallat-0)02-2014
4b
E-mail to Dr. Shell before cal him far t ABS deadime01-15-201
Ms. Barra req mitig with short notice2-3-2014
14
Reported Di-IMH EEO- discip acti0203-Ms. Taylor resp02-04-20
Disciplinary reprimand notice0203-2014
34. Memo to RR by Ms. Barra 1010-2013
Responded to Ms. Barra 10-10-2013 Memo an 1018-2013
Appeal 1st discipline 0206-2014
14
42a. Cover letter addendum with appeal 1st chscipline02-18-20
42h. Appeal Addendum for 1st cltsciplin.e 0218-2014
2-05-2014
letter to Union Mr. McKay-about DHMH EEO Complain form0
Completed DHMH discrimination Complaint Form
M572-updated01-2311
for Ms. Barra-1235-2112
E-mailed to Dr. Shell with attached Jetted about fear to work
Attached letter to dr. Shell 12042012
Reported to Ms. Barra.1.2-Z1 -2012
-2009-12-2012
Reported to Ms. Barra summary of ecternal-internal activities11
48. Sought a support from Ms. Barra12-21-2012..
44a. Requested Ms. Barra review of seff-PEP12-19-2012
t rnemo01-02-2013
49b. Retaliation resulted in mid-cycle PEP with improvemen
memol2-20-2013
50. Retaliation resulted in mid-cycle PEP with improvement

417 USCA4

ent 20-3 Filed 03/22/18 Page 67 of 68
Case 1:17-cv-03260-JKB Docum
*1°3 "

EEOC Charge No.531-2014-02468C
and Mental Hygiene and Sara Barn
h
Healt
of
tment
Depar
land
Mary
v.
Yu

67

aretd-0415-21:114
51. Ms. Barra generated Memo 0331-2414
adviced to HR-814-2013
52. Grievance V. M5-22 by Union-Dr. Shell
a drscrirrination8-2013
53. Reported to PHPA director about Ms. Barr
by Ms. Barra-signed
54a..hsb description revised MS-227.19.13
-2013
54b. MS-22 SB updated 6.12.13-xy edited 0718
in job description-MS-22-071.4-2013
54c Required to be treated same as others
6chkeit33
CDC requested normal communication-refn
54d. Ms. Barra blocked performing job as
-2314
Blocked 1305 budge meeting with CD01318
03-18-2014
job
Reported to Union about fear of kissing
to 6-31-2414
55c.1305 ;wog budget-job dui-led:16-2013
grievance1202-2013
Appeal letter to D1-M-1 HR Mr. Young for
2-2-2013
vance Conference with Yu appeal responses1
Attached doc-PHPA rejection Step One Grie
for Ms. Barra43-31-2014 memo
57.1nitial aarfeation to Ms. Barra 0418-2014
memo 0421-2014
the restriction on Ms. Barra hits-72 and
53. Garifrcaatiori for the negative impact v.
o
A managers about Ms. Barra 3-31-2014 mem
54. 2nd Clarification on 04-25-2014 to Pl-fP
ing-communication with Dr. Sheil-10-2013
Explainatiors to Ms. Barra for Personnel meet
ABS 1-9 to 1-15-2014
Entired e-marl corn with Ms. Barra about CSTE
ation meeting 2-3-2014
Reported to Union Mr. McNally about mitig
-2014
Appeal rfisciplinary 5 days suspension0318
ion Ms Ntatin
Responded to Dr shell 0117-2014 w. conversat
014
Appeal disciplinary 3 annual leave day0422-2
Appeal discipanary-reprimand- 0520-2014
ase 0609-2014
67, Appeal disciplinary-derail annual incre
land heart disease-stroke burden condition
68a. Yu 'wiped Ms. Barra for predict Mary

418 USCA4

68 of 68
Case 1:17-cv-03260-JKB Document 20-3 Filed 03/22/18 Page

EBOC Charge NoS31-2014-02468C
Yu v. Maryland Department of Reel& and Mental Hygiene and Sara Barra

68

alb. *And Sara Barra-evaluation-calculation
ek. Helped Ms, Erica Smith for analyses methods
WI. Sera Sarre forbade to use work time for job-related conference
71. Sara Barra forced to give out analyses to Ms. Erica Smith
72 Sara Barra exposedmitigation and suspension in calenda since 69-2014
( Sat. 1%114'1-34-19`)
Sara Barra forbade the explain ation for the con fu
Raporci to 81-11Viti EEO the concern& about Sara Pena letter on 0627-21113
74. Reminders for Sara Barra to use new burden reports webske reports0628-2013
Th. Reported to Dr. Donald Shell sufFeres from Sara Barra warning e-mail for
76a. Sara Barra blocked gating travel suppon10-2013to 3-2014
76b.Trakiei for prettied:lona! study
n.Sara Barra created the confusion about tele-working at home
7B. Missed forms in DHMI-11-1Ryu personnel fi1e0221 -2013
79. Grant data suggestion to DT. Donald Shell as rejected by Sara Barra0517-2rn
80a Sara Barra blocked acorns ro Nelson databaseli-18-2913to 2-2014
horn the CMA e-mail list
80b. Saga Barra blocked access to Nelson database as name was removed
M.. Sara Barra and Erica Smith blocked the access-to heath data
Oa. Sara Barra blocked access to 1305grarrt int-MCI-2013
grant04-30-2014
82b. Sara Barra rejected the request accessing to the needed matarials for 1.305
Sara Barra prevented from participating in ASTI-10 prograrn10-2013
ting project
04a. Sara Bans supressed and ignored the request of new COPD asthma co-opera
project
84b. Sara Barra madethe confusion and rejected COPD-athma coorperating
bullying
the
in
85. Or. Varmmsa Walter Harris involved

419 USCA4

Filed 06/26/18 Page 1 of 13
Case 1:17-cv-03260-JKB Document 32
7°̀1

irX /0

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

XIAO-YING YU,
Plaintiff
CIVIL NO. JKB-17-3260

v.
DENNIS SCHRADER, et al.,
Defendants.

*

*

*

X

*

*

4e

*

*

*

*

*

MEMORANDUM
yland Department of Health, Center for

Plaintiff Xiao-Ying. Yu was fired from the Mar

over three
("CCDPC") on November 3, 2014. Just
Chronic Disease Prevention and Control

the
on November 6, 2017, naming as Defendants
years later, she filed this lawsuit, pro se,
and the Secretary of the Maryland Department
Secretary of the Maryland Department of Health,'
ntially, that she was discriminated against and
of Budget and Management. She alleged, esse
Defendants moved to dismiss on January 3,
retaliated against when she worked at CCDPC.
opposition (ECF No. 20) and Defendant replied
2018. (ECF No. 6.) After Plaintiff responded in
given an opportunity to file a supplemental
(ECF No. 23), Plaintiff obtained counsel, and was
elf of that opportunity (see Supp. Opp'n, ECF
opposition (see ECF No. 29). Plaintiff availed hers
paper (ECF No. 31). Defendants' motion is
No. 30) and Defendants have replied to that
to resolve the
w. There is no need to hold a hearing
therefore fully briefed and ripe for revie
of the Maryland
when Dennis Schrader was still Acting Secretary
Plaintiff filed this lawsuit on November 6, 2017,
attention of the
the
to
this
ht
broug
party
r
neithe
but
,
rt R. Neall
Department of Health. The current secretary is Robe
Court or requested to substitute the parties.

1

464 USCA4

Filed 06/26/18 Page 2 of 13
Case 1:17-cv-03260-JKB Document 32

fiiob

). Plaintiff's
matter. See Local Rule 105.6 (D. Md. 2016

complaint fails under Rule 8 to provide

ertheless, the Court considered her possible

a short and plain statement of her claims. Nev

sel, and they fail for a variety of reasons,

claims, including those asserted by her new coun

rative remedies and because Defendants are
including failure to properly exhaust administ
immune.
I.

Background 2
Plaintiff, a woman of Chinese national origin

over sixty years old, began working for

logist.' Starting in 2010 she was given increased

CCDPC on November 4, 2009, as an Epidemio

pensated properly. She was told she would be

job responsibilities for which she was not com

promoted, but her HR application process stalled,

largely because various supervisors sabotaged

plaints for a particular supervisor, Ms. Sara
that process. Plaintiff reserves most of her com
an instead of Plaintiff. She often baselessly
Barry. Ms. Barry promoted a younger, white wom
n of command, and prevented Plaintiff from
reprimanded Plaintiff for going outside the chai
e type of HR document, an "MS-22," that was
making complaints. Ms. Barry tampered with som
ground. Ms. Barry deleted projects from the
supposed to reflect Plaintiffs employment back
information about Plaintiffs skills in order to set
MS-22 that Plaintiff had worked on, or changed
tiffs self-evaluations from "outstanding" to
Plaintiff up for failure. Ms. Barry amended Plain
"satisfactory" and placed negative material

in Plaintiffs HR file, all out of retaliation for

y tried
Plaintiffs complaints about Ms. Barry. Ms. Barr

to prevent Plaintiff from receiving an

ions, and interfered with Plaintiffs access to
award, mischaracterized Plaintiff's work contribut
databases and files.
dismiss. See
as this memorandum is evaluating a motion to
The facts are recited here as alleged by Plaintiff,
.
1997)
Cir.
lbarra v. United States, 120 F.3d 472, 474 (4th
laint that she was "reinstated" on
CCDPC in the past, as she wrote in her comp
3 Plaintiff may have worked at
November 4, 2009.

2
465 USCA4

8 Page 3 of 13
06/26/1
Case 1:17-cv-03260-JKB Document 32 Filed

tip, (0,7

ssment and retaliation she faced at

Plaintiff suffered deteriorating health due the hara

for the State Medical Director's Office, and

work. She was evaluated by a doctor who worked

workplace stress, anxiety disorder, and

he seemed to think that Plaintiff suffered from

4-1.)4 At some
depression. (See Am. Compl. Ex. 28, ECF No.
accommodation for her disability. Plaintiff does

point, Plaintiff requested an

not clearly allege what her disability is, but it
ety, and her requested accommodation seems

appears to be essentially workplace stress and anxi

to have been not working under Ms. Barry. This

accommodation request was denied.

ion on. November 3, 2014.

Ultimately, Plaintiff was terminated from her posit

Plaintiff filed two Charges of Discrimination with

the Equal Employment Opportunity

, Plaintiff asserted a charge of age and race

Commission ("EEOC"). On November 12, 2013

discrimination. (Am. Compl. pp. 5-6.) Plaintiff was
later, on November 26, 2013. Plaintiff "did not
second Charge of Discrimination on September 3,

granted a right-to-sue letter fourteen days

file the lawsuit." (Id. p. 6.) Plaintiff filed a
2014. (Id. p. 10.) It is unclear from Plaintiff's

complaint what the substance of this Charge was.

She does not allege that she received a right-

to-sue letter.'
Plaintiff filed the instant action on November 6,
Secretary of the Maryland Department of Health, and

2017. She named Dennis Schrader,

David Brinkley. Secretary of the Maryland
ntiff does not allege that she ever

ndants. (Plai
Department of Budget and Management, as Defe

with 'workplace
the State Medical Director and she "was diagnosed
Plaintiff alleges that she was examined by
Compl. p. 9.)
(Am.
der.'"
Disor
[sic]
ome
Syndr
atic
Traum
Post
stress, major anxiety, major depressive disorder and
ent was
docum
That
laint.
attached that document to her comp
But she cited to her workability evaluation, and
iff with
Plaint
nose"
"diag
to
seems
ere
cal Director's Office, nowh
prepared by a doctor who worked in the State Medi
There
der).
Disor
Stress
atic
Traum
Post
(or
der"
Syndrome Disor
."
anything, and nowhere mentions "Post Traumatic
ession
"Depr
and
," "Anxiety disorder,"
which he wrote "Workplace stress
to-sue letter, and provides
righta
is a section for "IMPRESSION"tounder
ed
receiv
she
that
ss
dismi
to
n
motio
ition Defendants'
5 Plaintiff argues in oppos
) "It is wellher opposition. (See Opp'n Ex. 1. ECF No. 20-1.
that letter to the Court as an exhibit attached to
at Broadlands
Walk
S.
acy."
advoc
oral
or
ng
briefi
gh
throu
laints
established that parties cannot amend their comp
is true for
s, LLC, 713 F.3d 175, 184 (4th Cir. 2013). This
Homeowner's Ass 'n v. OpenBand at Broadland
at *1 (D.
35,
39685
WL.
2017
75,
16-39
JXBNo.
Civ.
n,
Wilso
v.
represented and pro se litigants alike. See Lirzoechi
litigant's
se
a
in
pro
forth
set
tions
ds) (not considering allega
Md. Sept. 8, 2017) (remanded in part on other groun
briefing that were not contained in the complaint).

4

3
466 USCA4

Case 1:17-cv-03260-3KB Document 32 Filed 06/26/18
/4

Page 4 of 13

nt). Plaintiff filed her Complaint

worked for the Maryland Department of Budget and Manageme

al months after Defendants moved to
pro se and filed an amended complaint pro se. Sever
el, who then began to represent

dismiss Plaintiffs amended complaint Plaintiff engaged couns

gh that counsel she has filed a

her. Counsel continues to represent her now, and throu

iff has not moved to amend

supplemental opposition to Defendants' motion to dismiss. Plaint
her complaint a second time.
II.

Standards
Ultimately, the Court will dismiis Plaintiff's complaint pursuant

to Federal Rules of Civil

ing, complaints under those rules

Procedure 8, 12(b)(1), and 12(b)(6). The standards for review
are as follows:
a. Federal Rule of Civil Procedure 8

The Federal Rules require that a complaint contain a "short and

plain statement" of the

nd for the relief sought.- Fed. R.

grounds for the Court's jurisdiction and the claim, and "a dema

Civ. P. 8(a). "Short and plain" means short and plain. The Court

does not look for technical

: "In general, a pleading must

forms, magic words, and legal jargon. What matters here is notice
provide the defendant and the court with fair notice of what

the plaintiffs claim is and the

Servs., Civ. No. RDB-13-1758, 2014
grounds upon which it rests." Jackson v. Experian Fin.
omitted). Courts hold pro se
WL 794360, at *1 (D. Md. Feb. 26, 2014) (internal quotation marks
courts
litigants "to less stringent standards than trained lawyers," and

afford a pro se complaint a

671 (D. Md. 1989). But -these
"generous construction." Engle v. U.S.. 736 F. Supp. 670,
as pro se does not absolve her
principles are not without limits." Id. at 672. "A plaintiffs status
ore Cty., Civ. No. RDB-16of the duty to plead adequately." Moore v. Bd. of Educ. of Baltim
3439, 2017 WL 3172820, at *4 (D. Md. July 25, 2017).

467 USCA4

of 13
ent 32 Filed 06/26/18 Page 5
Case 1:17-cv-03260-JKB Docum

ittfp ley

)(1)
Federal Rule of Civil Procedure 12(b
jurisdiction
The burden of proving subject-matter

697
is on the plaintiff. Adams v. Bain,
ther the

e, "it is the court's task to evaluate whe

this stag
F.2d 1213, 1219 (4th Cir. 1982). At

rt has jurisdiction.

ly and plausibly suggest" that the Cou

pleadings allege[ ] facts that affirmative

7) (discussing standing).

F. Supp. 3d 905, 907 (D. Md. 201
Piper v. Meade & Assocs., Inc., 282

ons in Plaintiffs complaint as true, and

That is, the Court will take all allegati

determine whether
ur

ght & Arth
sdiction. See 5B Charles Alan Wri

-matter juri
they are sufficient to establish subject

ure § 1350 (3d. ed. Apr. 2018 Update)

R. Miller, Federal Practice and Proced

("A facial attack
nt and

uting the facts alleged in the complai

without disp
challenges subject matter jurisdiction
requires the court to treat the allegations

of the complaint as true.").
)(6)

Federal Rule of Civil Procedure 12(b

ual matter. accepted as true, to 'state

fact
A complaint must contain "sufficient
relief that is plausible on its face.'"

a claim to

(2009) (quoting
Ashcroft v. lqbal, 556 U.S. 662, 678

Bell

sibility of
(2007)). An inference of a mere pos
570
.
544
.
U.S
550
y,
mbl
Two
v.
p.
Atlantic Cor
h when considering
a plausible claim. Id. at 679. Althoug
misconduct is not sufficient to support
nt, this
all factual allegations in the complai
true
as
ept
acc
st
mu
rt
cou
a
iss
dism
a motion to
mbly, 550 U.S.
ions couched as factual allegations. Two
principle does not apply to legal conclus
at 555.

III.

Analysis
Plaintiff's amended complaint will be

short and plain statement of her claims,

dismissed for several reasons. It fails

and therefore fails under Rule 8. Even

to present a

if the Court reads

5
468

USCA4

d 06/26/18 Page 6 of 13
Case 1:17-cv-03260-JKB Document 32 File

Plaintiff's amended complaint according to her

current interpretation of it (put forth by her new

ns.
counsel), her claims still fail for a variety of reaso
a. Rule 8
ists of thirteen pages, all single spaced,

Plaintiff's amended complaint is a maze. It cons

ations
air of logical form that belies the dizzying alleg
all underlined. Its headings present an
unexplained persons, unexplained acronyms
contained within—allegations that often reference
and unexplained HR forms. Some allegations

proceed in impenetrable run-on sentences. (For

example:
the HR required MS-44 and
Yet, in May 2011, Dr. Prince refused to complete
ase of Ms. Yu job duties and
MS-2024 forms with the facts (about the incre
ting on taking the easiest way
changes of the supervision level since 1/2010) insis
n from Epidemiologist I to
to give Ms. Yu non-competitive promotio
9, $55,332 in 2011, which she
Epidemiologist II, wade 17, payment step
previously mentioned once to Ms. Yu.
t contains passing references to statutes and

(Am. Compl. p. 2)). Plaintiff's amended complain
legally relevant events (such as filing Charges

of Discrimination), as well as seemingly novel

causes of action, like "willful underpayment," and
to any claim. It is a document that perplexes the

discussion of events of questionable relevance

Court and, more importantly, would leave any

defendant largely at a loss as to what he or she was

defending against.

Importantly, Plaintiff's errors do not arise only
problem with Plaintiff's complaint is not that she
matter jurisdiction or that she fails occasionally

from a lack of legal training. The

ineloquently explained the basis for subject-

to reference a particular section of the United

States Code. Plaintiff's pleading errors arise from

a lack of proof-reading, or perhaps some

tiff to put
s. The Federal Rules do not require Plain
forethought about how to present her claim

forth a statement filled with legal jargon. They

require a "short and plain" statement. Plaintiff's

complaint is not "short and plain.6
469 USCA4

Case 1:17-cv-03260-JKB Document 32

Plaintiff argues that the Court should overlook
ntiff
That is a curious argument to be made by a Plai

Filed 06/26/18 Page 7 of 13

her pleading errors because she is pro

se.

who is represented by counsel. To be sure,
plaint. But she is pro se no

this nearly indecipherable com
Plaintiff was pro se when she filed

rt to amend her complaint a second time.

Her

bardo, a state somewhere between a pleading

filed

longer. And yet she has not moved the Cou
amended complaint, then, exists in a sort of

Even if
and it is reviewed in light of that circumstance.
by counsel and a pleading filed pro se;
ypresentation, her current counsel cannot pigg
Plaintiff herself could be excused for her poor
t of
pleading rules. Plaintiffs complaint falls shor
back on Plaintiffs purported ignorance of the
such
ant, and far short of the standards for a litigant
the pleading standards even for a pro se litig
Civil
Her complaint fails under Federal Rule of
as Plaintiff who is not, in fact, pro se.6
Procedure 8(a).
examine the viability of several claims that

Still, the Court will look past this failure to

ve she

plaint, as well as the claims Defendants belie

Plaintiff argues she has presented in her com
has brought.

b. Employment Discrimination Claims
s under Title VII of the Civil Rights Act of

Plaintiff argues now that she has brought claim

on in

bilities Act ("ADA"), the Age Discriminati

1964 ("Title VII"), the Americans with Disa

on Act. Insofar as she brought these claims,

itati
Employment Act ("ADEA") and the Rehabil

e

ect matter jurisdiction due to her failure to alleg

they will be dismissed in part for lack of subj

s, and in part because they fail to state a claim

edie
proper exhaustion of her administrative rem
upon which relief can be granted.

t's finding that the complaint
arguments that actually enforce the Cour
Plaintiff's newly acquired counsel makes
Act claim. If that is true, her
tion
bilita
Reha
a
ted
asser
now argues that she
fails under Rule 8. For example, Plaintiff
do not appear anywhere in
Act"
ts on notice: the words "Rehabilitation
complaint clearly does not put the Defendan
tiff was clearly capable
Plain
and
,
times
ple
EA" appear multi
Complaint, even though "Title VII,- "ADA", and "AD
tes. (See Am. Compl. p. 13.)
of citing to the U.S. Code and naming statu

6

7
470 USCA4

32 Filed 06/26/18 Page 8 of 13
Case 1:17-cv-03260-JKB Document
Afffit2,
VII

inistrative remedies concerning a Title

adm
"[A] failure by the 'plaintiff to exhaust
ect
claim deprives the federal courts of subj

matter jurisdiction over the claim."

(4th Cir. 2009). The
Grp., Ltd.. 551 F.3d 297, 300

same is true for claims arising under the

l as the ADA or the
ADEA, see id. at 300-301, as wel
F.
Educ. of Prince George's Cty., 815

Jones v. Calvert

of
Rehabilitation act, see Snead v. Bd.

Supp. 2d 889, 894 (D. Md. 2011). For the

purposes of this
these

austion requirements that apply to all of

al exh
case there are two important jurisdiction

rge of Discrimination with the EEOC,

statutes: A plaintiff must first file a Cha

and the EEOC

nce Co., Civ. No.
erts v. Am. Neighborhood .Mortg. Accepta
Rob
r.
lette
-sue
t-to
righ
a
e
issu
t
mus
Carolina
Sept. 6, 2017) (citing Davis v. North
.
Md
(D.
*2
at
1,
701
391
WL
7
201
7,
JKB-17-015
ad, 815 F. Supp.
Cir. 1995) (discussing Title VII); see Sne
(4th
140
.
134
F.3d
48
r.,
Cor
of
't
Dep
e as
A and Rehabilitation Act are the sam
AD
for
nts
me
uire
req
n
stio
hau
(ex
2d at 894
3103, 2012 WL
v. ADT Sec. Sys., Inc., Civ. No. ELH-09requirements for Title VII); Mandengue
as for Title
austion requirements for ADEA are same
(exh
2)
201
14,
.
Mar
Md.
(D.
*25
at
,
621
892
VII).7
If a plaintiff receives a right-to-sue letter,
§ 2000e-5(f)(1). Failure to comply with

she has ninety days to file suit. See, 42
s not destroy

this statutory requirement, however, doe

tations

er it is "in the nature of a statute-of-limi

; rath
the Court's subject-matter jurisdiction

ntiff fails to
, 429 n; 25 (4th Cir. 2006). Thus, if a plai
defense." Laber v. Harvey, 438 F.3d 404
grounds for
g her right-to-sue letter (and there are not
file a claim within ninety days of receivin
a
issed under Rule 12(b)(6) for failure to state
dism
be
will
m
clai
her
k),
cloc
the
ng
equitably tolli
Roberts. 2017 WL 3917011. at *3.
claim upon which relief can be granted. See

on over a
A court may have subject-maner jurisdicti
a right to sue letter.

case brought by the EEOC in which the

EEOC has not issue d

471 USCA4

Page 9 of 13
Case 1:17-cv-03260-3KB Document 32 Filed 06/26/18

the EEOC on September

Plaintiff alleged that she filed a Charge of Discrimination with
2, 2014 (the second charge), but she does not allege that she

ever received a right-to-sue letter.

Whatever claims arise from that Charge of Discrimination will
subject-matter jurisdiction.8 Plaintiffs statutory

therefore be dismissed for lack of

employment discrimination claims that arise out

of her first Charge of Discrimination will be dismissed under

Rule 12(b)(6) because Plaintiff did

not file suit within ninety days of her receipt of the right-to-sue
received the right-to-sue letter associated with this Charge

letter. Plaintiff alleged that she

on November 26, 2013, and did not

file suit until 1,441 days later. Plaintiffs claims based on

this Charge of Discrimination are

therefore time-barred.
tion was filed too late, any

In short, any claim arising from her first Charge of Discrimina

ct matter jurisdiction (because she

claim arising from her second Charge fails for lack of subje

), and any statutory employment

does not allege that she received a right-to-sue letter

discrimination claim (under Title VII, ADA, ADEA, or the

Rehabilitation Act) not addressed in
use she does not allege that she

either fails for lack of subject matter jurisdiction as well (beca
filed any other Charge with the EEOC).
c. Tort Claims

Defendants understood Plaintiffs complaint as asserting,
underpayment," which they interpret as some form of a

in part, a claim for "Willful

tort. Plaintiff, in her supplemental
tal opposition stating that she filed

opposition, seems at first to agree. She begins her supplemen

ent [and] unequal payment . . . ."

a complaint "alleging causes of action of willful underpaym

s that she did not bring a "willful

(Supp. Opp'n at 1.) But then, several pages later. she argue

Court of Appeals for the Fourth Circuit has
Again, Plaintiff argues that she received a right-to-sue letter, but the
is a jurisdictional prerequisite that must be
letter
-sue
"long held that receipt of, or at least entitlement to, a right-to
. Despite Plaintiff's argument that she
added)
asis
(emph
140
at
Davis,
F.3d
48
alleged in a plaintiff's complaint."
aint a second time to make such an
compl
amend her
has received a right-to-sue letter, she has not moved to
l.
allegation, even after obtaining counse
8

9
472 USCA4

Filed 06/26/18 Page 10 of 13
Case 1:17-cv-03260-JKB Document 32
P/14ent is simply
underpayment" claim, and that luinderpaym

a statement of facts and a claim for
g a "willful underpayment" tort

es that she did not brin
damage." (Id at 6.) So, Plaintiff argu

underpaid and seeks recourse for that harm.

claim; rather, she alleges that she was willfully
makes no sense. The Court remains unsure

This

as to whether Plaintiff intends to bring a "wil

lful

but will proceed to analyze the viability of such

underpayment" claim (whatever that may be)

a

claim out of an abundance of caution.
Under Maryland law, civil actions must be filed

"within three years from the date (they}

e provides a different period of time." Md.

accrue[] unless another provision of the Cod

Ann., Cts. & Jud. Proc. § 5-101. Plaintiff was

Code

e
fired on November 3, 2014. Aside from som

Am.
EEOC investigation in 2015 and 2017 (see

cryptic allegations about interference with the
Compl. p. 13), a confusing allegation that she

and
"stated" something in 2015 (see id. p. 11).
ntiff does not allege that her employer acted

to

refore, regardless of whether Plaintiff intended

to

tort claim is, such a claim would be barred

by

9 Plai
what appear to be some typographical errors,
her harm her after November 3, 2014. The

that
bring a tort claim, or what the substance of
Maryland's three year statute of limitations,

l three

as she did not file her claim in this Court unti

years and three days after November 3, 2014.
d. Eleventh Amendment Immunity
The Eleventh Amendment generally bars
including suits such as the one here: a suit

suits by citizens aninst their own state,

by a citizen of the State of Maryland. which

essence one for the recovery of money from

"is in

the state." Edelman v. Jordan, 415 U.S. 651, 662, 464 (1945)). The only

Treasury. 323 U.S. 459
63 (1974) (quoting Ford Motor Co. v. Dep't of

on 9/3/2017,- but Plaintiff
ss to office mail was blocked by Ms. Barra
° For example, Plaintiff alleged that her "acce
(Am. Compl. p. 10.)
was out of her job almost three years by then.

10
473 USCA4

32 Filed 06/26/18 Page 11 of 13
Case 1:17-cv-03260-JKB Document
116, or when

y are when the state has consented to suit

relevant exceptions to this general immunit
Congress has abrogated the immunity.

The State of Maryland has not consented

d

to this suit, and Congress has not abrogate

or ADEA claims. (Plaintiffs assertion that

Eleventh Amendment immunity for ADA

the State

Lapides v. Bd.
n or the EEOC process is incorrect. See

has consented by engaging in this litigatio
of Regents of Univ. Sys. of Georgia,

535 U.S. 613, 622 (2002) (explaining that

voluntary
n does

er of immunity, but involuntary participatio

waiv
participation in litigation may constitute a

er the

gated immunity for claims arising und

abro
not)). Plaintiff contends that Congress

ion is
ain qualifying federal funds. This content

cert
Rehabilitation Act when the State accepted

rt a Rehabilitation Act claim, and even if

doubly misplaced: Plaintiff does not asse

she did, she

Comcast
lifying federal funds. See Pickens v.

qua
has not alleged that the State has accepted

ntiff

15) ("Under the Rehabilitation Act, a plai

Jan. 7.20
Cable, 2015 WL 127822, at *2 (D. Md.
also must show that the program or activity

ce.").

in question receives federal financial assistan

th
Congress abrogated Maryland's Eleven
Most troublingly, Plaintiff asserts that
Trustees of
ADEA, and cites to Goshtasby v. Board of
Amendment immunity for suits under the
is not
Cir. 1998) for that proposition. Goshtasby
(7th
761
F.3d
141
ois,
Illin
of
ity
vers
Uni
the
ndment
EA was a valid use of Congress's 14th ame
good law. Goshtasby's holding that the AD
d in
Amendment immunity was itself abrogate
enth
Elev
s'
state
gate
abro
to
er
pow
ent
enforcem
82-83 (2000).

Kimel v. Florida Bd. of Regents, 528 U.S. 62,
e. Miscellaneous claims

on the

ughout her amended complaint, particularly
Plaintiff references several other claims thro
orted claims in their motions papers; to wit,
final page. Neither party addresses these purp
3, and a

, violations of 42 U.S.C. §§ 1981 and 198

a violation of the Fair Labor Standards Act

11
474 USCA4

32 Fiied 06/26/18 Page 12 of 13
Case 1:17-cv-03260-JKB Document
t 1/6
violation of 29 U.S.C. § 187. If Plaintiff

e statutes, it

ever intended to bring claims under thes

as they are
appears that she has abandoned them,
Plaintiff had not abandoned these claims,

not discussed in her opposition. Even if

they would still fail. Mere reference to a statu

te at the

with thes
e a claim. Further, there are problems

end of a complaint is insufficient to stat

e

ms under

f was not seriously attempting to bring clai

statutory references that suggest Plaintif

tions the "Fair Labor Standards Act" but

these statutes. For example, Plaintiff men

She
section of the U.S. Code for the ADA.

cites to a
ation

nowhere explains what Constitutional viol

29 U.S.C. § 187
would underlie a Section 1983 claim. And

makes is unlawful for a labor

tions Act—
tices as defined in the National Labor Rela
organization to engage in unfair labor prac
rate an
n, let alone alleges sufficient facts to demonst
Plaintiff barely mentions that she is in a unio
be), or any
d to by said union (whatever union it may
ecte
subj
was
she
that
tice
prac
r
labo
ir
unfa
ntiff has
umbrella of that statute. To the extent Plai
other prohibited conduct falling under the
attempted to bring any of these claims, they

will be dismissed.

f Leave to amend
ion with a request: that she be given leave

Plaintiff concludes her supplemental opposit
t that
file a second amended complaint in the even

her first amended complaint is dismissed.

to

The

nd her
. First, Plaintiff could have moved to ame

ons
Court will deny that request for two reas

r, and chose not to do so, even after acquiring

this orde
complaint at any time prior to the entry of
counsel. Nor has she provided the Court with

cation of
any proposed amendments, "or other indi

,
ella v. Wells Fargo Bank, NA., 497 F. App'x 361
Estr
e."
mak
to
es
wish
]
[she
ents
ndm
ame
the
f "a blank
tances, the Court will not grant Plaintif
362 (4th Cir. 2012). Under such circums
Id (quoting Francis v. Giacomelli, 588 F.3d 186,
authorization to 'do over' [her] complaint."
Ass 'n, Inc. v. Hines, 995 F.2d 295, 299 (D.C. Cir.
197 (4th Cir. 2009): cf Confederate Mem 'I
12
475 USCA4

Case 1:17-cv-03260-3KB Document 32

1993) ("[A] bare request in an opposition to

Filed 06/26/18 Page 13 of.13

a motion to dismiss—without any indication

of the

in the
sought—does not constitute a motion with

particular grounds on which amendment is

omitted)).

contemplation of Rule 15(a)." (internal citation

nded complaint only under Rule 8. To

's ame
Second, the Court is not dismissing Plaintiff

out

under Rule 8, such dismissal is usually with

be sure, when a court dismisses a complaint

114 F.
e to amend. See North Carolina v. McGuirt.

prejudice, and the plaintiff will be given leav

issal with prejudice under Rule 8 "is an extreme

App'x 555, 559 (4th Cir. 2004) (noting that dism

her

s claims that she now argues are contained in

sanction"). But the Court considered Plaintiff

erly

nt structural problems: she has failed to prop

amended complaint, and has found significa

nts are immune from many of her claims. A

enda
exhaust her administrative remedies and Def

cts.

amended complaint would not cure these defe

more clear and concise version of Plaintiffs

e 15(a) should be denied when the

nd under Rul
See Laber, 438 F.3d at 426 (leave to ame
proposed amendments would be futile).
IV.

Conclusion
Plaintiff's amended complaint fails under Rule

8, in part under Rule 12(b)(1), and in part
ted by

endants' motion to dismiss will be gran

under Rule 12(b)(6). Accordingly, Def

ng

cted to close the case. An order shall issue setti

accompanying order, and the Clerk will be dire
forth this disposition.
DA l'ED this 26th day of June, 2018.

BY THE COURT:

/s/
mBrea
K.
es
Jam
e
Chief Judg
13
476 USCA4

Filed 06/26/18 Page 1 of 2
Case 1:17-cv-03260-JKB Document 33

Arra

RT
IN THE UNITED STATES DISTRICT COU
FOR THE DISTRICT OF MARYLAND

XIAO-YING YU,
SC

Plaintiff
CIVIL NO. JKB-17-3260

v.

DENNIS SCHRADER, et al.,
Defendants.
*

ORDER
, IT IS ORDERED:

In accordance with the foregoing memorandum
I. Defendants' motion to dismiss, construed
of Civil Procedure 8. 12(b)(1), and 12(b)(6) is

as a motion to dismiss under Federal Rules

GRANTED.
n claims arising solely from her

Plaintiff's statutory employment discriminatio

the

nation, or based on claims not presented to

alleged September 2, 2014 Charge of Discrimi
Equal Employment Opportunity Commission
12(b)(1) for lack of subject-matter jurisdiction.

at all, are dismissed pursuant to Rule 8 and

Rule
.

These claims are dismissed without prejudice

issed pursuant to Rule 8 and Rule

The remainder of Plaintiffs claims are dism

h relief can be granted. These claims are dism

12(b)(6) for failure to state a claim upon whic

issed

with prejudice.
SED and the Clerk is directed to CLOSE

1 Plaintiff's Amended Complaint is DISMIS
THE CASE.

477 USCA4

Filed 06/26/18 Page 2 of 2
Case 1:17-cv-03260-JKB Document 33

DATED this 26th day of June. 2018.
BY THE COURT:

Is/
ar
Bred
K.
James
Chief Judge

2
478 USCA4

Case 1:17-cv-03260-JKB Document 44 Filed 12/08/17 Page 157-Ri3V-A.ev_ 32 0
Cow.64/---/0$7 1

3 3,

Before Maryland Office of Administrative Hearings
(Maryland Department of Health and Mental Hygiene)
3

Xiao-Ying Ms. Yu,

Maryland Office of Administrative Hearings Case No.

4

Epidemiologist, II,

SPMS-DHMH-10-15-06200

5

Employee,

6

V.

7

Maryland Department of Health

8

And Mental Hygiene

9
10
11

y, May 14, 2015, at
The hearing in the above —entitled matter commenced on Thursda
Valley, Maryland.
Maryland Office of Administrative Hearings, 11101 Gilroy Road, Hunt

12
13

BEFORE: THE HONORABLE JUDITH JUDGEOBSON
Maryland Office of Administrative Hearings Law Judge

15
16
17
18
19
20
21
22
23
24
25

10

Office of Administrative Hearings provided to
Transcripts from the audio recording VlQ Satellite CDAs Maryland
Xiao-Ying Yu on 5/26/ 2015

196 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 page 1541-4
;(

•
2

3
4
5
6
7
8
9
10
11
12
13
14
15

al

3 9

,->ot
4,44. 26

APPEARANCES (5/14/2015)
ON BEHALF OF THE EMPLOYEE:
XIAO-YING MS. YU, (Former employee)
557 KIRKCALDY WAY
ABINGDON, MD 21009
ON BEHALF OF MARYLAND DEPARTMENT OF HEALTH AND

MENTAL HYGIENE:

ALEX. C. MR. DORING, (Esquire)
Employee Relations Officer
Maryland Department of Health and Mental Hygiene
Department of Human Resources
201 West Preston Street, 1s` Floor
Baltimore, MD 21201
WITNESS OF MARYLAND DEPARTMENT OF HEALTH AND

MENTAL HYGIENE:

16
17
18
19
20

Sara Barra
isor (12/19/2012-11/3/2014)
Former DHMH Employee Xiao-Ying Yu's immediate superv
Center for Chronic Disease Prevention and Control
Maryland Department of Health and Mental Hygiene

23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
40
41

Kristin Pier
Current Director (4/4/2014-present)
Center for Chronic Disease Prevention and Control
Maryland Department of Health and Mental Hygiene
201 West Preston Street, 3rd Floor

201 West Preston Street, 3rd Floor
Baltimore, MD 21201

Baltimore, MD 21201
Dr. Donald Shell
Director (12/19/2012-5/2015)
Cancer and Chronic Disease Bureau
and Control (3/2012-4/2014)
Former Director for Center for Chronic Disease Prevention
Maryland Department of Health and Mental Hygiene
201 West Preston Street, 3rd Floor
Baltimore, MD 21201
Donna Gugel
Deputy Director (7/2 012-present)
Prevention and Health Promotion Administration
Mary' land-Department Of Health-an'cr Menai HA-I-erre
201 West Preston Street, 3rd Floor
Baltimore, MD 21201

197 USCA4

7 Page 159?
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/1
j2-2-

CO- 2.6-19

bic-firf
12

ndent psychological evaluation, and she
She got her health provider; She refused to do indepe
refused to return to work unless change new supervisor.

1

Ms. Barra:

3

Judge:

4

Ms. Yu:

5

Judge:

6

n of Ms. Yu's accommodation request on 9/3/2014).
Mr. Doring: {Distributed exhibit #10. DHMH EEO rejectio

7

Judge:

8

Ms. Yu:

9

you know her lawyer? Can you make the summary?
Mr. Doring: Have you seen this document before? Do

Any objection?
No
I am going to accept it.

Is Ms. Ruth Ann Arezeredo your lawyer on 9/3/2014?
Yes.

10

ion. This letter telling her changing supervisor is not
Ms. Barra: Ms. Yu requested her disability accommodat

11

reasonable accommodation.

12

essential function?
Mr. Doring: Are you under impression if Ms. Yu can play

13

Ms. Barra: No.

14

Judge:

411k

I am going to accept this document.

accommodation request?
Mr. Doring: Did they ask you what can be done for this

16

Ms. Barra: No

17

Judge:

18

Mr. Doring: Can you tell about this?

19

and suggested independent evaluation
Ms. Barra: Continue evaluation. Ms. Yu can't back work

20

Mr. Doring: Evidence...

21

Judge:

22

Mr. Doring: (Distributed exhibit #12).

23

Judge:

24

Mr. Doring: Could you summary?

25

supervisor. Recommend not return to work.
Ms. Barra: Ms. Yu can't perform work under current

DHMH exhibit #11
I got another Dr. Toney's letter evaluation on 9/18/2014,

I am going to accept this.

This is Dr. Toney's 10/8/2014 report.

Mr. Doring: What is your decision?

198 USCA4

-

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 16) of 93
Afir /23
Ms. Barra: Asked my supervisor, HR and EEO. I got the instruction. Ms. Yu's request is not
new supervisor is not reasonable. Rejected her accommodation request.

c-o- 32-iro
13

reasonable. To grant

Any objection?

3

Judge:

4

Ms. Yu:

5

Mr. Doring: You stated the conversation, what conversation? Are you willing to accommod

ate?

7

she does not want to
Ms. Barra: I will try all my best to accommodate her behavior, her writing part issue. But
talk and work to me.
talk to me or work to me. She wanted to talk with my supervisor. She just do not want to

8

Mr. Goring: Do you know her health condition?

6

10

notice to HR.
Ms. Barra: No, I do not know. She sent the doctor's notice, then, refused. She sent the doctor's
That is the protocol HR instructed. She could send to HR but need to report me that.

11

Ms. Barra: I took part load. It is difficult taking her working load. It is difficult for the Center.

12

Judge:

13

Mr. Doring: It will take 30 min.

14

Judge:

9

15

Dr. Toney's notice on 10/8/2014 as exhibit #12. It is time 12:15. Can I ask how long will be?

0.5 hr later, then take break lunch. You have time to ask later. I got DHMH exhibit #13, DHMH
Toria Livingston 10/10/2014 notice to Ms. Yu.

HR Ms.

Mr. Doring: Who is Ms. Livingston? What role? How did you involve with her?
in PHPA as to

18

Ms. Barra: She is HR with PHPA for the personnel decision. She advice employee and supervisor
what allowable under HR regulations.

19

Mr. Doring: Do you have any consultation with her?

20

Ms. Barra: I have not conversation with Ms. Livingston.

21

Mr. Doring: What content of the conversation with HR Ms. Livingston between 10/8 and

22

so far I had.

23

Ms. Barra: I told her Ms. Yu's PEP unsatisfactory, disciplinary action, I gave her everything
Accommodation request and what options to her.

24

Mr. Doring: Did she (Ms. Livingston) was aware of EEO unable to accommodation, that Ms.

Yu can't be given,

25

EEO rejected accommodation?

26

Ms. Barra: Yes

27

Mr. Doring: Summary?

17

Ms. Barra:

10/10/2014?

Ms. Livingston's letter advice her that she may resign, retire and disability, if not, she will

be

Q. • terminated.

199 USCA4

/17 Page 161,j431/7
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08
6,7yrip,44-=
d ',A/21F

1
P
(I

options? .. .
Mr. Doring: Did you recommend. Ms. Yu about.these
in her position.
Ms. Barra: This is Department give all employee
Any objection?

3

Judge:

4

Ms. Yu:

5

or retire?
Mr. Doring: Did Ms. Yu excise any option, resign

6

Ms. Barra: No

7

Judge:

8

you familiar with this document?
Mr. Doring: Could you tell me of what is this? Do

9

Department.
Ms. Barra: Yes. This is the termination notice from

Ok.

on 10/31/2014. I am going to admit it.
DHMH exhibit #14, termination notice two pages

10

notice?
process from 10/10 to 10/31 process of termination
Mr. Daring: Could you tell the summary of detail

11

CDA#3, Track#1.

12

and retire, in fact, termination.
Ms. Barra: Because Ms. Yu did not apply for resign

13

ation?
Mr. Daring: Did you consult anyone about her termin
Ms. Barra: I do not.

15

this termination?
Mr. Daring: What process of Department arrive

18

Union.
istrate leaders, HR leaders, my leader, EEO and
Ms. Barra: There are many meetings between admin
of
rous
tion history, unsatisfactory recent PEP, nume
Look out medical record, her performance evalua
factors, they arrived this decision.
disciplinary actions, based on all these accumulated

19

Mr. Doring: Did Ms. Yu?...

20

d.
she was provided meeting for PEP, but she refuse
Ms. Barra: She prepared her mitigation factors,

21

this decision?
Mr. Doring: Prostate you and other PHPA arrive

22

Ms. Barra: Yes.

23

Judge:

24

Ms. Yu:

25

Mr. Daring: (Distributed new exhibit)

16
17

•

Judge:

Any objection
En.

#15 exhibit, I am given appeal from 11/14/2014.

200 USCA4

1,2‘c

14(11,2

S1.

534 Filed 08/0 7/18 Page 35 of 5
Case 1:17-cv-03260-JKB Document

rxh -45

FACT-FINDING CONFERENCE
WEDNESDAY, APRIL 19, 2017
10:00 a.m.
h and Mental Hygiene)

rtment of Healt
(Xiao-Ying Yu V. Maryland Depa

JOB TITLE

NAME

319A-4A-Y\
"ffAe_RA

f:9 ikeLe tea4,G1=akee tY-i D14
Cmitf EFitxnAto i_Dei -4) SPEC, 4t.:Peo
-c-wrryvor -k-t-te)

PLANNeg.,
Le3Lityz-.4 -140
Lart

1.24

GENERAL
OFFICE OF THE ATTORNEY
STATE OF MARYLAND
MENTAL •SYSIENE
DERAP.TMENT OF HEALTH

a

Save zTr aro

Nicholas E. Johansson
Assistant Attorney General

Suite 302
300 W. Freston Street
Baltimore, MarYlan0 21201

(410} 767-5162
Fax (410) 333-7894
niohansson@oag.state.mclus

Asstckavrk Nkor ,1

PsivSE,
t\m

)0e.
12
Filed 08/07/18 Page 653
t,

Fli?)4

to .

ase 1:

c.,

/;zete-

1

e

#1-.4

4 "gs4'

E 'dem/did if/

67

t 2-

3- 3i--2aiy--- Q12Y6tc:

.D,A.A

tho YiA

Qic/

z-

S-44-0- Avu-

041-4

1‘

3//4'

ji /

/ZE-t- z.ett 1,4078,4,k

rfAre,
cZn.ti

afi.,-Aff_.4±AZ

00,t,k4411,6 ex,4141.

Pi6

ss _srd.,.
ritdehipme s-hocI
podc
41414-1
+P)
/411141-

OPA-sk itzr
vitYlty ItAuf
11
.4/43
of 31

46ZA-z2

bae117-cv-!60.:1Ka. ac_cumentaiik
.1"
arfrov-e

1

CK F4'Te7e
kO Lg
L•o-1

it /
1-e A-v-Ja_ t-we efrkr, scite..eL

)4—

• to ("14

•t11.---e

geloVIL-

fir-i-fc

pe-2-7( 7 a

471 f M

P-XU)14-0t4-4-1

u 1 it_4

It-

1/11--L.4

1

111=1111.
Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/111/1
62

DH

STATE OF MARYLAND

•

Maryland Department of Health and Mental Hygiene
201 W. Preston Street • Baltimore. Maryland 21201
Martin O'Malley. Governor - Aniloity C. Broom, Lt. Governer - Joshua M. %iarikein. M.D., Secretary

October 10.2014

Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon. MD 21009
Dear Ms. Yu.
I am writing in reference to your employment status with the Department of
Health and Mental Hygiene, Prevention and Health Promotion Administration. We
recently received a letter from the State Medical Director, Dr. Robert Toney, advising us
that if a change in your work environment could not be granted, than it is not
recommended that you return to work.
This is to advise you that you may resign your position by forwarding a letter to
that effect to my attention by October 24. 2014 or, if you are eligible, you may apply for
a disability or service retirement in lieu of termination. If you choose not to resign or
retire, regrettably based on the Medical Director's finding, we have no alternative but to
terminate your employment. Enclosed, please find an application for the continuation of
health benefits (COBRA), an Application for Service and Disability Retirement. and a
copy of Dr. Toney's letter. Should you have any questions or if we can he of assistance
in any way, please don't hesitate to contact me on (410) 767-5424.
Sincerely.

WA,

•
4a-litrlAr

Toria Livingston •
Personnel Officer II
Office of Human Resources
Attachments

e:

File
Sara Barra
Toil Free 1-877-4MD-DHlviii TTY/Maryland Relay Service 1;300-735-2255
Web Site: www.clIrilt.state.md.as

Filed
PP'111X /2. Case 1:17-cv-03260-JKB Document 53-1

(7/ch .46-f.vo

08/07/18 Page 4

Dalin& Johnson .DHMH- <delindajohnson@tnaryland.gov>

est Form

CONFIDENTIAL - DHMH Reasonable Accommodation Requ
message

Thu. Jul 31, 2014 at 9:52 AM

Ruth Azeredo <ruthazeredo@comcast.net>
To: Detinda Johnson -01-IMH- <delindajohnson©rnarylanci.gov>
Cc: Ruth Azeredo <ruthazeredocacconcast.net>
Ms. Johnson,

and as is stated in the reasonable
As I mentioned to you in yesterday's telephone conversation
nent here is "the supervisor," not supervision.
accommodation letter sent to the Agency, the critical compo

m.

We also spoke of sensitivity training for Ms. Barra, at a minimu

y arid the other in Howard County. Was

In addition, I mentioned two openings one in St. Mary's Count

management able to give some information on these?

that position is vacant." Why does the fact that
You state below that "this is not a possibly isicl as after today
transfer to that side of the division not
the position of Medical Director is vacant after today make a
today? if it is not Ms. Barra, then it seems.
possible? Who will be supervising that side of the division after
Dr. Yu could move there.

lt with her
i am conferring with my client and then we will, in turn, consu
will provide you with more information.

If you could send me your ContaCt information,

Best regards,

Ruth Ann Azeredo

w Office of Ruth Ann Azeredo LLC
1997 Annapolis Exchange Parkway, Suite 300

medical provider. At that point, I

that would be helpful. (of course, i do have your email).

'r2

se 1:17-cv-03260-JKB Document 3-1 iled 08/07/18 Page 43

011, f,/ci 4924
173

Dehnda Johnson -DHMH- <delinda.johnson@maryland.gov>

Reasonable Accommodation Request for Xiao-Ying Yu
1 message
Ruth Azeredo <ruthazered0Qoonicast.net>
To: Denude Johnson -DHMH- <defindajohnson©malytardgov>
Cc: ruthazeredo©corncast.nat

Mon, Aug 25. 2014 at 3:13 PM

Ms. Johnson,

The only point that Dr. Yu and i find particularly disingenuous below is the assertion that the agency "has no
knowledge of any pending complaints of discrimination." Insofar as Dr. Yu's union grievances include
allegations of discrimination and Dr. Yu has stated that she is being discriminated against not only within union
meetings with management but other meetings, your assertion is not accurate.

In terms of the EEO complaint, you wilt receive the Charge via the EEOC. as is customary.
-

Best regards.

Ruth Ann Azeredo
Law Office of Ruth Ann Azeredo LI.0
1997 Annapolis Exchange Parkway
Suite 300
Annapolis, Maryland 21401
(410) 558-1915
(410) 558-1916
Fax: (410)558-1917

www.azeredolegal.com

From: Delinda Johnson -DHMH- [rnaitto:cielinda.johnson@marytandgov)
Sent: Monday, August 25, 2014 3:03 PM
To: Ruth Azeredo
4gsbject: Re: Reasonable Accommodation Request for Xiao-Ying Yu

Ms. Azeredo,

g4,612,

*re hi)
nt53-1 Filed 08/07/
urne
Case 1:17-cv-03260-JKB Dod

59

Delinda Johnson -OHMI-

p4
ting

Fwd: CCDPC Medical Director Position Pos
1 message

<donna.gugel@maryland.gov>
Donna Gtagel
n@marytand.gov>
To: Belinda Johnson -DHMH- <delindajohnso
cer@maryland.gov>
.spen
helle
<mic
I-1-DHM
Cc: Michelle Spencer

Thu, Aug 28, 2014 at 10:03 AM

Oetinda,
See below for our response.
Thanks
Donna
Forwarded message
johrison@marylanci.gov >
From: Detinda Johnson -DHMH- <oelincla.
Date: Wed. Aug 27, 2014 at 11:09 AM
tion Posting
Subject: Re: CCDPC Medical Director Posi
cer@maryland.gov>, Donna Gugel -DHMH.spen
To: Michelle Spencer -OHMH- <michelle
<Donna.Gugelgrriaryland.gov>

Hello Colleagues,

r. She states that Kristy Pier
dation that exists is a change in superviso
Yu's attorney insists the only accommo
es an opportunity for to
creat
ves
belie
she
them of a re-organization, which
med
infor
arid
April
in
staff
;viiii
met7
d either of you clarify this?
remove Yu from Bane's supervision. Coul
Also, please answer the following:
of the subordinates? Who
Director supervisor ? What'are the titles
1. How many staff did the former Medical
is vacant?
supervises this staff now that the position
th Policy Analyst II and Program
d three positions (2 PINs Heal
The previous Medical Director supervise
ly supervised by the Center
Coordinator). The positions are temporari
ram
Prog
al
ractu
cont
one
I;
ator
Administr
of July. The new MS22 for the
resigned and left her position at the end
Director. The previous medical director
staff supervision.
Center Medical Director does not include
Disease Prevention and Control
of the director of the Center for Chronic
In April when Ms. Pier assumed the role
she may make some changes.
the Center and its structure and that
she stated that she was going to look at
med that there may be
n Plan for the Center, and staff were infor
end of the calendar.year.
Ms. Pier is currently working on an Actio
the
by
d
plete
com
be
n Plan is scheduled to
modest responsibility Changes. The Actio
and Special Projects section
er, and the supervisor of the Epidemiology
Cent
the
for
t
logis
emio
Epid
f
Chie
the
the Center to supervise
As
ed and experienced management staff in
of tne Center, Ms. Barra is the appropriate, train
including Ms. Yu.
any and all epidemiologists in the Center,
Provide in writing what specific hardships

rvisor?

exists for PHPA transferring to other supe

Yu would need
positions. If there are any vacant EPI Ill positions. Ms.
PHPA does not have any vacant Epi If
other candidates for the position.
to submit an application and compete with
41

67-5184.

I am available with any questions or concerns at 410-7

ent 53-1 Filed 08/07/18 Page

Case 1:17-cv-03260-JKB Docum

•

4

fix. 14 5c zb)

4'31

a

ENINGS

ll STATE OF MARYLAND JOB OP

2irS•
tsar 40)1

MEDICAL DIRECTOR

SULNAGER I
PHYSICIAN PROGRAM

1
Reauliment tt4006MR5430
13144
DATE OPENal 721/2014 22D0
11:59:00 PM
FLING DEADLINE swam
.61522iyar
MARY 5120,381.00 - $19/1
im
EMPLOYNIENT TYPE NI-T
iQl

ST Jugagra SION

City
WORK LOCATION Baia:Moe
GRADE
36
N
LOCATION OP POSITIO
Citedti
I.C.Ca2C3
Diabase Presentee arta °MOW
Plifkk coney Ix am=
ealintatt. NCI
SIAM PURPOSE OF JOB

s weikebes ctsr.cncebAlle
nifon gird casced(OCOPC),Wcfc
n Ws cane feettsrone Carom Preos
rom
ONe• of Ora nersett
pcop
arse
Ow
*sr
Ceram
reary
itaben
enietiod eetww
nia rerranietvo parse
Tee amber' erambes retneeed
so, anti wows prerrereaoLeara
eaves la
gaeo
ern
eame
aceib
The
neolk
mem
petee
arra
Wes*
gob*
heath ewe aseveloos
norillh-Nebals. *Milan ete/eicai
gerinaling with homer spasm
be peerdets; dot on Ira
wear= lee Oreclan eau* arra
rt eat. lee =aim knerspootibb(
lsorie
erere
rn
Oreara.
pege
peegpinle. TISS moon thaelles
Sawa
unili. De prelim
ifoe rareaccessorre.00sers
'Atm and providers in Si comm
atieereatbeha atm Dreaseso
refectsce node Ow boat awe
ator ammo =errata.
mawValitivny bekee sker
atone
jea
mar
otaub
and
an
mar
t
Mali
leara
EMI
aL se aa altar
aMali
ern
ISSVOiOPMent 1001185V. Mik cooebeeneen toleerrane bearoon ler Oapennerearetaraden
!WM Dot atives.lo mama ale ocod
egCome odorant1111M
The arnieca tame see negarease
and trenspesmet *Cosmos .111*
coNearaosteexpeeise eletangini
s
*Naa
n
e
an/io
abrad
n
Deeg
paea
deem
e
rad
fere
talanci el refere
l
The ;action has a teaaandia
rs oicatee OgOext awl tibia corea
ns& Itie coosietes pawl:ft tortal
ae likertarnt Thes P/stio
iseslite oco:estes sot ame
WV
cleetie Nana* wo$ en VOW tangs
aeleost audisrees *Manx some
ano guitanose* Deed:
peles
p
ces
bebo
eesee
or
ns
icaur
vegg
arario
les
prose
toe maim aerrie
iews
es denereetsarre
sweneocied onysieetet. woe&
lion ot labilloCCenisOlts inionr
Posion alear
pron
levet
and
idew
avers
n
wort
melo
ste
o
ewire
obrad
grapogotee anew ago poop
prodelne POP On Ow WeekolsoS
oe The wawa a rasaartribie ter
Ow blossom Wens wet:W
etaaaa gorge.
Daatce
olver
apor
eper
dileD
lf
beha
ZOO= ert graCral al
UIREMENTS
AND EXPERIENCE REQ
end be
MINIMUM EDUCATION
Peouttion heart orepereeere.
p/otervxe /girt iarleb NAM ta
. frow yeses armed= on/cfics,
reeliditod =Sege or (newssity
y.,
*eas
6
40§.1
up
g**.
Ragta
weas
ler ercitk disease prior/ego sage
aboo e nuke recarrenendations
ATIONS
ATIONS AND CERMIC
LICENSES, REGISTR
k isseusi
tare et:bad vas=e ctsalrAorn. -M4sto
al Pegoaane. The Beare tray be
sicetesat by As Meryterre Soatd
eleen•
140We
MI
VOCE= Irligbo
OPPI
. A cosy ge Mr AMMO Vaat SOCC
Asanoe. aseeeiwo, mamma 2s2ts

i 8:4201 Ps sewn

S
SELECTION PROCES
risena~g.
; and clbeficene
This is iusimagament itiossisis
reaCtiCeecn Usti/4 en Wor ecwoleion, eaten so mood alb
eadualion ti be aeaon4 anon?
Pbob.
is iiskirmisson on 7raur•pc0b.sabors.
uss ansetcaborre vale se tramearint The
mostiss =wawa sad swam
abeed sy ilaistri
Val
yss
tererr
tkat
ss
elbion
.t011...in who meet ese, mini:m
ton
is
k
(*Wes
dore.
Inc poonsw. Thsal
equinirminserrodese
es Way Woo So e rsouteemeresot
oodcut:We tie t1.5... copt Wins
otit rat molder
se:W
We
elon
dies.
educ
For
*why
We
weft.
by
eid
dna ine Wont
eatoneroost be websPend
reketed °deaden. eopelsees.
emboassoe corcereoNe year( quaef
ssessowropero AS avoficeson.
an0 (11)**r•
ct
sedo
ery
caremeam avaameces sterics
Oldp
make
ll
dm. Appeeseft cordeed to Necte
nti.
ofersolon sabentod saw Min
rded Jos Mumma Cate 410.14574e
e cos VI) year coded. For Reco
Rayon
Ettibety rase co easseste espes
eacm Eltelloci.Z31 Prism Si.,
aleCt MAK atIOVIVSM and Seirs
MIS XXIX salmon May fit luber
fIL atisprearsaRssrit be roaareoad.
igele
-,
reCla
inGe
forte
Slittl
dole
g
ses
Owin
°nese rewicsoe
br 6 an, dose et =sinew orate
Paw opPracesko math* embed
1144. WWWWW. 010 21201. lye

*
cument 53-1 Filed 08/0 7/18 PagAfo

Do
Case 1:17-cv-03260-JKB

pe 132L-

.

3-56as
rito city Z:e 10.4
s Wit =be a:masa
a 'ESX iessassassi infeessa
trassinGhatiliatiogi tote
*Seed. hassle soktssa. Saw
58ame isodsod
area%1400,735-22
me irimwssoci, eft ;def
1251 mi3TTY RI*
Errs:swat ts submits:Na
-isatby cattikkg:1.4101 1-67.
aser
con
a
seat
kats.* =sane ire nat4
/**xemska

4**coms sacome.****

awarris
StOrMehationaleM
runrammiraucrioNs

o*rockirs

piartefftvytodisamfiffo

rt mai wpm* ersi

wcoussge riesn ePPIYsa-Ace st. MX MEC 1.0tSCI
es chlessty.
are isdocive of j3is Slak
vs:605m isespicyste sfts
satietirsa toe

their
We Isssix ourVistwans kr'

,j-KB--!7-ev-ph°
.143 CawpwresTx-P&
.

LAwcorFletcoVite-WANNuntkadeeed/08/17
1997 Annapolis Exchange Parkway, Suite 300
Annapolis, Maryland 21401
www.azeredolegal.com

July 23, 2014

ruthazeredo@corncast.net
Tel. 410-558-1915
TeL 410-558-1916
Fax. 410-558-1917

VIA EMAIL (iennifer.englishQmaryland.gov) and U.S. CERTIFIED MAIL
Jennifer English
Department of Health & Mental Hygiene
Office of Human Resources
201 W. Preston St. Room 111
Baltimore, Maryland
Re: Reasonable Accommodation of Xiao-Ying Yu
Dear Ms. English:
odation in
This correspondence is a request by Xiao-Ying Yu ("Dr. Yu") for reasonable accomm
Act
l Leave
her workplace. Dr. Yu was propelled to take time off pursuant to the Family Medica
working under the
since
suffered
has
she
harm
("FMLA") as a result of the emotional and psychological
August 29,
through
d
supervision of Sara Barra ("Ms. Barra"). Dr. Yu's FMLA is currently approve
2014.
d Human
Pursuant to the Americans with Disabilities Act, the Rehabilitation Act and the Marylan
—
ties
disabili
Relations Statute, Dr. Yu is formally requesting a reasonable accommodation for her
ing what Dr. Yu's
anxiety and depression. Enclosed is a letter from Dr. Yu's healthcare provider address
here is that the
ty
difficul
The
them.
disabilities are and what can be done to reasonably accommodate
treatment of
Barra's
accommodation that is integral is that Dr. Yu not be supervised by Ms. Barra. (Ms.
addressed in the
Dr. Yu has triggered several grievances/appeals through Dr. Yu's union and will be
EEO complaint that Dr. Yu is filing).
to
So as to reach a workable solution, Dr. Yu is asking that she receive the reclassification
the supervision
Epidemiologist III, which was supposed to occur a while back and also be placed under
set up in such a
is
Center
working
of the Medical Director. It is my understanding that Dr. Yu's current
to
out two parts. One
way that there is a Center Director and then under the Center Director, it is broken
) who leads
is under the Medical Director (who has resigned and will be leaving on or about 7/31/14
title is
whose
Barra,
Ms.
under
is
program managers and specific program evaluators, and the other
who
and
r)
Directo
Chief (a recently created position after Ms. Barra did not remain as Acting Deputy
chronic
all Center
leads specific project coordinators and Dr. Yu, an epidemiologist who has worked for
work history
stellar
her
nce,
experie
ble
disease programs since 2009. Dr. Yu's many years of applica
squandered.
or
ignored
be
(pre Ms. Barra) and her high level of commitment to the Agency should not
with her
e
This transfer would remove Dr. Yu from Ms. Barra's supervision and allow her to continu
career.
Please contact me at (410) 558-1915 to discuss the above.
Si

ly,

Ru Ann Azeredo
Enclosure
Dr. Yu
cc:

47

USCA4

Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18 Page 4734140.36A
(2,3

/4-

------- Forwarded message — ----- —

From: XIAO-YING Yu <xiaoying.yu67@gmail.com>
Date: Wed, Aug 6, 2014 at 7:01 PM
Subject: Re: Reasonable accommodation
To: Ruth Azeredo <ruthazeredo@comcast.net>
Dear Ruth,
Thank you very much for your detail and specific instruction, I will let my doctor know
and ask her help to work explain why and how my working with Ms. Barra triggered
acute symptoms as your instruction.
I am so glad to learn that you have reviewed 23 case same as my condition and are going
to rework on my draft. For your convenience, before I can reach my doctor in my next
visit (8/9/2014) to address those issues as you listed, I would like to answer your question
as following:
1.. St Mary's epidemiologist job description and my application (see attached, e-mail was
returned as e-mail address was wrong but he received my fax. He informed me that I was
evaluated as the best qualified person for DHMH epidemiologist
I have not applied Howard epidemiologist III position and have not copied the position
description.
The current office medical director position opened from 7/23-8/4/2014. The heart
disease and diabetes program administrator: Ms. Adelline Ntatin and obesity &school
health program manager. Ms. Erin Prinston and PBEHS program coordinator/contract
1305 program evaluator (since 9/2013) Ms. Erica Smith work under Medical director.
My responsibility for CDC-supported 1305 program (that is the office major founding
resource and major work cover heart disease, stroke, diabetes, obesity, health care, school
health and community health) is specifically designated by DHMH, PHPA and my
current Center managers as 100% time working epidemiologist and my salary supported
by 1305 program grant (Ms. Sara Barra was not initially included in this program, but exmedical director has insisted on including Ms. Barra as 0.5 time worker listed with other
office managers together). My job duties and Ms. Erica Smith job duties are stated
respectively in the 1305 program application, but all my jobs have been taken away by
Ms. Barra to Ms. Erica Smith (I have sent your the summary table of out loop programs
and office reports to CDC indicated that my name has been completely deleted as Ms.
Barra's instruction). I have included major description into the DHMH form in the part
of "...limitation prevents me from ...", for your convenience, see below:
Provide population-based epidemiological support for the program including processing
and analysing data to determine changes in trends and probable causes of
epidemiological problems, identOdng existing data systems to assess morbidity and
morality associated with chronic diseases, leading the design, data collection and
analysis of evaluations associated with programmatic initiatives, and implementation
1

t9 (00
("), 3

Ca e 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18 Pile48k143 {16- (2-1))

-131

Art 1c1 2,

and evaluation of control or prevention measures.
Ms. Barra deleted all of these duties in her revised MS-22 performance standards but
focus on "the writing and summary".
5. The suggestion by Ms. Johnson for accommodation are what Ms. Barra stated in
her "Improvement plan" on 6/9/2014. Ms.Barra made untruthful evaluation and memo,
set up the PEP standards and "improvement plan" and tasks for me to do within 90 days,
if she think I fail her task, she has power to make "unsatisfactory" again, then additional
90 days, if she still think I fail her task, she can terminate me. Usually other office
managers will not against her for protecting me. As you can see for attached
"improvement plan, this "improvement plan" will immediately trigger my acute
symptoms and make my anxiety, depression into more worse condition.
Thank you very much again and best regards,
Xiao-Ying

2

/17 Page 147 of 193
Case 1:17-cv-03260-JKB Document 4-1 Red 12/08
j14/347 ,- Ur- 31-6-0
4#9

Ar& (2'
i

(,01444--- &-M47

Exhibit 31a.
aryland.00vi
From: Delinda Johnson -DHMH- [mailto:delindalohnson@m
Sent: Wednesday, September 03, 2014 1:51 PM
To: Ruth Azeredo
ion and copy of EEO complaint sent to EEOC
Subject: Re: Follow up regarding reasonable accommodat

Good Afternoon Ms. Azeredo,
Please see the attached correspondence addressing Ms. Yu's

reasonable accommodations request.

Sincerely,
Delinda A. Johnson
Equal Access Compliance Manager
Equal Access Compliance Unit
Office of Equal Opportunity Programs
Department of Health and Mental Hygiene
201 West Preston Street, #514B
Baltimore, Maryland 21201
410-767-5184 (office) / 410-333-5337 (fax)
delincia.johnson_Zmaryland.i.zov
et]
From: Ruth Azeredo [mailto:ruthazeredo@comcast.n
PM
7:52
Sent Tuesday, September 02, 2014
To: 'Delinda Johnson -Dl-IMH-'
Cc: ruthazeredo@comcast.net
ion and copy of EEO complaint sent to EEOC
Subject: Follow up regarding reasonable accommodat

Ms. Johnson:
Also, though I know you will
I am following up on the reasonable accommodation request.
that was sent to the EEOC today.
receive this from the EEOC, I am enclosing the EEO complaint
Best regards,
Ruth Ann Azeredo
Law Office of Ruth Ann Azeredo LLC
1997 Annapolis Exchange Parkway
Suite 300

Annapolis, Maryland 21401
(410) 558-1915
(410) 558-1916
Fax: (410)558-1917
vv-w-w.azeredolegal.com

186 USCA4

Case 1:197rgyik5gipkiligmgocument 4-1 Filed 12/08/17 Page 148 of 193

07

DHMH

t`h X16

SK8-17-c-143744
Ccarflovo"-E4t+g

Maryland Department of Health and Mental Hygiene
201 W. Preston Street - Baltimore, Maryland 21201
Martin O'Malley. Governor- Anthony (i. Brown. Lt. Governor-Joshua M. Shark:win. M.D.. Secretary
September 3. 2014
Via Email and First Class Mail
Ruth Ann Azeredo, Esquire
1997 Annapolis Exchange Parkway. Suite 300
Annapolis, Maryland 21401
Dear Ms. Azeredo:
e with State
I have reviewed your client. Xiao-Ying Yu's, request for reasonable accommodation in accordanc
and/or a
supervisor
in
change
a
requested
has
Yu
Ms.
.
and Federal laws, policies, and procedures. Specifically
been
has
It
condition.
medical
her
with
associated
symptoms
to
due
III
reclassification to an Epidemiologist
Health
and
Prevention
the
to
hardship
undue
an
create
and
reasonable
not
arc
determined that these requests
Promotion Administration: therefore. Ms. Yu's request is denied.
might assist Ms.
DHMH has suggested and engaged in dialog about possible reasonable accommodations that
ing
implement
to:
limited
not
but
including,
position
current
her
of
functions
Yu in performing the essential
meetings
scheduling
;
supervisor
current
oilier
methods
ation
communic
and
revisions in supervisory strategies
to provide guidance, feedback or discuss progress and/or issues; providing written summaries
con filet
and/confirmation of instructions and/or management expectations: developing a process for handling
and/or
schedule
break
modifying
tasks:
smaller
with her current supervisor; dividing larger projects into
you declined
granting permission to utilize stress management techniques at work. On behalf of your client,
current
oilier
supervision
under
remained
client
your
as
long
as
trying any of these accommodations
supervisor. DHMH remains open to discussing other possible accommodations.
ation that an
Please be advised that the ADAAA does not require the employer provide the exact accommod
so that
effective
and
feasible
be
ation
accommod
the
that
requires
only
it
requests;
employee and/or physician
employee
the
the employee can perform the essential functions of the job. In this case, you have indicated that
this office has
can perform her essential functions under different supervision. a proposed accommodation that
determined to be unreasonable.
For additional information regarding your client's rights to pursue this matter, you may contact
agencies:
Maryland Commission on Civil Rights
6 St. Paul Street. 9th Floor
Baltimore, Maryland 21202
(410) 767-8600

the following.

Equal Employment Opportunity Commission
10 South Howard Street, 3"1 Floor
Baltimore. Maryland 21201
(410) 962-3932
Sincerely.

belinda Johnson./Equal Access Compliance Manager
410-767-5184
Toll Free 1-877-4MD-D1-1MH -,ITY/MaryIand Relay Service 1-800-735-2258
Web Site: www.dhath.maryiand.uov

187 USCA4

8/17 Pageft<4
cycji3RADiz4415,N Podument 4-1 Filed 12/0
1Rn
(,13F

Case

DHMH

iene
Maryland Department of Health and Mental Hyg
21201
201 W. Preston Street • Baltimore, Maryland

or - Joshua M. Sharfstein, M.D., Secretary

Martin O'Malley, Governor - Anthony G. Brown, Lt. Govern

MEMORANDUM

Ms. Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon, MD 21009

TO:

FROM:

/d1)
Jennifer English
Administration Unit
DHMH Office of Hume Resources
l

RE:

Employee to Employee Leave Donation - Disapprova

DATE:

August 28, 2014

oyee to employee leave donation submitted on
This memorandum serves as notification that the empl
your
mentation you submitted was insufficient to support
August 26, 2014, is denied because the medical docu
Leave request.
AR), you may appeal the denial within 14 days
In accordance with Code of Maryland Regulation (COM
(MS-406), an Authorization Form for Release of
receiving this letter. We are enclosing an Appeal Form
If you
Documentation to assist you in the appeal process.
icecords and Information and examples of Medical
of
ase
Rele
for
al Form and the Authorization Form
choose to submit an appeal, please complete the Appe
Records and Information and send them to:
Ms. Margaret Embardino
Department of Budget and Management
301 W. Preston Street, Room 508
Baltimore, MD 21201
Phone: 410-767-4483 Fax: 410-333-5440
Email: maraaret. embardino@marvland.aov
have your treating physician(s) fax any medical
In addition to submitting yoUr information, please
h you
mentation should address the period of time for whic
records that support your absence. The medical docu
explains the severity and duration of your medical
need leave. It must include detailed information that
condition(s).
If you have any questions, feel free to contact me at 410-7

67-5532.

: Steve Elmore
Medical File

410

Service 1-800-735-2258
Toll Free 1-877-4MD-D1-13v1H - TTY/Maryland Relay
d.us
state.m
Web Site: www.dhmh_

189 USCA4

J08/17 1 Page 149 of 193
i
•
1

4W- as(770-03260-

DHMH

Maryland Departmen
201 W. Preston Stree

Baltimore, Maryland 21

0161-120517256 •
SI

7013 1090 0000 3937 3123

Tr
ni

.$ 06

480

Och'0312011
Mallen FIVM

4.1

ADDRESS SERVICE REQUESTED

us

21201

POSTAGE

/4( j` X.44) • • Yi1/ 9
1.

6.e

tt't

2 1 00924 :1.

.)-/ C

1111 1)111111111 11111 11" 1.111)114 1 11 111" 1

188 USCA4

Pi l ill 1i 1l'Ill'i1l

/17 Page 151493_,
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08

tedix, i2-,5

440

Exhibit 31d.
Forwarded message
>
From: Sara Barra -DEMI- <sara.barra@maryland.gov
pm
Date: Wed, Sep 3, 2014 at 12:49
box has been changed by someone
Subject: Re: seek help for the password of my office mail
To: XIAO-YING Yu <xiaoying.yu67@gruail.com>
Cc: Kristi Pier -DHMH- <kristi.pier@maryland.gov>

Xiao-Ying,
Good afternoon! Email access will be restored when you
2014.

return from leave on September 30,

Best,
Sara

Sara Barra, MS
Chief, Epidemiology and Special Projects
Center for Chronic Disease Prevention and Control
Prevention and Health Promotion Administration
Maryland Depaitruent of Health and Mental Hygiene
201 W Preston St, Rm 306
Baltimore MD, 21201
(P) 410-767-6781
(F) 410-333-7106
ving..vu67gamail.com> wrote:

On Sat, Aug 30, 2014 at 9:42 AM, XIAO-YING Yu <xiao
Good morning, Sara and Kristi,

d.gov) has been suddenly changed
The password of my office mail box (xiao-ying.vu(d).marvlan
and you know my personal mail
by someone on 8/28/2014, but I have not received any notice
look into this and help me to access
box. So,1 could not access my office mail box. Could you
my office mail box?
Thank you and best regards,
Xiao-Ying

190' USCA4

/17 Page352 of 193
Case 1:17-cv-03260-J KB Document 4-1 Filed 12/08

Afit4/2-, 5-

0714444-Fx fir2_

Exhibit 32.

r lawyer on 8/6/2014 (see separate
Ms. Yu sent her detail accommodation requests to her forme
and some feedback she heard from
form). Because she did not hear a response from Ms. Johnson
additional letter to OEOP Ms.
her former lawyer indicating the confusion. Therefore, she wrote
Johnson on 9/29/2014.

From: XIAO-YING Yu <xiaoyina.vu6V-1,47„mail.com>
Date: Mon, Sep 29, 2014 at 12:22 PM
st
Subject: Confidential DHMH reasonable Accommodation Reque
To: delindajohnson@marvland.gov
September 29, 2014
Via Email and Certified Mail
Delinda Johnson
Equal Access Compliance Manager
Equal Access Compliance Unit
Office of Equal Opportunity Programs
Department of Health and Mental Hygiene
201 West Preston Street, #514B
Baltimore, Maryland 21201
Dear Ms. Johnson:
14. 1 am writing this letter to you
I have received your letter sent to Ms. Ruth Azeredo on 9/3/20
request. I would like to discuss
to continue the dialog with DHMH about my accommodation
le to have Ms. Ruth Azeredo
this matter with DHMI-1 myself, as it is not financially feasib
continue to handle all aspects of my work situation.
tion request for the
First, it seems there is a misunderstanding about our accommoda
ion was approved by DHMH and
"reclassification to an EpidemiologiSt III". This reclassificat
sification was not completed.
DBM in 2011, but follow up paper work to complete the reclas
tion are caused by Ms. Sara
As you know, the symptoms associated with my medical condi
supervisor and to complete the
Barra's mistreatment. The accommodation request to "change
ons as clearly stated in the letter
reclassification" would allow me to perform my essential functi
al documentation and completed
Ms. Azeredo sent to you on 8/19, with Dr. Bisson's medic
DHMH ADA form.
er alternative accommodation such
On 8/7/2014, Ms. Azeredo asked me if I would like to consid
CCDPC director. I told her this
as to do Tele-work and e-mail reports to Ms. Barra and Cc. to
ial job because most harassment
would not improve my symptoms and assist me to do my essent
from Ms. Barra was through her e-mails.

191 USCA4

8/17

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/0

PagEdke OW, a20

complete reclassification" and wait for a
I am willing to put aside the accommodation request "to
approved reclassification. This issue was
good time when DHMH could complete the previously
tor, Mr. Harold Young and DHMH
brought to the attention of DHMH HR regulation Direc
dum, which I sent along with the Union
Secretary Dr. Jushua Sharfstein in my 2/18/2014 adden
appeal.
to CCDPC in 7/2011 when her
Additional information to consider is that Ms. Barra came
distributed into different offices. She is
previous division director retired and employees were
Maryland BRFSS with another
the epidemiologist designated by DHMH to work with
Health (MATCH) after Dr. George
statistician and Maryland Assessment Tool for Community
gave Ms. Barra the information related
Thrope became sick in 2011. In addition, Ms. Lee Hurt
resigned in 2013. Therefore, Ms. Barra,
to children surveillance system and database when she
letely different from mine. However,
as the epidemiologist, has a job description which is comp
projects and programs have been taken
most of my job responsibilities and participation in office
amss included in the performance standards
away by Ms. Barra and all of the office projects/program
as providing recommendations to the
of my MS-22 have been deleted. Many job functions, such
internal and external contacts etc., have
office director and co-workers and communicating with
several "Internal memorandums'.
been restricted and prohibited in the modified MS-22 and
gic and analytic professional skills and
generated by Ms. Barra. Instead of using my epidemiolo
ing and one-to one meetings with her"
experience, Ms. Barra, as my supervisor, focused on "writ
improvement plan" (to terminate me)
based on her needs. This is also stated in her "180 daysry performance evaluation of me.
based on her untruthful statements and self-contradicto
informed us about reoraanization of
We still believe, because CCDPC director Ms. Kristi Pier
iences and skills, our accommodation to
the office structure to better utilize all employees' exper
create an undue hardship to the
allow me to work under a different supervisor should not
this would be a great benefit to
Prevention and Health Promotion Administration. In fact,
a healthy office working culture and
limiting the negative impact by Ms. Barra and building
well as enhance the effectiveness and
honest and co-operative communication system and as
efficiency.
office in Baltimore is to seek their help
The EEOC complaint file we sent to the Federal EEOC
ed filing this complaint, while actively
and protection (also sent to you on 9/2/2014). We delay
the bullying, discrimination, and
seeking the help of DHMH in finding a solution to stop
work under a different
retaliation by Ms. Ban-a and allowing me to return to
the past several months, I continue to
supervisor. Although we have been unsuccessful over
hope this matter can be resolved.
Sincerely,
Xiao-Ying Yu,
557 Kirkcaldy Way,
Abingdon, MD 21009
2

192 USCA4

ease

r-c\r-u3z(30-.) N16 uocumenr 4-I riled izrutsli
STA I b OF MARYLAND Irt 4.3

i-' age

DHMI—I

i54 or .L
(7- CV-.3260

colaboA--a-f2/54-4-

Maryland Department of Health and Mental Hygiene
land 21201
201 W. Preston Street, Room 514 - Baltimore, Mary
Martin O'Malley, Governor - Anthony G. Brown, Lt.

Governor - Joshua M. Sharfstein, M.D., Secretary

dation
Request for Reasonable Accommo

this form and present it to your unit/program ADA
To request a reasonable accommodation complete
Designees can be obtained by contacting the
Designee. Contact information for DHMH unit ADA
6600.
OEOP Equal Access Compliance Unit at 410-767Job Title I Position Applied to or Program Name:
Requesting Party's Name:
g Yu is Epidemiologist in DHMH, PHPA CCDPC
Ms.Ruth Azeredo for Xiao-Ying Yu Xiao-Yin
1 Address:
Request Date:
Daytime Phone Number:
edo LLC
1 51: 7/23/2014 by Ms. Law Office of Ruth Ann Azer
Exchange Parkway, #300
zeredo and Dr. Bisson 1997 Annapolis
410-558-1915
is, Maryland 21401
nd: 8/2/2014, see above Annapol
Please check one:

Employee

Applicant

Program Participant

iii

If employee, Supervisor's Name
.
and Phone Number:
ce as a result of your health condition:
State the functional limitations that you experien
D

DISCLOSE
NOTE: SPECIFIC DISABILITY NEED NOT BE
diate supervisor, Ms.
emotions and depression caused by her imme
lness,
fearfu
ty,
anxie
extra
1.Xiao-Ying Yu's (Dr. Yu)
Yu's performance
Dr.
d
t and retaliation associated with downgrade
Sara Barra's (Ms. Barra) daily bullying, harassmen
nnel/mitigation
perso
ating
gener
by changing her MS-22 and routinely
evaluation, restricted and deleted her job duties
ons.
ntrati
conce
interfered with her memory and
meetings, internal memos and disciplines have
allowed Dr. Yu to clarify) often
confusions and request by Ms. Barra.,( not
2.Frequent harassment including unreasonable
have led to anti pantry
shaking, flushing, tachycardia chest pain, that
made her panic attacks include extra thirst, hand
analyses.
regular work like review references and data
4nxiety and interfered with her focusing on her
ed

the following program or work relat
Nly limitation(s) prevents me from performing
'activities:
d to Ms. Ban-a's
depression and panic attacks are directly relate

ty,
Because Dr. Yu's limitations resulted from anxie
asizes the limitations
"improvement plan" (6/9/14), Dr. Yu rather emph
her
ing
includ
ation,
retali
and
t
bullying, harassmen
prevents Dr. Yu
and
ties
activi
d
interferes with her job duty and relate
restrictions given by Ms. Barra who seriously
and
conditions. Dr.Yu
health
her
from
ed
result
l
than address her limitation only
from doing her job in office projects/programs
program, which
1305
office
the
rted
suppo
CDC
from
of her salary
essing and
"Proc
hs the full time daily working epidemiologist and 100%
as:
am
job dunes and activities are stated in 1305 progr
[is office major founding resource. Dr. Yu's major
associated
ations
evalu
of
sis
, leading the design, data collection, and analy
has
Yu
Dr.
.
analyzing data, identifying existing data system
ures"
meas
ntion
preve
and
ol
tion and evaluation of contr
s
visor'
[with programmatic initiatives, and implementa
super
ding
regar
and 3/11/2014 by e-mails to Ms. Sara Ban-a
1305
ially
requested on 3/22/2013, 6/28/2013, 11/20/2013
espec
ams
progr
se
disea
ic
chron
to
-organized events related
permission for her to participating in the office
allowed to review, or
d working plan. However, Dr. Yu has never been
relate
1305
in
ated
rticip
ed/pa
program and review
Ntatin released to
ne
Adeli
Ms.
(when
am from 2/26/2014 till 3/11/2014
to be aware of CDC's instruction for 1305 progr
working plan. In
1305
the
ring
prepa
and
ssing
discu
to participate in the
Dr. Yu) and to have given an equal opportunity
ess report
progr
and
d from 1305 enhanced program working plan
ddition, Dr. Yu's name has been completely delete
2014.
4/28/
on
again
2014,
instructed to send to CDC on 3/27/
without any explanation to her that Ms. Barra

a

Page 1 0

193 USCA4

aye .

-J B Duuth tel It 1r-I

PR.

etf 12 u

age

,-1163-i7-c1 /4 2‘''

I am requesting accommodation because:
I am applying for employment and the accommodation will allow
me to participate in the application( selection process.
I am currently employed by the State of Maryland and require an
accommodation in my current position.
I am a person seeking an accommodation so tfw I may participate
in a DI[MH provnm, service or activity for which I am otherwise
oualified.
The accommodation I am requesting is:
site modifications or
(Describe the type of accommodation, suggestions for work site, exam or program
ation, and the details of
particip
specific job duties that may be restructured to facilitate your employment or
if known).
cost,
g the
how or where the accommodation (if purchasable) may be obtained, includin
ing office meeting invitation and
I. To be removed from the harasser: Ms. Sara Barra bullied Dr. Yu by controll
to access data and

an equal opportunity
e-mails with her supervisor and Chief power and forbid Dr. Yu to have
internal and external contacts and
information resources related to programs, exchange information through
director, which, however, are listed in her
office
to
tion
informa
professional friendship, provide recommendations and
in 2009.
job duties and related activities in MS-22 form since she came to DHMH

2. To receive the relief from the harassment:

III" that has been deprived by the
To stop the harassment by granting the reclassification to "Epidemiologist
DHMH and DBM approved exafter
forms
ication
reclassif
proper
do
to
refused
ex-medical director Maria Prince who
job duties were expanded from heart disease
loffice director Dr. Audrey Regan's application in 4/2011(due to Dr. Yu's
changed from general to manager since
was
111d stroke in 11/2009 to all chronic disease programs and supervision
job duty (she has not been allowed to do
her
ing
perform
Yu's
Dr.
g
/2010). This deprivation has been greatly inhibitin
d that as epidemiologist II, she must be
ything without Ms. Barra's permission and approval) as Dr. Yu was informe
iologist III" position by Dr. Prince with the
der Ms. Barra's supervision, while Ms. Barra was promoted as "epidem
Regan left 12/2011.
Dr.
HMH and DBM approved PIN number immediately after ex-director
and CCDPC co-workers has to
ologist
epidemi
DHMH
other
as
Yu
To give an equal opportunity to Dr.
Ms Barra has been preventing Dr. Yu from
Dow her to compete for her job and access the privileges of employment.
deletion and restriction of her job duties,
articipating in the office projects/programs by modifying her MS-22 with
her best professional experiences and
use
to
her
ng
emoving all projects from her performance standards, forbiddi
to restrict and prevent Dr. Yu from
memos
of
set
a
d
generate
has
kills to perform her job duties. Also, Ms. Barra
n Ms. Barra intentionally generated to misccessing information resource to do her job and clarifying much confusio
Dr. You from receiving privilege of
ead DHMH managers and co-workers. In addition, in order to prevent
reflect the fact, into Dr. Yu's personnel file
not
do
that
(employments, Ms. Barra has inserted a set of documents, even
total 5 disciplines on 2/3/2014, 3/18/2014
of
3
and
memos
6/9/2014
and
without informing Dr. Yu, such as 3/31, 5/20
and 6/9/2014 although those disciplines are during appealing process.
ge, experience and skills, CCDPC Director
chnIn summary, in order to best utilize each CCDPC employee's knowled
of CCDPC employees by meeting with
each
d
informe
and
structure
office
ze
s. Kristi Pier has planned to reorgani
odation to be removed from the
accomm
the
each of us including Dr. Yu on 4/29/2014. Therefore, Dr. Yu requests
in any undue hardship or
result
not
will
director
Medical
crasser, Ms. Barra to another branch of the office: New
and operations. In
building
system
working
fair
and
culture
office
healthy
r inistrative burden but benefits to the
previous missed
those
ing
complet
considering
addition, Dr. Yu requested to receive the relief from the harassment by
as HR policy
or
supervis
new
her
with
file
el
personn
roper reclassification forms, modifying MS-22, clearing up her
convenience
or's
supervis
new
as
styles
working
and
hours
working
struction and also working out the best flexible
d needs of CCDPC projects/programs including 1305 program.

Page 2 of 2
194 USCA4

Are, 1,45-

ication
ellittPliatickAedriViraii/aipaRalCifaiari flie_144l
This acaiaMic13itTosiiirilealk3a-iiikio PEPattill
be how the accommodation will assist you)
/ selection process or program as follows:(Descri
Director:

to new Medical
To be removed from the harasser, Ms. Sara Ban-a
ially Ms.
's daily bullying, harassment and retaliation, espec
Barra
Ms.
from
This will give Dr. Yu great mental relief
has planned
Barra
Ms.
ation
evalu
ce
the 2014 untruthful annual performan
Barra's "improvement plan" that was based on
to focus and
Yu
Dr.
allow
will
tion
Yu sick leave time. This accommoda
and generated for Dr. Yu on 6/9/2014 during Dr.
s without
tation
expec
gers
mana
PC
program as DHMH PHPA and CCD
concentrate on her work to do all her best for 1305
Yu.
Dr.
for
ating
gener
been
sion and retaliation plan as Ms. Barra has
fearfulness how to respond the continuous confu
To be relieve from the harassments:
rship, so she has
emiologist Ill": Dr. Yu has misted DHMH leade
1) Reclassification with proper forms for "Epid
change to new
after
1 and hopes this is the good timing to solve this
eard this unfair employment practice since 8/201
that Ms.
skills
working experience and
..tipervisor. This will allow Dr. Yu to use her best knowledge and professional
ils for
e-ma
many
ly communicated with Ms. Barra by verbally and
arra has been restricting her although she has active
e from
notic
the
received
cation that she has checked with Ms. Barra after
ffice projects/programs including GIS grant appli
any feedback from Ms. Barra.
DC/NACDD in 2/2014, but Dr. Yu has never heard
is allowed to
clearing up Dr: Yu's personnel file when Dr. Yu
2) According to HR policy, modifying MS-22,
and office programs especially her performance
: Modifying MS-22 to reflect Dr. Yu's jOb duty
Lhange to new supervisor
to have equal opportunity
s Ms. Barra has given to Dr. Yu will allow her
tandards and removing those specific restriction
programs, provide
nge information, participate in office projects and
o access database and information resources, excha
miologist function listed in MS-22 and 1305
ation to office as her job duty required and epide
Eecommendation and inform
iiirogram without Ms. Barra's suppression.
t and
tion is caused by Ms. Barra's bullying, harassmen
In summary, because Dr. Yu's current health condi
Yu's tremendous stress
to be relieve from the harassments will reduce Dr.
!retaliation, to be removed from Ms. Barra and
do her job efficiently
symptoms and allow her to gradually recovery,
d extreme anxiety, depression and panic attack
restriction, confusions as
best for her job duty and deal with Ms. Barra's
thout daily facing the conflicts in how to do the
tion and data information) .
allowing her to work with the basic working condi
Eiell as suppression (by not

3240

ED TO PROVIDE MEDICAL
I UNDERSTAND THAT I MAY BE REQUIR
PROVIDER AS PART OF THIS
INFORMATION FROM MY HEALTH CARE
PROCESS.

SIGNATURE

DATE

PRINT NAME
Please forward to:
Delinda Johnson
Equal Access Compliance Manager
Office of Equal Opportunity Programs
Equal Access Compliance Unit
201 W. Preston Street, Room 514B
Baltimore, MD 21201
Office: (410) 767-5184
Fax: (410) 333-5337
Email: Delinda.Jobticon@maryland.gov
Page 3 of 2
195 USCA4

biq
193
Case 1:17-cv-03260-JKB Dom. 44 Filed 12/08/17 Page 163 of

S

edl-W 3fi

i Ll'EJ7 -/Y6

Maryland Department of Health and Mental Hygiene
Prevention and Health Promotion Administration

Center for Chronic Disease Prevention and Control
Organizational Chart
ftldre , 2 o 3
Donald Shell, MD, MA
CCDPC Director
Andrea Bankoski
VDU Manager
Monica Franklin
Administrative Aide

Vacant/TBD
Fiscal Coordinator

Maria Prince, MD, MPH
Medical Director

Sara Barra, MS
Chief Epidemio ogy and Special
Protects

-yr, 0.4,7.5s0.. '414.r liewr5
“Aof /ley frip
56,

Preventive Medicine Resident

Erin Penniston, MSW
CTG Manager

Medical Student

Jeff Norris, Ph.D.
CTG Evaluator

Erica Smith, MS
Coordinated Chronic
Arease/PHIIS

Ashley Fried, MHA, MCH
Wellness Coordinator

kiaAt

Katie Jones, MSW
Health Policy Analyst

Tara Snyder
Health Communications

Debra Cclnik, RD, MS, LON
Nutritionist

Xiao-Ying Yu, MD, MS
Epidemiologist

Adelline Ntatin, MPH, MBIM, MA
Diabetes/Heart Disease & Stroke

Vacant
QI Coordinator

Vacant
Food Policy Analyst

202 USCA4

Ay, 1ff

so

,41-4(.110ihkilitIM8/17 Page 114of 193,14,47-cV-

Center for Chronic Disease Prevention and Control
Organi2,-cti lona/ Chart
April 2014 "- 04,

Carl(

Pt0.-

204.

Kristi Pier, MHS, CITES
CCDPC Direcior

Monica Franklin
Adminisirative Aide

Vanessa Walker Harris, MD
Medical Director

AtaW,

Sara Barra, MS
Chief Epidemiology and !Special
Projects

Res&
AtkitilMwetoollu-Oroki-

. 1111'4'fc,( S41/2.0
Erin Penniston, MSW.

Erica Smith, MS

Blair Inniss, JD

CTG Manager

Coordinated Chronic
Disease/MHS

Health Policy Analyst 1

Jeff Norris, PhD
CTIG Evaluator

Adenine Ntatin, MPH,
MA

Tara Snyder
Community Health Educator ill .

Debra Celnik, RD, MS, I,DN

Xiao- Ying Yu, MD, MS

Nutritionist

Epidemiologist II

Diabetes/Heart Disease & Stroke

Ashley Fried, MS
Community-Clinical Linkages
Coordinator

Cleo Bonglaek, BA
Health Systems Coordinator

Attia Goheer, MHS
(*ammonia Outreach
Coordittatoi•

Carley Dyer, MPH
Million Hearts QI
Coordinator .

Vacant
MESS Coordinator

203 USCA4

Apr 40

S

_40-til,4A,Rilimi,,u03/17
caw 1:17_,...00liiiiko.,1-100JA,
,

uerriter Hair Chrouilic Disease Prevention
()rg►anizational Chart
October 2014

14- 7-ex- 3240 •

Page 165

1

and( Contrail

t

tp,4- 6C_ l

PO.

Kristi Pier, MHS, CI IES
CCDPC Director

Resa Alavi, MD, MBA
Medical Director

Erin Penniman, MSW
State and Local Public Health
Actions Manager

Adenine Ntatin, MPH, MEM, MA
State Public Health Actions
Coordinator

+ Norris, PhD
State and ocal Public Health
Actions Evaluator .

Clco Bonglack, BA
Health Systems Coordinator.

Vacant
State and Local Public Health
Camp I Coordinator

Carley Dyer, MPH
Million Hearts QI Coordinator

Vacant
State and Local Public Health
Comp II Coordinator
' Vacant
Slate and Local Public Health
Business Manager

Ashley Fried, MS
Community-Clinical Linkages
Coordinator

Attie Goheer, MHS
C 0111111 Ulli 0) Outreach

Monica Franklin
Administrative Aide

Erica Smith, MS
Coordinated Chronic
Disease/P H HS

Sara Barra, MS
Chief Epidemiology and Special
Projects

Debra Celnik, RD, MS, LDN
Contvonent I Nutritionist
Georgette Lavctsky, MI•IS
DRESS Coordinator
tam Snyder
Health Communications
Specialist
Ylao-Ying Yu, MD, MS
State Public Health Actions
Epidemiologist

Coordinator

Vicant
Healthiest Maryland Businesses
Coordinator

204 USCA4

"z

District of Maryland (CM/ECF Live 6.1)
AV,

Page 1 of 6

A
APPEAL,CLOSED,FEEPRO

U.S. District Court
District of Maryland (Baltimore)
CIVIL DOCKET FOR CASE #: 1:17-cv-03260-JKB

Yu v. Neall et al
Assigned to: Chief Judge James K. Bredar
Demand: $750,000
Case in other court: Fourth Circuit Court of Appeals, 1801889
Cause: 28:1331 Federal Question: Other Civil Rights
Plaintiff
Xiao-Ying Yu

Date Filed: 11/06/2017
Date Terminated: 06/26/2018
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

represented by Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon, MD 21009
410-671-9823
Email:
PRO SE
Eric Hawkins
6615 Wilson Lane
Bethesda, MD 20817
240-600-1126
Email: eric:Ivhawkinsattornev.com
TERMINATED: 08/01/2018
11ORNEY TO BE NOTICED
William X Zou
Law Offices of Xian Feng Zou
136-20 38th Ave. Ste. 10D
Flushing, NY 11354
7186619562
Fax: 7186612211
Email: zoulawofficercZvahoo.com
TERMINA TED: 08/01/2018
PRO HAC VICE
ATTORNEY TO BE NOTICED

v.
Defendant
Robert R. Neall
Maryland Department of Health
Secretary

represented by James Nelson Lewis
Office of the Attorney General
Department of Health
300 West Preston Street
Suite 302

https://ecf.mdd.circ4.dcn/cgi-bin/DktRpt.p1299881057761399-L10-1

8/16/2018

Page 2 of 6

District of Maryland (CM/ECF Live 6.1)

Baltimore, MD 21201
(410) 767-5162
Fax: (410) 333-7894
Email: James.Lewis1amarvland.2ov
LEAD ATTORNEY
AI I ORNEY TO BE NOTICED
Defendant
David Brinkley
Maryland Department of Budget and
Management Secretary

represented by James Nelson Lewis
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Email All Attorneys
lEmail All Attorneys and Additional Recipients
Date Filed
11/06/2017

11/16/2017

Docket Text

#

COMPLAINT against David Brinkley, Dennis Schrader ( Filing fee $ 400
receipt number 14637101819.), filed by Xiao-Ying Yu. (Attachments: # 1
Cover Letter, # 2 Civil Cover Sheet)(bas, Deputy Clerk) (Entered:
11/07/2017)
2 ORDER Directing plaintiff to submit completed summons to the Clerk and
the Clerk SHALL prepare and issue and return summons to Plaintiff. Signed
by Chief Judge James K. Bredar on 11/16/2017. (c/m 11/16/17 bas, Deputy
Clerk) (Entered: 11/16/2017)

1

12/07/2017

3

Summons Issued 21 days as to David Brinkley, Dennis Schrader.(c/m
12/7/17 bas, Deputy Clerk) (Entered: 12/07/2017)

12/08/2017

4

AMENDED COMPLAINT against David Brinkley, Dennis Schrader, filed
by Xiao-Ying Yu. (Attachments: 4 1 Exhibits)(bas, Deputy Clerk) (Entered:
12/11/2017)

12/15 /2017

5

SUMMONS Returned Executed by Xiao-Ying Yu. David Brinkley served on
12/13/2017, answer due 1/3/2018; Dennis Schrader served on 12/13/2017,
answer due 1/3/2018. (Attachments: # 1 Cover Letter)(bas, Deputy Clerk)
(Entered: 12/18/2017)

01/03/2018

6

MOTION to Dismiss for Failure to State a Claim by David Brinkley, Dennis
Schrader (Attachments: # 1 Supplement, # 2 Text of Proposed Order)(Lewis,
James) (Entered: 01/03/2018)

01/04/2018

7

Rule 12/56 letter mailed to Xiao-Ying Yu (c/m 1/4/18 bas, Deputy Clerk)
(Entered: 01/04/2018)

01/04/2018

8

Correspondence Received from Xiao-Ying Yu re: Judgment. (bas, Deputy
Clerk) (Entered: 01/04/2018)

01/09/2018

9

MOTION for Clerk's Entry of Default, MOTION for Default Judgment as to
by Xiao-Ying Yu (Attachments: # 1 Exhibts)(bas, Deputy Clerk) (Entered:
01/09/2018)

https://ecfmdd.circ4.dcn/cgi-bin/DktRpt.pl?99828105761399-L_

8/16/2018

District of Maryland (CM/ECF Live 6.1)

Page 3 of 6

— e)41,11.1-02-

01/10/2018

10

ORDER Denying 9 Motion for Clerk's Entry of Default, Motion for Default
Judgment. Signed by. Chief.Judge James K. Bredar on 1/10/2018. (c/m
01/10/18 bas, Deputy Clerk)'(Entered: 01/10/2018)

01/16/2018

11

MOTION for Extension of Time to File Response/Reply as to 6 MOTION to
Dismiss for Failure to State a Claim by Xiao-Ying Yu (Attachments: # 1
Cover Letter)(bas, Deputy Clerk) (Entered: 01/17/2018)

01/19/2018

12

RESPONSE to Motion re 11 MOTION for Extension of Time to File
Response/Reply as to 6 MOTION to Dismiss for Failure to State a Claim
filed by David Brinkley, Dennis Schrader. (Attachments: # 1 Text of
Proposed Order)(Lewis, James) (Entered: 01/19/2018)

01/19/2018

13

MOTION for Clarification Related to Default by Xiao-Ying Yu
(Attachments: # 1 Affidavit, # 2 Cover Letter)(bas, Deputy Clerk) (Entered:
01/19/2018)

01/22/2018

14

ORDER Granting 11 Motion for Extension of Time to File Response. Signed
by Chief Judge James K. Bredar on 1/22/2018. (c/m 1/23/18 bas, Deputy
Clerk) (Entered: 01/23/2018)

01/23/2018

15

MOTION for Clerk's Entry of Default, MOTION for Default Judgment by
Xiao-Ying Yu (Attachments: # 1 Declaration)(heps, Deputy Clerk).
(Entered: 01/24/2018)

01/25/2018

16

ORDER Denying 13 Motion for Clarification Related to Default; Denying
15 Motion for Entry of Default and Default Judgment Order. Signed by
Chief Judge James K. Bredar on 1/24/2018. (c/m 1/25/18 bas, Deputy Clerk)
(Entered: 01/25/2018)

03/01/2018

17

MOTION for Extension of Time to File Response/Reply as to 6 MOTION to
Dismiss for Failure to State a Claim by Xiao-Ying Yu (Attachments: # 1
Exhibit, # 2 Cover Letter)(bas, Deputy Clerk) (Entered: 03/05/2018)

03/06/2018

18

ORDER Granting 17 Motion for Extension of Time to File Response/Reply.
Signed by Chief Judge James K. Bredar on 3/6/2018. (c/m 3/6/18 bas,
Deputy Clerk) (Entered: 03/06/2018)

03/19/2018

19

MOTION for Extension of Time to File Response/Reply as to 6 MOTION to
Dismiss for Failure to State a Claim by Xiao-Ying Yu (Attachments: # 1
Exhibit)(bas, Deputy Clerk) (Entered: 03/20/2018)

03/22/2018

20

RESPONSE in Opposition re 6 MOTION to Dismiss for Failure to State a
Claim filed by Xiao-Ying Yu. (Attachments: # 1 Exhibit 1, # 2 Exhibit 2, # 3
Exhibit 3)(bas, Deputy Clerk) (Entered: 03/23/2018)

03/23/2018

21

,

.

ORDER Granting 19 Motion for Extension of Time to File Response/Reply.

Signed by Chief Judge James K. Bredar on 3/22/2018. (c/m 3/23/18 bas,
Deputy Clerk) (Entered: 03/23/2018)
03/23/2018

22

AFFIDAVIT of Service for Response in Opposition and Exhibits, filed by
Xiao-Ying Yu. (Attachments: # 1 Cover Letter)(bas, Deputy Clerk) (Entered:
03/26/2018)

https://ecfmdd.circ4.dcn/cgi-bin/DktRpt.pl?998281057761399-L_l_O-1

8/16/2018

District of Maryland (CM/ECF Live 6.1)

Page 4 of 6

.7L — Nip fict 42-p

Lt.-

04/05/2018

23

REPLY to Response to Motion re 6 MOTION to Dismiss for Failure to State
a Claim filed by David Brinkley, Dennis Schrader.(Lewis, James) (Entered:
04/05/2018)

04/11/2018

24

MOTION to Appear Pro Hac Vice for Willliam X. Zou, Esq. (Filing fee
$100, receipt number 0416-7264031.) by Xiao-Ying Yu(Hawkins, Eric)
(Entered: 04/11/2018)

04/16/2018

25

PAPERLESS ORDER granting 24 Motion to Appear Pro Hac Vice on behalf
of William X Zou. Directing attorney William X Zou to register online for
CM/ECF at http://www.mdd.uscourts.gov/electronic-case-filing-registration.
Signed by Clerk on 4/16/2018. (srd, Deputy Clerk) (Entered: 04/16/2018)

04/17/2018

26

Consent MOTION for Leave to File a supplemental memo in opposition to
Defendants' motion to dismiss by Xiao-Ying Yu(Zou, William) (Entered:
04/17/2018)

04/19/2018

27

ORDER Denying without prejudice 26 Motion for Leave to File a
Supplemental Memorandum in Support of Plaintiffs Opposition to
Defendants' Motion to Dismiss. Signed by Chief Judge James K. Bredar on
4/18/2018. (bas, Deputy Clerk) (Entered: 04/19/2018)

04/19/2018

28

Consent MOTION for Leave to File a supplemental memo in opposition to
Defendants' motion to dismiss by Xiao-Ying Yu(Zou, William) (Entered:
04/19/2018)

04/19/2018

29

PAPERLESS ORDER granting 28 Motion for Leave to File Supplemental
Memorandum. Plaintiffs supplemental response in opposition due 5/11/18;
Defendants' supplemental reply due 5/31/18. Signed by Chief Judge James
K. Bredar on 4/19/2018. (vdcs, Chambers) (Entered: 04/19/2018)

05/11/2018

30

Memorandum re 6 MOTION to Dismiss for Failure to State a Claim As
Supplemental Response in Opposition to Defendants' Motion to Dismiss filed
by Xiao-Ying Yu.(Zou, William) (Entered: 05/11/2018)

05/31/2018

31

REPLY to Response to Motion re 6 MOTION to Dismiss for Failure to State
a Claim Supplemental Memorandum of Law in Reply filed by David
Brinkley, Dennis Schrader.(Lewis, James) (Entered: 05/31/2018)

06/26/2018

32

MEMORANDUM. Signed by Chief Judge James K. Bredar on 6/26/2018.
(bas, Deputy Clerk) (Entered: 06/26/2018)

06/26/2018

33

07/06/2018

34

ORDER Granting 6 Motion to Dismiss under Federal Rules of Civil
Procedure 8, 12(b)(1), and 12(b)(6); Dismissing 4 Amended Complaint.
Signed by Chief Judge James K. Bredar on 6/26/2018. (bas, Deputy Clerk)
(Entered: 06/26/2018)
MEMORANDUM to Counsel. Signed by Chief Judge James K. Bredar on
7/6/2 018. (bas, Deputy Clerk) (Entered: 07/06/2018)

07/17/2018

id NOTICE of Appearance by Xiao-Ying Yu. (Attachments: # 1 Cover Letter)
(bas, Deputy Clerk) (Entered: 07/17/2018)

07/23/2018

36

NOTICE to Substitute Attorney and to Discharge Attorneys (Zou, William)

https://ecf.mdd.circ4.dcn/cgi-bin/DktRpt.pl?998281057761399-L10-1

8/16/2018

District of Maryland (CM/ECF

Live 6.1)

- fv*H-42 -I) 5-

1 /4,A

aP

t

(Entered: 07/23/2018)

07/26/2018

07/27/2018

07/2 7/2018

07/31/2018

07/31/2018
08/01/2018
08/01/2018

08/01/2018
08/02/2018
08/02/2018
08/02/2018

08/02/2018

stitute Attorneys and
hout prejudice 36 Notice to Sub
wit
ng
nyi
De
R
DE
OR
ice of
37
u and Hawkins to either file a not
Zo
ing
ect
Dir
;
eys
orn
Att
rge
Discha
instruct Yu
of time to appeal, or they shall
appeal and motion for extension
Signed by
ce.
gs re: 35 Notice of Appearan
on how to accomplish these thin
tered:
5/2018 (cags, Deputy Clerk) (En
7/2
on
dar
Bre
K.
es
Jam
ge
Jud
Chief
07/26/2018)
by Chief
DOCUMENT ORDER. Signed
RN
TU
RE
R]RO
ER
IN
D
ILE
Consent
38 -[F
. (Attachments: # 1 1st Page of
018
5/2
7/2
on
dar
Bre
K.
es
Judge Jam
# 2 1st Page of
ond Amendment of Complaint,
Motion for Leave to File a Sec
rk)
lief)(c/m 7/30/18 bas, Deputy Cle
Motion for Clarification and Re
8)
puty Clerk). (Entered: 07/30/201
Modified on 7/30/2018 (bas, De
James K. Bredar
ORDER. Signed by Chief Judge
File a Second
39 RETURN DOCUMENT
I Consent Motion for Leave to
on 7/25/2018. (Attachments: #
laint, # 2 1st Page of Motion for
1st Page of Amendment of Comp
tered:
7/3 0/15 bas, Deputy Clerk) (En
Clarification and Relief)(c/m
07/30/2018)
James K. Bredar
ORDER. Signed by Chief Judge
NT
ME
CU
DO
RN
TU
RE
40
ading and Cover
# 1 First Page of Returned Ple
s:
ent
hm
tac
(At
.
018
0/2
7/3
on
y Clerk) . (Entered: 07/31/2018)
Letter)(c/m 7/31/18 bas, Deput
awkins, Eric)
as Attorney by Xiao-Ying Yu(H
raw
thd
Wi
to
N
TIO
MO
41
(Entered: 07/31/2018)
filed by
-,
TION to Withdraw as Attorney
MO
41
re
rt
ppo
Su
in
SE
ON
42 RESP
(Entered: 08/01/2018)
Xiao-Ying Yu.(Zou, William)
Attorneys Eric
tion to Withdraw as Attorney.
Mo
41
g
ntin
gra
R
DE
OR
Signed by
43
inated as counsel for Plaintiff.
term
u
Zo
X
m
llia
Wi
and
ins
/18wk
Ha
18. (dass, Deputy Clerk) (c/m 8/1
/20
8/1
on
dar
Bre
K.
es
Jam
ge
Chief Jud
das) (Entered: 08/01/2018)
y Clerk) (Entered:
mailed to Plaintiff.(dass, Deput
ter
Let
.2
101
le
Ru
cal
Lo
44
08/01/2018)
, receipt number
Xiao-Ying Yu. Filing fee $ 505
45 NOTICE OF APPEAL by
rk) (Entered: 08/02/2018)
14637107751.(slss, Deputy Cle
o-Ying Yu
File a Notice of Appeal by Xia
to
e
Tim
of
n
sio
ten
Ex
for
N
46 MOTIO
08/02/2018)
(slss, Deputy Clerk) (Entered:
pearance by
ED IN ERROR)NOTICE of Ap(slss, Deputy
FIL
Y
LL
ICA
ON
TR
EC
(EL
18
47
puty Clerk) Modified on 8/6/20
Xiao-Ying Yu (slss, De
Clerk). (Entered: 08/02/2018)
Court of Appeals
Appeal and Docket Sheet to US
48 Transmission of Notice of
ms which you
RTANT NOTICE: To access for
re 45 Notice of Appeal. IMPO
the Fourth
ited States Court of Appeals for
Un
the
h
wit
file
to
ed
uir
req
are
rms &
.ca4.uscourts.gov and click on Fo
ww
://w
http
to
go
ase
ple
t
cui
Cir
tered: 08/02/2018)
Notices.(slss, Deputy Clerk) (En
,..
9-L_1_0-1

/DktRpt.pl?99828105776139
https://ecf.mdd.circ4.dcn/cgi-bin

8/16/2018

District of Maryland (CM/ECF Live 6.1)

Page 6 of 6

08/02/2018

51

NOTICE of Appearance by Xiao-Ying Yu (slss, Deputy Clerk) (Entered:
08/06/2018)

08/03/2018

49

Correspondence from USCA re: District Court ruling on Motion for
Extension of Time to File an Appeal 45 Notice of Appeal. (slss, Deputy
Clerk) (Entered: 08/03/2018)

08/03/2018

50

ORDER granting 46 Motion for Extension of Time. Signed by Chief Judge
James K. Bredar on 8/3/2018.(c/m 8/3/2018-s1s) (slss, Deputy Clerk)
(Entered: 08/03/2018)

08/06/2018

52

USCA Case Number 18-1889 for 45 Notice of Appeal filed by Xiao-Ying
Yu. Case Manager - Cathi Bennett (slss, Deputy Clerk) (Entered:
08/06/2018)
Assembled Electronic Record Transmitted to Fourth Circuit -- Initial(slss,
Deputy Clerk) (Entered: 08/06/2018)

08/06/2018
08/07/2018

53

AMENDED NOTICE OF APPEAL by Xiao-Ying Yu.(Attachments: # 1
Attachments to Notice of Appeal)(slss, Deputy Clerk) (Entered: 08/07/2018)

08/07/2018

54

Transmission of Notice of Appeal and Docket Sheet to US Court of Appeals
re 53 Amended Notice of Appeal. IMPORTANT NOTICE: To access forms
which you are required to file with the United States Court of Appeals for the
Fourth Circuit please go to http://www.ca4.uscourts.gov and click on Forms
& Notices.(slss, Deputy Clerk) (Entered: 08/07/2018)

https://ecfmdd.circ4.dcn/cgi-bin/DktRpt.pl?998281057761399-L_1_0-1

8/16/2018

cask,

1.6125.5Y

3,g

op •

I Vl

-r

r'Sf

General Docket
United States Court of Appeals for the Fourth Circuit
Docketed:
08/06/2018

Court of Appeals Docket #: 18-1889
Nature of Suit: 3440 Other Civil Rights
Xiao-Ying Yu v. Robert Neall
Appeal From: United States District Court for the District of Maryland at
Baltimore
Fee Status: fee paid
Case Type Information:
Civil Private
private
null
Originating Court Information:
District: 0416-1 : 1:17-cv-03260-JKB
Presiding Judge: James K. Bredar, Chief U. S. District
Court Judge
Date Filed: 11/06/2017
Date Order/Judgment:

Date NOA
Date Order/Judgment EOD: Filed:

06/26/2018

06/26/2018

08/02/2018
08/07/2018

Date Recd
COA:
08/02/2018
08/07/2018

Prior Cases:
None
Current Cases:
None

_

XIAO-YING YU
Plaintiff - Appellant

Xiao-Ying Yu
[NTC Pro Se]
557 Kirkcaldy Way
Abingdon, MD 21009

v.
ROBERT R. NEALL, Maryland Department of
Health Secretary (formerly Dennis Schrader)
Defendant - Appellee

James Nelson Lewis, Esq.
Direct: 410-767-5162

Email: James.Lewis I gmaryland.gov

[COR NTC Government]
OFFICE OF THE ATTORNEY GENERAL OF
MARYLAND
Suite 302
300 West Preston Street
Baltimore, MD 21201

https://jenie.ao.dcn/ca4-ecf/cmecf/servlet/Dkapt?caseNum=18-1889&dateFrom=&dateT... 10/15/2018

CLbGLUi-

18-1889

DAVID BRINKLEY, Maryland Department of James Nelson Lewis, Esq.
Direct: 410-767-5162
Budget and Management Secretary
[COR NTC Government]
Defendant - Appellee
(see above)

XIAO-YING YU
Plaintiff - Appellant
v.
ROBERT R. NEALL, Maryland Department of Health Secretary (formerly Dennis Schrader);
DAVID BRINKLEY, Maryland Department of Budget and Management Secretary
Defendants - Appellees

08/06/2018

❑

Case docketed. Originating case number: 1:17-cv-03260-JKB. Case
manager: CBennett. [18-1889] CB [Entered: 08/06/2018 11:17 AM]

1

1 pg, 12.96 KB

08/06/2018
08/06/2018

08/08/2018

2 RECORD requested from Clerk of Court. Due: 08/20/2018. [18-1889] CB
[Entered: 08/06/2018.11:42 AM]
1 pg, 10.65 KB
❑

3 INFORMAL BRIEFING ORDER filed. Mailed to: Xiao-Ying Yu. Informal
Opening Brief due 08/30/2018. Informal response brief, if any: 14 days
after informal opening brief filed. [18-1889] CB [Entered: 08/06/2018
11:46 AM]

❑
11 pg, 52.45 KB

❑

4 ASSEMBLED ELECTRONIC RECORD docketed. Originating case
number: 1:17-cv-03260-JKB. Record in folder? Yes. Record reviewed?
Yes. PSR included? N/A. [18-1889] TW [Entered: 08/08/2018 12:08 PM]

08/24/2018

5 MOTION by Appellant Xiao-Ying Yu to extend filing time for informal
opening brief for 30 days. Date and method of service: 08/24/2018 hand
2 pg, 330.9 KB
delivery. [1000354981] [18-1889] CB [Entered: 08/24/2018 01:47 PM]

08/24/2018

6 ORDER filed [1000354983] granting Motion to extend filing time [1]
Number of days granted: 30. Informal Opening Brief due 10/01/2018.
Ipg,8.28KB
Copies to all parties. Mailed to: Xioa-Ying Yu. [18-1889] CB [Entered:
08/24/2018 01:49 PM]

09/04/2018

❑

❑

❑

7

5 pg, 988.41 KB

Letter re: district court docket by Appellant Xiao-Ying Yu. [1000361235]
[18-1889] CB [Entered: 09/05/2018 11:07 AM]

Notice issued: response to ❑ letter from Xiao-Ying Yu. Mailed to: XiaoYing Yu. [18-1889] CB [Entered: 09/13/2018 03:48 PM]

09/13/2018

8
❑
1 pg, 19.1 KB

10/01/2018

9 DISCLO
❑
2 pg. 448.69 KB any question

SURE OF CORPORATE AFFILIATIONS by Xiao-Ying Yu. Was
on Disclosure Form answered yes? No. [1000376479] [18-

https://jenie.ao.dcn/ca4-ecfcmecfservlet/DIctRPt?caseNum=18-1889&dateFrom=&dateT... 10/15/2018

ir7

fie

it

PEALS
UNITED STATES COURT OF AP
FOR THE FOURTH CIRCUIT
OUSE ANNEX

STATES COURTH
LEWIS F. POWELL, JR. UNITED
EET, SUITE 501
STR
IN
MA
T
EAS
0
110
517
RICHMOND, VIRGINIA 23219-3
V
S.GO
URT
SCO
WWW.CA4.U

TELEPHONE
(804) 916-2700

PATRICIA S. CONNOR
CLERK

August 3, 2018
Felicia Cannon, Clerk
U.S. District Court of Maryland
101 West Lombard Street
Baltimore, MD 21201-2690
Re:

Yu v. Schrader et al
1:17-cv-03260-JKB

Dear Ms. Cannon:
t a motion to extend the appeal
tha
ses
clo
dis
t
cke
do
rt
cou
t
tric
ding
Review of the dis
n of the appeal period and is pen
tio
ira
exp
of
s
day
30
n
thi
wi
d
period was file
App. P. 4(a)(5).
in the district court under Fed. R.
the motion
er the district court has ruled on
aft
eal
app
the
t
cke
do
ll
wi
rt
cou
This
entry of an order ruling on the
on
up
rt
cou
s
thi
tify
no
ase
Ple
for extension of time.
motion for extension of time.
Yours truly,
/s/ Margaret Thomas

cc:

Xiao-Ying Yu, Pro se
James Nelson Lewis, AAG

3
f-

Case 1:17-cv-03260-JKB Document 53 Filed 08/07/18

United States District Court
for the
).
Northern District Court of Maryland
*

XIAO-YING YU,
Plaintiff,

Pagel of.4

edicp
ir4r0
‘te° fr4:teo •
'F')24PP
4
- 41),,Ofr
o . 44ne
oe
,oez

-•

Case No: 17-cv-03260-JKB

V.

MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL[1], and

*
*
*

MARYLAND DEPARTMENT OF BUDGET &
MANAGEMENT,
SECRETARY DAVID BRINKLEY,
Defendants.

*
*

* * * * * * *
* * * * * * * * * * * * * * * * *

**********

NOTICE OF APPEAL
(Replacement of the Court's Returned Notice of Appeal, ECF

No. 44)&50[21

in the above named case
Notice is hereby given that Xiao-Ying Yu, Plaintiff (pro se)
ral Fourth Circuit (located in
appeals to the United States Court of Appeals for the Fede

after she received EEOC's Right-to-Sue letter, Mr.
When Plaintiff filed her initial complaint on Nov. 2, 2017
of Health and Mental Hygiene (currently
Dennis Schrader was Secretary of the Maryland Department
is Mr. Robert Neall. Plaintiff addressed this issue
Maryland Department of Health), but the current Secretary
response (3/22/2018) to Defendant's Motion to
in her Motion (3/1/2018) to extend (ECF No. 17), and her
not see the attention from Defendants'
did
iff
Plaint
dismiss in her footnote #1, at pagel (ECF No. 20).
correspondence and the Court's orders.
's Chamber on August 6, 2018, Plaintiff has been
Pi According to the phone conversation with Chief Judge
s orders (ECF No. 40, entered July 31, 2018 and
instructed to file this Notice of Appeal based on Chief Judge'
(entered the Court's returned notice of appeal on
ECF No. 50, entered August 3, 2018) because ECF No. 47
be withdrawn and replaced by Plaintiffs re-filed
must
which
e
August 2, 2018) is regarded as clerical mistak
mistake is not corrected, Plaintiff respectfully
Notice of Appeal If by some special reasons, the clerical
to keep consistent and integrity of the docket
requests to amend this re-filed Notice of Appeal in order
records.

Case 1:17-cv-03260-JKB Document

Richmond Virginia). This appeal con

53 Filed 08/07/18 Page 2 of 4

cerns the United States District Court

of Maryland's

r of
No.32), which entered a judgment in favo
F
(EC
um
and
mor
Me
and
33)
No.
F
Order (EC
nagement and
ryland Department of Budget and Ma
Ma
&
lth
Hea
of
ent
artm
Dep
nd
ryla
Ma
plaint due
Court's decision dismissed Plaintiffs com
against Plaintiff on June 26, 2018. The
ed to
prejudice and claimed that Plaintiff fail
t
hou
wit
"
tion
sdic
juri
termat
ject
sub
to "lack of
une to Plaintiffs
s 131 and that State agencies are imm
exhaust EEOC administrative remedie
Order
tion 50414]. In addition, the Court's
Sec
er
und
n
eve
A
AD
and
EA
AD
er
complaint und
Rule 12(b)(6)
intiff's claims pursuant to Rule 8 and
and Memorandum also dismissed Pla
ately closed Plaintiffs case on June 26,
edi
imm
rt
Cou
the
re,
rmo
rthe
FU
with prejudice.
2018.
7/2018, ECF, No.34), which was

e (7/1
Plaintiff filed her notice of appearanc

Plaintiffs
sent and agreement via emails. After
con
y's
rne
atto
ffs
inti
Pla
h
wit
ed
confirm
ff filed her
ance (7/23/2018, ECF No. 35), Plainti
attorneys filed a withdrawal of appear
ment of
motion for leave to file second amend
and
ef
reli
and
ion
cat
rifi
cla
for
motion
retaliation
ibits (including new evidence of the
complaint, and related supporting exh
ed after
Act recording files which was receiv
tion
rma
Info
of
m
edo
Fre
's
OC
EE
through
hin 28 days
osition), as well as an affidavit wit
Plaintiff filed her complaint and opp

because the Court was
not consistent with the Court's records
are
r
orde
and
was
dum
oran
mem
rt's
[31 The Cou
1, attachment #1, cover letter which
10/16/2017 suit letter (ECF No.
C's
1,
EEO
ibit#
Exh
ived
20,
rece
No.
ntiff
ECF
Plai
and
that
7,
re
11/
6/201
awa
7 and received by the Court on
filed by certified mail on 11/Z/Z01
Court on 3/22 /2018).
the
by
ived
rece
r
lette
-Sue
—to
t
EEOC's 10/16/2017 Righ
according to EEOC's right of law
filed her suit concerning ADEA and ADA
officers (ECF No. 1 &4) prior
Pi The Court was aware that Plaintiff
and
cies
agen
erning immunity of State
conc
e
issu
the
ing
know
out
with
r
suit lette
ntiffs opposition on 3/22/2018
to dismiss (ECF No. 6). However, Plai
to receiving the Defendants' motion
exhibit 19) and demonstrated that
n Act and her complaint (ECF No. 4
addressed Section SO4 of Rehabilitatio
seniority system. Because of
r
unde
H
d by CDC funding to MD
orte
supp
100%
was
tion
posi
's
ntiff
the Plai
plaints as filed with the Court.
be immune to her ADA or ADEA com
federal funding, Defendants should not

2

ent 53 Filed 08/0 7/18 Page 3 of 4

Case 1:17-cv-03260-JKB Docum

re
(7/24/2018)[5]. These motions we

e the Court denied

filed for three key reasons: becaus

2017

nted by EEOC to Plaintiff on 10/16/

o Sue letter gra
the evidence of the EEOC's Right-T

tion 504 of

17 and March 22, 2018 and sec

6, 20
docketed in the Court on Nov.
to
Rehabilitation that was presented

Court rejected

the Court by Plaintiff, because the

approval to file
Plaintiffs request (5/11/2018) for

F

a second amendment of complain (EC

e, Ms. Sara

gs protected a key figure in this cas

ceedin
No. 30), and because the Court pro

Plaintiff filed (pro se) her notice of

"Sara Barry." Then
Barra, by misspelling her name as
days)
appeal on July 26, 2018 (within 30.

. However,

as her counsel preferred and advised

ents

were not corrected and all docum

dum and order
mistakes in the Court's memoran
returned to
including the new evidence were

h Court's

Plaintiff due to the deficiency wit

d 7/27/2018). in

6/2018" (ECF No. 38&39, entere

statement "Civil Action closed 6/2

rned to her on July 31, 2018 due to

was also retu
addition, Plaintiff's notice of appeal
uld
deficiency claiming "Documents sho

the

F No. 40).

be filed by counsel of record" (EC

d the

. 37), the Plaintiffs counsel re-file

F No
According to the Court's order (EC

ffs notice of

awal was granted. Since the Plainti

withdr
withdrawal on July 31, 2018 and this

re-filing this appeal
appeal was returned, Plaintiff is

with exhibits (including the new

4/2018 and then filed along with

on 7/2
evidence which was initially filed

her notice of
F

) based on the Court's approval (EC

t Court to review
appeal on 7/26/2018 for the Circui
r extension
No. 50) of the Plaintiffs motion•fo

. Please

of time to re-file the notice of appeal

dismissal was due to inappropriate
and relief demonstrated that this
Sara
ls] Plaintiffs motion for clarification
and retaliation on the part of Ms.
ion
of harassment, discriminat
e
enc
n
evid
the
tatio
of
n
rpre
atio
inte
ipul
mis
and
man
denial and
representation
ngful speculation, confusion, mis
rt on
Barra against Plaintiff through wro
ibits were not docketed in the cou
exh
and
ion
mot
her
but
rt)
Cou
the
with
filed
er
(that neither party nev
7/24/2018.

3

MM, 1I(

Page 4 of 4
Case 1:17-cv-03260-JKB Document 53 Filed 08/07/18

clarification
find enclosed supporting exhibit including the motion for

and Relief, supporting

exhibits with new evidence and an affidavit filed on July 24, 2018.
Respectfully submitted,

Dated August 7,2018

Xiao-Ying Yu, pro se
557 Kirkcaldy Way
Abingdon, MD 21009
Phone: 410-671-9823 (home)
Email: xiaoying.yu67@gmail.com

4

08/0 7/18 ID ag e 4 of
Case 1:17 cv-0326OOKB Document 53-1 Filed
FIL ED
4i "'OtA
_ _ f3_ ,s F1513CT COUR
k
D IsutsR.ic1T c_
fi
ir tiARyLANr)
D STATES DISTRICT COUIV
09
1
T NORTHERN DISTRICT OF IVIARYIAA 24 AN11:
U.S. f3A NK UPTC
OFFILc
14UT
P HE
0 lSTR1CT OF ARY 0
Ai BALTMOREAND
XIAO-YING
Plaintiff,
CEPUTA
Case No. 17-cv-03260-1KB
MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL1, and
MARYLAND DEPARTMENT OF BUDGET &
MANAGMENT
SECRETARY DAVID BRINKLEY,
Defendants.
* * * * * *

* * * * * * *

* * * *
* * * * * * * * * * * * *

MOTION FOR CLARIFICATION AND RELIEF
60 (a) and (b).l, 2& 3, and
Plaintiff, Xiao-Ying Yu, pro se, pursuant to Rule
Rule 15 (a) moves for clarification and relief from the

Honorable Court's judgment and

Order2 and states:
SPELLED THE NAME
A. THE COURT'S MEMORANDUM MISTAKELY
DISCRIMINATED AND
OF MS. SARA BARRA (AS "SARA BARRY") WHO
E WAS NOT DISPUTED BY
RETALIATED AGAINST PLAINTIFF. THIS EVIDENC
THE DEFENDANTS.

she received EEOC's Right-to-Sue

after
1 When Plaintiff filed her initial complaint on Nov. 2, 2017
was Secretary of Maryland Department of

letter(supporting exhibit #1&2) , Mr. Dennis Schrader
tment of Health), but the current secretary is
Health and Mental Hygiene (current Maryland Depar
Motion (3/1/2018) to extend (ECF No. 17), and
Mr. Robert Neall. Plaintiff addressed this issue in her
ss in her footnote #1, at pagel (ECF No.
dismi
to
n
her response (3/22/2018) to Defendant's Motio
as Defendant instead of using MDH and
20). However, the Court continually uses Dennis Schrader
footnote No. 1 at p.1) "neither party
(see
stated
MDBM and current Secretary's name, and the Court
the parties".
tute
substi
to
ted
reques
or
court
brought this to the attention of the
sent to Counsel on 7/6/2018, and
018,
6/26/2
on
d
signe
were
order
and
m
randu
2 The Court's memo
pressure to the Plaintiff pro se to
and
stress
ndous
received by Plaintiff on 7/6/2018. It makes treme
ent
prepare her response to 10 days delayed Court's judgm

1

Case 1:17-cv-03260-JKB Documept 53-1 Filed 08/07/18 Page 5 of 53

VI63

Misspelling of Ms. Sara Barra's name in the Court's memorandum should be
corrected.
Although Ms. Barra's discriminatory and retaliatory action caused Plaintiff's health
and

problems, a fact was not disputed by the Respondents, these actions were concealed
manipulated as follows:

The first discriminatory action Ms. Barra took was in the March 2012. This
cant

action was reported to the former office Director, Dr. Donald Shell. Signifi

retaliation for this protected reporting began on Jan 2, 2013 when Ms. Barra refused
discuss an employee performance evaluation with Plaintiff privately as she did with

to

other
f to

employees she supervised, instead of a private conference, Ms. Barra forced Plaintif

ed as

sign an improvement memorandum that she prepared although Plaintiff was evaluat

"satisfacted", which violated HR policy. This event was misrepresented by the Court's
memorandum through the statement that Plaintiff "alleged, essentially, that she

was

discriminated against and retaliated against when she worked at CCDPC" which was

not

proper because it suggested that Plaintiff had a problem in CCDPC and was part

of a

wrongful speculation ("Plaintiff may have worked at CCDPC in the past"). It was

not in

the Court's records provided by any of parties (Memorandum p.1, L6-7, and footnote

43).

Ms. Barra's major retaliation against Plaintiff included, but was not limited to
inappropriate deletion of a job duty in MS-22 3 against a seniority system

and

inappropriate, according to HR policy, changing of professional performance evaluat

ion

standards to "writing" in July 2013. Then Ms. Barra generated a second memorandum

on

10/10/2013 in retaliation against Plaintiff's grievance (which was filed with MDH

on

and it is only
is developed prior to the recruiting process based on the department's request
or or
supervis
new
to
or
position
job
new
to
ed
transferr
are
they
changed for employee when
application of reclassification.

3 MS-22

2

Case 1:17-cv-03260-JKB Document 53-1

Filed 08/07/18 Page 6 of 53

8/14/2014 for Ms. Barra's unreasonable changes

of her MS-22), to block Plaintiff from

seeking help from the next level manager and

to interfere with Plaintiffs job. After
nation and retaliation with EEOC on

Plaintiff filed charge of age and racial discrimi

natory activities to HR and the director of

11/12/2013, and reported Ms. Barra's discrimi

Internal Office of Equal Opportunity Program

("OEOP"), Ms. Barra immediately (1)

ary actions within 4 months, including an

generated the first of six progressive disciplin

ented Plaintiff from attending a

prev
unsatisfactory performance evaluation, (2)
professional conference and a CDC telephone

conference (that related to the ,funding

program of which Plaintiff was the only one

full time epidemiologist (100% salary)
19&21), (3) refused to use Plaintiffs

ibitsupported by this CDC grant (ECF, No. 1, Exh

rts
prepared Maryland chronic disease burden repo
claimed Plaintiffs failure of completing job

for over two years, yet Ms. Barra

timely for "unsatisfied" performance

ared that the protected activities in which

evaluation and disciplinary action, and (4) decl
Plaintiff engaged were "disruptive behavior."

The numerous pieces of evidence of Ms. Barr

a's discriminatory and retaliatory

dum. These confusions of incidents of

actions were concealed in the Court's memoran

e such as that Ms. Barra "amended

mad
discriminatory and retaliatory actions were

" to "satisfactory," and "tried to prevent

Plaintiffs self-evaluation from "outstanding

zed Plaintiff's work contribution,..".

cteri
Plaintiff from receiving an award, mischara
These statements were not in the Court's records.

#2 on page 2, that "The facts are
Therefore, the Court statement in the footnote
ct facts. These statements and related
recited here as alleged by Plaintiff' does not refle
resources in the memorandum should be clarified.

Page 7 of 53

Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18

Ar.
age, racial and

3. Ms. Barra's escalating harassment and discrimination due to

icant consequences.

national origin/ethnicity and the subsequent retaliation had signif

Because of these actions, Plaintiff suffered from major anxiety, major
and Post Traumatic Syndrome Disorder, which were diagnosed by

multiple individuals,

Sept. and Oct 2014,

including State Medical Director Dr. Robert Toney in June,
Plaintiffs health provider, a Psychiatrist, and a third independent

depressive disorder

Psychology Institution.
14, Ms. Delinda

The respondents granted Plaintiff's FMLA in June, but on 9/3/20

P"), rejected of

Johnson, of the MDH Office of Equal Opportunity Program ("OEO

on received notice of

Plaintiff's accommodation request on a day after Ms. Johns

although she did not

Plaintiffs charge filing with EEOC under ADEA, Title VII, ADA
address the Section 504 of Rehabilitation Act other federal civil

rules until she received

4 (supporting exhibits
the Defendants' motion to dismiss her complaint for State Immunity
Plaintiff to resign and
43). Then, on 10/10/2014, Ms. Toria Livingston of HR requested
nd was prior to Ms.

retire after Ms. Barra contacted her. This inappropriate dema
Johnson's actions on 10/15/2014. Ms. Johnson's actions included

rejection of Plaintiff s

t to
accommodation request (made since July 23, 2014) for reassignmen

another position,

/2014 recommended

for leave absence (without payment,) and for Dr. Toney's10/8

orting exhibit44).

accommodation for Plaintiff to work under another supervisor (supp
Due to these inappropriate actions on the part of Ms. Johnson, MDH

terminated Plaintiff
t perform essential

on 11/3/2014 with the statement that the individual employee canno
functions, not noting that Plaintiff's disabilities would have been

mediated with the

requested but denied accommodations.
ilitation Act and her complaint
Plaintiffs opposition on 3/22/2018 addressed Section SO4 of Rehab
be immune to her ADA
not
should
dent
Respon
the
that
strate
(ECF N. 4 exhibit 19) to demon
complaint filed with the Court

4

/18 Page 8 of 53

Case 1:17-cv-03260-JKB Docum nt 53-1 Filed 08/07
Alo

Barra and Dr. Toney's

However, the retaliatory consequence initiated by Ms.
function as his position of State Medical Director and three

evaluations requested by Ms.
orandum, which used the

Barra and MDH HR during 2014 were concealed in the Mem

e of adverse events) that

unusual wording (without addressing time and cause consequenc
"she was evaluated by a doctor who worked for the State

Medical Director's Office." 5

Similarly, the Memorandum glossed over important details

by stating that "at some point,
tiff does not clearly allege

Plaintiff requested an accommodation for her disability. Plain

place stress and anxiety, and

what her disability is, but it appears to be essentially work

her requested accommodation seems to have not working

under Ms. Barra and her

requested accommodation was denied."
These statements in the Memorandum indicated above do not

cite the facts Plaintiff

otes #2 in p.2, nor do they

alleged in her complaint as the Court stated in their footn
reflect the Court's records of the evidence as shown in

Plaintiffs complaint-related

exhibits. Importantly, the Respondents never objected to any

exhibit. These omissions
ney who prepared the

demonstrate the biased position that the Officer or attor

. More importantly, the

Memorandum (signed by Chief Judge Ms. Bredar) has taken

e of the Court's responsive

factors described above and below influenced the actual natur
ruling to favor the Defendants with their motion to dismiss.

JECT-MATTER
B. COURT'S DETERMINATION FOR LACK OF SUB
RECORDS AND WITH THEIR
JURIDICTION WAS INCONSIS i ENT WITH COURT
PERLY EXHAUSTED
AWARENESS OF THE FACT THAT PLAINTIFF PRO
EEOC'S ADMINISTRATIVE REMEDIES

Medical Director and the diagnoses and
s The respondent never objected that Dr. Toney was the State
logy institution he provided to MDH
psycho
evaluations along with the conclusion from independent
Director in 2018 (supporting
al
Medic
State
the
be
HR in 2014 even though Dr. Toney may not
exhibit#4).

8 Page 9 of 53
Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/1

On 11/212018, Plaintiff sent certified mail with attachment to

the Court

EEOC's conclusion and

Clerk. The cover letter stated that "on 10/21/2017, I received

). However, I have some

letter for right to sue for my second charge (dated 10/16/2017

concerns and am hoping that the EEOC director will reconsider

the conclusion. While I
istrative charge, I am

am waiting for EEOC's reconsideration and a copy of the admin
filing this complaint because the stature of limitation is 3 years

for filing a complaint

about willful underpayment and wrongful termination" (see ECF

No. 1, attachments 41,

Cover letter).
The Plaintiff provided the Court and respondents the EEOC's
Right-To-Sue letter after she received EEOC's rejection of

10/16/2017

her reconsideration (ECF No.

20. Attachments: 41 Exhibit I ). Also, in addition to the detail

statement in her complaint

and brief in her opposition what she filed with EEOC for

her discrimination and

retaliation charges, she also provided the Court her charge of

discrimination signed on

it 3. her rebuttal).

9/2/2 014 ECF No. 20, Exhibit 1 EEOC form 5, and Exhib

ous statement it

Therefore, it is very necessary for the Court to clarify the errone

charge was" and "she

is unclear from Plaintiffs complaint what the substance of this

orandum, p. 3. L13-14;

does not allege that she ever received a right-to-sue letter" (Mem
p. 9, L2) in its memorandum.

ATION ACT IN
C. PLAINTIFF ADDRESSED SECTION 504 OF REHABILIT
NT'S MOTION
RESPONSE TO THE IMMUNITY STATED BY THE RESPONDE
mination with

1. The Plaintiffs major complaints were her charges of discri

tion relatina to

respect to age, racial, National originietimicit ,, and disability and retalia
protected activities as filed with EEOC under ADEA, ADA and
not expect inununity of State As'encies and Officers to her
6

Title VII. Plaintiff could

complaints filed with the

8 Page 10 of 53
Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/1

,111ndents' motion

Court based on EEOC's Right-To-Sue letter until she received the Respo

ADEA and ADA

to dismiss. Plaintiff was unaware of her right to receive the waiver of

ndent rejected the

I

Statute of Limitations signed by the Respondent when the Respo

e aware only

settlement during EEOC's enforcement procedures. Plaintiff becam

file based on

recently, during the proceedings of her request to be entitled to her charge
EEOC Freedom of Information Act.

rted by

2. Evidence that the Plaintiffs seniority-related job duties were suppo
CDC funding received by the Defendants was provided in Plaintiff's

updated complaint
ded detailed

filed on Dec. 8. 2017 (ECF No. 4, Exhibit 419 &21), which provi
information of the specific CDC program and financial support.
conditions stated in the Section 504 of Rehabilitation Act. It

This file met the

indicated that the
ination due to

Respondents couldn't be immune to the Plaintiffs complaint of discrim
disability and subsequent retaliation under Section 504.

Therefore, according to the facts provided to the Court and addressed

above in

ly exhaust her

part B and C. there is no basis to state that Plaintiff "has failed to proper
administrative remedies and Defendants are immune from many

of her claims"

request of Court's

(memorandum, p.13, L9-10). Nor is it proper to reject the Plaintiffs

approval for her to file an amendment of complaint (her supplement

of law to the
n of Plaintiffs

opposition. ECF, N. 30. p. 14) by stating "A more clear and concise versio

ice to dismiss the

amended complaint would not cure these defects." It is an injust

Plaintiffs complaint for lack of subject-matter jurisdiction without

prejudice and for

failure to state a claim upon which relief can be granted with prejudice.
D VIA
D. THE PLAINTIFF (PRO sE)'S DEFECTS CAN BE EASILY CURE
EDURE 'WHICH
THE. COURT'S CIVIL LITIGATION MANAGEMENT PROC

Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18 Page 11 of

53

DOUBLE
WOULD REQUEST THE CORRECTION OF PLAINTIFF'S CLAIM VIA
OF AN
SPACING. REMOVAL OF UNDERLINING. AND INCLUSION
G WITH
ADDITIONAL ATTACHMENT (EEOC'S RIGHT-TO-SUE LETTER) ALON
HER STATEMENT IN THE COVER LE I i
As described above (part B) and in ECF No. 1 Attachment 1, it is not true that
Courts memorandum states that Plaintiff "does not allege that she received a

right-to —

sue lettef (memorandum. p. 9 L2). The defects the Court stated as the reason

to dismiss

received the
Plaintiff s complaint would had been fixed if Plaintiff (as pro se) had
Court's early review to start it down an orderly path (in addition to the directio

n her to

l for pro se

file summons). The instructions in the Civil Litigation Management Manua

cases, include the following relevant commands (in addition to other

pertinent

information, not stated here):
Review the pleadings as soon as possible;
Check promptly for threshold issues, such as subject matter jurisdiction;
and
If pleadings fail to meet technical requirements, inform the parties and
give them opportunity to cure defects.
Because the Plaintiff was not informed of the quickest and easiest way to cure
defects, the evidence of Plaintiffs statement (11/2/2017) of her receiving

EEOC's

No. 1,
10/16/2018 right-to-sue letter in the attachment of complaint (ECF
ed in

Attachment #1) was denied, and the exhibit of EEOC's right-to-sue letter provid
Plaintiffs opposition (ECF No. 20, Exhibit#1) was omitted as the bases of the
judgment; nevertheless, the approval should be given for the Plaintiff to

Court's

-1c\avo to
tion (ECF

amend her complaint as she requested in the Supply of Law for her opposi

Case 1:17-cv-03260-J KB Document 53-1 Filed 08/07/18 Page 12 of 53

tp

No. 30, p. 14) under Rule 15 (a). Otherwise, it appears that the Court would abuse
its discretion or act unreasonably in enforcing Plaintiffs rights.
E. PLAINTIFF'S COMPLAINT AND EXHIBITS, INCLUDING THOSE THAT
IDENTIFIED THE ALLEGED DISCRIMINATORY AND RETALIATORY ACTIVITIES,
THE TIME, THE PLACE AND THE ACTORS REGARDING WILLFUL UNDERPAYMENT,
ADEA, ADA, TITLE VII AND SECTION 504 OF REHABILITATION ACT FOR RELIEF,
SHOULD NOT BE CONCEALED AND MISINTERPRETED.
1. Willful underpayment resulted from the discriminatory deprivation of the
Plaintiff's approved reclassification as Epidemiologist III:
1) Plaintiff identified the basis of the willful underpayment complaint as the
failure of reclassification to Epidemiologist III, which occurred in retaliation for her
protected activities.

Due to increasing Plaintiff job duties in 2010, her

reclassification to this position was approved by both respondents in March 2011
but was deprived by Dr. Maria Prince in May 2011 by denial of her previous
signature on form MS-22 (the Epidemiologist III job description form)6. This denial
was obviously due to discrimination regarding age, race and national origin because
Ms. Prince gave the "Reclassfication Epidemiologist III Position Identification
Number," which to be clear was actually created for Plaintiff, to Ms. Sara Barra, (who
was much a less experienced than Epidemiologist II than was Plaintiff but was white
and young). The willful underpayment was also due to neglect of Fair Lab Standard
(payment to the employee linked to their jobs performed), and violations of ADEA

6 In May 2011, Dr. Maria Price denied her initial signature in Jan 2011 on the Epidemiologist III

position-linked form MS-22 which (as per HR's instruction) should be associated with the DBM office
of Personnel Service and Benefits' MS-44 (Supervisory Questionnaire for Subordinate reclassification
Request) and MS-2024 (Request for Position Classification Study) that MDH and DBM had approved, ,
based on former CCDPC director Dr. Audrey Regan's filed application for Plaintiffs reclassification to
Epidemiologist III.

Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18 Page 13 of 53

071
and Title VII. The respondent did not object to these claims as fact except that the
claim was made that they were "Tort claims". The ignoring of the misreclassfication
of the position after Plaintiff reported such to former Secretary Dr. Joshua Sharfstein
and HR on Feb. 18, 2014, causes Plaintiff allege that this scenario represents willful
underpayment, and Plaintiff clarified the Respondents' confusion on this matter
again (ECF 20). The memorandum manipulated Dr. Prince's discriminatory misreclassfication (again, this reclassification went against approval of two
departments) as "she was told she would be promoted, but HR application process
stalled, largely because various supervisors sabotaged" and Ms. Barra "promoted a
younger, white woman instead of Plaintiff' (memorandum, p. 2, L10 and L12)
which both parties never stated. The Court concealed discriminatory and retaliatory
evidence to which the Defendants did not object, and made the statement without
referring to the source of this false information.
2). Plaintiff filed her initial complaint on Nov. 2, 2017, according to the
Federal Court's general guidance, and provided the evidence of the post office
receipt and tracking records to the Court (ECF, No. 9. Affidavit and exhibits #1 p.1-4)
(see sup. exhibit#1) prior the Courts 6/26/2018 judgment It is not proper to use
the date of receipt (Nov. 6, 2017)7 instead of Nov. 2, 2017 (the submission date) as
Plaintiffs filing date. It is therefore proper to determine that Plaintiff filed her claim
about willful underpayment in a timely manner, and the timing of submission
cannot be used to dismiss her claim.
There was lack of specific instruction for prohibiting Plaintiff as pro se from filing their
complaint via certified mail by the deadline in the website of Federal District Court of Maryland Court
on Nov. 2, 2017.
7

10

Case 1:17-cv-03260-J KB Document 53-1 Filed 08/07/18 Page 14

of 53

ng, she
2. Although Plaintiff is acting pro se and lacks formal legal traini
effectively addressed the fact that her rights were deprived under

Fair Labor
inated and

Standards Act, FMLA and ADA. This deprivation involved being discrim

ication and

retaliated against by denial and refusal of correction of the mis-reclassf

III position

underpayment; being refused reassignment to another epidemiologist

e; and being

for which she applied; being rejected a requested unpaid leave of absenc

ra Perry,

kept unaware of the representation by Union manager in MDH, Ms. Barba

the chance

who participated in the decision of terminating Plaintiff and disallowing
of a mitigation meeting prior to termination, which violated due process

of law, Fair

Labor Standards Act, 42 U.S.C. §1983 and 29 U.S.0 §187 unfair labor
Plaintiff's complaint indicated that Plaintiff was a member of the Union,

practice.

and exhibits

demonstrate Ms. Ban-a's rejection of Plaintiffs request to allow her to

meet with

g on Feb. 3,

Union representative (ECF No. 4, Exhibit-20) for the mitigation meetin

sted that

2014. Plaintiffs several appeals against the disciplinary action also sugge
she is union member.

3. If direct evidence and indirect evidence provided by Plaintiff
attachments of cover letter, complaints, and exhibits for her relief
supporting exhibits (including EEOC's notes in the FOIA records, see

and her

supporting

exhibit #5) cannot be considered as covering all 8 of the bases of
determination and judgment, the Court must clarify why need

in her

Court's

make some

s filed by both parties.

speculations and statements which were not in Court record

to consolidate related
similar case as
The
ion.
cases, such as cases involving similar claims arising in the same institut
Court and Mr.
this
in
Health
of
ent
Departm
Plaintiffs complaint is that Ying-Jun Chen v. Maryland
law.
of
process
due
and
VII
Title
under
ination
discrim
of
Chen also filed the complaint

9 The Civil Litigation Management Manual instructed the Court for pro se case

11

Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18 Page 15 of 53
173
if such other information, inaccessible to Plaintiff, has been relied on for decisions, it
is obviously biased to not provide Plaintiff an alternative decision of resolution, to
prohibit the Plaintiffs right of having discussions concerning the settlement, or to
not conduct a discovery/trial as based on the Civil Litigation Management Manual.
WHEREFORE, the Plaintiff respectfully requests that this Honorable Court
clarify its decision based on Court records as filed by both parties and grant relief, such
as a settlement discussion for the Plaintiff based on the Civil Management Manual.
Otherwise, this Honorable Court is asked to provide the Plaintiff an opportunity for
discovery and trial.

Respectfully submitted,

Dated: July 23, 2018

Xiao-Ying Yu, pro se
557 Kirkcaldy-Way
Abingdon, MD 21009
410-671-9823

12

r'Irrr
I

Case 1:17-c

i ed 08/07/18 Page 16 of 53
01 D u ent 53-1fr74—
FILED
U.S. DISTRICT COURT
DISTRICT OF MARYLAND

13 I.°/)
BALT! • r
'NIGHT Box
S DISTRICT COURT
UNITED S
'STRICT OF MARYLA.Nb118 JUL 24 °II' 09
F
q S....BANKRUPT
CLEWS Ui- i k.,.
Lei, 1 RiOT OF tiAk OURT
AT BAL1I-10tiF.
A ND
*
YU,
ING
XIAO-Y
*
BY-------DEPUT
Plaintiff,
.
*
Case No. 17-cv-03260-JKB
v.

.

Maryland Department of Health,
Robert Neall 1, and
Maryland Department of Budget &

Management
Secretary David Brinkley,
Defendants.

*
*
*
*
*

* * * * * * * * * * *
* * * * * * * * * * * * * * * *

* * * *

PLAINTIFF'S CONSENT MOTION FOR LEAVE TO FILE A SECOND
AMENDMENT OF COMPLAINT
of an order
Plaintiff, Xiao-Ying Yu, Pro Se, respectfully moves this Court for the entry
granting an opportunity to amend the supporting exhibits and to file a second

Amendment of

Complaint, pursuant to Fed. R. Civ. P. 15(a)(2). Filed simultaneously with

this Motion are

important supporting exhibits, including: A Right-to-Sue letter from the

EEOC (dated

ng Section
10/16/2017) and charge of discrimination filed with EEOC2; a reference includi

504 of

r was Secretary of Maryland
1 When Plaintiff filed her initial complaint on Nov. 2, 2017, Mr. Dennis Schrade
d Department of Health); the current
Department of Health and Mental Hygiene (current name Marylan
of Defendants in her Motion to
identity
the
of
issue
the
d
addresse
Plaintiff
secretary is Mr. Robert NealL
to dismiss in her
extend (ECF No. 17, 3/1/2018), and her response (3/ 22/2018) to Defendant's Motion
footnote #1, on page 1 (ECF No. 20).
o-Sue letter via ECF No. 1,
2 The Court was aware that Plaintiff received EEOC's 10/16/2017 Right-T
nt was filed by certified mail on
complai
initial
her
and
1)
exhibit#
ing
(support
attachment #1, cover letter,
1, for a copy of a law suit letter
Exhibit#
11/2/2017 and received by the Court on 11/6/2017. See ECF No. 20,
#2)
exhibit
ting
from EEOC (dated 10/16/2017). [Suppor

Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18 Page 17 of 53

1/7‘
the Rehabilitation' (Supporting exhibit#3); information of Dr. Robert Toney as State Medical
Director (supporting exhibit#4); and additional information from EEOC Freedom of Information
I

Act ("FOIA") recording files related to Plaintiffs second Amended Complaint (supporting
exhibit#5).
Plaintiff has conferred with Defendants regarding the motion of filing a Second
Amendment of Complaint by email on July 19, 2018, as she could not reach Mr. Lewis and Mr.
Gray by phone. Then Plaintiff sent the Defendants a warm reminder by email on July 23, 2018.
Because Plaintiff did not receive the Respondents' objection to her email about the motion to
consent for leave to file a Second Amendment of Complaint by today (July 23, 2018), Plaintiff
believes that Defendants consent to this motion. It must be noted that Plaintiff (Pro Se) must
respond to the Court within a very short time period after receipt of the Court's memorandum
and order on July 6, 2018. Plaintiff would not oppose the entry of an order granting an extension
of time for the Defendants to file a reply to Plaintiff's second Amendment of Complaint.
Plaintiff respectfully requests that the Court enter an order:
Granting the Plaintiff, Pro Se, leave and twenty (20) days to file a second Amendment of
Complaint;
Granting such other and further relief including. settlement discussion to which Court finds the
Plaintiff (Pro Se) otherwise entitled.
Re pectful submitted,
ao-Yirfg Yu, pro se
557 Kirkcaldy Way
Abingdon, MD 21009

Dated July 23, 2018

410-671-9823

3 Plaintiff filed the opposition on 3/22/2018 (ECF No. 20) including the answer to the Defendants' immunity issue

as stated in their motion to dismiss (ECF. No. 6) based on Section 504 of the Rehabilitation Act and the fact that her
position and seniority job duties were 100% supported by CDC 1305 funding to MDH (ECF No. 4, Exhibit #19)

2

53

Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18 Page 18 of
/7.‘

FILED
U. S. DISTR
COURT
VCT
HD
RyLA
I CF ICT
LEST
MA

IN THE UNITED STATES DISTRICT COURT

JUL. 24 At I If: 10

FOR THE NOTHERN DISTRICT OF MARYLAND

CLERK-6 oPriCE

*

XIAO-YING YU,

AT BALTitICRE

Plaintiff,

*

v.

Case No.17-cv- 03260-1KB

MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL', and

*

MARYLAND DEPARTMENT OF BUDGET & *
MANAGMENT
SECRETARY DAVID BRINKLEY,
Defendants.
******

****

*************

*********

D
AFFIDAVIT FOR THE MOTION FOR LEAVE TO FILE SECON
TION
IFICA
CLAR
FOR
AMENDMENT OF COMPLAINT, EXHIBITS AND MOTION

I am the Plaintiff in this action, and I stated all these matters under oath.
My motion for leave to file second amendment of complaint, supporting

exhibits,

r was Secretary of Maryland
1When Plaintiff filed her initial complaint on Nov. 2, 2017, Mr. Dennis Schrade
Health), but the current
of
ent
Departm
d
Marylan
is
Department of Health and Mental Hygiene (current
time (3/1/2018, ECF No.
extend
to
Motion
her
in
issue
this
d
addresse
Plaintiff
secretary is Mr. Robert Neall.
No. 20).
(ECF
pagel
at
#1,
17), and her response to Defendant's Motion to dismiss in her footnote

19 of 53
Case 1:17-cv-03260-JKB Document 53-1 Filed 08/07/18 Page

and motion for clarification and relief, affidavit filed on July 23, 2018
correct

Date: July 23, 2018

XIAO-YING YU, pro se

SUSSCRIBED AND SWORN to before me on CYjki 23.201? by

abet
Notary Public

My Commission Expires: MCA1 53.

102

2

-

V 1 CMG

are true and

r1ieu.

LlLie. _LI -1

Appear iu-iuoy

10/L4.1 GO.1.0

r- 9. 1 t..1 I .L

4or

tr,e-4bx

October 18. 2018
Patricia S. Connor, Clerk
U.S. Court of Appeals for the Fourth Circuit
1100 East MaillStreet, Suite 501
kichmond, VA. 23219

201 OC.-7 22 PM 2: 14 1
OF
FOURTH CIRCUIT

Re: Case No.: 18-1889, Xiao-Ying Yu v. Robert Neal
(District Court case No.:17-cv-03260-JKB)
Motion for concerns of docket records
Dear Clerk Connor:
I received a hard copy of my case docket records on 10/15/2018 and have some
concerns regarding the docket records of my case after reviewed it. Although I sought my
case manager Ms. Cathi Bennett's help regarding my concerns over the phone in the earlier
afternoon on10/16/2018, I understood that she has limited authority to help me for my
concerns. I feel it is very necessary to file my concerns by sending you a hard copy of
motion for concerns of the docket records with related exhibits, affidavit and the certificate
of service. Your kind consideration is highly appreciated.
A copy of above documents and certificate of service are also mailed to attorneys for
defendants.

doca.,1-5

c (7/7/
.2.311,/ AZrZet.e: 6-111*Si

„e4",„.E
sqr,f

(1,16,

a-tteXis,'S.e-4 tif42 ,

0 tt

eti_

‘4311e-61 )40.-

4,14z.

S ea.

2

P VLF

yam't1/4'

71t44./4
Respectfully
iao-Yin Yu, pro se
557 Kirkcaldy Way
Abingdon, MD 21009
Phone: (410) 671-9823 (h)

/Appeal.

riieu.

UUU. 1 I

1.0-.1.00

r y.

Z.41 GU.1.0

Ut

IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
XIAO-YING YU,
Plaintiff-Appellant,

*

v.

Case No. 18-1889

*

MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET & *
MANAGEMENT.
SECRETARY DAVID BRINKLEY,
Defendants-Appellees.
* * * * * * * * * * * * *

r

.

* * * * * * * * * * * * •*

AFFIDAVIT RELATED TO MOTION FOR
CONCERNS OF DOCKET RECORDS
I am the Appellant in this action, and I stated all these matters under oath.
My motion for concerns of the docket records, supporting exhibits, and affidavit filed on October
18.2018 are true and correct.
Res•ectfully submitted,

Date: October 18.2018

XIAO-YIN

SUSSCRIBED AND SWORN to before me on

At Oallo rbY /Pq

Notary Pu

My Commission Expires:

014/01i

MARK ZMNOWSKI
NOTARY PUBLIC
i MINI AMJNDEL COUNTY. MARYLAND
My Commission Expires APIS 4.2021

Appeal:. 18-1889

UOC: 1 i-Z

Hg: 1 OT 11

-ilea: lUIZZ/ZUlti

IN THE 'UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
XIAO-YING YU,
Plaintiff-Appellant,
Case No. 18-1889

v.
MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET & *
MANAGEMENT,

*

SECRETARY DAVID BRINKLEY,

*

Defendants-Appellees.
* * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * *

MOTION FOR CONCERNS OF Till; DOCKET RECORDS
After reviewed the docket records on October 15, 2018 (exhibit#1), Plaintiff-Appellant,
Xiao-Ying Yu, Pro Se, pursuant to Federal Rules of Appellate Procedure, Rule 45 and Rule 3
moves for the amendment of statement in docketing records of her appeal in COA Case No. 181889.
A. Federal Rules of Appellate Procedures:
According to Federal Rules of Appellate procedure Rule 45 (b) Records.
"(1) The Docket. The circuit clerk must maintain a docket and an index of all docketed
cases in the manner prescribed by the director of the Administrative Office of the
United States Courts. The Clerk must record all papers filed with the clerk and all

process, orders, and judgments."
Also Local Rule 3 (d) Serving the Notice of Appeal:

"(1) ...The district court must properly send a copy of the notice of appeal and of the
docket entries-and any later docket entries-to the clerk of the court of appeals named in
the notice. The district court must note, on each copy, the date when the notice of
appeal was filed.
I.O.P.-3 .1 Transmission of District Court Order.
The clerk of the district court shall transmit to the Clerk of the Court of Appeals a
copy of the order appealed from, along with copies of the materials required by FRAP
3(d) (1)."
B. Concerns of the Court of Appeals at Fourth Circuit ("COA") Docketing Records in Case
No. 18-1889:
I. The information Under Title "Originating Court Information" regarding the filed date of
the returned initial notice of appeal is contradictory to the facts:
The "Originating Court Information" record indicated that the date of Notice of Appeal was
filed on 8/2/2018, and date received by COA was on 8/2/2018. However, the district court's
"Return Document Order" in the docket records (ECF No. 40, see exhibit #2, district_ court
docket sheet, p. 5 of 6) demonstrated that Appellant's initial notice of appeal was filed on
7/26/2018 by the deadline of 30 days from district court's order 6/26/20181 . The filed date
(7/26/2018) was shown on the Appellant's initial notice of appeal (see exhibit 43-p1 with
7/26/2018 district court night drop box stamp and 7/26/2018 district court received stamp) and

'Because Appellant already filed her notice of appearance (7/17/2018, ECF No. 35), and her counsel also filed the

notice of withdraw (ECF No. 23), Appellant filed her notice of appeal pro se on 7/26/2018 when she learned

the

district court did not respond her motion for second amendment of complaint and motion for clarification filed pro
se on 7/24/2018 (which were returned on 7/27/2018. ECF No. 38&39) even though Appellant's counsel wanted
Appellant to file motion to extend time to file her notice of appeal in the afternoon of 7/26/2018 based on the district
court's order (ECF. No. 37). Appellant was afraid to loss the chance of appeal by being claimed time-barred appeal
if the counsel's motion to extend appeal was denied. Nevertheless, Appellant's timely filed initial notice of appeal
was not docketed but was returned, and further, the filed date of 7/26/2018 was changed to 8/2/2018 when the
district court entered the returned initial notice of appeal to the docket (ECF No. 45).

2

returned date (7/31/2018) was also shown on the same page of the initial notice of appeal (see
the exhibit #3-pl&2 with the hand writing note by the district court's clerk office staff, and ECF
No. 40). The written personal check dated 7/26/2018 (exhibit #3-p.3) was not returned along
with the initial notice of appeal on 7/31/2018. In fact, Appellant did not file the district Court's
specific returned notice of appeal on 8/2/2018 when was 7 days passing the deadline of
7/26/2018.
It is intentional violation of local rule 3 (d)(1) to change the filed date of the district
court's returned notice of appeal from 7/26/2018 to the entered day, August 2, 2018 by deputy
clerk, Ms. Stephanie Savoy (Please see exhibit#2, p.5 of 6, ECF No. 45, slss, Deputy clerk,
entered 8/2/2018, v. district court's order, ECF No. 40). It was because Appellant's notice of
appearance, (received by the district court on 8/2/2018), was entered by the same district court
deputy clerk, on 8/6/2018, but the district court's docket sheet (exhibit#2, p. 6 of 6) indicated the
filed date as 8/2/2018 (ECF No. 51, slss, Deputy Clerk, entered 8/6/2018). It may cause the
confusion that Appellant's notice of appeal was untimely filed by attention to the "Date
Order/Judgment EOD" (6/26/2018) and "Date NOA Filed" (8/2/2018) in the COA "Originating
Court Information". Keeping such false information of the "Date NOA Filed" in the summary of
COA "Originating Court Information" makes the Appellant's appeal to be reviewed under a
disadvantage condition but in favor to Appellees.
In addition, it also violated Fed. R. App. P. 4(a)(5) to transmit this returned notice of
appeal and docket sheet to the Clerk of COA on 8/2/2018 (ECF No. 48, exhibit#2, p.5 of 6) when
district court received Appellant's motion for extension to re-file the notice of appeal (ECF No.
46) prior to the district court's approval of Appellant's motion to extend appeal (ECF No. 50).
Regarding this district court's mistake, the notice of COA was sent from Ms. Margaret Thomas

3

to the district Court clerk Ms. Felicia Cannon and also Appellant on 8/3/2018 (see district court
case ECF No. 49, exhibit#4).
Ms. Thomas suggested that the district court could transmit docket records to the Court of
Appeals after the district court ruled the Appellant's motion to extend appeal. Obviously, Ms.
Thomas' letter does not mean that Ms. Thomas or the COA encourages and supports the district
court to re-transmit the docket sheet and the returned initial notice of appeal with wrongful filed
date and deletion of her exhibits to the COA on 8/6/2018 prior to allowing Appellant to re-file
her updated notice of appeal by 8/7/2018 to replace the returned one according to district court's
"Return Document Order" (ECF No. 40) and the order granting her motion to extend appeal
(ECF No. 46&50).
These errors were reported to the Court when Appellant met Ms. Cathi Bennett (case 181889 manager) and Mr. Mark J. Zanchelli (Deputy Clerk) and sought their help on 8/24/2018.
Ms. Bennett and Mr. Zanchelli also agreed and were concerned that the district court's
transmissions of the district court's returned notice of appeal and docket sheets for multiple times
are very confusing and difficult for the Clerk, judges and counsel to manage and review during
judgment making process. For the Court of Appeals to review and deal with these errors in
Appellant's case 18-1889 related to the docket records of her complaint filed with the district
court (17-cv-03260-JKB), Appellant was instructed by Mr. Zanchelli to file her formal
clarification and request by a letter or. motion. Therefore, Appellant filed her motion to extend
time for the Court of Appeals' review of those errors in the district court's docketing records and
proceedings which she reported to the Court of Appeals prior to filing her informal brief (COA

docket No. 5&6). Meanwhile, Appellant started to prepare her writing request and filed it by
sending a letter to the Clerk of the Court on 8/30/2018 prior to Appellant's filing her informal

4

brief as Ms. Bennett and Mr. Zanchelli's advice2 (see COA case Docket No.7, entered on
9/4/2018).
2. The statement of the COA 's docketing records is incomplete and also inconsistent with
"Originating Court Information":
The earliest statement of docketing records (the COA docket No. 1 with 1 page, No. 2
with one page and No. 3 with 11 pages) were made on 8/6/2018 (exhibit#1, p. 2of 4). Yet, these
docketing notes did not record the district court's documents repeatedly sent to the COA and
wrongful proceedings of Appellant's returned notice of appeal on 8/2 and 8/6/2018 that (1) first
wrongful transmission of the returned initial notice of appeal by deleting her exhibits and
changing the filed date; and electronic docket sheet from the district court to the COA was
received on 8/2/2018 (ECF No. 45&48); (2) the notice regarding this error in the district court's
8/2/2018 transmission sent by COA Ms. Thomas was on 8/3/2018 (see exhibit-44, ECF No. 49),
and (3) consequent second wrongful transmission of the returned initial notice of appeal and
assembled electronic docket sheet from the district court to the COA was received on 8/6/2018
(see district Court docket records ECF No. 52).
All of these errors regarding the transmission proceedings with wrongful filed date as
8/2/2018 instead of 7/26/2018 was not recorded in the COA docket No. 1-3 and "Originating
Court Information" on 8/6/2018 prior to allowing Appellant to re-file her updated notice of
appeal on 8/7/2018 according to the district court's order (ECF No. 40: returned her 7/26/2018
filed initial notice of appeal) dated 7/31/2018 and the order (ECF No. 46&50: granted her motion
to extend appeal) dated 8/3/2 0 1 8.

It meets the requirement for COA to deal with the negative impact caused by district court clerical mistakes (17cv-03260-JKB) on the docket records of Appellant's appeal filed with COA (case 18-1889) under Federal Rule 60.

2

5

In addition, the district court's docketed Appellant's 8/7/2018 re-filed updated notice of
appeal as ECF No. 53. Appellant filed this updated notice of appeal and related exhibits to
replace the initial notice of appeal which was returned, but was unlawfully entered to the docket
by change of the filed date and deletion of her exhibits and further to transmitted to the Court of
Appeals on 8/2/2018 and 8/6/2018, (which was stated in Appellant's re-filed notice of appeal and
the attachment, see ECF No. 53 and 53-1). The district court made note for ECF. 53 as
"Amended notice of appeal by Xiao-Ying Yu (attachment: #1 attachments to Notice of Appeal)".
The district court's third transmission, ECF No. 54, to COA on 8/7/2018 indicated
"Transmission of Notice of Appeal and Docket Sheet to US Court of Appeals re 53 Amended
Notice of Appeal".
Although the COA also made note (under title "Originating Court Information") that
Appellant filed her notice of appeal 8/7/2018, which was received by COA on 8/7/2018, these
documents and process were not shown in the note of the COA docketing number by 10/15/2018
(see exhibit #1, p. 2 of 4) and the transmitted pages of the returned notice of appeal and docket
sheet on 8/2 and 8/6/2018 were not recorded in the COA docket as instruction by Rule 45.
It is not clear which COA docket number Contains district court's 8/2/2018 and 8/6/2018
transmitted the returned Appellant initial notice of appeal with deletion of the related exhibits
and wrongful filed date (ECF No. 48&52) and which COA docket number contains the district
court's 8/7/2018 transmitted (see ECF No. 53 and attachment ECF No. 53-1 and ECF No. 54)
Appellant's 8/7/2018 re-filed notice of appeal with the exhibits of the new evidence 'provided by
Because Appellant was waiting for EEOC's reconsideration and recording file via FOIA request, she filed her
requests to amend the EEOC's records (which related to her complaint about Ms. Sara Barra misled EEOC's
investigation) in her attached cover letters on 11/2/2017 (ECF No. 1) and 12/8/2017 amended complaint (ECF No.4)
and her motion to extend time to file her opposition for defendants' motion to dismiss her complaint on 3/19/2018
(ECF No. 19). Appellant's request for second amendment of complaint was denied on 6/26/2018 (ECF No. 32&33),
so she provided the EEOC's new records to the district Court on 7/24/2018 along with her motion for second
amendment of complaint and motion for clarification which was returned on 7/27/2018 (ECF No.38&39).

6

pi jet
EEOC's recording file through FOIA request (ECF No. 1&4),
The information in the statement of COA docket Number 1 to 4 is difficult for the
judges and counsels of Court of Appeals to see how the district court repeatedly violated Rule 3
by changing the filed date from 7/26/2018 to 8/2/2018 for the district court's

returned

Appellant's initial notice of appeal and deleting her exhibits through the transmission of
documents on 8/2/2018 and 8/6/2018 to COA and made the Clerk of Court of Appeals to have to
enter this false information in "originating Court Information" without a note to bring the Court's
judges and counsel's attention to review. It is not clear in COA docket No 1-4 and "Originating
Court Infoiii ation" when the exhibit including new evidence provided by EEOC investigator's
hand-written notes was omitted by the district court through deletion of her exhibits attached to
her initial notice of appeal (please see district court ECF No. 53 and related exhibits, ECF No.
53-1, 3rd paragraph in page 26 of 53, page 35 of 53, 36 of 53 compared with MDH HR's
constructive discharge on 38 of 53, see attached exhibit 45) '. The deleted EEOC's investigator's
hand-written notes demonstrated that EEOC's investigation of Appellant's complaint under
ADEA, ADA and Title VII was interfered by Ms. Sara Barra on 4/19/2018. Although this exhibit
is directly related to and also supported the complaint filed on 11/2/2017 (ECF No. 1 and
attachment) and 12/8/2017 (see attached exhibit#5, ECF No. 4, attachment and related exhibits
and), it was deleted when the district court falsely changed the returned initial notice of appeal
from filed date of 7/26/2018 to the entered date of 8/2/2018 and transmitted it to the Court of
Appeals on 8/2/2018 and also on 8/6/2018. Moreover, the transmission of the returned initial
Clerk
notice of appeal with deletion of the exhibits and wrongful filed date may also mislead

Sara Barra interfered with EEOC's investigation by stating that Appellant requested to resign and retire
false
instead of that HR's constructive discharge was made on 10/10/2014 by Ms. Barra's motivation with
made by Ms.
damages
continuous
of
complaint
Appellant's
supported
it
for
excluded
be
not
information. It should
of damages).
section
the
in
Barra on EEOC's 4/19/2017 Fact-Finding Conference (ECF No. 4, page 12, #5 under III

4 Ms.

7

Air 47
office of COA to believe that those critical complaint-relevant evidence, (which was not
available to be presented to the district court when her complaint was filed in Nov and Dec.
2017, ECF 1&4 and attachments), omitted by the district court on 8/2/2 018 should be ignored

as

it was provided to the district court after judgment was made, and consequently it should be
excluded from the review during decision making process by the COA (to make it easier for the
COA's judges and counsel to review Appellant's informal brief and appendix referred facts in
case, please see exhibit 5) 5.
Therefore, I am hoping that Clerk of Honorable Court will amend the notes for the docket
records in case 18-1889 to make it to be clear, accurate, consistent and complete. Justice can not
be achieved if the COA docket records do not reflect facts, such as the wrongful filed date of
Appellant's notice of appeal and deletion of exhibits based on the Federal Rules of Appellate
procedure Rule 45 and Rule 3, for the clerk of Court of Appeals, judges and counsel to easily
locate and get entire information needed for effective case management and to focus on the key
substance of the appeal. Here, the re-filed notice of appeal with exhibits of new evidence (ECF
No. 53) was received by the COA on 8/7/2018 and should be brought to attention for review.
C. Conclusion:
WHEREFORE, Appellant respectfully requests that this Honorable Court will amend the
description of the docketing records in COA case 18-1889. Specifically, the amendment of the
COA docketing records with accurate, precise and complete statement would assist the Court
judges and counsel in giving prompt attention to the Appellant's re-filed Notice of Appeal on
the
8/7/2018 and exhibits including EEOC's investigator's hand written notes. Furthermore,

Appellant visited COA on 8/24/2018 and received a hard copy of the district court's transmitted her notice of
appeal and exhibits (ECF No. 53&54) She was told that the docket sheet is exactly same as the docket records
which Appellant received from the district court (see exhibitg2) and there was no docketing statement transmitted
from the district court to the US Court of Appeal at the Fourth Circuit.

5

8

amendment of statement in the COA docketing record for Case 18-1889 would make all
docketed information, which the district court transmitted, to reflect the facts and avoid
inaccurate, inconsistent and
incomplete docket records to cause the judges and counsel's confusion in the review of
Appellant's informal brief (30 pages) and appendix of the statement of the case (9 pages) during

decision making process, and avoid misleading to the injustice in this case.

Respectfully submitted,
/7-

Dated October 18, 2018

u, pro se
557 Kirkcaldy Way
Abingdon, MD 21009
(410) 671-9823
xiaoving.vu67C-c&gmaiLcom

9

No. 18-1889
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

XIAO-YING
Plaintiff-Appellant
v.
MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET & MANAGEMENT,
SECRETARY DAVID BRINKLEY,
Defendants-Appellees

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MARYLAND

APPELLANT'S SUPPLEMENTAL INFORMAL BRIEF

January 16, 2019

Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon, MD 21009
Telephone: 410-671-9823
Pro se plaintiff-appellant

If
TABLE OF CONTENTS
page
1
1

Supplemental Informal Brief
I. Statement of the facts
Supplemental assembled records transmitted by the District Court
to the Court of Appeals were docketed on October 18, 2018 after
the Appellant filed her Informal Brief for more than a half month
Review and concerns about the docket records
c. Missing documents and inconsistent records in the electronic
records transmitted by the District Court to the Court of Appeals

1
2

II. Needs of the Issues Existed in the Docket Records of the Appellant's
Case File for the Judges at Court of Appeals to Review

11

III. The Consequence of the Changes of the Docket Records

13

4

.15

IV. Conclusion
Appendix
Exhibit No.
General docket of USCA4 for the Appellant's case printed 1/11/2019
The receipt of the Appellant's payment for the electronic records
The Appellant's cover letter to the clerk at the District Court for
her amended complaint filed on 12/8/2018 addressing the request to
amend EEOC's records, ECF#4
The Appellant's cover letter to the clerk at the District Court for
her motion for proposed entry of default and default judgment
the declaration filed on 1/23/2018, ECF#15
The Appellant's cover letter to the clerk at the District Court
her response to the defendants' motion to dismiss her complaint
along with the exhibits of EEOC's right-to-sue letter and her EEOC's
rebuttal, filed on 3/22/2018, ECF#20
General docket of the District Court printed 8/6/2018
General docket of the District Court printed 8/16/2018

ii

Page
.S.App-1
...S-App-5

S.App-6

.S.App-7

... S.App-8
.S.App-9
S.App-15

TABLE OF AUTHORITIES
Page
I. Statues and Rules
Statues
28 U.S.C. § 1291, Final decision of district courts
29 U.S.C. § 621, e. seq., The Age Discrimination in Employment Act
29 U.S.C. §794(a)(b), Section 504 of the Rehabilitation Act,
42 U.S.C. § 12101, The American with Disabilities Act Law (a)&(b)
42 U.S.C. §1211242 U.S.C. §12202-State Immunity•
42 U.S.C. §12203-State Immunity•
42 U.S.C. §1981, Equal rights under law
42 U.S.C. §2000d-4a•
42 U.S.C. §§ 2000e seq., Title VII of the Civil Rights Act of 1964
Eleventh Amendment to -U.S. Const
Fourteenth Amendment to U.S. Const
Seventh Amendment to U.S. Const
Rules
Federal Rule of Civil Procedure 15
Federal Rule of Civil Procedure 16
Federal Rule of Civil Procedure 27
Federal Rule of Civil Procedure 3
Federal Rule of Civil Procedure 34
Federal Rule of Civil Procedure 54(a) (b)
Federal Rule of Civil Procedure 60(a)(b)

15
14
14&15
.14&15
14&15
14
14
15
15
15
.14&15
14&15
.14&15

14&15
14&15
1
14
1
..15
14&15

ill

No. 18-1889
APPELLANT'S SUPPLEMENTAL INFORMAL BRIEF
In addition to the Appellant's "informal brief' filed in Fourth US Court of
Appeals, "USCA4" (COA Docket #10, 10/1/2018), the Appellant, Xiao-Ying Yu,
pro se, respectfully submits this "supplemental informal brief' after reviewing
supplemental assembled records provided by the Federal District Court of
Maryland to this Court of Appeals (see COA Docket #15 &4, Exhibit #1 ) on
1/11/2019.

I. Statements of the Facts
A. Supplemental assembled records transmitted by the District Court to the Court
of Appeals were docketed on October 18, 2018 after the Appellant filed her
"informal brief ' for more than a half month
After the Appellant filed her "informal brief' on 10/1/2018 and her "reply to
Appellees' motion to extend time to file Appellees' brief regarding oral argument"
on 10/15/2018, in which she requested the Court of Appeals to consider counsels
for "Formal Brief' and "Oral Argument" under Rule 27&34 based on the condition
that the facts of her claims were omitted, misrepresented, and misinterpreted by
Appellees and the District Court of Maryland, the Appellant's reply motion was

docketed in COA No. 14 that "RESPONSE/ANSWER (Titled 'Reply to
Appellees' Motion to Extend Time') by Xiao-Ying Yu to Motion to extend filing
1

./r3
time [12].[18-1889] CB [Entered: 10/16/2018 05:01 PM]". Then, on 10/16/2018,
the District Court transmitted "supplemental assembled electronic record" pursuant
to the request of the Appellant's case manager, Ms. Cathi Bennett for the docket
records missed in the Appellant's file. This information was confirmed via the
conversation with Ms. Bennett over the phone in the afternoon on 10/22/2018. The
transmission was entered in COA docket #15 on 10/18/2018. However, the
Appellant was not aware what supplemental records were provided to USCA4 on
10/16/2018 (COA docket #15), nor did she understand why District Court failed to
provide USCA4 with entire records by 8/20/2018, as Clerk of USCA4 requested,'
and wanted to provide these supplemental assembled records to USCA4 after the
Appellant filed her "informal brief' for more than a half month.
B. Review and concerns about the docket records
On January 11, 2019, the Appellant visited the Court of Appeals and
requested USCA4 Clerk, Ms. Gomez to allow her to review her case file. She was
told all case records are electronic files. Then, the Appellant specifically requested
to get hard copies of the supplemental assembled records in COA docket #15
entered on 10/18/2018. She was provided with 64 pages of hard copies of the
electronic records, which is the Appellant's re-filed notice of appeal and related

Please see COA docket No. 2: "RECORD requested from Clerk of Court. Due: 08/20/2018.
[18-1889] CB [Entered: 08/06/2018 11: 42 AM)."
I

2

Arr
exhibits, (ECF#54) transmitted along with the "Docket sheet" by the DiStrict Court
to USCA4 on 8/7/2018. However, these records were the same copies that the
Appellant received from USCA4, Ms. Gomez on 8/24 /2018. The Appellant was
confused and asked Ms. Gomez why the electronic records in COA docket #15
(entered on 10/18/2018) were the same as COA docket #4 (entered 8/8/2018), but
were not as Ms. Bennett stated as the supplement for missing records. Then, Ms.
Gomez introduced Tony, who is supervisor of the Appellant's case manager, Ms.
Bennett, to help the Appellant. The Appellant expressed her concerns to Tony as
follows:
1.There was lack of the Appellant's initial and amended complaints and
related exhibits, her response and supplement in opposition to defendants' motion
to dismiss and her supporting exhibits (the Appellant filed with the District Court)
in both COA docket # 4 and 15 according to the hard copies of initial electronic
records, (transmitted by the District Court between 8/2/2018 and 8/8/2018), which
USCA4 clerk, Ms. Gomez, provided to the Appellant on 8/24/2018 and the
supplemental assembled records, (transmitted by the District Court on 10/16/2018),
Ms. Gomez, provided on 1/11/2019;
2. If the clerk, Ms. Gomez could not see the Appellant's electronic file for
those electronic records of Appellant's complaints and exhibits filed with the
District Court of Maryland transmitted by the District Court to USCA4, the

Appellant was wondering how the USCA4 judges, who were assigned to
Appellant's case, could review those exhibits which the Appellant referred in her
"informal brief' and "informal reply brief'.
Thus, Tony informed the Appellant that there were 522 pages of electronic
records transmitted by the District Court of Maryland in the August 2018. After he
edited COA docket #4 with 522 pages and COA docket #15 with 64 pages on
1/11/2019, Ms. Gomez was able to see these 522 of electronic records in the
Appellant's case docket #4 (Exhibit#1, Tony edited 1/11/2019). Also, Appellant
was provided the hard copies of these 522 pages of electronic records transmitted
by the District Court of Maryland to USCA4 (Exhibit #2, copy of the payment for
these records).
C. Missing documents and inconsistent records in the electronic records
.transmittedly..the-District rourt_to_the fourt _gf 4ppeals
After reviewing 522 pages of electronic records in the COA docket # 4
entered on 8/8/2018 and edited on 1/11/2019, the Appellant realized that these
District Court's electronic records were only to cover the period between
11/6/2017 and 8/6/2018. There were several problems in these records which
include but are not limited to: Some the Appellant's filed documents were deleted;
some records were reversed ordering pages of documents, which led to the
confusion; and some filed documents were excluded and replaced by other
4

duplicated documents in these 522 pages of the electronic records, which did not
match the District Court's description for several docket numbers such as ECF
#45, 47&48. These changed electronic records conflicted with the facts that the
District Court transmitted the electronic records to USCA4 on August 2, 2018 and
these electronic records have been reviewed and docketed by the Clerk of this
Court of Appeals.
Because these changes of the electronic records transmitted by the District
Court to USCA4, it is necessary for the Appellant to file this "supplemental
informal brief" and to address each of those changes and deletions. Also, the
Appellant would provide those filed documents, which were deleted from these
522 pages of electronic records, and hopes USCA4 clerk to provide the Appellant's
case with comprehensive, correct and consistent docket records that will make it
easier for judges to find and review the Appellant's filed documents even though
some description of docket numbers made by the District Court did not match the
containing documents.
1. Several attachments were deleted in the COA Docket # 4 (see Exhibits
#3-5). These attachments were filed on 12/8/2017, 1/23/2018, 3/22/2018
respectively (see the District Court's ECF # 4, 15&20) and are very important

because the Appellant asked to amend the EEOC records prior to her receiving

5

EEOC's response to her request of the reconsideration regarding EEOC's
conclusion in the right—to-sue letter and the request of the default judgment);
2. The District Court docketed ECF# 45: "NOTICE OF APPEAL by XiaoYing Yu. Filing fee $505, receipt number 14637107751. (sass, Deputy Clerk)
(Entered: 08/02/2018)", but the 522 page of electronic records transmitted by the
District Court to USCA4 on 8/2/2018 did not contain this notice of appeal (see
COA Docket #4, p. 507-509) although USCA4 Clerk docketed and the Appellant
claimed this action in her concerns of the docket records and her "Informal Brief'
because the Appellant's (7/26/2018 filed) initial notice of appeal, which the
District Court returned back to the Appellant on 7/31/2018. 2
Meanwhile, another District Court's docket record ECF #48 was changed.
The District Court originally docketed ECF#48 as "Transmission of Notice of
Appeal and Docket Sheet to US Court of Appeals re 45 Notice of Appeal.
Important Notice: To access forms which you are required to file with the United
States Court of Appeals for the Fourth Circuit please go to
http://www.ca4.uscourts.gov and click on Forms & Notices. (slss, Deputy Clerk)
(Entered: 08/02/2018), but there was only the "Docket Sheet" in COA docket #4,
page 517 of the electronic records because the Appellant's Notice of Appeal was
This Appellant's 7/26/2018 notice of appeal transmitted by the District Court on 8/2/2018 to
USCA4 without related exhibits was confirmed respectively through conversation over the
phone with the District Court clerk, Chief Judge Bredar's chamber, and USCA Clerk Ms. Amy
Carthem and Ms. Bennett, also evidenced by the USCA4 Ms. Margaret Thomas's letter dated on
8/3/2018 (ECF #50).
2

6

/18
excluded from the ECF#48. The transmitted electronic records on 8/2/2018 by the
District Court to the Court of Appeals were deleted due to the changes in the
docket ECF#45&48 and replaced with triplicated copies of the Appellant's motion
for extension of time to re-file her notice of appeal on ECF #45, 46&47, please see
the electronic records in COA Docket # 4 page: 507-509; 510-512; and 513-515
respectively.
3. The district court initially docketed on 8/6/2018 "Assembled Electronic
Record Transmitted to Fourth Circuit-Initial (slss, Deputy Clerk) (Entered:
08/06/2018)". It was supposed to be labeled with a sequencing Number ECF #51
prior to the Appellant's case manager, Ms. Bennett's establishing the Appellant's
COA case number 18-1889 on 8/6/2018 (ECF#52, COA docket #1-3, and COA
docket # 4, page 522), but this "Assembled electronic record" was not labeled with
any docket number in the District Court's docket (see Exhibit#6: the District
Court's docket dated 8/6/2018); instead, the electronic record which was
transmitted with a "Docket Sheet" on 8/6/2 018 by the District Court to USCA4
was excluded from the COA docket records. Please see USCA4 printed COA
docket #4, page 5-6, provided on 1/11/2019, compare with Exhibit#7, ECF#52 in
District Court of Maryland docket recording CM/ECM live 6.1 dated 8/16/2018);
Again, in the docket ECF#47, the District Court initially docketed on
8/2/2018 as "NOTICE of Appearance by Xiao-Ying Yu (slss, Deputy

7

Maryland
Clerk)(Entered: 08/02/2018)", please see Exhibit#6, District Court of
docket recording CM/ECF live 6.1 printed on 8/6 /2018, was

replaced with

triplicated copies of Appellant's filed (8/2/2018) motion for extension

time to re-

file her notice of appeal in ECF No. 45, 46 and 47. Please compare with
#7, District Court of Maryland docket recording CM/ECF live 6.1,

Exhibit

printed on

ng for the
8/16/2018). Thus, the sequential docketed number 51, supposed labeli
8/6/2018 "Assembled Electronic Record Transmitted to Fourth Circuit-Init

ial" for

cates of

the Appellant's 7/26/2018 notice of appeal, was used to labeled the dupli

rance by

the ECF No. 47 for Appellant's (8/2/2018 re-filed) notice of appea

changing the District Court's record ECF #47 as "(ELEXCTRONICALLY

FILED

ty Clerk)

IN ERROR) NOTICE of Appearance by Xiao-Ying Yu (slss, Depu
Modified on 8/6/2018 (slss, Deputy Clerk) (Entered: 08/02/2018)".

Please see

COA docket record #4, page. 518-519.
However, because the Appellant's initial notice of appeal transmitted
8/2/2018 and 8/6/2018 by the District Court to USCA4 were removed

on

from these

522 pages of USCA4 docket records, the District Court replaced these

original

of
docketed documents with different documents without making each

these

" to conceal
docket number with the description of "electronically filed in error

their violations of the federal civil procedures.

8

AP( 2°6
The Appellant's cover letters to the Clerk, Ms. Felicia C. Cannon at the
District Court, which explained what reason and which type of documents to file
and were always placed on the front page in all of her filed documents, were either
intentionally deleted (described as above fact #1), or misplaced to the last page of
Appellant's filed documents, or separated from Appellant's filed documents. The
District Court's actions made the Appellant's case file difficult to be reviewed by
the USCA4 judges. Please see the cover letters which Appellant filed and were
docketed in ECF #1, 5, 9, 11, 13, 17, 19, 22, 35 respectively on COA docket #4,
electronic records p.17 p.18 (JS44), 241, 276, 280, 292, 308, 312, 424 & 482. In
addition, the cover letter filed on 8/2/2018, located at COA docket #4, page 516,
was separated from the Appellant's (8/2/2018) filed motion for extension time to
re-file her notice of appeal, in ECF No. 45, 46& 47 (see COA docket No. 4, page
507-515) and her re-filed notice of appearance in ECF# 51 (COA docket No. 4,
from page 518-519). Also, the page sequencing orders of the exhibits in ECF #5,
which the Appellant filed, were reversed.
Appellant's motion for the clarification and relief, motion for leave to file
the second amendment of her complaint with new evidence provided by EEOC,
the
and request for jury trial filed on July 24, 2018 (within 28 days from

District

Court's 6/26/2018 judgment) were not docketed, but were returned back to the
Appellant on 7/30/2018, because the District Court stated that the case was closed

.74
on 6/26/2018 (see ECF #38&39, COA docket #4, duplicated pages 488-490, and
491-493).
Appellant's initial filed (pro se, on 7/26/2018) Notice of Appeal and
related exhibits were un-docketed, but was returned back to the Appellant on
7/31/2018 by the District Court's order ECF #40 without mention of the returned
document of the Appellant's Notice of Appeal by stating "Returned document
order. Signed by Chief Judge James K. Bredar on 7/30/2018. (Attachments:#1 First
page of Returned Pleading and cover letter) (c/m 7/30/15 bas, Deputy Clerk).
(Entered: 7/31/2018)". Please compare with the description in ECF #38&39 (COA
docket #4, p. 4-5)
ECF #54 with Appellant's re-filed notice of appeal and related exhibits
transmitted by the District Court to USCA4 on 8/7/2018 were omitted in COA
docket #4, although the USCA4 Ms. Gomez already provided the Appellant with
the hard copies of these electronic records on 8/24/2 018 (see Exhibit #2). Ms.
Bennett also knew that these copies were provided to the Appellant when she met
the Appellant on 8/24/2018.3

Ms. Bennett and Chief Deputy Clerk Mark J. Zanchelli's permission and advice, Appellant
filed her concerns during the Appellant' leave after reviewing these electronic records, also filed
her informal brief on 10/1/2018 and her informal reply brief on 11/13/2018 in COA docket # 7,
17, 21&23 regarding the inconsistent and incomplete docket records transmitted by the District
Court to USCA4, which did not reflect facts regarding her clarification, amendment of the new
evidence and notice of appeal filed with the District Court. Appellant was hoping to bring the
Court of Appeal's attention to the District Court's clerk errors and violation of Federal Civil
Procedure.

3 Per

10

42Zal
Nevertheless, on January 11, 2019, USCA4 Ms. Gomez provided

the

s of ECF

Appellant the COA docket No. 15 again with the 64 pages of hard copie
#54, which the District Court docketed as "Transmission of Notice of

Appeal and

Docket Sheet to US Court of Appeals re 53 Amended Notice of Appeal.

Important
d States

Notice: To access forms which you are required to file with the Unite

scourts.gov

Court of Appeals for the Fourth Circuit please go to http://www.ca4.u

/2018)".4

and click on Forms & Notices. (slss, Deputy Clerk) (Entered: 08/07

MBLED

However, on COA docket#15, it was stated "SUPPLEMENTAL ASSE

ed? Yes.

ELECTRICAL RECORD docketed. Record in folder? Yes. Record review
[18-1889]CB [Entered: 10/18/2018 10:28 AM]".

II. Needs of the Issues Existed in the Docket Records of the
Appellant's Case File for the Judges at Court of Appeals to Review
itted

The changes and deletions of the assembled electronic records transm

t docket

by the District Court to USCA4 made the confusions and inconsisten
records in the Appellant's case file as follows:

t

Where are those missing supplemental assembled records and the docke

4 stated in

sheet dated 10/16/2018 and transmitted from the District Court to USCA
COA docket #15?

only the
is the same language used by the District Court in ECF #48, yet, there was
517. There was a lack
"docket sheet" from the 522 pages of the COA docket #4. Please see page
the District Court in
from
of the Appellant's (7/26/2018) initial filed notice of appeal transmitted
the ECF #48 re #45.
4 This

11

0
Ar3
Were these charges and deletions of the assembled electronic records
transmitted by the District Court to UDCA4 in COA docket #4 (522 pages) and
COA docket #15 (64 pages of the District Court's 8/7/2018 transmitted records)
due to the concerns and claims filed by Appellant's "informal brief" and related
exhibits?5
How was "Original Court Information: Date Notice of Appeal filed:
8/2/2018 and Date received COA: 8/2/2018" docketed in Appellant's case on
8/6/2018 if there was no evidence that USCA4 received Appellant's notice of
appeal dated 8/2/2018, and transmitted from the District Court on 8/2/2018 and
8/6/2018 based on the current electronic records in the COA docket #4?
How was the Appellant's case established on 8/6/2018 with "Original
Court Information: Date Notice of Appeal filed: 8/7/2018; Date Received COA:
8/7/2018" if there was no evidence that USCA4 received the Appellant's
(8/7/2018) re-filed notice of appeal transmitted by the District Court to USCA4 on
8/7/2018 in the COA Docket # 4, 522 pages of electronic records based on the
current electronic records in the COA docket#4?

Tony and Ms. Gomez could not explain why those 522 pages were absent from Appellant's
COA case electronic file on 8/24/2018 and on 1/11/2019 when Ms. Gomez reviewed the
Appellant's case file, and that was why Ms. Gomez provided the Appellant with duplicated hard
copies of the electronic records for COA docket #4 and #15 containing the District Court's
8/7/2018 transmitted Appellant's notice of Appeal and related exhibits.
5

12

How were the Appellant's re-filed notice of appeal and related exhibits
along with the docket sheet dated 8/7/2018 and transmitted by the District Court to
USCA4 on 8/7/2018 docketed on 10/18/2018 in COA docket#15?

III. The Consequence of the Changes of the Docket Records
The changes and deletion of the electrical records transmitted by the District
Court to USCA4 led to the confusion and possible errors in the USCA4 docket
records.
Such changes in the docket records were to hide the evidence of the District
Court's violation of Appellant's appealing right, pro se, on 7/26/2018, and resulted
in the confusion of the time when the Appellant initially filed the "Notice of
Appeal". This led to USCA4 to docket Appellant's filed "Notice of Appeal" as
8/2/2018 instead of 7/26/2018, (which, in fact, was the correct time), as described
above and also in the Appellant's concerns and "informal brief'. The deletion of
initial docketed documents on ECF #45 &48 (includes the Assembled record
without any docket number on 8/6/2018) .and excluding ECF#54 in the COA
docket#4, 522 pages of the electronic records were also likely to cover the District
Court's mistakes of sending the Appellant's 7/26/2018 notice of appeal on
8/2/2018 and 8/6/2018, and to make it difficult for the USCA4 judge to review the
Appellant's case file and understand why USCA4 docketed on 8/6/2018 "Original
Court Information" for the Appellant's Notice of Appeal filed on 8/2 and 8/7/2018.
13

24'‘C.

In addition, it is difficult for USCA4 judges to review and track the exhibits related
to the Appellant's "informal brief' and "informal reply brief' through the current
COA Docket #1-4 and #15. Therefore, judges' preparation of their "Formal Brief'
and recommendation for the "Oral Argument" leading to a fair decision may be
impaired by these changes and deletion of the electronic records.
On the other hand, in addition to the facts stated in Appellant's "informal
brief' and "informal reply brief', the changes and deletions of the District Court's
assembled electronic docket records indicated in this supplemental informal brief
and related exhibits may bring to the USCA4 judges' attention to the possible
ignorance of the Appellant's claims that District Court's violation of the
Appellant's civil rights to file clarification, relief and amendment with newly
discovered evidence provided by EEOC, which she previously requested to amend
for multiple times (see deleted documents in the Exhibits#3-4 and COA docket #4,
page 17); her right to be heard; and her right to appeal, pro se, and also to be
docketed on 7/26/2018 under Fed. R. Civ. P. 15, 16, 60& Federal Rules of
Appellate Procedure 3 & local rule 3, seventh amendment and Fourteenth
Amendment of U.S.C. Furthermore, it can not be neglect that the District Court
failed to perform their discretion for both "an express determination that there is no
just reason to delay" and "an express direction for entry of judgment" prior to

dismissal of Appellant's discrimination and retaliation claims under ADEA, ADA,

14

+pi 2,eyb
29 U.S.C. §794(a)(b), Section 504 of the Rehabilitation Act, and Title VII,

and

ns (see the

simultaneous closure of her case on 6/26/2018 with false reaso

ement

Appellant's "informal brief' and "informal reply brief' based on the requir
of Federal Civil Procedure 54 (b) and 28 U.S.C. §1291.
IV. Conclusion

Because of the facts and reasons stated above, in addition to the clarification
38, 39,

and relief that the Appellant filed prior to her Appeal on 7/24/2018 (ECF#

53&54, COA docket #15) with the District Court, and her concerns filed with
USCA4 on 9/4/2018 during the Appellate court's leave and 10/22/2018

the

(COA
6,

docket #7 &17), according to the Federal Rule Civil Procedure 60 (a)&(b)1-3&

sts

Seventh and Fourteenth Amendment U.S.C., the Appellant respectfully reque
this Court to grant her relief. The District Court's failure of making

their

State's

discretion with false reasons of the lack of subject matter jurisdiction and

al

immunity to Appellant's disability retaliation claim as well as racial and nation

al Rule

origin/ethnic discrimination and retaliation should be reversed under Feder

n

Civil Procedure 15, 16, 54, 28 U.S.C. §1291, ADA, 29 U.S.C. §794(a)(b), Sectio
504 of the Rehabilitation Act, 42 U.S.C. §1981&2000d, Title VII, Eleventh

and

Appellant respectfully
Fourteenth Amendments of "U_S.C. Furthermore, the

al

requests the Honorable Court to grant an appointment with Counsel for a "Form
Brief' to reflect on the facts stated in this supplemental informal brief,
15

her

Ae PI
"informal brief' and "informal reply brief', and also to recommend an "Oral
Argument" in order to clarify the issues, arguments and authorities that Appellees
and the District Court omitted, misrepresented and misinterpreted and to lead to
justice. Moreover, Appellant respectfully requests this Court of Appeals to grant
the relief to her for the damages addressed in her amended complaints and informal
brief, that the Court deems just and necessary.

Respectfully submitted

Dated January 16, 2019

Xiao-Ying Yu, pro se
557 Kirkcaldy Way
Abingdon, MD 21009

16

is 10-16tW

uoc:

t-1

)V5i

I ULU! I LAUK...1 kJ.

ry. i ui

lM/lJt+/ZUICI

4ff 24

August 30, 2018
Via Certified mail
Clerk Patricia Connor
US Court of Appeals for the Fourth Circuit
1100 East Main Street, 5th Floor
Richmond, VA. 23219

.?FCEIVED
2018 SEF —14 PH 3:09
U.S."d

kg -- tq 09

ijiitgTrii°C.IltUIT A "

Dear Clerk Connor:
Thank you very much for allowing me extended time to file my Informal Brief (new
deadline 10/1/18). I am writing this letter to seek further help regarding the future review of the
docket records (District Case No. 17-cv-03260-.IKB, Fourth Circuit Case No. 18-1889)
transmitted by the United States Northern District Court of Maryland. Specifically, there are two
key problems with the files as they currently stand. First, the abstract of docket file does not
accurately reflect its substance and the abstract of docket ECF No. 53 is incomplete, as it lacks
exhibits (including several important pieces of new evidence) dial I attempted to append to my
case files. Second, the initial Notice of Appeal (entry of ECF No. 45) was returned to me on
7/31/2018, and ECF No. 45, 48 & 52 contradicts Court's orders (ECF No. 40&50).
I filed an initial Notice of Appeal on 7/26/2018 (along with exhibits that included my
Motion for Clarification and Motion for Second Amendment of Complaint with new evidence,
because motions and new evidence filed on 7/24/2018 were not docketed) prior to receiving the
Court's order (ECF No. 37). This initial Notice of Appeal was returned to me without docket per
District Court order on 7/31/2018 (ECF No. 40).
According to the Court's 8/1/2018 order (ECF No. 43), on 8/2/2018, I re-filed the Notice
of Appearance (ECF No. 47 & 51) and the Motion for Extension (from 7/26/2018 to 8/7/2018) to
Re-file the Notice of Appeal (ECF No. 46).
On 8/2/2018, after receiving my Motion for Extension to Re-file a Notice of Appeal, the
Court entered (ECF No. 45) the initial Notice of Appeal without exhibit (even though this Notice
of Appeal was returned on 7/31/2018 per Court order, ECF No. 40 as described above).
Meanwhile, a disclosure including ECF No. 45 and docket sheet were transmitted to the
Honorable US Court of Appeals for the Fourth Circuit (ECF No. 48) prior to the Court's
granting my motion for extension to re-file my Notice.of Appeal (entered 8/3/2018, ECF No.
50).
On 8/7/2018, I re-filed a modified Notice of Appeal along with exhibits
that clarified some misrepresentation and misinterpretation in Court's memorandum and
introduced new evidence, which was uncovered by an FOIA request for EEOC recording files,
but were returned to me due to Court's 7/27/2018 order (ECF No. 38&39). This Notice and
exhibits were meant to replace ECF No. 45, based on the Court's orders (ECF No. 40 &50) and
1

10-a-uou

LJUL. /

otai rages:(z

OT

1)/U4/ZUlt5

instructions received via an 8/6/2018 phone conversation with the Chambers of Chief Judge
James K. Bredar. I called the Chambers of Chief Judge because I had not received a response to
my inquiries about ECF No. 45 from the deputy clerk, Ms. Claudia Gilbson, that were left via
voice message at 410-962-3854 on 8/6/2018. However, the exhibits filed on 8/7/2018 were not
shown in the text of the docket abstract for ECF No. 53. The attachments in the text of docket
abstract are usually referred to the cover letter in the docket record (see ECF No. 1, Attachment
#1). Omission from the abstract may lead to the exhibits, including the important new evidence,
being missed during reviews for the proceedings of my case in the Court of Appeals for the
Fourth Circuit.
Nevertheless, on 8/6/2018, ECF No. 45 without exhibits was sent for a second time to the
Circuit Court along with the "Assembled Electronic Record Transmitted to the US Fourth Circuit
(Sass, Deputy Clerk) (Entered: 8/6/2018)" (ECF No. 52). The ECF No. 45 even caused the
receptionist of the District Court's confusion, who initially mistakenly refused to accept my refiled Notice of Appeal (8/7/2018), because she said that the Notice of Appeal had already been
docketed on 8/2/2018. She then accepted the Notice of Appeal when I informed her that filing
was in line with the instructions of the Chambers of the Chief Judge Bredar (given 8/6/2018).
It is no doubt that the errors in the docket ECF No. 45 and 48 for its violation of Federal
Civil Procedure made it very confusing (ECF No. 49) and additional transmission of electronic
record for multiple times will also make it difficult for the Honorable Court of Appeals of the
Fourth Circuit as they review my case. Moreover, ECF No. 45 contradicts the Court's orders
from 7/31/2018 (ECF No. 40) and 8/3/2018 (ECF No. 50). Please note that my request to correct
this docket error was brought to the attention of the Chambers of Chief Judge on 8/6/2018.
Therefore, in order to maintain integrity and consistency in the docket records and also to
ensure that the docket abstract accurately reflects the facts in the District Court and US Court of
Appeal for Fourth Circuit regarding my case, review and ruling on this matter by the US Court of
Appeals for the Fourth Circuit is needed. The District Court's docket ECF No. 45, along with
accompanying transmission of records (ECF No. 48 & 52), should be withdrawn and the
incomplete docket abstract of ECF No. 53 should be corrected based on the reasons and facts
described above. Your consideration and help will be greatly appreciated.
I would like a file stamped copy returned, please find the enclosed original certificate of
service, an extra copies and a self addressed stamped envelope.
R zectfully submitted,
iao-Yin„ Yu, pro se
557 Kirkcaldy Way
Abingdon, MD 21009
2

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
LEWIS F. POWELL, JR. UNITED STATES COURTHOUSE ANNEX
1100 EAST MAIN STREET, SUITE 501
RICHMOND, VIRGINIA 23219-3517
WWW.CA4.USCOURTS.GOV
PATRICIA S. CONNOR
CLERK

TELEPHONE

(804) 916-2700

September 13, 2018
Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon, MD 21009
Re: 18-1889• Xiao-Ying Yu v. Robert Neall
Dear Ms. Yu:
I have reviewed the concerns stated in your letter of August 30, 2018, about the handlin
g
of your case at the district court. Although you believe that certain filings were not
docketed
correctly, it is generally improper to'try to add additional evidence in the district court
without
first seeking leave of court to do so. Also, material that was not considered by the district
court
judge prior to the court's ruling is not properly included in the material forwarded to the
appellate
court. The evidence that the appellate court considers is limited to what was present
ed to the
district court before the district judge ruled.
Your appeal appears to be proceeding properly and this court will be able to review
the
entire electronic version of the district court record including all the documents you filed
when it
reviews the issues raised in your brief.

Sincerely,

Mark J. Zanchelli
Chief Deputy Clerk

MJZ: rl

Doc: 12-1

USCA4 Appeal: 184889

Total Pages:(1 of

Pg: 1 of 2

Filed: 10/11/2018

AfreAlLX

IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
*

XIAO-YING YU,

*

Plaintiff-Appellant,

*

v.

Case No. 18-1889

ROBERT NEALL, et al.,
*

Defendants-Appellees.
*

*

*

*

*

*

*

*

*

*

*

*

MOTION TO EXTEND TIME TO FILE APPELLEES' BRIEF
The appellees, through counsel, move, under Fed. R. App. P. 26(b), to enlarge the
time within which they may file their informal response brief, extending the deadline by
five business days, from October 15, 2018 to October 22, 2018.
Under the existing scheduling order, the appellees' informal response brief
is due to be filed on October 15, 2018. This deadline was established when the Court
granted a request made by the appellant to extend her time to file a brief from August 30,
2018 to October 1, 2018. Appellees are permitted to file an informal response brief within
14 days after service of the informal opening brief
The brief for appellees will need adequate time to undergo the internal review
process required of every appellate brief filed by the Attorney General of Maryland.
In addition to the Columbus Day holiday, counsel for appellees has been out
of the office with a fever and sore throat. This has created a minor delay in preparing the
brief for the internal review process.

A4 Appeal: 18-1889

Doc: 12-1

Filed: 10/11/2018

Pg: 2 of 2

Total Pages:(2 o

2/1
It is not anticipated that this case will require oral argument and oral
argument has not yet been scheduled for this appeal.
The requested five-day extension for filing the appellees' informal response
brief will not cause prejudice to the appellant.
A proposed order is attached.
BRIAN E. FROSH
Attorney General of Maryland
/s/ James N. Lewis
JAMES N. LEWIS
Assistant Attorney General
Office of the Attorney General
Maryland Department of Health
300 West Preston Street, Suite 302
Baltimore, Maryland 21201
James .Lewisl@maryland.gov
(410) 767-5162
Attorneys for Appellees
October 11, 2018
CERTIFICATE OF SERVICE
I hereby certify that on October 11, 2018, a copy of the foregoing motion to extend
time to file appellees' brief, which was electronically filed in this case on October 11, 2018,
was served by first-class mail on the following:
Ms. Xiao-Ying Yu
557 Kirkcaldy Way
Abingdon, Maryland 21009
Is/ James N. Lewis
James N. Lewis
2

frig 2(3
April 1, 2019
Patricia S. Connor, Clerk and Chief Judge, Robert L. Gregory
U.S. Court of Appeals for the Fourth Circuit
1100 East Main Street, Suite 501
Richmond, VA. 23219
Re: Case No. 18-1889, Xiao-Ying Yu v. Maryland Department of Health and Maryland
Department of Budget and Management (1:17-cv-03260-JKB):
Plaintiff's application for suspension of the Court's 3/26/2019 order denying
Plaintiff's petition for rehearing and rehearing en banc; Plaintiff's motion to recuse;
and Plaintiff's request to correct the mistakes in the docket record No. 37
Dear Clerk Connor and Chief Judge Gregory:
After reviewing the Court's order and the statement of COA4 docket#37, according to
Fed. App. P. Title VII, Rule 27 and Title I, Rule 2, I respectfully make my application for
suspension of the Court's order denying my petition for rehearing and rehearing en bane entered
on March 26, 2019 (details please see my application for suspension).
Also, I respectfully submit my motion and move that Honorable Judge Diana Jane
Gribbon Motz, (who led the panel), recuse herself from the leader and direction of legal
proceedings of my petition for rehearing en bane accompanying with affidavit based on USC 28,
Chap. 21 § 455, because Judge Motz has worked for 14 years as Assistant Maryland State
Attorney General and is accustomed to representing State government employers' interests, and
previously led the panel's decisions in favor of Maryland employers in this Court. These
disabling conflicts of interest are also explained in my petition for rehearing and rehearing en
banc and mandate filed with this Court (COA4 docket #29, 31, 33&36), which provided exhibits,
cases, and laws as evidence of the conflicts. Another reason to file the motion to recuse is that
the curiam opinion from the panel led by Judge Motz was a biased review and was in conflict
with the decisions of this Court, other Federal Circuit Courts and the Supreme Court. This biased
review and the above mentioned conflicts of the interests led to affirming the District Court's
dismissal of my claims for lack of subject matter jurisdiction, failure to state cause of my claims
and the State employer's immunity to my ADA claim which are not true (please see
Appendix#1). Although I was hoping this biased review to be corrected by a rehearing en banc
since I filed my petition, yet, the panel of judges led by Judge Motz consequently and continually
directed results stating "no judge requested a poll under Fed. R. App. P. 35 on the petition for
rehearing En Banc" and the denial of my petition for rehearing En Banc in the Court's 3/26/2019
1.

order. However, a vote or poll to be taken from all judges in the Court (who are not given a
chance to review the Plaintiffs appeal or petition) is not needed to determine whether a case to
be heard or reheard en banc based on Fed. R. App. P. 35(f) and the local rule 35 (b). In order to
receive equal protection through the justice of the proceedings based on Fourteenth Amendment
U.S.C. § 1, according to 28 U.S. Code § 455, I respectfully request that Judge Motz recuse
herself from leading position in charge of the legal proceedings for my petition for rehearing and
rehearing en banc as well as from participation in the decision regarding my petition for
rehearing and rehearing en banc about the Court's 1/24/2019 order (details please see my motion
to recuse).
The statement of COA4 docket record#26 only addressed the moot the Plaintiffs motion
for concerns about docket records (COA4 docket #17) compared with the curiam opinion (please
see Appendix 2a). It appears that mooting Plaintiff's motion is more important than affirming the
reasons to dismiss Plaintiffs claims stated by the District Court. In addition, there are some
confusion and mistakes in the duplicated statement in the COA4 docket #37 which also appears
different from enclosed original 3/26/2019 Court Order denying my petition (filed COA4 docket
record #28&29) released by the Court clerk Connor (see supporting Appendix#2b). First, by
altering and expanding on the original court's 3/26/2019 order, the statement of COA4 Docket
#37 not only denies my petition (COA4 Docket #28&29), but also denies the mandate and
motion for relief regarding the lack of initial hearing chance provided to me, and reconsideration
of the panel Judge leader Motz's direction to moot my motion of concerns about docket records
filed with the Court Docket #30, 31 and 33. Second, the key words of my "PETITION" and "
MANDATE" in the documents that I filed in COA4 Docket 28&30 and also for #29&31 have
been omitted and replaced with duplicated as "Motion for initial hearing en banc" or "Motion for
rehearing and rehearing en banc" in the statement of COA4 docket#37. I suspect that actions are
retaliation for my motion of concerns about the docket records filed with this Court about the
mistakes made by my case manager (COA4 docket#17, 25&33) in favor of the employer
defendants' workplace retaliation and unlawful termination against my complaints under ADA
and Title VII and ADEA. The mistakes in the statement of COA4 docket #37 led to confusion
and to the legal mistake of the Court's Oder to not only deny my petition for rehearing and
rehearing en banc, but also my mandate and motion. Third, using "Motion" (which was typed as
the Capital in the statement of Docket#37) to replace "Petition" stated in the Court's 3/26/2019
2

Afr
Order caused confusion and misunderstanding of the Plaintiffs failure of filing "Petition" as the
part of reasons for the Court's 3/26/2019 denial. This may also drive the Court to be tied up with
the rejection of my request of mandate due to the fact that the statement of Docket #37 indicated
the Court's denying the documents #30&31 that Plaintiff filed for her initial mandate which were
passed to defendants and District Court.
Therefore, I am hoping my application for suspension of Court's 3/26/2019 order to be
granted under Fed. App. P. Rule 2, because it was based on the prejudicial direction led by
disqualified Judge Motz. Furthermore, I am respectfully seeking your help to move that Judge
Motz recuses herself and correct the mistakes in the statement of docket #37 avoiding erroneous
or distorted conception of the facts or the laws or court's orders. Moreover, I am requesting to
have a another judge to direct the legal proceedings of my appeal and petition for rehearing en
banc under local Rule 35(b), 14th Amendment's protection of liberty and property, and Fed. App.
P. Rule 2, because I am Asian American pro se and former Maryland State employee supported
by CDC funding, who was retailed and unlawfully terminated without mediation, and I have
never been given a hearing chance, or oral argument or rehearing en banc for denial of my appeal
due to lack of subject matter jurisdiction and failure to state the cause of claims by Federal
District Court of Maryland and this Court because the evidence that my written reports of
EEOC's permission to sue and EEOC's right-to-sue letter were docketed (11/6/2017 and
3/22/2018); defendants failed to provide a evidential pre-termination mediation or hearing and
reason for adverse action and Congress abrogated State employer's 11th Amendment Immunity
to ADA complaint were prejudicially neglected.
The cover letter contains 3 pages; application for suspension of the court's 3/26/2019
order (total 5 pages) ; motion to recuse (15 pages); Appendix (31 pages) , affidavit (1 page),
certificate of compliance (2 pages) and certificate of service (1 page) are enclosed. Total 58
pages. I look forward to hearing from you.
Resp_estfully submitted,
Xiao-Y. g Yu, prose
Mailing address:
P.O. Box 293,
Abingdon, MD 21009

3

kraN t712

API', 21k
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

XIAO-YING YU,
Plaintiff:Appellant,
*

v.

Case No. 18-1889

*

MARYLAND DEPARTMENT OF HEALTH, *
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET &
MANAGEMENT,
SECRETARY DAVID BRINKLEY,
Defendants-Appellees.
*
* * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * *

APPLICATION FOR SUSPENSION OF THE ORDER DENYING THE
PETITION FOR REHEARING AND REHEARING EN BANC
Plaintiff-Appellant, Xiao-Ying Yu, Pro Se., respectfully makes application
pursuant to Fed. App. P. Title VII, Rule 27 and Title 1, Rule 2 for suspension of
the order denying her petition for rehearing and rehearing en banc in Xiao-Ying Yu
v. Maryland Department of Health and Maryland Department of Budget and
Management, (for the Court's 1/24/2019 curiam opinion and derived order, docket
No. 26, 27&37), entered on March 26, 2019, pending the filing and final
disposition of her petition for rehearing and rehearing en banc and appeal. In
support of this application, the Plaintiff states the following:
1. If the order denying the rehearing and rehearing en banc is not
suspended, it will be tolerated, supported and continued in this Honorable Court

1

4re' zil
ntial

that inappropriate judiciary reviewing process was performed for the evide
workplace discrimination and retaliation claims resulting in the damages of

public

service employees' health, life and property ; obstruction of justice of

legal

proceedings of the Plaintiff s appeal and petition was led by a disqualified

panel

Judge Diana Jane Gribbon Motz2 (COA4 docket#26&37), and the Court

docket

records were altered and omitted which were indicated by COA4 docket

#1, 4,

15&20 and consequent concerns written by Plaintiff's letter and motions (COA

4

funding and
Asian American pro se, was Maryland State employee supported by CDC
ination and
was terminated without mediation within two months after she filed discrim
initiated and
was
which
ADA
retaliation complaints with EEOC under Title VII, ADEA and
er in Maryland
promoted by Plaintiff's former supervisor, Ms. Sara Barra. The Union manag
informing the
Department of Health participated in the decision of the termination without
, COA4,
33&34
exhibit
,
Plaintiff (see Plaintiff's complaints, District Court's record ECF/fl
Plaintiff's written
docket#4). The evidence were prejudicially neglected and these facts are (1)
filed with the
report regarding EEOC's permission to sue accompanying with her initial claim
District Court
the
by
d
District Court and a hard copy of EEOC's right-to-sue letter were receive
#1, and COA4
(docketed 11/6/2017 and 3/22/2018, ECF#1, attachment#1 and ECF#20, exhibit
ants failed
defend
(2)
dix#1);
#4) prior to the District Court's dismissal of her claims, (see Appen
254
U.S.
397
to provide a evidential pre-termination mediation or hearing, Goldberg v. Kelly,
under the
and did not submit any legitimate non-retaliatory reason for their adverse actions
th
Eleven
er's
McDonnell Douglas Scheme; and (3) Congress abrogated State employ
hearing and preAmendment Immunity for ADA complaint. Plaintiff has never been given a
her claims and
of
denial
Court's
t
direction of the District Court's decision prior to the Distric
of subject matter
lack
of
deprivation of her civil rights and property right due to the false reasons
complaint and
jurisdiction, failure to state the cause of claims and State's immunity to ADA
of oral
closure of her by Federal District Court of Maryland, no was she given a chance
t Court's
argument, initial hearing and rehearing en banc by this Court to affirm the Distric
decision denying her claims and her petition (Appendix#2).
nt Maryland State Attorney General with similar
2 Judge Motz has worked for 14 years in Assista
t in the position of
responsibilities like Mr. James Nelson Lewis to represent defendants' interes
med to
Assistant State Attorney General for Maryland Department of Health; is accusto
biased curiam
create
to
panel
representing Maryland government employers' interests; and led a
f's appeal and
opinions including this case which directed the Court's denial of the Plaintif
for rehearing
petition
f's
Plaintif
see
petition for rehearing en banc in favor of defendants, (please
records,
docket
and rehearing en banc, COA4 docket#27&29; her motion for concerns about
ent).
COA4 docket #17; and Plaintiff's motion to recuse, see separate filing docum

1 Plaintiff,

2

Airve
docket #7, 14, 17, 25&33). These actions conflict with decisions by this Court,
other Federal Circuit Courts, and U.S. Supreme Court and violation of Fourteenth
Amendment U.S.C. § 1 (requirement of procedural due process of law and equal
protection for property); H.R. Rep. No. 101-485 (II), at 37 (1990) and 42 U.S.C. §
12202 (Congress' clear abrogation of Eleventh Amendment Immunity in suits
under ADA); Section 504 of Rehabilitation Act, 29 U.S.C. §794 (b), incorporating
42 U.S.C. §2000d-4a (State's receipt of qualified federal funds which means State
automatically waives their Eleventh Amendment Immunity to law suits under
ADA); and Fed. R. Civil P. Rule 79. "Records kept by the Clerk" and Title 18 U.S.
C. 1512 (c). Fed. App. P. Title I. Rule 2, Notice of Advisory Committee on Rules1967 (Amended 1998), authorizes the Courts "to relieve litigants of the
consequences of default where manifest injustice would otherwise result." The
United States Constitution guarantees an unbiased judge who will consistently
provide litigants with full protection of all rights.
2. If the order denying rehearing and rehearing en banc is suspended, the
Court may have a sufficient time to review the Plaintiff's motion to recuse and her
petition for rehearing and rehearing en banc that Plaintiff filed under USC Title 28,
Chap. 1 § 455, Fourteenth Amendment U.S.C. § 1, Fed. App. P. 35 (a)&(f) and
local rule 35 (b) "A majority of the Circuit Court judges who are in regular active
service and who are not disqualified may grant a hearing or rehearing en banc".
3

*21
The Court's judicial responsibilities with integrity, impartiality and competence are
warranted to avoid the violation of other litigants' personal liberties, life and
property and/or having wantonly refused to provide process and equal protection to
all litigants before the Court or having behaved in a manner inconsistent with that
which is needed for full, fair impartial hearings.
3. If Plaintiff's application for suspension of the Court's order denying
rehearing and rehearing en banc and Plaintiff's motion to recuse are granted, as the
neutrality requirement helps to guarantee people's life, liberty, or property that will
not be taken on the basis of an erroneous or distorted conception of the facts or the
laws, Plaintiff's motion of concerns about docket records, COA4 docket #17, may
not be mooted. It helps the justice of judicial review process and legal proceedings
in the Court as the evidence of this motion are referred in "Informal reply brief',
"Supplemental informal brief', "Petition for rehearing and rehearing en banc", and
Motion for relief regarding the lack of initial hearing information and opportunity
provided to the Plaintiff, and reconsideration of biased curium opinion mooting the
Plaintiff's motion of concerns about docket records (COA4 docket#23, 25, 29
&33). Furthermore, it may cause your attention to the prevention of docket records
in the Court from being altered and omitted for that the destruction or concealment
of evidence or attempts to do so are prohibited by Title 18 U.S. C. 1512 (c).
WHEREFORE, the Plaintiff prays that this application be granted.
,r2-0,

4P0
Respectfully submitted,

Xiao-Ying Yu, pro se
Mailing address: P.O. Box 293,
Abingdon, MD 21009

5

Ar(121
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
m

XIAO-YING YU,

•

Plaintiff-Appellant,
*

Case No. 18-1889

v.

*

MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET & *
MANAGEMENT,
SECRETARY DAVID BRINKLEY,
Defendants-Appellees.
* * * * * * * * * * * * * * *
* * * * * * * * * * * * * * * * *

MOTION TO RECUSE

Now comes Plaintiff-Appellant, Xiao-Ying Yu, pro se, and moves that
d

Honorable Judge Diana Jane Gribbon Motz recuse herself from the above entitle
matter under USC 28, Chap. 21 § 455, and Marshall v. Jerrico Inc., 446 US 238,
242, 100 S. Ct. 1610, 64 L. Ed. 2d 182 (1980).
A. Background

Plaintiff filed for redress of violation of her civil rights and retaliation under
ct

Title VII, ADEA and ADA, 42 U.S.C. §1981&NLRA et al.' in Federal Distri

the opposition,
Regarding other related federal laws, please see details in amended complaint,
(District Court
supplemental response in opposition to motion to dismiss and informal brief
ECF-ttil, 20, 30 , COA4 docket#4, 10, 23&25).
1

1

Court of Maryland on 11/2/2017 (Case number 17-cv-3260-JKB) and wrote that "I
received EEOC's conclusion and letter for the right to sue for my second charge
(dated 10/16/2017)". Plaintiff reported to the District Court that she had requested
EEOC to reconsider their unfavorable conclusion and also provided the District
Court EEOC's right-to-sue letter after EEOC rejected her request for
reconsideration (see District Court docket ECF#1, attachment #1 and ECF# 20,
exhibit#1, COA4 docket #4, please see enclosed Appendix#1).
However, as the facts indicated in Plaintiff's "Informal Brief" filed with the
Honorable Court, the Defendants' representative, Mr. James Nelson Lewis,
Assistant State Attorney General for Maryland, filed a motion to dismiss Plaintiff's
claims with false reasons. Notably, Judge Motz has served for 14 years in
Maryland Assistant State Attorney General for Maryland State employers as Mr.
Lewis represents the defendants' interest in the current position (Assistant State
Attorney General for Maryland Department of Health). Subsequently, the District
Court either ignored, omitted or misrepresented the fact that they had received
Plaintiffs report as described above regarding EEOC's permission to sue and a
hard copy of EEOC's 10/16/2017 letter, as well as the evidence showing damages
from the progressive retaliation initiated by Ms. Sara Barra. These damages
include willful unequal/under payment, disciplinary actions, the change of the
office restructure as pre-text for the undue hardship and rejection of a disability
2

A

2Z3

accommodation recommended by the State Medical Director, constructive
discharge by Human Resources, and employment termination without a mediation
or a hearing promoted by Ms. Barra who also interfered with EEOC' s investigation
and led to EEOC's wrongful conclusion (Please see Appendix#3 compared with
Appendix#1 EEOC's 10/16/2017 letter)2. In addition, the Union manager

for
t

Maryland Department of Health participated in the termination making withou
informing the Plaintiff.

Defendants' representative, Assistant State Attorney General Lewis,
submitted no evidence of any legitimate non-retaliatory reason for Defendants'
adverse actions and failed to provide a pre-termination evidentiary mediation

or

hearing claimed by Plaintiff under the McDonnell Douglas scheme. Yet, the
District Court adopted his demands and alleged that Plaintiff did not state

if

Plaintiff had ever received EEOC's right-to-sue letter and failed to state cause

of

her claims. Also, the District Court adopted the statement by Mr. Lewis, as
Defendants' representative, alleging that the State has immunity to Plaintiffs

Ms.
According to EEOC's affirmed records which contains the EEOC's investigator,
letter
Christine Boyd's hand notes combining with EEOC's 10/16/2017 right-to-sue
the wrongful
together, Ms. Sara Barra directly interfered with EEOC's investigation leading to
17,
docket#
COA4,
,
conclusion on 4/19/2017 (see motion for concerns about docket records
in
retire
or
exhibit#5 page20-26) by providing false information that Plaintiff asked to resign
nal
stead of the constructive discharge by Human Resources (HR). Ms. Barra's intentio
alleged
and
HR
ed
contact
she
interference was because that in order to terminate the Plaintiff,
014 which she
Plaintiff's disciplinary actions and disqualification during 10/8/2014 and 10/10/2
int,
made testimony at Maryland Administrative Hearing on 5/14/2015 (see Plaintiff's compla
District Court docket record ECF#4, exhibit #33&34, COA4, docket#4).

2

3

4p z
disability claim through false statements indicating that Congress has

not

abrogated State's Eleventh Amendment Immunity for ADA complaint. He

also
has

inappropriately denied the fact that defendant, Maryland Department of Health

tiff s
accepted qualifying federal CDC funds (which also supported the Plain
position) by ignoring all evidence and exhibits that Plaintiff provided

to the
of

District Court only because Plaintiff addressed the Congress's abrogation

to be

State's immunity under Eleventh Amendment to ADA claims and her right

(b),

protected under the Section 504 of Rehabilitation Act, 29 U.S.C. §794
incorporating 42 U.S.C. §2000d-4a as the defendant's receipt of CDC

1305

nity to

funding which means defendant waived their Eleventh Amendment Immu

law suits under ADA (District Court docket ECF#20&30, COA4, docket#4).
fact, the House report on the ADA indicated, "inconsistent treatment of

In

people

with disability by state or local government agencies is both inequitable

and

illogical" (H.R. Rep. No. 101-485 (II), at 37 (1990)). "The Court should hold

that

Congress' prohibition of disability discrimination by state governmen

ts as

dment

employers is within its power conferred by section 5 of the Fourteenth Amen

nity

and that, therefore, Congress' clear abrogation of Eleventh Amendment immu

in suits under the ADA is valid" (42 U.S.C. §12202). Finally, State Gene

ral
ss

Attorney Assistant Lewis's demand was adopted by the District Court to dismi

claim
Plaintiffs claims for lack of subject matter jurisdiction and failure to state a

Afr
under Rule 8 &12 (b)(1)&(6). The District Court also denied Plaintiffs request for
a second amendment by falsely stating that her amendment would not cure the lack
of subject matter jurisdiction and State's immunity to Plaintiff's ADA complaint.
Even though the established causal connections between Plaintiffs protected
activities and adverse actions and consequent damages are demonstrated by
enormous amount of evidence in Plaintiff's complaints and 39 exhibits as well

as

her "Informal Brief' and "Informal Reply Brief' filed with this Court, a panel led
by Judge Motz, who, like Assistant State Attorney General Lewis, represents
l

Maryland State employers' interests, overlooked or mis-apprehended these factua

and legal matters using words such as "find no reversible error." Consistent with
her support of employers, she misrepresented Plaintiffs claim as "workplace
n

discrimination" without "retaliation" (which is critical claim) in the curiam opinio
leading to this Court's affirmation of District Court's dismissal of Plaintiff

s

claims, with reasons of "Lack of subject matter jurisdiction" and "failure to state

a

claim".
Some of these related records transmitted by District Court were missing and
some records were changed in the Court docket records (COA4 docket#4, # 15, 17
& #23). The questions (including lack of defendants' providing a pre-termination
hearing and lack of pre-direction of the District. Court's decision and closure of her
case) related to "due process of law" during judicial proceedings and concerns
5

77-12
about the deletion and changes in the docket records were addressed in "Informal
Brief', "Informal Reply Brief' and "Supplemental Informal Brief' (COA4
docket#10, 23&25) in addition to her letter on 9/4/2018 (COA4 docket#7), and
"Motion for Concerns of the Docket Records" with exhibits (10/22/2018, COA4
docket #17). Plaintiff did not receive a response for this motion under Fed. App. P.
Rule 27, yet, she was denied as moot for this motion as stated in the curiam
opinion even though the evidence provided by this motion and related exhibits
were referred and stated in her "Informal Reply Brief' and "Supplemental Informal
Brief'.
Because these reversible errors were not identified in the curiam opinion and
Plaintiff's concerns about mistakes of docket records stated in her "Motion for
Concerns of the Docket Records" and related exhibits were denied as moot in the
curiam opinion; and also due to that the curiam opinion stated "we dispense with
oral argument because the facts and legal contentions are adequately presented in
the material before this court and argument would not aid the decisional process"
in favor of defendants' desire (COA4 docket#12),3 these reversible errors need to
be heard through Panel Rehearing and Rehearing En Banc in this Court.

requested this Court for not having oral argument in their motion to which the
COA4
Plaintiff responded and requested the Court to protect her right to present the facts (see
docket# 1 2 &14).

3 Defendants

6

Ar
Plaintiff filed her petition for rehearing and rehearing en banc on 2/6/2

019

Motz was

based on Fed. App. P. 35 indicating that the curiam opinion led by Judge

, other

based on the biased review and in conflict with the decisions of this Court

t that the
Federal Circuit Courts and Supreme Court. Plaintiff trusted the Cour
nue to be
determination of her petition to be reheard en banc should not conti
influenced by the biased direction of panel leader Judge Motz.
However, Judge Motz, (or a judge of the Court or the panel of judges led

by

ion in
Judge Motz), who is pro-defendants, as influenced by her past posit
from
defending Maryland State employers, requested a poll to be taken
judges of the Court, who have not been given a chance to review

other

Plaintiff s

informal brief and petition, to determine whether to rehear en banc on

Plaintiff s
edings of

petition. This is an extra barrier set up to obstruct justice of legal proce
Plaintiffs petition to be reheard en banc in this Court. Judge Motz furthe

r directed
ring and

the Court's 3/26/2019 order for denial of Plaintiff's petition for rehea
rehearing en banc by stating that "No judge requested a poll under Fed.

App. P. 35

on the petition for rehearing en banc," even though Fed. App. P. 35(f)

clearly

heard
instructs that a vote is not needed to determine whether a case is to be
reheard. Therefore, this denial directed by Judge Motz represents an

additional

its.
attempt to deprive Plaintiffs civil right (due process of law) and relief benef
B. The reason to recuse
7

or

According to Congress and U.S. Supreme Court case law of judicial ethics, a
judge should be recused from leading a panel or hearing any case in which his or
her impartiality might reasonably be questioned.

Judges must avoid all

impropriety and appearance of impropriety. The test for appearance of impropriety
is whether the conduct would create a perception in a reasonable mind that the
judge's ability to carry out judicial responsibilities with integrity, impartiality and
competence is impaired. The above are the grounds why Plaintiff requests that
panel-leading Judge Motz recuse herself
First, from the perspective of professional practice, Judge Motz has worked
for 14 years as Assistant Maryland State Attorney General and had similar
responsibilities in the position held by the representative of the defendants, Mr.
Lewis. She is accustomed to representing Maryland government employers'
interests. This is indicated not only by the evidence stated above and stated in
Plaintiffs petition for rehearing and rehearing en banc (COA4 docket# 29), but
also in the case where Judge Motz led a panel to affirm the District Court's
decision in favor of Brian E. Frosh, State Attorney General and representative of
Maryland MTA employer Officials against an employee who brought workplace
retaliation for employee's criticism of the employer under 42 U.S.C. § 1983, First
and Fourteenth Amendment in David McClure; Amalgamated Transit Union Local

8

V, 21
1300 v. James Porta; Earl Lewis; Paul Comfortt; Lois Jones; Kevin Quinn (COA

4

Case No. 18-1065).
Second, Judge Motz led the creation of the curiam opinion and to direct the
Court's (1/24/2019) denial of Plaintiffs appeal. What she did is biased and
ts

prejudiced against Plaintiff (pro se) who seeks equal justice and relief benefi

based on the evidence stated in the background and the first reason to recuse
s,

above. Facts stated in her informal brief, motion of concerns about docket record

informal reply brief, supplemental brief, and petition for rehearing and rehearing
en banc prove that District Court made erroneous findings of facts, ruled on errors
of laws, and failed to provide due the process of law in judicial proceedings

in

order to dismiss Plaintiff's claims. However, these materials, factual and legal
matters of District Court's proceedings and decisions were overlooked, and the
n

curiam opinion, judgment and direction of legal proceedings of Plaintiff's petitio

for rehearing en banc conflict with relevant decisions made by this Court and other
Federal Court of Appeals as well as U.S. Supreme Court.
Third, Plaintiff was never given a pre-termination hearing by defendants and
a pre-direction by the District Court prior to their decision and closure of her case.
Nor was she given a chance for submission of a clarification, reconsideration, or
second amendment when defendants and District Court denied their receipt

a

of

Plaintiffs written report regarding EEOC's permission to sue and EEOC's right9

ds; nor was she

to-sue letter and when Plaintiff received EEOC's affiiiiied recor

t or oral argument

given a chance to present her facts in a hearing in District Cour

curiam opinion to

in this Court. Nevertheless, panel• leader Judge Motz created the

ng or requesting a

deny her appeal without requesting a vote/ poll for initial heari

tiff's petition for

poll to rehear this case en banc prior to receiving the Plain

on for rehearing

rehearing and rehearing en banc. Instead, after receiving the petiti

use of the biased

and rehearing en banc that Plaintiff filed with the Court beca

t, or a panel of

review and conflicts in the curiam opinion, a judge of the Cour
judges led by Judge Motz, or Judge Motz herself, requested a poll

to be taken from

ition, to determine

the rest of the judges of this Court, which is not required cond

whether the case will be reheard under Fed. App. P. Rule 35(f)

and local Rule

35(b). Fed. App. P. Rule 35(f) instructs " A vote need not be taken

to determine

whether the case will be heard or reheard en banc unless a judge

calls for a vote."

And local rule 35 (b) states " A poll on whether to rehear a case

an banc may be
t or by a senior

requested, with or without a petition, by an active judge of the Cour

nally. Unless a

or visiting judge who sat on the panel that decided the case origi
judge requests that a poll be taken on the petition, none will be

taken. If no poll is

requested, the panel's order on a petition for rehearing will bear

the notation that
tiff's informal

no member of the Court requested a poll." It is known that Plain

l-leading judge

briefs are only reviewed by assigned panel judges and the pane
10

tri 23/
suggests the Court for a oral argument or initial hearing and writes a decisi

on

of the

which directs the Court's order. It would not be reasonable for a chairman
Congress to request that other Congressman vote for a bill without giving

them a

chance to hear or review that bill, nor is it reasonable for any judge of the

Court,
n, or

without reviewing Plaintiffs informal brief and related documents and petitio

on of

only based on the biased abstract and curiam opinion derived from the decisi

taken

the panel of judges (which led to Plaintiffs petition), to request a poll to be
from other judges of the Court (without providing these judges sufficient

time to
r oral

review Plaintiffs informal briefs and petition, or participating in his/he

argument) on that Plaintiffs petition, especially when judges of the Court

are
ted

overloaded with other cases assigned to them. Therefore, it should not be expec
for a poll to be taken from other judges of the Court to determine whether to
case or rehear that petition. Furthermore, it is important to note that it is not

hear a

needed

or pre-required condition in the Court to determine whether to hear a case or

rehear

a petition en banc under Fed. App. P 35 (f) and local rule 35 (b) unless a judge

of

extra

the Court or a judge from the panel of the Court hopes to set up a barrier and

on to

difficulty in order to block Plaintiffs petition to be reheard en banc in additi
denial of his/her appeal.

It is clear, then, that the reason that Judge Motz (or a judge of the Court or
panel of judges led by Judge Motz) requested a poll to be taken was to set
11

up the

difficulty that prevented the Plaintiffs petition from being reheard en banc by
other judges of the Court, thus depriving Plaintiff of her right to receive relief
benefits. Obviously, the obstruction of justice is also indicated by the curiam
opinion in which the panel-leading Judge Motz inclined more towards depriving
Plaintiff of her civil rights to present evidence (which were concealed/omitted and
falsely stated by defendants; adopted by the District Court and affirmed by the
panel-leading Judge Motz) through the oral argument as desired by the defendants
(COA4 docket#27&12). Judge Motz's action is in direct conflict with the practice
and decisions of the Court, other Federal Circuit Courts and the Supreme Court,
which are in favor of unlawfully terminated-employee's relief benefits, as would
be granted through Plaintiffs petition for rehearing en banc (COA4 docket #29).
Plaintiff's appeal to be heard in the oral argument or initial hearing may reverse the
District Court's decision and her petition for rehearing en banc to be reviewed by
all eligible, active and participating judges of the Court in rehearing en banc may
vacate the previous panel's judgment and opinion led by Judge Motz. However,
this is not what Judge Motz wants to happen. It may be the part of driving force for
Judge Motz to direct the Court's denial of Plaintiffs appeal and petition for
rehearing and rehearing en banc.
Fourth, mooting her motion of concerns about the omitted and altered docket
records, (evidence of which are referred by Plaintiffs supplemental brief and
12

Aff
informal reply brief), resulted in the destruction of the evidence

to be reviewed and
tly or indirectly

heard during pending federal court proceedings, which direc

impartiality and

prohibit performing the leading panel's discretion with integrity,

and petition for

competence during legal proceedings of Plaintiffs appeal
rehearing en banc.

land state

These tasks related to claims of unlawful termination of a Mary

ation should all be

employee supported by federal funding due to workplace retali

ry of legal practice

performed and led by a judge who does not have a direct histo

Maryland State

for many years in Maryland associated with representing

se any "reasonable

employers as Assistant Maryland State Attorney General, becau

to panel leading

member of the public", knowing all the circumstances related

Judge Motz's history together, would readily conclude that

Judge Motz's

impartiality might reasonably be questioned. Because Judge Motz
curiam opinion to cover erroneous findings of facts, ruling on

led the biased

errors of laws, and
gs in the District

failure to provide due the process of law in judicial proceedin

al on 1/24/2019;

Court, and to direct this Court's denial of Plaintiffs appe

et records (COA4

prejudicially mooted Plaintiffs motion of concerns about dock

sted to present the

docket#17&27); dispensed oral argument which Plaintiff reque

evidence but defendant did not want (COA4 docket#10, 12&14);
requested a poll from other judges of the Court as extra barrier
13

and consequently

to deny Plaintiff s

petition for rehearing on 3/26/2019, she should had

been preside over this legal of

proceedings of the Petition for rehearing en banc.
d as the basis to move to

The mentioned judge in the reference (referre

ants' personal liberties and/or

litig
recuse) has in the past deliberately violated other

al protection to all litigants before

has wantonly refused to provide process and equ

the court or has behaved in a manner inconsistent

with that which is needed for

full, fair impartial hearings.
The United States Constitution guarantees an

unbiased judge who will

ion of all rights. The neutrality

consistently provide litigants with full protect

requirement helps to guarantee that life, liberty,

or property will not be taken on

of the facts or the laws. There
the basis of an erroneous or distorted conception
have been judges who recused themselves or

were recused by requests in this
n.

Court, and Plaintiffs case should not be an exceptio
C. Conclusion

WHEREFORE, Plaintiff respectfully moves and
Judge Motz remove and disqualify herself as the

prays that the Honorable

panel-leading judge in light of the

evidence stated above and that Plaintiff's petition

for rehearing en bane be heard

by Court's other judges pursuant to Fed. App. P 35

(a)&(f) and local rule 35 (b) "A

regular active service and who are
majority of the Circuit Court judges who are in
not disqualified may grant a hearing or rehearing
14

en banc".

Respectfully submitted

Dated April 1, 2019

Xiao-Ying Yu, pro se
Mailing address:
P.O. Box 293
Abingdon, MD 21009

15

IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
XIAO-YING YU,
Plaintiff-Appellant,
Case No. 18-1889

v.
MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET & *
MANAGEMENT,
SECRETARY DAVID BRINKLEY,

Defendants-Appellees.
* * *
* * * * * * * * * * * * * * * * * * * * * * * * * * *
AFFIDAVIT RELATED TO MOTION TO RECUSE

I am the Plaintiff-Appellant in this action, and I stated all these matters under oath.
of
My letter to Patricia S. Connor, Clerk and Chief Judge, Robert L. Gregory in U.S. Court
order
Appeals for the Fourth Circuit, motion to recuse, application for suspension of the Court's
, and
denying Plaintiff's petition for rehearing and rehearing en banc, referred supporting exhibits
affidavit filed on March 29, 2019 are true and correct.
Date: March 29, 2019

Respectfully submitted,
(
k.A0::YING YU, pro se

SUSSCRIBED AND SWORN to before me on

My Commission EXpires:

BHAWANA K. CHONA.
Notary Public
Harford County
Maryland
i! 26, 201t;

by

Xi Ck.0

L't •

27
PEALS
UNITED STATES COURT OF AP
FOR THE FOURTH CIRCUIT

, Richmond, Vii-EMia 23:19
1100 East Main Street Suite 501

April 12, 2019

LOCAL RULE 40(d) NOTICE

t Neall

No.18-188% Xiao-Ying Yu v. Rober
1:17-cv-0326.0-JKB
TO: Xiao-Ying.
We are in receipt of your motion filed

in this

ept for ti_mely petitions for rehearLnc:
exc
t,
tha
es
stat
d)
40(
le
Ru
al
Loc
rt's
This cou
of
er matters ancillary to the
oili
and
s,
tter
ma
fee
y
rne
atto
and
t
cos
en bane,
Supreme Court. the office of the clerk
the
h
wit
ari
tior
cer
of
t
wri
for
tion
an applica
the
requesting further relief in a case after
ers
pap
er
oth
or
s
tion
mo
e
eiv
rec
not
shall
or the "r 'e for filing. a petition for
ing
ear
reh
for
n
itio
pet
a
ied
den
has
rt
cou
rehearing has expired.
d), no further action will be taken is
40(
le
Ru
cal
Lo
of
s
ion
vis
pro
the
to
Pursuant
certiorari may be filed in the Office
of
t
wri
for
n
itio
pet
A
rt.
cou
this
by
this matter
States, .1 First Sheet, NE, Washington,
ited
Un
the
of
urt
Co
e
rem
Sup
rk,
Cle
of the
rt's en-Lry of jud=ent or. if a timely
cou
this
of
s
day
90
hin
wit
1,
000
43DC 205
l
s filed_ denial of rehearinc. Additiona
wa
in.g
ear
reh
e
ban
en
or
el
pan
for
n
petitio
e
of certiorari is available on the Suprem
t
wri
for
n
ng
itio
Fili
pet
a
on
n
atio
inform
from the Supreme Court Clerk's
or
gov.
un.
eco
ern
upr
,
w.s
v
,-,v
te.
bsi
we
's
Court
Office at (202) 479-3000.
Cathi Bennett, Deputy Clerk •
804-916-2702

April 16, 2019
Patricia S. Connor, Clerk and Chief Judge, Robert L. Gregory
U.S. Court of Appeals for the Fourth Circuit
1100 East Main Street, Suite 501
Richmond, VA. 23219
Re: Case No. 18-1889, Xiao-Ying Yu v. Robert Neal (1:17-cv-03260-JKB),
and equal
Plaintiffs request for Court's prohibition of deprivation of Plaintiffs property
law
under
justice
equal
protection rights and the obstructions of the Court's
Dear Clerk Connor and Chief Judge Gregory:
tion of
As you know, I filed multiple sequential documents requesting the Court's prohibi
3/26/2019 order.
the deprivation of my property and equal protection rights prior to the Court's
leading judge
My application for suspension of the Court's order, motion to recuse the panel
indicated the need of the
Motz and concerns about the Court's docket records filed on 4/1/2019
the Court's
Court to forbid the obstructions of the Court's equal justice under law and to control
rights under
docket records from being altered and omitted which deprived my constitutional
request
Fourteenth Amendment U.S.C. I am respectfully submitting my civil action and
40(d) Notice"
(including exhibits) in reply to Ms. Cathi Bennett's improper application of "Local
Court's
to intentionally deprive my property and equal protection rights and obstruct the
ment and Congress
executing the discretion under 42. U.S. Code section 1983, Fourteenth Amend
on.
enforcement power because of her misrepresentation, misinterpretation and retaliati
from
The certificate of service and compliance are enclosed. I look forward to hearing
d" by the
you and your attention to protecting my rights or privileges "secured or protecte
Constitution and U.S, law and Congress enforcement power is highly appreciated.

Respectfully submitted,

Xiao-Ying Yu, pro se

IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
XIAO-YING YU,
Plaintiff-Appellant,

Case No. 18-1889

v.
MARYLAND DEPARTMENT OF HEALTH,
SECRETARY ROBERT NEALL, and
MARYLAND DEPARTMENT OF BUDGET &
MANAGEMENT,
SECRETARY DAVID BRINKLEY,
Defendants-Appellees.

*

* * * * * * *
* * * * * * * * * * * * * * * *

* * * * * * * * * *****

REQUESTING THE COURT'S PROHIBITION OF DEPRIVATION OF
PLAINTIFF'S PROPERTY AND EQUAL PROTECTION RIGHTS
Plaintiff-Appellant, Xiao-Ying Yu, Pro Se., respectfully brings civil action
nt to
and requests that the Honorable Court prohibit the deprivation of rights pursua
l
42 U.S.C. §1983, Fourteenth Amendment's "Due Process of law" and "Equa
of
protection under law" and Congress's enforcement power for depriving a person
s
rights or privileges "secured or protected" by the Constitution or U.S. law (Screw
iff's
v. U.S. 325 U.S. 91, 98-100) and Fourteenth Amendment §5. In spite of Plaint
of
sequential documents filed with this Court requesting the prohibition
her
deprivation of her property and equal protection rights and the attention to
ce
concerns about the alteration of docket records and the concealment of eviden
prior to the Court's 1/24/2018 order, Ms. Cathis Bennett abused her discretion, (as
e"
the Plaintiff's case manager), by improperly using "Local Rule 40 (d) Notic
e
(4/12/2019), in favor of defendants, to deprive continually the public servic
employee of the Plaintiff's property rights without a mediation and a hearing in
1

the

both of District Court and this Court for the Plaintiff's discrimination and
retaliation charges filed with U.S. EEOC under Title VII, ADA and ADEA. In
support of this action, the Plaintiff states the following:
Plaintiff filed sequential documents with the Court for the prohibition
A.
of deprivation of her property and equal protection rights and concerns
about the docket records, prior to the Court's denials of her oral
argument and petition for initial and rehearing en banc. 1
Supreme Court has ruled that individuals may bring actions under 42
U.S.Code. §1983 to offer a "remedy... against all forms of official violation of
federally protected rights," Monell v. Department of Soc. Servs. Of City of New
York, 436 U.S. 658, 700 (1978).
The COA4 docket#7, 14, 17, 23&25 indicated that there are inconsistent, incorrect and
incomplete records in COA4 #1-4 which do not reflect the facts and the records transmitted from
the District Court to the Court between 8/2 and 8/7/2018. Also, the part of docket records of
COA4 docket#4 were altered and deleted. After Plaintiff filed her informal brief for 17 days
(COA4, docket#10) and re-addressed (10/15/2018) her need of oral argument in responding to
the defendants' request to deprive her oral argument right via their motion of extension, (COA4,
docket#14 v. #12), on 10/18/2018, Ms.Bennett entered COA4 docket#15 "Supplemental
assembled electronic record docketed". However, she failed to provide any additional
supplement transmitted by the District Court of Maryland on 10/16/2018 and only removed the
part of records which was transmitted by the District Court of Maryland to the Court on 8/7/2018
(district courtECF#53, Appendix#1) and was initially entered in COA4 docket#4. The Plaintiff s
7/26/2018 filed appeal with the evidence (regarding the defendant's interference of EEOC's
investigation provided by US EEOC-FOIA records), which the District Court of Maryland
refused to file and returned to Plaintiff although cashed her filing fee, but only transmitted part of
her 7/26/2018 appeal without the exhibits to the Court respectively on August 2 and August 6,
2018, were inconsistently stated in COA4 docket "Originating Court Information" and docket#1.
This was confirmed with USCA Clerk Ms. Gomez and Ms. Amy Carlhem; also evidenced by the
USCA4 Ms. Margaret Thomas's letter dated on 8/3/2018 (ECF #50). However, these transmitted
records of Plaintiff's 7/26/2018 appeal (without exhibits) from the District Court to the Court
(8/2&8/6/2018, ECF#48&52, Appendix#1) were not found in the entire of COA4 docket records
of Plaintiff's case 18-1889 file with two Court clerk officers' help when the Plaintiff visited the
Court and received a hard copies of records on 1/11/2019. On 8/6/2018, Ms. Bennett entered
COA4 docket#1, but failed to disclosure the transmitted records from the District Court to the
Court regarding two set of Plaintiffs notice of appeal on 8/2, 8/6 and 8/7/2018 and the Court Ms.
Thomas' response (8/3/2018) to intentionally cover the District court's prejudicial actions and
defendants' interference of U.S. EEOC's investigation (Appendix#1).
2 ,

42 U.S.Code §1983 "Every person who, under color of any statute..., any
citizen of the United States or other person within the jurisdiction thereof to

the

deprivation of any rights, privileges, or immunities secured by the constitution

and

law, shall be liable to the party injured in an action at law, suit in equity, or

other

proper proceeding for redress..."
It is important to note that in order to receive equal justice under law for her
claims of the deprivation of her property and equal protection rights under
l on
Fourteenth Amendment, Plaintiff, pro se, 2 after filing her initial appea
their
7/26/2018 and updated appeal on 8/7/2018 with the District Court as
t#7,
instruction, she has filed sequential documents with this Court (COA4 docke
by CDC funding and
Plaintiff, Asian American pro se, was Maryland State employee supported
and
was terminated without mediation within two months after she filed discrimination
initiated and
retaliation complaints with EEOC under Title VII, ADEA and ADA which was
Maryland
in
r
manage
Union
The
Barra.
promoted by Plaintiff's former supervisor, Ms. Sara
ing the
inform
t
withou
Department of Health participated in the decision of the termination
, COA4,
Plaintiff (see Plaintiffs complaints, District Court's record ECF#4, exhibit 33&34
f's written
Plaintif
(1)
are
facts
these
and
ed
docket#4). The evidence were prejudicially neglect
with the
filed
claim
initial
report regarding EEOC's permission to sue accompanying with her
t Court
Distric
the
District Court and a hard copy of EEOC's right-to-sue letter were received by
#1, and COA4
(docketed 11/6/2017 and 3/22/2018, ECF#1, attachment#1 and ECF#20, exhibit
ants failed
defend
(2)
ix#2);
Append
#4) prior to the District Court's dismissal of her claims, (see
U.S. 254)
397
Kelly,
v.
to provide a evidential pre-termination mediation or hearing, (Goldberg
under the
and did not submit any legitimate non-retaliatory reason for their adverse actions
er's Eleventh
McDonnell Douglas Scheme; and (3) Congress abrogated State employ
a hearing and pregiven
been
never
has
f
Plaintif
int.
compla
ADA
Amendment Immunity for
her claims and
direction of the District Court's decision prior to the District Court's denial of
of subject matter
lack
of
reasons
false
deprivation of her civil rights and property right due to the
int and
compla
ADA
to
jurisdiction, failure to state the cause of claims and State's immunity
argument,
oral
of
closure of her by Federal District Court of Maryland, no was she given a chance
decision denying
initial hearing and rehearing en banc by this Court to affirm the District Court's
of law" and
her claims and her petition which violated Fourteenth Amendment' "Due process
'equal protection under law" (Appendix#3).
3
2

10, 14, 17, 23&25) between Sept 4, 2018 and Jan. 16, 2019 prior to the Court's
1/24/2019 order, including concerns about the alteration of the Court's docket
records and the concealment of evidence. These documents indicated that Ms.
Bennett's failure to file the Court's docket records for those events and the
transmitted records to the Court as required by Fed. R. Civil P. Rule 79. "Records
kept by the Clerk" in favor of defendants was not an occasional mistake. It also
demonstrated that Ms. Bennett intentionally and constantly made the false
statements, inconsistent and incomplete records to make it difficult for Court to
review and to understand, also willfully concealed the evidence of the Federal
District Court of Maryland's prejudicial actions and the defendant's interference of
U.S. EEOC's investigation from the Court's review (which Plaintiff filed on
7/24/2018, but was returned; she re-filed with her initial notice of appeal on
7/26/2018 which was also returned, and finally she re-submitted it with her
updated notice of appeal and was transmitted by the District Court to the Court on
8/7/2018, Appendix#4 see CD4 docket#18, entered 10/18/2018; and Appendix#5,
see COA4, docker#4&18). However, Plaintiff's motion for concerns about the
docket records was mooted, and her request to present facts of the deprivation of
her constitutional rights via oral argument was dispensed as defendants' desire
(expressed COA4 docket#12&14) by the panel leading judge Diana Gribbon

4

Motz' s3 curium opinion which biasedly directed the denial of Plaintiff's

appeal on

1/24/2019. These actions obstructed the Court's executing discretion in equal
's

justice, deprived Plaintiff's property rights and violated Fourteenth Amendment
"Due process of law" and "Equal protection under law".

l
Consequently, between 2/6/2019 and 4/1 /2019, in responding to the willfu
progressive deprivation of her property and equal protection rights led by the Judge
iff

Motz and false statement made in the docket records by Ms. Bennett, the Plaint
respectively submitted: 1) her petition for initial hearing en bane, (which she

was

never provided, docket# 28), rehearing en bane (docket#29), mandate (#31&33)
the Court's instruction, and motion for relief due to lack of being provided

as

any
n

information and chance related to initial hearing en bane and mooting her motio

d in

for concerns about docket records and related evidence while which are referre
her informal reply brief and supplemental informal brief (docket#36); 2)

the

application for suspension of the order denying the petition for rehearing

and
f

rehearing en bane; 3) motion for the panel leading judge Motz to recuse hersel
from Plaintiff's case (COA4, docket#38); and 4) the letter to the Court's Clerk

and

l with similar
Motz has worked for 14 years in Assistant Maryland State Attorney Genera
position of
the
in
responsibilities like Mr. James Nelson Lewis to represent defendants' interest
med to
Assistant State Attorney General for Maryland Department of Health; is accusto
create biased curiam
representing Maryland government employers' interests; and led a panel to
f's appeal and
Plaintif
the
of
denial
Court's
opinions including this case which directed the
for rehearing
petition
fs
Plaintif
see
petition for rehearing en banc in favor of defendants, (please
records,
docket
and rehearing en banc, COA4 docket#27&29; her motion for concerns about
ent) and deprived
COA4 docket #17; and Plaintiffs motion to recuse, see separate filing docum
ment.
the Plaintiffs property and equal protection rights under Fourteenth Amend

3 Judge

5

Chief Judge. In these documents and related exhibits, Plaintiff stated the necessary
of suspension and recuse for prohibition of the obstructions of the Court's equal
justice under Fed. App. P. Title 1, Rule 2, USC 28, Chap. 21 § 455, and Marshall v.
Jerrico Inc., 446 US 238, 242, 100 S. Ct. 1610, 64 L. Ed. 2d 182 (1980); reemphasized her request that the Honorable Court prohibit the deprivation of her
property and equal protection rights (for the Court's convenience to review, see
attached appendix); and control the docket records in the Court from being altered
and omitted; and to provide Plaintiff equal protection of all rights, (which was
deprived by the obstructions of equal justice), based on "due process of law" and
"equal protection" of Fourteenth Amendment U.S.C.
B.

Ms. Bennett's 4/12/2019 action obstructing equal justice under law to
deprive Plaintiff's property and equal protection rights, and violating
the First and Fourteenth Amendments U.S.C. should be reversed.
Nevertheless, Ms. Bennett, instead of recusing herself from this case based

on the facts stated above, abused her discretion to interfere with the Court's
prohibiting the deprivation of Plaintiff's property and equal protection rights, by
filing "Local Rule 40 (d) Notice" and stating "pursuant to the provision of Local
Rule 40(d), no further action will be taken in this matter by this Court." Also, Ms.
Bennett wrote the docket#39, "Notice issued re: further consideration unavailableLocal Rule 40(d). Document [38] Motion to reve decision on appeal [38], Motion

6

vacate decision on appeal [38], Motion to disqualify/recuse judge [38], Motion to
suspend [38]."
The Local Rule 40 (d) stated "the office of the clerk shall not receive motion
or other papers requesting further relief in a case after the Court has denied a
petition for rehearing or the time for filing a petition for rehearing has expired." It
suggest that applying "Local Rule 40(d)" required two conditions: 1) Plaintiff
requesting further relief; and 2) filing further relief after the court's denial of
petition.
First, Ms. Bennett biasedly misrepresented and misinterpreted April 1, 2019
as the date of Plaintiff's filing the request for the remedy of damages by
deprivation of rights under 42 U.S. C. §1983 and Fourteenth Amendments. In fact,
the request for relief was initially filed on 11/2/2017 (although part of her initial
complaint filed with the District Court transmitted to the Court were missing,
COA4, docket record#4, JS44. p. 18, updated complaint filed on 12/8/2017, p.3335), and then the evidence of the deprivation of her property and equal proteCtion
rights were sequentially re-addressed between 9/4/2018 and 2/13/2018 filed with
this Court. Please see Appendix#6 (COA4, docket#7, 10, 14, 17, 23, 25, 29,
31,33&36). Second, Ms. Bennett neglected the fact that there was never been any
consideration of Congress' enforcement power for depriving a person of rights or
privileges "secured or protected" by the Constitution or U.S. Law (Screws v. U. S.
7

325 U.S. 91, 98-100) in the Panel leading Judge Motz's curium opinion or her
requesting a poll to be taken from other judges of the Curt as a barrier to block the
Court's equal justice under law for Plaintiff's appeal and petition. This was the
major reason and focus that Plaintiff filed (4/1 /2019) her consequential application
for suspension and motion to recuse indicating the necessary for Court to forbid
obstructions of the Court's equal justice under law by having the panel leading
judge Motz to recuse herself from the Plaintiff's case and by controlling the
Court's docket records from being altered and omitted which, of cause, would lead
to the Court's executing "due process of law" and "equal protection under law"
during judicial proceeding previously requested by the Plaintiff prior to the Court's
3/26/2019 denial of her petition. Third, obviously, there is no any further
relief/remedy stated in the suspension, or motion to recuse or the letter to the Court
Clerk and Chief Judge even though the Plaintiff suspected Ms. Bennett's false
statements in the docket #37 as the retaliatory action. Therefore, these documents
Plaintiff filed on 4/1/2019 (COA4 docket#38) did not meet any of these two
conditions as Ms. Bennett's desire in favor of defendants for her to apply Local
Rule 40 (d); nor was any reason there for Ms. Bennett to make the wrongful
statement "no further action will be taken in this matter by this Court" and "further
consideration unavailable". According to Congress enforcement power "In
constitutional law, the name for a provision that expressly authorizes Congress to
8

fr

zv-7

enforce a constitutional amendment through appropriate legislation" which
including "due process law" and "equal protection", it was unlawful action that Ms.
Bennett misapplied "Local Rule 40 (d) to block the Court's executing their
discretion in providing the Plaintiff equal justice, (which was prejudicially
obstructed by the panel judge Motz since 1/22/2019, see footnote#2 and COA4,
docket #26, 27&38), under 42 U.S. C. §1983, Fourteenth Amendment's "Due
Process" and "Equal Protection" and Congress enforcement power. Furthermore,
the Plaintiff did not file four motions as Ms. Bennett stated in the docket#39
(please see COA4, docket#38).
C.

Ms. Bennett's 4/12/2019 is additional retaliatory attempt to deprive the
Plaintiff's property and equal protection rights.
If Plaintiff had only filed a simple motion to reconsider a further

relief/remedy after the Court's denial of her petition for rehearing en banc; or if she
had never filed those sequential documents as stated above, regarding the damages
to her property and equal protection rights (foortnotes#2) and her concerns and
requests for the Court's attention to the concealment of evidence prior to the
Court's 3/26/2019 order, which indicated that Ms. Bennett intentionally obstructed
Court's equal justice under law, especially on Oct. 18, 2018 in favor of defendants

to deprive the Plaintiff's property and equal protection rights (see the footnote No.
1, related COA4, docket# 14, 10, 15,17,23&25), it would have been reasonable for
Ms. Bennett to file "Local Rule 40(d) Notice" and state "further consideration
9

unavailable" (COA4 docket#39). However, the fact is that the Plaintiff filed her
sequential concerns and consequential application for suspension, motion to recuse
and the letter to the Clerk Patricia S. Connor, and Chief Judge, Robert L. Gregory'
providing the evidence of the willful obstructions of the Court's equal justice under
law and re-addressing her request for the prohibition of deprivation of her property
and equal protection rights. Given that all of this evidence occurred in the Court
together, it cannot be ignored that Ms. Bennett, as professional clerk for Plaintiff's
case manager, knowing her own motivated purpose and the Court system's
regulation, intentionally altered docket records and concealed the evidence, (which
are related to the District Court's prejudicial actions and defendant's interference
of U.S. EEOC's investigation of the workplace age, racial, national origin and
disability discrimination and retaliation); and she constantly made false statements
in the Court's docket records to obstruct the Court's equal justice under law, even
prior to the panel judges' review; neither can it be neglected that in order to cover
previous obstructions of the Court's equal justice and retaliate against the
Plaintiff's multiple documents filed with the Court regarding the concerns about
the docket records, Ms. Bennett's further action on 4/12/2019 was willfully to
violate continually the constitution and federal law by preventing the Court from
executing the discretion under Fed. App. P. Title 1, Rule 2, USC 28, Chap. 21 §
Plaintiff's letter includes Plaintiff's suspicion of Ms. Bennett's retaliation against her' pre-filed
motion for concerns about the docket records.

4

10

455, Fourteenth Amendment U.S.C. and 42 U.S.C. §1983 to reinitiate the judicial
proceeding of Plaintiffs appeal for the damages due to the deprivation of her
property and equal protection rights, which was prejudicially disrupted and
interfered with by the panel leading judge Motz.
The First Amendment to U.S. C. "...Congress shall make no law respecting
an establishment of religion, or prohibiting the fee exercise thereof, or abridging
the freedom of speech, or of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress of grievances..."
Fourteenth Amendment to U.S. C. "No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States; no
shall any state deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of the
law..."
Plaintiff does not believe that Ms. Bennett's abusing her discretion and
improperly applying the "Local Rule 40(d) Notice" to deprive the Plaintiff's rights
and privileges "secured or protected" by the Constitution or U.S. law represented
the rest of clerks and judges of the Court.
D. Conclusion

11

WHEREFORE, according to 42 U.S.C. §1983, Fourteenth Amendment
§1&5, Congress enforcement power, Fed. App. P. Title 1, Rule 2, USC 28, Chap.
21 § 455, and Marshall v. Jerrico Inc., 446 US 238, 242, 100 S. Ct. 1610, 64 L. Ed.
2d 182 (1980), it is warranted that the Court's Clerk Connor, and Chief Judge,
Gregory prohibit the deprivation of Plaintiff's property and equal protection rights
and the obstructions of the Court's equal justice under law, which violated the
constitutional and federal law and conflicted with the Supreme Court's decision to
offer a remedy (Monell v. Department of Soc. Servs. Of City of New York, 436 U.S.
658, 700 (1978)), based on the evidence demonstrated by Plaintiff's sequential and
consequential documents filed with the Court under Title VII, ADA, H.R. Rep. No.
101-485 (II), at 37 (1990) and 42 U.S.C. § 12202 (Congress' clear abrogation of
Eleventh Amendment Immunity in suits under ADA); Section 504 of
Rehabilitation Act, 29 U.S.C. §794 (b), incorporating 42 U.S.C. §2000d-4a (State's
receipt of qualified federal funds which means State automatically waives their
Eleventh Amendment Immunity to law suits under ADA) , Fourteenth Amendment
U.S.C. § 1&5 and 42 U.S.Code §1983.
Respectfully submitted,

iao-Ying Yu, pro se
Mailing address:
P.O. Box 293,
Abingdon, MD 21009
12

Case 1:17-cv-03260-JKB Doc

1 Filed 12/08/17 Page 23 of 190-K131/7--CV-3260

HEART DISEASE, OBESITY AND ASSOCIATED
2013-2014 STATE PREVENTIVE HEALTH ACTIONS TO PREVENT AND CONTROL DIABETES,
RISK FACTORS AND PROMOTE SCHOOL HEALTH

BALTIMORE-NIGHT

CDC RFA-DP13-1305
BUDGET DETAIL AND JUSTIFICATION
COMPONENT I - BASIC
07101/13 - 08/30/14

BOX

2017 DEC -8 PM

LI: 23
:
204K
jatnlat§WS4FLNaZiESMS\
RUPTCY COURT
.VEMNAK
; M.Ing7,=r
ELISEWS4IWASSM
disTPtc -r OF
Annual

Position Title and Name

51,055

Program Coordinator
Adelline Ntatin

Time

Months

100%

12

.11:RYt AND

Amount Requested

$

51.055

Actions to Prevent and
Job Description: The main purpose of this position is to supervise the Maryland State Public Health
including making
Control Diabetes. Heart Disease, Obesity and Associated Risk Factors and Promote School Health Program.
This position is responsible for
recommendations regarding program structure and services and serve as the federal/local liaison.
and training from
the strategic planning efforts of the program, as well as leading in the consultation/technical assistance,
This position also provides
grantees/contractors with the local health departments, Universities, and community organizations.
for the development and
technical assistance and programmatic direction to local health departments and other organizations
evaluation of Chronic Disease prevention and control activities.
100%

47,424

Policy Analyst
Katie Jones

47,424

12

health policy and planning
Job Description: Duties are to lead, support monitor, and coordinate a wide range of complex strategic
researching and
analyzing,
evaluating,
on
emphasis
particular
with
efforts,
wellness
worksite
statewide
to
related
activities
and stroke in the State of
developing policies and programs that address the public health challenges presented by heart disease
Maryland
Epidemiologist
Xiao-YIng Yu

$

100%

55,753

58,753

12

and analyzing data to
Job Description: Provide population-based epidemiological support for the Program, including processing
data systems to assess
determine changes in trends and probable causes of epidemiologic problems, identifying existing
of evaluations
morbidity arid mortality associated with chronic diseases, leading the deisgn, data collection and analysts
measures.
prevention
or
control
of
evaluation
and
implementation
and
initiatives,
programmatic
with
associated

- Total Salaries

157232
FICA (based on salary)
Retirement (based on salary)
Health Insurance (per person)
Retiree's Health (per person)
Unemployment Insurance (based on salary)
Total Fringe

7.31% 3
14.35% $
8,887 $
4,977 $
0.28%

11,494
22,563
26,661
14,931
440
76,089

4WW~VMETWAVaralaggiEWEERNMEMMECMPailgra4TaIEWie
..rAT
In-State Travel:

1,413

may be incurred
In-State travel is needed to cover the costs of local trips over the year for two staff. In-State travel expenses
assurance activities related to
during trips for meetings, community activities, network and partnership development, and quality
the program.
25 trips x 100 miles avg.

2.500

miles at

0.565 $
per mile

1,413

•
62 USCA4

103 17CV-32.6a

ent 4-1 Filed 12/08/17 Page 24 oP

Case 1:17-cv-03260-JKB Docum
22.626

Out-of-State Travel:

•

r capabilities of
that will enhance the knowledge and/o
the expenses of mandatory meetings
cover
t Disease, Obesity
to
ed
Hear
need
tes,
is
l
Diabe
trave
rol
tate
Out-S
nt and Cont
State Public Health Actions to Preve
the
ge
mana
tively
ed:
effec
includ
more
sted
to
program staff
Expense dollars reque
ote School Health Program in Maryland.
and Associated Risk Factors and Prom
t of health
representation by the state departmen
in March, 2014 in Atiantaand includes
ing
meet
ation
tation
educ
orien
state
an
d
the
atten
tor,
to
Nine staff
Chronic Disease Direc
ol health, heart disease, diabetes, the
leads for nutrition, physical activity, scho
lead:
tion
unica
comm
the
and
ator,
evalu
agency school health lead. FOA
4,050
$
150 night x 3 nights x 9 people
1.188
$
Lodging:
44 day x 3 days x 9 people
2,250
$
Meals:
250 x 9 people
3.150
$
e:
Airfar
675
350 x 9 people
$
Registration:
7S x 9 people
11.313
$
$
ous:
llane
Misce
te meeting TBD:

Nine staff to attend the program upda

150 night x 3 nights x 9 people
44 day x 3 days x 9 people
250 x 9 people
350 x 9 people
75 x 9 people

Lodging:
Meals:
Airfare:

Registration:
Miscellaneous:

$

4,050
1,188
2250
3,150
675

$

11,313

11ib-.,272
'-'s'-SSIEgaigiWillESSET46111
tig;
- 02AM
iglx;614.4.4.4P1A

3,,o3fxot

etc.) for 5 staff rg.
General office supplies (pens, pencils,

1,250

$250 each

nth budget
Program's Work Plan for this twelve-mo
out activities included in the Maryland
, printer
carry
disks
to
uter
ed
comp
need
are
per,
lies
fax
and
supp
uter
Office
comp
d to stationery, writing instruments,
limite
be
not
may
but
e
includ
Items
period,
ing materials.
cartridges, labels, envelopes, and meet
676
Materials
This will
Health education and Communiction
loped and outreach efforts carried out.
deve
be
will
in
doma
each
to
ific'
rces spec
, updating
resou
ation
and
inform
rials
mate
ation
n
educ
catio
umer
muni
Com
land specific cons
en and online) and printing for Mary
of health messages while creating
ry
delive
Include: material development (writt
for
ort
supp
re
ensu
to
technical assistance
online materials twebsite) and providing
healthier food environments.

77,318

B)
ersityof Maryland, Baltimore (LIM
University
Univ
Erica Smith
Name of Organization:
Method of Selections:
Period of Performance:
Scope of Work:

V

. 71ARN:.417:11WW-MILWAT
NEWL45

-

University of Maryland, Baltimore
Source Contract
Memorandum of Understanding/Sole
12 months
ntion's evaluation

-fa Center for Chronic Disease Preve

to 0HW
UMB will provide staff support
and/or technical advice
atic initiatives and provides scientific
efforts associated with programm
also manage daily operations
program delivery. Staff will
ight of
and assistance to resolve barriers to
) components. including contract overs
(COO
se
Disea
nic
Chro
ed
rol.
of all Coordinat
rtment of Cancer surveillance and Cont
Depa
the
with
n
oratio
collab
in
integration activities

Method of Accountability:

Justification:

ssful completion
UMB will be paid quarterly upon succe
t
rtmen
reports to the Depa
Staff is required to provide evaluation
Salary
Fringe Ce 31.67%
Sub-total
Indirect 7%
Total

$

of activities, invoices, arid progress

support to complete program activities.
54,880
17.380
72260
5.058
77,318

63 USCA4

STATE OF MA.RYLAND

,v;-J KB Document 4-1 Filed 12/08/17f- Pao,e.$9 9f-,1P$ M-17-a-32-6°
e,1:13-cv-03261
207nfiand-- 26.-

0 Ai
11.

Maryland. Department of Health and Mental Hygiene
Martin O'Malley. Governor - Anthony G. Brown. Lt. Governor - Joshua-M. Sharfstein. N4.11., Secretary

Prevention and Health Promotion Adniin
Michelle Spencer, MS, Director
Donna Guael, MHS, Deputy Director
1iise D. Marrazzo. RN. BSN, MPH. Director. Maternal and Child Health Bureau
Deborah B. McGrudcr, MPH. PMP. Director. infectious Disease Bureau
Clifford S. Mitchell MS. MD. MPH. Director, Environmental Health Bureau
Donald.Shell. MD. MA. Director; Cancer and Chronic Disease Bureau

INTERNAL MEMORANDUM
TO:

Xino-Ping Yu

FROM: Sara Barra %
DATE: March 31.2014
RE:

•

Further clarification of appropriate work contacts

The purpose of this memo is to reiterate appropriate and inappropriate work contacts.
You are a State of Maryland employee assigned to work on CDC State Public Health Actions (1305) grant
in Maryland; you are not a CDC employee nor is the CDC in your chain of command. As an employee of
the State of Maryland, you have been given a MS-22, which documents your work responsibilities and
includes the appropriate level, frequency, and purpose of work contacts. Your current MS-22 was signed by
Michelle Spencer; PHPA Director on July 24, 2013, which supersedes all previous MS-22s.
In your MS-22, you were given .a list of appropriate daily contacts, such as your supervisor, CCDPC staff,
the CCDPC Medical Director, and the CCDPC Director. In the same MS-22, you were also given a list of
contacts that you should only contact as requested by your supervisor, the CCDPC Medical Director, or the
CCDPC Director. This list includes:
Cancer and Chronic Disease Bureau Director
PHPA Director and Deputy Director
PHPA/DHiMH Program. Directors
Other DHMH staff
Local Health Officers and Local Health Department staff
MSDE. University of Maryland, and other State agencies, as well as
Entities external to DHMH
CDC, NACDD, ASTHO, and any other funders/potential funders)

•

The Centers for Disease Control and Prevention and the National Association of Chronic Disease Directors
are external entities to DI-EvIH and should only be contacted upon the request of your

201 W. Preston Street. Baltimore. Maryland 21201
410-767-6742 • Fax 410-333-5995
Toll Free 1-877-4N1D-DHMH • TTY for Disabled
Maryland Relay Service 1-800-735-225S or 711
If'eb Site:

500 N. Calvert Street. 5' FL Baltimore. Maryland 21202
410-767-5227 - Fax 410-333-6333 • Toll Free 1-800-358-9001
1-800-201-7165 Voice for Disabled
Maryland Relay S-vice 1-800-755-2255 or 711

hrardIoNaa.dhmh.marvland.eav

128 USCA4

Filed 12/08/17 Page 9.Terf if3eitYu APPIDP6AY`iPik7-CWekcri43 Document 4-1

Page 2

2.57f.

C0776:nt-

3260
- o

your role on the 1305 team, I direct
supervisor, the CCDPC Medical Director, or the CCDPC Director. In
conference calls specific to
you to participate as a team member on NACDD and CDC webinars and
epidemiology and evaluation for this grant.
represent the CCDPC professionally
It is critical that all staff work collaboratively on our CCDPC team and
D outside of webinars and
internally and externally. If you continue to contact CDC and/or NACD
isor, the CCDPC Medical Director, or
conference calls without being directed or requested to by your superv
the CCDPC Director, progressive discipline will ensue.
All questions and clarification on this matter should be directed to me
contacts.

on appropriate and inappropriate

•
129 USCA4

Filed 12/08/17 Pagset.tiljett3 3240
Case 1:17-cv-03260-JKB Document 4-1
(7' 10'
Cotaint--Ex -Pq
- <xiao-

o-Ying Yu -DHMH
On Fri, Apr 18, 2014 at 2:02 AM, Xia
Ving.vuamarvland.qov> wrote:
Hello, Sara,

afternoon
this communication meeting in the
As your invitation, I have attended
You stated that
d your memo dated on 3/31/2014.
eive
rec
and
.
p.m
:30
4-4
at
014
4/15/2
invitation, but you
1/2014 (Friday my e-mail) in your
the meeting is only related to 4/1
ricia Schumacher
ut the e- mail I sent to CDC Ms. Pat
addressed during the meeting abo
for 1305 program
on 2/26/2014 with CDC guidance
list
il
e-a
her
ck
che
to
014
1/2
3/1
on
viously
ort and working plan because I pre
rep
ss
gre
pro
,
tion
lua
eva
gy,
iolo
epidem
received her e-mail.
ever rjust
. after our meeting on 4/15/2014, how
i received your memo at 4:30 p.m
our office in the
3/31/2014, which I have scanned in
as
ed
dat
mo
me
r
you
t
tha
d
of
lize
rea
bor and Mr. McNally in the midnight
Yar
Mr.
on
Uni
t
sen
and
014
5/2
4/1
evening of
4/15/2014.
version of MS22
changed final revised and signed
In. your 4/15/2014 memo, you
edited MS22 on
sion
tacts back to your initial ver
(7/24/2014) in the description of con
page 3 of your
all list of contacts (I made edits on
6/12/2013 with your restriction for
MS22
ce you stated that your final revised
Sin
.
22)
MS
of
sion
ver
ised
rev
al
initi
new director
. Kristi Pier came our office as our
Ms
and
s,
-22
MS
s
viou
pre
all
s
memo
supersede
the MS22s you mentioned in your
ch
atta
to
ter
bet
is
it
s,
hap
per
,
nth
only half mo
ail for revising
between my responding your e-m
4/15/2014. please see the difference
I also would
22.
7/18/2013 and final your signed MS
(1/2011)
MS22 with my e-mail and edits on
epidemiologist I in 2009) and MS22
was
I
en
(wh
22
MS
al
initi
the
ch
atta
like to
2) level,
references to compare: 1) job duties,
when I was epidemiologist II as the
.
rds
tacts and 3) performance standa
frequency and purpose of work con
s, CDC and
you, my co-workers, DHMH leader
ng
udi
incl
w
kno
one
ry
eve
as
t,
almost
In fac
programs, I have been working for
es
bet
dia
and
SP
HD
to
ted
rela
NACDD officer
ernal various
and participated in internal and ext
4 years according to previous MS-22
Audrey Regan
encouragement by ex-directors Dr.
with
ts
tac
con
all
ugh
thro
es
iviti
tracts for
act
ce programs, presentation and abs
offi
our
to
efit
ben
to
ll
She
ald
Don
and Dr.
s.
blem as you initiated in your memo
further publications without any pro
Best regards,
Xiao-Ying

•
130

USCA4

12/08/17 Page
Case 1:17-cv-03260-JKB Document 4-1 Filed

93-(81?? ex,3240
Camlah4= Ex-fg2.

Exhibit 23c.
ase at program staff meeting in March
Because Ms. Yu requested to access the medical care datab
. Then, Ms. Barra generated
2014 as other co-workers, she was interrupted by Ms. Barra
ing condition and interfered with her
additional internal memorandum to restrict Ms. Yu's work
the personnel meeting with her and new
job on 3/31/2014. Ms. Barra required Ms. Yu to attend
her internal memorandum. Ms. Yu
office director, Ms. Kristi Pier on 4/1 5/2014 and released
did not hear Ms. Barra's response for a
wrote the clarification to Ms. Barra on 4/18/2014 and she
(who attended the mitigation meeting
week. So, she wrote email and sought DINE managers'
help and protection on 4/25/2014. Ms.
on 4/22-23/2014) and Union representative and director's
action.
Barra retaliated against Ms. Yu and initiated 4th disciplinary
Forwarded message
>
-Ying Yu -DHMH- <xiao-ying.yu@maryland.gov
Xiao
:
From
Date: Fri, Apr 25, 2014 at 11:22 AM
Apr 15, 2014 4pm - 4:30pm (xiaoSubject: Re: Invitation: Communication meeting @ Tue
sent to me at the communiaction meeting
ying.yu.@maryland_gov)-Urgent: respond for the memo
Kristi Pier -DHMHTo: Sara Barra -DHMH- <sara.barra@maryland.gov>,
<donald.shell@maryland.aov>, Richard
<kristi.pier@maryland.gov>, Donald Shell -DIIMH>, "gyarbor@rncea.org"
Stringer -DHMH- <richard.stringer@maryland.gov
e.com>
<gyarbor@mcea.ora>, Michael McNally <mmmbjm@liv
Dear all,

•

Barra as of 4/1 5/2014 (at the
I am in receipt of the internal memorandum from Ms. Sara
like to clarify some problems with this
Communication meeting but dated 3/31/2014). I would
memorandum:
for Maryland 1305 basic and enhanced
1. As a full time state employee working epidemiologist
visor about CDC instructions related to
program, 1 should be provided by Ms. Barra, my super
ed to participate all activities of 1305
the evaluation plans and performance measures and allow
by CDC as the core domain working
program as epidemiology and surveillance is instructed
6/2 014 e-mail and attached
through the domain 2, 3 and 4 (stated in CDC officer 2/2
to 1305 program to my co-workers
documents). Ms. Barra provided all information related
to me that I reported to CCDPC
including the evaluator except me as she always has done
stated that "you are not a CDC
director and Union since last year. However, Ms. Barra
intentionally create the confusion to
employee nor is the CDC in your chain of command" to
by using "cross chain of command"
mislead CCDPC, CCDB, PHPA and DHMH leaders again
o on 10/10/2013 to prevent me from
she has frequently used since 1/2013 as well as the mem
clarify, I have only checked CDC about edoing the job duties as revised MS-22. Therefore, Itohave
received e-mails and communicated
mail list on 3/11 /2014 from the CDC officer, who
lately. I have not reported detail about
with in the past but have not received e-mails from her
and e-mail list is not related to "cross
1305 project work to CDC anyone. Checking references
job for ex-CCDPC directors in the past
the chain of command" as Ms. Barra stated. Doing my
s and information to CCDPC director"
was based on "Daily to weekly provide recommendation

1
131

USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed
217

12/08/17 Page 93(Rb1p- av_ 3,267,

Cov,itsr

- 1993

"Reporting to next level of management
(which is stated in my previous and current MS-22).
r, Ms. Barra is my employee right
when I have had issues with my immediate superviso
. This, however, has intentionally been
(as instructed by Union Labor specialist on 10/18/2013
ent" and consequence result: seeking
turned up and down and confused "cause-unfair treatm
and".
protection" and manipulated as "cross chain of comm
2 (7/24/2013) that "supersedes all
Ms. Barra addressed the contacts in the signed MS-2
's revised MS-22 deleted all projects in
previous MS-22s." This is not true because Ms. Barra
ssional duties and skills, and restricted
performance standards, major epidemiologist profe
te, exchange, educate, and dismiss public
epidemiologist basic working conditions to communica
cted by this memo).
health information (this is also addressed and restri
2, you were also given a list of contacts
Ms. Barra addressed in the memo "In the same MS-2
rvisor, the CCDPC Medical director, or
that you should only contact as requested by your supe
Chronic Disease Bureau Director, PHPA
the CCDPC director. This list includes: Cancer and
directors, Other DI-LMH staff, local health
director and deputy director, PHPA/DHMH program
external to DI-LivlH (e.g. MSDE, University
officers and local health department staff and Entities
, NACDD, ASTHO, and other
of Maryland, and other State agencies, as well as CDC
ized and revised MS-22, Ms. Ban-a has
funders/potential funders)". This is not true. In final
ical director, or the CCDPC director" and
deleted "as request by supervisor, the CCDPC Med
recommendations and information" to
changed to only focusing on "as requested to provide
was after I have made some comments
various internal and external officers. This changes
ed MS-22 because none of my co-workers
about my work interfered by her restriction in the revis
interaction including myself since I have
and DHMH employee have been prevented from the
2s have already been forwarded to you
worked as "epidemiologist I" from 2009 (the 4 of MS-2
received your notice of disciplinary action). Ms.
on 4/22/2014 as reference immediately after I
PC, CCDB, PHPA and DHMH leaders
Barra has intentionally and frequently provided CCD
H to cover and defend her hostile
untruthful information and confusion to mislead DHM
nt practice and retaliation after I reported to
behaviors related to discrimination, unfair employme
ex-CCDPC director, Union and EEOC.
sted to provide information,
Ms. Barra confused the following: instead of "as reque
MS-22), Ms. Ban-a changed the restriction as
recommendations " to all contacts (stated in revised
ical director, or the CCDPC director" for all
"as requested by your supervisor, the CCDPC Med
only in her 6/1 2/2 013 revised version of
internal and external contacts in her memo. This was
2 on 7/24/2013.
MS-22 but not the current revised and signed MS-2
team, I direct you to participate as a team
Ms. Ban-a addressed that "In your role on the 1305
rence calls specific to epidemiology and
member on NACDD and CDC webinars and confe
ination with heart disease, stroke, diabetes
evaluation for this grant". However, 1305 is a comb
is core of evidence based public health
and all other risk factor, epidemiology and evaluation n, planning, monitoring, intervention,
practice which involving and including program desig
ting and separating epidemiology and
implementation, evaluation and policy making. Isola
tive impact on our office 1305 program,
evaluation connected with program will bring the nega
which has been instructed by CDC.

132 USCA4

Case 1:17-cv-03260-JKB Document 4-1

Filed 12/08/17 Page

P. 45?-

•

•

94va
It-Cv-3260
ejs7d4t44--

e9ic

munications in work related and personal
6. Ms. Barra created the confusion about the com
emiologists in public health -- not only during
friendship. Communication is the key for epid
to exchange information. Ms. Barra
webinars or conference calls but also after meetings
contact CDC and /or NACDD outside of
addressed it in her memo as, "If you continue to
ted or requested to by your supervisor, the
webinars and conference calls without being direc
ctor, progressive discipline will ensure." This is
CCDPC Medical Director, or the CCDPC Dire
ed working in DHMH chronic disease
not stated in the revised MS-22. Since 2009 I start
program then soon for all chronic diseases
prevention and control for heart disease, stroke
all opportunities I have been given. I have tried
program including diabetes, I have appreciated
/CSTE invited/supported as well as our office
my best to represent our office as CDC/NACDD
DHDSP, CDC DDP and CSTE various
and DHMH supported to present our work at CDC
gh differ ways and all contacts without any
conferences and contributed to all activities throu
PC ex-directors. I have not heard any negative
restriction but encouraged and supported by CCD
partners related to our office and DHMH till
impacts I have brought to CDC/NACDD or any
with all restrictions. Some facts of negative
7/25/2014 Ms. Barra gave me the revised MS-22
DD, other organizations and partners have
impact on entities since 2011 including CDC, NAC
ting " on 4/21/2014. This is indicated that the
been reported to you before the "mitigation mee
,
other organizations are not from me. Therefore
negative impact on DHMH, CDC, NACDD and
me all restrictions in her revised MS-22 and in
I have not understood why Ms. Barra has given
it to me on 4/15/2014).
her memos on 10/10/2013 and 3/31/2014 (gave
on in the memo, my basic working conditions
In summary, because of the inaccurate informati
her effort to alienate me and create a hostile
have and continue to deteriorate. This is yet anot
would like to attach the memos dated on
working environment. For your convenience, I
impact including the current signed MS-22 (I
10/10/2013 and 3/31/2014, the summary of
me again on 4/2312014) as your reference.
received on 7/25/2013 and Ms. Ban-a sent to

er will be highly appreciated!

Your kind attention and consideration for this matt
Sincerely yours,
Xiao-Ying

•
A

133 USCA4

La-Lot

%../r

.2liatAt8,/ j cv, 32z
_r_3KB Document 4-1 Fi led 12/084:1a c

DrImr

Hygiene
Maryland Department of Health and Mental stein, M.D., Secretary.
n, Lt. Governor — Joshua M. Sharf

Martin O'Malley, Governor — Anthony G. Brow

in

Prevention and Health Promotion Adm
Michelle Spencer, MS, Director
Donna Gugel, MHS, Deputy Director

Maternal and Child Health 'Bureau
Ilise D. Marrazzo, RN, BSN, MPH, Director,
Infectious Disease Bureau
tor,
Deborah B. McGruder, MPH, PMP, Direc
onmental Health Bureau
Envir
tor,
Direc
,
MPH
Clifford S. Mitchell, MS, MD,
nic Dice Bureau
Chro
and
Donald Shell, MD, MA, Director, Cancer

INTERNAL MEMORANDUM
TO:

Xiao-Ying Yu

FROM: Sara Barra
DATE: May 20, 2014
RE:

Notice of Disciplinary Action Explanation

Gugel, the Appointing
of Disciplinary Action approved by Donna
This memo is an explanation of the Notice
en to and about me, your
writt
ils
meeting regarding inappropriate e-ma
Authority, at the May 16, 2014 mitigation
de personal information or
inclu
not
and
professional, courteous,
be
t
mus
ils
ema
ed
relat
k
Wor
r.
rviso
supe
immediate
of the email.
opinions that are not relevant to the topic
22. It is appropriate for me,
rating the need to follow your current MSreite
il
ema
an
you
sent
I
,
2014
23,
l
Apri
On
Disease Prevention and Control.
meets the need of the Center for Chronic
best
that
22
MSa
te
crea
to
r,
rviso
supe
your
must adhere to this MS-22.
ent and the Office of Human Resources; you
This MS-22 has been approved by managem
was inappropriate. Your
and Union representation on April 25, 2014
Your email response to me, management,
untruthful information to
n of intentionally and repeatedly providing
criticism of me as hostile and the insinuatio
should not be expressed through
ead is unprofessional and unacceptable, and
supervisors and fellow employees to misl
d property.
any communication sent on State of Marylan
inappropriate or defamatory.
ion Security Policy v3.1 (p 30-32), sending
According to the State of Maryland Informat
ired by each employee to use
ceptable, and contrary to the agreement requ
emails utilizing the DHMH system is unac
e.
il continues, progressive discipline will ensu
the system. If this inappropriate use of ema

•

21202
500 N. Calvert Street, 56 Fl, Baltimore, Maryland
21201
1-800-358-9001
201 W. Preston Street Baltimore, Maryland
410-767-5227 - Fax 410-333-6333 • Toll Free
410-767-6742 • Fax 410-333-5995
1-800-201-7165 Voice for Disabled
led
Toll Free 1-877-4MD-DHMH • TTY for Disab
Maryland Relay Service 1-800-735-2258 or 711
Maryland Relay Service 1-800-735-2258 or 711
.eov
Web Site: http://phiaa.dhmh.marvland

135 USCA4 .

@led 12/08/17 ....Rage_,95 of 193
Jr(frt
Department of Budget and Management
#,„4.-...,64
of Personnel Services and Benefits Coy,

Case 1:17-cv-03260-JKB Cstakirdingirpar
Office

301 West Preston Street
Baltimore, Maryland 21201

NOTICE OF DISCIPLINARY ACTION
To Employee:

To Agency:

iplinary action to the Cabinet Secretary 'of
You or your representative may appeal this disc
ed by a Cabinet Secretary, appeal must be
your department (if your agency is not head be in writing and filed within 15 calendar days
t
made to the agency head). The appeal mus
after your receipt of this written notice.
copy for
e one copy to the employee; and retain one
COMPLETE IN DUPLICATE. Giv
ent.
agem
ent of Budget and Man
your files. Please do not send copy to Departm
Department of
This action must be processed via the
electronic MS-310 processing system.
efits
Ben
and
Office of Personnel Services

213-25-7243

Epidemiologist II

Xiao-Ying Yu
Name of Employee

Social Security No.

Classification

Check appropriate box and complete:
is reprimanded.
13)

forfeits Annual Leave days.
through
from
EJ is suspended without pay for work days
e
ctiv
ied an annual pay increase effe
effective
at
jarEln is den
is demoted to
(Salary Level)
(Classification)
DATE OF INCIDENT THAT PROMPTS

THIS DISCIPLINE: April 25, 2014

uct a
EE: Several attempts were made to cond

WITH THE EMPLOY
DATE WHEN INCIDENT WAS DISCUSSED

mitigating meeting with employee
REASON FOR DISCIPLINE: (Explain

in full) Attach pages as necessary.
riate e-mails sent to your supervisor and

inapprop
inappropriate work behavior regarding
details is attached.

Copy to Employee: 5/20/14

D In Person

(Date)

5/20/14 DHMH/PHPA
(Name of Department)
(Date)

others. Memo with further

g Mailed to: Xiao-Ying Yu

21009
557 Kirkcaldy Way, Abingdon MD

hority)
(Name and Signature of Appointing Aut

littlS-4A (Revised 10110)
134 USCA4

Case 1:17-cv-03260-JKB Document 4-1. Filed 12/08/17 Pa

;.'"
- — Pr4v7
iii.11111111gaiddi41111111.
111111M
55

It/
STATE OF MARYLAND

DHMH
Maryland Departure

T_

lt if Antal

Martin O'Malley. Governor— Antt

4. Shan-stein, M.D., Secretary

Preven
Dor

Hygiene

Hein
r

r_>\

Child Health Bureau
Ilise D. Marrazzo, I
>isease Bureau
Deborah B. Mc&
hat Health Bureau
Clifford S. Mitchell, ivi, rviu. NH r,...•.----.. _.
Donald Shell. MD, MA. Director. Cancer and Chronic Disease Bureau

INTERNAL MEMORANDUM
Jennifer English

TO:

FROM: Sara Barra
DATE: May 19, 2014
Employee referral

RE:

to the State Medical Director

I am concerned about my employee, Ms. Xiao-Ying Yu, and her erratic behavior, which has increased in

recent months and weeks, and am requesting a referral to the Medical Director. While I am concerned for
Ms. Yu, I am also worried about the resulting impact of Ms. Yu's behavior on the Center for Chronic
Disease Prevention and Control (the Center), the work that needs to occur, and the effect on the Center
team. Ms. Ye has demonstrated many concerning and disruptive behaviors, such as:
Repeatedly calling the Cancer and Chronic Disease Bureau Director's work cell phone during and
after hours as many as five times in one week, when expressly told on multiple occasions not to call
the Director after hours;
Repeatedly claiming that OIT removed files from her computer/shared drives and e-mails from her
work e-mail account, resulting in her sending many work e-mails to her personal e-mail account •
Repeatedly calling/e-mailing external partners so that other partners have specifically asked not to
work with her to the point that at least one partner (our major finder) refused to answer phone calls
from the Maryland area code;
Difficulty moving on after the Center made decisions contrary to her wishes/ recommendations, such
as riot applying for certain grant opportunities;
Continuing to present/revisit irrelevant information on old issues and refusing to accept explanations
on how these issues have been resolved;
Repeatedly refusing to accept information indirectly through her co-workers, management, the CDC
project officer, or me, because she appears not to trust the information is valid and/or complete;
Continually calling out co-workers and management, in group emails and
meetings, for not including her in meetings and projects, even when presented with evidence she was included;
W. Preston Street, Baltimore. Maryland 21201
• Fax 410-333-5995
-roll Free 1-877-4MD-Di IMF1 • TTY for Disabled

41,0-767-6742

Maryland Relay Service 1-800-735-2258 or 711
Web Site:

500 N. Calvert Street. 5d. Fl. Baltimore. Maryland 21202

410-767-5227 • Fax 410-333-6333 - Toll Free 1-500-358-9001
1-800-201-7165 Voice for Disabled
Maryland Relay Service 1.800-735-2258 or 711
htto://nhoa.c1hmh.marytanci aov

179 USCA4

;
tZ-96
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 . Page 141
fi i
Cornering co-wo
rkers and management to argue with them after they repea
tedly asked her to leave
their offices/cubicles;
Repeatedly stopping by management and internal DHMH
staff offices (inside and outside the
Center) so often these personnel have changed their behav
ior
to avoid unwanted contact with the
employee, such as keeping their doors
shut;
Continuing to claim to Center staff, management, and
DHMH staff she is not given the same
rights as other epidemiologists in DHMH or other statesother
, even when given repeated explanations by
management as well as reviewing duties detail in her MS-22,
that as determined by the Office of
Human Resources appropriate for her classification;
Refusing to follow the chain of command to work with me,
her supervisor, after repeatedly being
told to do so and soliciting other staff/management to becom
e her supervisor.
These behaviors have resulted in several disciplinary action
s by the Center. The Center took the extra step
of providing Ms. Yu with a memo specifying appropriate
and inappropriate internal and external contacts
for future clarity.
In addition to these concerning behavioral issues, Ms. Yu
has recently missed a substantial period of time
for sick leave. The documented doctor's notes presented to
me say "I will determine if she is able to return
to work"—this nebulous language creates a strain on the Cente
r to cover Ms. Yu's work responsibilities
with no clarity on when or if she -will be able to return
to her regular job duties. There is uncertainty of a
short or long-term return, as medical documentation is being
provided one week at a time. When medical
documentation submitted by Ms. Yu ended on May 12th, she
returned to work on May 13th. Ms. Yu came
into the office, and sent an email 30 minutes after receiving
a
meeti
ng notice, stating she needed to leave for
a unscheduled doctor appointment and would not return until
the
docto
r released her. Ms. Yu later sent an
email explaining her doctor instructed her to be out of the office
from
May
1st-May 19th and her doctor was
unaware she was in the office the morning of May 13°'. This is
extremely troubling as she cannot be
working against doctor's orders and I only
became aware of the doctor's orders when the employee share
s
them with the Center.
In conclusion, Ms. Yu has been on sick leave for a substantial
period of time and I am concerned about the
impact of Ms_ Yu's health and behavior on her work perfo
rmance and office dynamics. I would appreciate
the recommendation of the Medical Director to determine
if Ms. Yu is able to return to work and if so, the
time frame for her return, so the Center can plan for coverage
of her work responsibilities.

180 USCA4

03/22118 Page 1 of 35
Case 1:17-tv-03260-30 Document 20 Filed

263

a0x
THE DISTitibL1184Fr
IN THE UNITED STATE DISTRICT COURT FOR
NORTHERN DIVISION
2018 MAR 22 PM 38
U.S. BANKRUPTCY COURT
DiSTPICT
.4t,pyt 4ND

Xiao-Ying Yu
Plaintiff
v.

Case No. 17-cv-3260-.T1CB

Maryland Department of Health
Secretary: Dennis Schrader'

&

Maryland Department of Budget&
Management
Secretary: David Brinkley
Defendants

PLAINTIFF'S RESONSE TO
DEFENDANTS' MOTION TO DISMISS
Plaintiff, Xiao-Ying Yu, ("Ms. Yu", or "Plaintiff')
to dismiss with prejudice. After receiving a letter from
2017, supporting doc. #1), Plaintiff, proceeding pro

opposes defendants' motion

the EEOC (dated October 16,

se, brings this action pursuant to

nded, 42 U.S.C. § 2000e seq., the

Title VII of the Civil Rights Act of 1964, as ame

. § 621, e. seq., 42 U.S. Code §

Age Discrimination in Employment Act, 29U.S.C
12101, The American with Disabilities Act Law

(a)& (o), and Section 504 of the

Rehabilitation Act to remedy acts of harassment,

discrimination and retaliation
artment of Budget

of Health and Dep
perpetrated against her by Maryland Depaita.tent

tiff filed her complaint on 11/2/2017, Mr.
Because Dennis Schrader was the Secretary when Plain
ity of the Department of Health in
Schrader was included as one of defendants in the capac
tary is Mr. Robert Neil.
Plaintiffs initial and updated complaints. Current Secre
313 USCA4

2/18 Page 2 of 35
Case 1:17-cv-03260-JKB Document 20 Filed 03/2
-217c4'

ter jurisdiction in this matter and has

and Management. This Court has subject mat

ion cases against the Department of

been processing civil employment discriminat

yland Department of Health and

Health for several years (Ying-Jun Chen v. Mar

6-ELH). The complaint sufficiently
Mental Hygiene, et al, case No.15-cv-0179
e caused by the defendant's

that wer
demonstrated the alleged harm and damages

onal origin discrimination. This
"Disparate treatment" due to ethnic and nati
yland Department of Health treated
discrimination is similar to the way that the Mar
erienced retaliation by the depai talent
Ying-Jun Chen; both Ying-Jun Chen and I exp
after filing charges of racial, ethnic, national

origin with EEOC, in addition, I also

liation.
suffered age, and disability discrimination and reta
g the concealment of Plaintiff's

There is significant genuine evidence supportin

on, and the facts demonstrate that the
protected activity and defendants' adverse acti
vity and defendants' actions were
causal links between Plaintiff's protected acti
iss. Therefore, the required conditions

manipulated in the defendants' motion to dism

for a summary judgment under Rule 56 have

not been met. It is also apparent that
d State agencies can not be immune

according to the Eleventh Amendment, Marylan

EA and ADA as well as First and

to suits alleging retaliation under Title VII, AD

Court. Rejection of mediation and
Fourteenth Amendments in the Federal District
the defendant pushed the Plaintiff to
settlement, as recommended by the EEOC, by
nt consented to this suit by receiving
file suit in Federal district court, and the defenda
a copy of EEOC's lawsuit letter and by receivin

g her application of suspension of

2

314 USCA4

Case 1:17-cv-03260-JKB Document 20
1469, 26s-

Filed 03122/18 Page 3 of 35

ns of
7 in which Plaintiff stated her concer

v. 201
order and reconsideration during No
the negative impact of the denying

s Court.

her petition on the current suit in thi

Accordingly, Plaintiff respectfully

requests that this Honorable Court

deny

ages to

s the Court to provide relief for the dam

Defendants' motion to dismiss and ask

tion and retaliation.

ina
Plaintiff caused by defendants' discrim
I.

FACTS

A. Critical factual Summary
ian American, over 60, and with a

Plaintiff is in a protected class (As
disability);

ivities: she opposed unlawful and

Plaintiff engaged in protected act
(such
discriminatory employment practices

as discriminatory reclassfication of

sing underpayment and depriving her

job position as Epidemiologist III cau

of job

appeals with both departments

managers and
responsibilities) by filing reports to
filing
(Complaint, "Comp." p. 2-3) and by

her

charges of age, racial discrimination

and

omp. p. 2-5);

retaliation with EEOC in Nov. 2013;(C

e actions (such as unwarranted

Plaintiff received defendants' advers

ails to

diately after she sent accusatory em

disciplinary action) on the day imme

filing of charges under Title VII and
her
of
e
dat
the
m
fro
s
nth
mo
two
managers and
ween January and August 2014.
ADEA with EEOC (Comp. p. 5-9) bet
alating hostility in her working
Plaintiff became ill due both to esc
d her
environment and to retaliation; she file
3

lity

second charge with EEOC for disabi

315 USCA4

t 20 Filed 03/22/18 Page 4 of 35
Case 1:17-cv-03260-3KB Doc' men

Art9(267

l as ethnic and national origin and

as wel
discrimination and retaliation under ADA

Title VII and ADEA in September 2014

age discrimination and retaliation under
(Comp. page 10, see supporting document
5.

#2)
ion (such as rejection of

Defendants immediately initiated retaliat

to
accommodations, refusal of reassignment

the epidemiologist position she applied
e donated by Plaintiff's friend during

e tim
for, and rejection of using employee leav

r they received

the day immediately afte
the interactive accommodation process) on
the Plaintiffs EEOC charge on September

d

2, 2014. Defendants consequently change

e that ultimately prevented Plaintiff from

the organization of the office as a pretens

in a less hostile environment. This

isor
returning to work under different superv

efit of mitigation and reassignment

the ben
action led to unlawful termination without
or rehiring and to continued retaliation

for protected activities while Plaintiff's
-12).

. p.10
HOC' s investigation was pending (Comp
B. Disputed and undisputed facts

1. In Defendants' memorandum of law

in support of defendants' motion to
s complaint

aph, defendants stated "Ms. Yu'
dismiss ("DML"), on page 3, 2nd paragr

on and two employment-based causes of

attempts to assert one tort-based cause of acti
action." In addition, defendants' conclusion

that "there is no the cause of action for
e because they omitted Plaintiffs

issu
`willful underpayment"' confused the

nager (former Medical Director

the ma
description (complaint page 2-10) of how
Maria Prince) discriminatorily gave an

Epidemiologist III Position Identification
316 USCA4

d 03/22/18 Page 5 of 35

Case 1:17-cv-03260-JKB Document 20 File
-20

Number, which was created expressly
Department of Budget and Management,

for Ms. Yu by Depart uient of Health and
to Ms. Sara Barra, (who is Caucasian and

sing
least 20 years younger than Plaintiff), cau

at

Plaintiffs underpayment.
te a letter to former Secretary Dr.

In fact, Plaintiff filed her appeal and wro

rivation of her reclassification and

the dep
Joshua Sharfstein regarding retaliation and

s, the manager's refusal to correct the

fair payment on February 18, 2014. Thu

n of the Epidemiologist III

reclassificatio
underpayment (due to discriminatory

ents explicitly for Ms. Yu) represents

artm
position that was approved by two Dep

ed

ion against Plaintiffs engaging in protect

racial and age discrimination and retaliat

2013) under 42

on 11/12/
activities (filing of a charge with EEOC

§§ 2000e et

4 Law (c) and ADEA 29 U.S.C. 621.

seq. Title VII of the Civil Rights Act of 196
2.

ants stated that "Ms. Yu received

In DML, on page 4, paragraph 3, defend

her right to sue letter on Nov. 26, 2013...

ry

Ms. Yu would have had to sue by Februa

liation charge under Title VII,

e with reta
24, 2014 for discrimination at age and rac

gedly occurred on or before February

alle
ADEA. Id. A claim based on anything that
24, 2014 is now time-barred."

. In
Plaintiff disagrees with this statement

fact, after Plaintiff engaged in

s with EEOC, and she received a letter

rge
protected activities by filing her first cha

3,

ployment practices on November 12, 201

from EEOC regarding the unlawful em

Plaintiff sent her complaints about Ms.
and retaliatory behavior to the director of

Barra's progressive hostile, discriminatory
the Office of Equal Opportunity Program

in

317 , USCA4

Filed 03/22/18 Page 6 of 35

Case 1:17-cv-03260-JKB Document 20 .

Ar

the Dept. Of Health on February 2, 2014 to

seek help. However, she received the first

y 3,
of unwarranted disciplinary actions on Februar

2014, and this action was followed

about four months to retaliate against

by another four disciplinary actions within

ch caused Plaintiff's health problem.

whi
Plaintiff's engaging in protected activities,

ond charge with EEOC under Title VII,

Plaintiff further filed her appeal and a sec

4 about the escalated harassment,
ADEA and ADA on September 3, 201
d in 2014 prior to receiving defendants'
urre
occ
ch
whi
on
liati
reta
and
ion
inat
rim
disc
on. Plaintiff should have a right to file
decision about her request for accommodati
C within 300 days from the time the

her claim for these adverse actions' with EEO

t charge with EEOC on Nov. 12, 2013.

adverse action occurred following her firs

ons (which filed with

to file these adverse acti
Therefore, it is not time-barred for her

rds see her rebuttal, supporting doc.#3)

EEOC on Sept. 3, 2014 and amended afterwa

er (dated 10116/2017, see supporting

in this Court based on EEOC's lawsuit lett
do cum ent#1).

3. On page 4 of DML, in paragraph 4,
terminated on November 3. 2014... Ms.

defendants stated Ms. Yu "was

Yu filed this lawsuit on November 6,
ing her employment is now time-barred

2017...Any tort-based claim that accrued dur
by the applicable statute of limitations".

Plaintiff disagrees with this statement,

with
ge filed under Title VII, ADEA and ADA
Defendants ignored PlainthTs retaliation char
iation of
of immediate retaliation from defendant (init
facts
d
eale
conc
and
2014
3,
.
Sept
on
C
EEO
ted
n, rejection of using the employee's leave dona
disciplinary actions, rejection of accommodatio
tiff's
Plain
ived
rece
they
e email) against Plaintiff after
by her friend and blocking her access to offic
to EEOC on September 3, 2014.
complaints to managers on Feb. 2, 2014 and

2

318 USCA4

Case 1:17-cv-03260-JKB Dorent 202
2,72
and
because defendants misrepresented
as a "tort-based claim" instead of

Filed 03122118 Page 7 of 35

misinterpreted Plaintiff's complaint

focusing on, the discriminatory and

Count I

retaliatory

for the underpayment and misct
rre
co
to
ess
gn
llin
wi
un
an
actions led by
intiff reported discriminatory
Pla
r
afte
III)
ist
log
mio
ide
(Ep
ns
itio
reclassfication of pos
s with EEOC as described.

actions to managers and filed charge

In addition, Plaintiff filed her initial

complaint with this Court by certified

eived EEOC's lawsuit letter (dated

on November 2, 2017 after she rec

Court
Federal Courts, including Supreme

10/16/2017).
file

of United States, inform Citizens to

delivery by the deadline as they do

d
their complaints via post office or han

mail

Plaintiff could
citizens pro se to file electronically.
case as
Court of Maryland is an exceptional

not allow

not know that the Federal District
bsite

the Court did not specify in their we

int of a Maryland citizen filing

sion of a compla
that the date of certified mail submis

's

ket date at ECF 1 regarding Ms. Yu

e. The doc
pro se is not accepted as a filing dat

t (November 6, 2017) by the Court.

initial complaint was the date of receip

s stated, "From 2010 through

defendant
4. In DML, on page 4, paragraph 5,
ues
2012, Ms. Yu complained of iss

that she alleges were related to

her job

Plaintiff would like to clarify the

atment."
classification, salary and unfair tre

ul

er to clearly stated her count I (willf

s. In ord
confusion created by the defendant

ated with her appeal and the letter

underpayment), which was associ

to former
intiff

4 (Comp. p.2 and exhibit #1), Pla

18, 201
Secretary Dr. Sharfstein on Feb.

erpayment and mis-reclassfication of

of the und
described the background and cause
7

319 USCA4

Filed 03122/18 Page 8 of 35
Case 1:17-cv-03250-JKB Document 20

ed above briefly and detailed in her

an Epidemiologist III position as describ

n of issues as defendants' statement

plai
complaint (page 2-3). Plaintiff did not com

een 2010 and

and unfair treatment" betw
alleges about "her job classification, salary
2011. In fact, Plaintiff tried her best to do

the extra job duties and bore unfair

deprivation by Dr. Prince of her right to be

reclassified as Epidemiologist III and

to Dr. Prince in February 2011 and for

underpayment, except for a letter written

sification to Epidemiologist III in 2012 as

expecting to receive a non-competitive clas
promised by Dr. Prince.

5. In DML, page 5, paragraph 2, defendants

stated "Ms. Yu then alleges that

2 and 2014", and mixed adverse actions

she was the victim of retaliation between 201

in an effort to support their conclusion

filed with EEOC in 2013 and in 2014 together
that Plaintiff s complaint is time-barred.

Plaintiff generated genuine and serious

material facts demonstrating that Plaintiff

is the victim of intentional harassment,

discrimination and retaliation for protected

activities initially performed during 2012

(prior to working under the supervision of

Ms. Barra), and her first EEOC charge in

ms
2013 represents the background for these clai
a useful tool to help identify the real issue,

(see Comp. p. 2-4). This sequence is

which is the escalated adverse actions in

2014, and the retaliation is continued and

worsen after Plaintiff filed her second
ber 3, 2014 under Title VII, ADEA and

charge of retaliation with EEOC on Septem
ADA and further brought this lawsuit in the

Court under EEOC's instruction. In fact,
f filed her grievance in August 2013 and

defendants omitted the key issue that Plaintif
8

320

USCA4

2118 Page 9 of 35

Case 1:17-cv-03260-JKS Document 20 Piled 03/2
Z7Z.

use her job duties form MS-22 was

the charge with EEOC in November 2013 beca

bilities relating to heart disease,

unlawfully changed and restricted: major responsi

ram were deleted and performance
stroke, and diabetes within the CDC 1305 prog
Barra
standards were inappropriately changed by Ms.

from professional skills to

English is a second language for

"writing" skills, as she believes that the fact that
_

Plaintiff would result in poor performance reviews

ntiff alleges that defendants

Regarding the five disciplinary actions, Plai
selectively hid Ms. Barra's ethnic and nationa

l origin discriminatory actions by
r's Eve (1/31/2014) to

ese New Yea
sending a warning email after 7:00 p.m. on Chin

ite the fact that Ms. Ban-a approved

disturb Plaintiff's ethnic cultural tradition desp

Plaintiffs desire to take off half day to celebrate

on January 31, 2014. Furthermore,

ated (2/3/2014) the first of these
defendants concealed the fact that Ms. Barra initi
progressive disciplinary actions in retaliation

for Ms. Yu's complaint to office

discrimination
managers about Ms. Ban-a's harassment and

on 2/2/2014. This was

ober 10, 2013 that demonstrated

also based on Ms. Barra's memorandum of Oct

4/2013) concerning the deletion for
adverse action against Plaintiff's grievance (8/1
ention Plaintiff from doing her job
the responsibilities in her job description and prev
rference. However; defendant did

and seeking help against Ms. Barra's horsetail inte

ns was due to "violating the cyber

state that the cause of one of the disciplinary actio

communication policy" as Ms. Barra stated on

May 20, 2014 (see Comp. p.6,

a is not
exhibit#15, #18 &19). This allegation by Ms. Barr
9

true. In fact, Plaintiff wrote
321 USCA4

4

35
nt 20 Red 03.122118 Page 10 of
Case 1:17-cv-03260-3KB Do ume

P q3

an email to office managers and the

Union director and representative wh
y action to clarify Ms. Barra's confusion

participated in the mitigation of disciplinar

o

in

pite the claims of Ms. Barra, there was no

her memorandum of March 31, 20143 . Des

nication policy of either depai tjiient for

prohibition in in the official cyber commu

an

nagers about a. supervisor's harassment,
ma
to
ng
orti
rep
ail
em
an
te
wri
to
yee
emplo
Ms. Barra' disciplinary action represents
discrimination and retaliation. Therefore,
unlawful retaliation for plaintiffs email in

which she engaged in protected activities.

on and exhibit #23).

(see Comp. p. 6, under 4th disciplinary acti

6. On page 5, paragraph 3 of DML, defend

ants described the Plaintiffs health

state the
problem. Yet, defendants did not fully

facts of this issue. After Plaintiff

VII, ADEA and
OC on Sept. 3, 2014 under Title
filed retaliation charges with EE

tions of
ses and rejected the recommenda
gno
dia
the
ied
den
s
ant
end
def
ADA,
fendant
Director Dr. Robert Toney. 4 De
accommodation from State Medical
was
g environment created by Ms: Barra
concealed the facts that the hostile workin
management but instead escalated in
s'
ant
end
def
by
ted
rec
cor
or
led
trol
not con
s
ed activities, especially filing of charge
response to Plaintiffs engaging in protect
rfere with
(dated 3/31/2014) on April 15, 2014 to inte
Ms. Barra sent Plaintiff the memorandum
g her job
doin
g her communication with colleagues and
her job by creating confusions and restrictin
to respond
by HR form MS-22, but Ms. Barra refused
for office director as job duties requested dum for a week. So, Plaintiff wrote an email to managers
Plaintiffs cia.rino.i.n about her memoran
and union.
evaluation
es at Depar Latent of Health for workability
Dr. Toney was required by Human Resourc
odation
Dr. Toney's recommendation of accomm
A.
FML
Yu's
Ms.
oved
appr
HR
then
and
twice
r health provider
er different supervisor, with which, othe
was to allow Plaintiff to return to work und
Barra from
Ms.
sor
ervi
Sup
,
order to separate the harasser
and psychological Inctitute supported in
disability.
Plaintiff and to accommodate Plaintiff's

3

322 USCA4

ent 20 Filed 03/22/18 Page 11 of
Case 1:17-cv-03260-JKB Doifcum 6"
27,1

35

refused to respond to Plaintiffs

addition, defendants
with EEOC since Nov. 2013. In

of
rrect the misreclassfication
co
uld
wo
t
tha
on
ati
od
mm
request for acco
d
t III position for which she applie
gis
olo
mi
ide
Ep
the
gn
ssi
rea
and
Epidemiologist III
d of
as the "best . qualified." Instea
es
urc
so
Re
n
ma
Hu
by
d
ate
for and was evalu
ged the
alth problems, defendants chan
he
r
he
to
ct
pe
res
th
wi
r
he
g
tin
accommoda
rdship." This reorganization
ha
ue
nd
"u
of
se
ten
pre
the
r
office structure unde
would
der a different supervisor, which
un
rk
wo
to
ing
urn
ret
m
fro
iff
prevented Plaint
under false
d led to her unlawful termination
tea
ins
and
,
on
ati
situ
the
ed
edi
have rem
reasons and without mitigation.
s

ve, it is undisputed that defendant

cribed abo
7. Although disputes exist as des

erican (Chinese) and over 60

ian Am
stated Plaintiff was the only As

miologist for 5
employee working as an epide

years old

t of
years in Maryland Departmen

rkers
thout complaints from her co-wo

continually wi
Health (notably, Plaintiff worked

disputed that Plaintiff is the
or customers).5 It is also un

victim of retaliation and that

criminatory and retaliatory action

by intentional dis
her health problems are caused

clarify the
owing Plaintiff to explain or

(not all
including frequent confusion

quired basic normal
discrimination); denial of job-re

working conditions (blocking her

ng her
ated to her job, and restricti
rel
s
ram
og
pr
d
an
es
as
tab
access to da
her service in
nce evaluations during 5 years of
ma
for
per
g
din
stan
out
or
d
sfie
Ms. Yu received sati
erated "unsatisfied" annual
June 9, 2014 when Ms: Barra gen
ept
exc
alth
He
of
nt
tme
par
De
the
rk and. creating. 4
sons including. unable to teamwo
rea
e
fals
h
wit
tion
lua
eva
e
anc
aging in protected
perform
as retaliation against Ms. Yu's eng
s
ion
act
ry
lina
cip
dis
5
and
s
memorandum
.
activities in order to terminate her

323 USCA4

ent 20 'Filed 03/22/18
Case 1:17-cv-03260-JKB Docum
x,275

Page 12 of 35

fusing to use Ms. Yu's provided dat

assment (re
communications with others); har
t sheets
an office grant application and fac

o years

for the office website for over tw

a Counsel of State and
and prevent her from attending
eived an
conference even though she rec

a for

Territory Epidemiologist
nd table

award and was invited for a rou

s in a publically-visible

. Yu's disciplinary action
discussion); abuse (exposing Ms

nication with other colleagues and

from commu
calendar); bullying (forbidding her

visits and
gram meetings, CDC officer site

ice pro
preventing her from attending off

forms from her
conference calls); removing of

personnel file (such as her job

s forms); and retaliation through

ance evaluation
description and annual perform
luation
downgrading her performance eva

s within

and creating 5 of disciplinary action

te
rra included the sending of duplica

ent by Ms. Ba
approximately 4 months. Harassm
Plaintiff
copies of disciplinary actions to

one and

and the calling of her cellular ph

mental health
knew that Plaintiff was ill with
rra
Ba
.
Ms
en
wh
ge
ssa
me
a
leaving
ions
4); Ms. Barra knew that these act
201
e,
Jun
and
y
Ma
en
twe
(be
e
issues and at hom
ion.

dit
would worsen Plaintiff's health, con

II. ARGUMENT
A. Retaliation as Key allegatio

n and nucleus of three counts in

Plaintiff's

d
sinterpreted, concealed an
mi
,
ed
nt
ese
pr
sre
mi
is
nt
complai
disconnected.
cretary Robert Neill and

ent of Health Se
Defendants, Maryland Departm

ved

ent Secretary David Brinkley, mo

and Managem
Maryland Department of Budget
12

324 USCA4

Case 1:17-cv-03260-JKB Document

20 Piled 03122/18 Page 13 of 35

Z7b

with ten
to dismiss plaintiff's complaint
allegation of "retaliation," which
accommodations for disability,

points. Defendants concealed the

involved willful underpayment,

key

refusal of

d unlawful

wrongful disciplinary actions an

al origin,

t Plaintiff's charges of racial, nation

ins
termination. The retaliation was aga

retaliation filed
age and disability discrimination and

with EEOC in 2013 and 2014

's
arly stated as three counts in Ms. Yu

and was cle
under Title VII. ADEA and .ADA.

h other

terpreted and disconnected from eac

, misin
complaint but was misrepresented
by defendants as: "tort-based claim,

ion".

disability discrimination and retaliat

ve
B. Defendants supply no substanti

on

proof to deny the alleged retaliati

for relief.
ding to
According to Rule 8 (2), in respon
must fairly respond to the substance

the substance of a claim, "A denial

of the allegation." In addition, (3)

ty that intends
Specific Denials states that "a par

General and

in good faith to deny all the

isdictional tzrounds -- may do so

ing, the jur
allegations of a pleading -- includ
not intend
general denial. A party that does

by a
er

to deny all the allegations must eith

egations or
specifically deny designated all

generally deny all except those

that Defendants intend
specifically admitted." It appears

to deny all the allegations

intiff's complaint; yet, defendants

evidence of Pla
without conceding any part of the

rt-based claim", manipulated the

int as a "to
misrepresented Plaintiff's compla

and adverse
sequence of protected activities

time

actions, ignored the evidence of
g. 2014). Plaintiff was further

and ADA" (durin
"retaliation under Title VII, ADEA
1

3

325 USCA4

d 03122/13 Page 14 of 35

20 File
Case 1:17-cv-03260-JKB Document
s in this
pushed to file these retaliatory action

m

Court because the mediation progra

ants'
re rejected by defendant. The defend

OC we
and settlement recommended by EE

ry actions,

ntive proof that initiation of disciplina

motion to dismiss supplies no substa

ection of

nment and underpayment, and rej

iro
refusal of correction of hostile env

al Director (reorganizing the

the State Medic
accommodations recommended by
ination
office structure) and consequent term

were not retaliation against Plaintiff's

d with EEOC for Ms. Barra's harass

s file
opposition to managers and to charge

ment,

liation under Title VII, ADEA

ination and reta
age, racial and national origin discrim
evidence
and ADA. Defendants provide no

l

that these actions were due to neutra

es.
policy and correct employment practic
not be
Defendants' motion to dismiss can

used to deny the existence of the
ersarial

e sequence between defendants' adv

causal relationship in the "short" tim

ivities (see Comp p.6 and Exhibit

in protected act
actions and the Plaintiff's engaging
endants
#19&20; p.10 exhibit #31). The def

of

did not address the substance or merits

plaint by

ted the Court to dismiss Plaintiff's com

the claim; instead, defendants reques

im pro se, did not file the complaint

sent cla
stating that Plaintiff, who filed the pre
the way that a professional attorney

in

s. at p1. #2;

would (see Defs. Motion to dismis

.DML at p. 5-7).

late

lligible or confusing and does not vio

The Plaintiffs complaint is not uninte

s requirement
Federal Rule of Civil Procedure 8 (ar

of "a short and plain statement of

itled to relief." The complaint has

the claim showing the pleader is ent

a more than

14

326 USCA4

Case 1:17-cv-03260-JKB Document 20
VcS>

Piled 03/22,18 Page 15 of 35
ets the requirement that it be "short

more that me
sufficient statement of the claim and

ted the claim of the underpayment,

page 2. Plaintiff sta
and plain"6. For example, on

h

vided the defendants and the Court wit

also pro
and its background and the cause, and

ts."
is and the grounds upon which it res

im
"fair notice of what the Plaintiffs cla
Plaintiff clearly stated that the willful

ed to the

underpayment (see Comp. p. 2-4) link

ification of the
discriminatory transgression of reclass

Epidemiologist III position. The
liation

erpayment was not corrected and reta

und
Plaintiff clearly demonstrated that the

ng in protected activities after she

was continued for Plaintiffs engagi

initially

plaint about the unlawful deprivation

n made com
reported to the office director and the
retary
with underpayment to a former Sec

7,

in Feb. 2014 (see Comp. P. 2-3, #1-

underpayment" is
exhibit #1-4)'. Therefore "Willful

not a "tort-based claim" as

t her
the intentional retaliation agains
ut
abo
im
cla
a
t
bu
,
ted
sta
ant
defend
ory misPlaintiff stated that this discriminat
discrimination complaint. Then,
tunity
o brought to Office of Equal Oppor
als
s
wa
ent
aym
erp
und
and
n
atio
reclassfic
d via an
nson several times by emails and file
Joh
da
lin
De
.
Ms
er
nag
ma
m
gra
Pro
ommodation period between July and
acc
tive
rac
inte
an
ing
dur
m
for
ion
accommodat
claim
)(1)`short and plain statement of the
mistakenly refer to Fed. R. Civ. P 8(d
out their
ugh
thro
cy
cien
ef', but make no reference to any defi
showing that pleader is entitled to reli
een defendants'
tify the causal-relationship betwenv
iden
to
m
clai
the
of
ure
fail
ironment,
the
g
rdin
working
motion rega
in protected activities, how hostile
life and health
er
retaliation and Plaintiffs engaging
care
t,
caused damages in Plaintiff's paymen
discriminatory and retaliatory actions
ested for.
which are entitled to relief Plaintiff requ
wfUi
ce director Dr_ Shell opposite the Imia
offi
er
form
to
rted
repo
ially
init
f
ntif
' Plai
Feb. 2014
2012 and wrote to former Secretary in
rch
Ma
in
gist
iolo
dem
Epi
of
ion
icat
action) after
misreclassf
against retaliation (the first disciplinary
eal
app
the
d
file
she
n
whe
nt
yme
about underpa
2013.
she made charge with EEOC in Nov.

6 Defendants

327

USCA4

Case 1:17-cv-G3260-JKB Document 20
APf /7

Filed 03/2 2/18 Page 16 of 35
. Johnson to reassign her to the

uested Ms
September 2014 and that Plaintiff req

for which she was evaluated as "best

for and
Epidemiologist III position she applied
p.3
qualified" since July 2014 (see Comp.

#8 and exhibit :44; p.10, exhibit #30-32

).

sal relationship between Plaintiffs

In addition, in order to show the cau

and
ut the harassment, unfair treatment
protected activities (complaint abo
ressed her claim (as the request of the
add
ff
inti
Pla
,
ons
acti
erse
adv
and
)
tion
discrimina
e for
'fact of the claim', subtitle with italic typ
title
er
und
m,
for
l
era
gen
ed
vid
pro
urt
Co
consistent time sequence: under
a
in
ays
alw
)
p.2
.
mp
Co
on
.
im'
cla
`the cause of this
in protected activities" (Comp. p.3):
nt
me
age
eng
for
ion
liat
reta
of
orts
title "II. Rep
osed
d discrimination; when Plaintiff had opp
iate
init
o
wh
d
size
pha
em
ff
inti
Pla
st,
Fir
; how a hostile working environment
ers
nag
ma
to
e
ctic
pra
ent
ym
plo
em
the unlawful
OC on
p. 2-5) prior to her filing charge with EE
.
mp
Co
e
(se
ted
ala
esc
and
d
ate
cre
s
wa
her after
what adverse action occurred against
11112/2013. Then, Plaintiff addressed
at
. p. 6-7). Further, Plaintiff stated wh
mp
Co
e
(se
3
201
v.
No
in
rge
cha
her EEOC
r she
ditions caused her health problems afte
con
tile
hos
s
iou
var
and
se
abu
c
oni
chr
and filed her charge of age and racial
ion
Un
and
ers
nag
ma
ent
t.u_
pai
De
reported to
. p. 8-10)
OC on November 12, 2013 (see Comp
discrimination and retaliation with EE
prior to her second charge with EEOC

EA and

for the retaliation under Title VII, AD

er title III:
ADA on 9/3/2014 (see Comp. p.7 und

brief introduction and page 10, at

#7).

16

•

328 USCA4

20 Filed 03/22118 Paae 17 of 35
Case 1:17-cv-03260-JKB Document

28D
s fair notice of the charges against them

Finally, Plaintiff clearly gave defendant

s of damages..." with italic type

allegation
(see Comp. under subtitle "...counts and

ressed retaliation and charged that

int add
page 10-13). Specifically, the compla

. Title VII, Civil Rights Act of 1964

e. et seq
defendants violated 42. U.S.C. §§ 2000
and (b)
Law, ADEA, 42 U.S.C. §12101 (a)
Reasonable accommodation and undue

t the

hardship by: Count I. refusal to correc

ory
underpayment due to the discriminat
Epidemiologist III, Count II. allowing

and EEOC Enforcement Guidance:

transgression of reclassification of
rfere

the hostile working environment to inte

damage
with Plaintiffs job and to continue to

Plaintiff's health by rejection of the

t termination of her employment for

accommodation request and consequen

her

ination and retaliation charge with
crim
dis
ng
fili
by
es
viti
acti
ed
tect
engaging in pro
ortant
4; and Count III. Summary of the imp
201
ber
tem
Sep
in
A
AD
er
und
OC
EE
EA
rge with EEOC under Title VII and AD
retaliation events against Plaintiffs cha
ssive disciplinary action to damage
gre
pro
of
on
iati
init
as
h
suc
3
201
v.
after No
Office
r her reports to Depai latent of Health
Plaintiff's life and career immediately afte
d with EEOC in Nov. 2013. Plaintiff
file
rge
cha
her
and
m
gra
Pro
ity
tun
por
of Equal Op
life
on which greatly impacted her career and
also included those critical adverse acti
d in

ions during 2014 (although were file

and are directly related to adverse act

tion
3),: a). discriminatory mis-reclassfica
201
in
OC
EE
h
wit
rge
cha
t
firs
ffs
Plainti
job
riminatory and retaliatory changes in her
(caused Count I underpayment); b). disc
ty
ed Plaintiff's responsibility under seniori
duties and performance standards (depriv
17
329 USCA4

d
Case 1:17-cv-03260-JKB Document 20 File
system for CDC-supported 1305 pro

03/22/18 Page 18 of 35

tile
gram; restricted her to work under hos
d in the "unsatisfactory" performance

condition; damaged her career; resulte

ory

y action on 6/9/2014); and c). A retaliat

evaluation, and led. to a fifth disciplinar

ial

condition for Ms. Barra to create init

memorandum (provided pre-required

re disputed

ants' motion to dismiss is therefo
disciplinary action on 2/3/2014). Defend

interpretation of the Plaintiffs complaint,

by the material misrepresentation and mis

tion

tected activities and adverse actions, cita

turning upside down the sequence of pro

ed on the biased information and
bas
law
and
s
nce
ere
ref
ant
lev
-re
of non
ff'
proof to refute the substance of Plainti
misinterpretation without providing any
complaint s but instead referring to the suit

as a "tort case" for their motion to dismiss.

ent.

There is no basis for the summary judgm

m "Willful underpayment" claim
C. Defendants cannot be immune fro
ial, national origin and age
under Title VII associated with rac
Plaintiffs engaging in protected
discrimination and retaliation against
activities.
It is not fair or proper to dismiss Count

I by concealing the age, racial, ethnic

the
and retaliatory actions involved in
and national origin discrimination
III position, which was the cause of willful
misreclassification of the Epidemiologist
nt the issue by stating that there was "no

underpayment. The defendants misreprese
cause of

to
ent"'. Nor it is fair or proper
action for 'willful underpaym

ause of
Court into considering the tort-claim bec
is attempting to assert a tort claim", and

mislead the

defendants' manipulation as "Ms. Yu

further to state that defendants are immune

330 USCA4

Case 1:17-cv-03260-JKB Document

20 Piled 03/22/18 Page 19 of 35

stakenly
from suit in Federal Court by mi
of
Amendment and non-relevant cases

nth

referring pursuant to the Eleve

miss. at p.1

tort claims (see Defs. Motion to dis

#3, DML, p. 7-8, at B).
rt-based claim"

'Willful underpayment' is not "to

.a "tort-based case" and created
as
e
cas
s
iff'
int
Pla
ted
ula
nip
ma
Defendants
causes
did not clearly state allegations and
int
pla
com
the
t
tha
ing
im
cla
by
confusion
, defendants
as described above. Similarly
)
1-2
p.
at
L.
DM
e
(se
ion
act
of
, and
plaint based on biased infoi_nation
com
the
ted
pre
ter
sin
mi
and
ted
misrepresen
d of the
hostile working environment an
the
of
ty
eri
sev
the
d
ize
nim
mi
they
iff, using words
ions that caused damages to Plaint
act
y
tor
alia
ret
and
),
tor
ina
crim
dis
in classifying andlor reclassifying her
or
err
an
s
wa
re
the
t
tha
es
leg
"al
ff
such as Plainti
s frequently
l underpayment"'. Further, defendant
llfu
'wi
for
ion
act
of
se
cau
no
...,
job
s" instead of "discriminatory mi
ion
cat
sfi
las
isc
...m
,
job
on
ati
used "classific
dum of law,
t III" and claimed in their memoran
gis
olo
mi
ide
Ep
for
n
tio
ica
ssf
cla
Re
act or omission resulted in the
ent
lig
neg
d
ege
all
an
ps,
rha
"Pe
:
Foot note #1, p.4
es of
ages" and misinterpreted that the issu
dam
's
Yu
_
Ms
sed
cau
and
tion
ica
misclassif
ssification, salary and unfair
cla
job
her
to
d
ate
rel
ere
"w
int
Ms. Yu's compla
treatment" as Well. (see DML. at p.5

, first paragraph).

Plaintiff's initial complaint is filed
This was clarified in "Facts" section

via certified mail on Nov. 2, 2017.
, under

(see above, p. 7 and comp. at p. 2-3

title I ,41-8).
19

331 USCA4

20 flied 03/22118 Page 20 of 35
Case 1:17-cv-03260-JKB Document

ond charge of age, national origin

Plaintiff stated in her complaint that her sec
and disability discrimination and retaliation

was filed with EEOC on 9/3/2014, and

request for an amendment that would add
consequent termination to her charge with

the rejection of accommodation and

EEOC was afterwards between Sept. and
letter (dated 10/16/2017, see supporting

Dec. 2014. Plaintiff received EEOC lawsuit

C case
doc. #I), but the completed Ms. Yu's EEO
the Philadelphia EEOC office. However,
charge (9/3/2014) with EEOC containing

file has still not been received from

defendants concealed Plaintiffs second
3

adversary actions between December 201

t to suit in this Court. Yet, Defendants

righ
and August 2014, which Plaintiff has the

untimely as EEOC's first lawsuit letter

claimed that Ms. Yu's suit in the court was
was 11/26/2013 based on her initial charge

with EEOC on 11/12/2013.

the relief from that discriminatory
3. Count I (Willful underpayment),
caused underpayment should not be
mis-reclassification of Epidemiologist III
dismissed.
es "one tort-based cause of action
Defendants claim that Plaintiffs case involv
and two employment-based causes of action"
manipulation, defendants stated that they
Federal court under Eleventh Amendment.

(see DMT _ at p. 3), and along with their

are immune to this "tort-based claim" in
Defendants did not provide evidence that

and that
any of facts of the allegation are not true

'no relief could be granted under

ments
ts without her rebuttal and other critical docu
Plaintiff received (318/2018) the documen
adelphia
Phil
to
ide
as EEOC Baltimore office did not prov
filed with EEOC between 2014 and 2017
d
plete
d EEOC Baltimore Office to provide com
EEOC office. Philadelphia EEOC requeste
s case filed with EEOC on 91312014.
documents and information about Plaintiff
20
332 USCA4

8

22/18 Pace 21 of .35

Case 1:17-cv-03260-JKB Document 20 Filed 031

nt with the allegations.' (Jackson v.

any set of facts that could be provide consiste
Okaloosa County, Fla., 21 F. 3d 1531, 1534, 11

th Cir, 1994) (quoting Hishon v. King

is in original. See Church v. City of

& Spalding, 467 U.S. 69, 73, 1984, emphas
Huntsville, 30 F. 3d 1332, 1336; 11th

Cir. 1994. motion to dismiss challenging
e, should be denied.

standing). Defendants motion to dismiss, therefor

sal of accommodation, and
D. Defendants should not be immune from refu
ion and retaliation caused
control for hostile environment, discriminat
plaintiff's charges filed with
Plaintiff's disability and termination against
e VII.
EEOC under ADA as well as ADEA and Titl
ther there is a racial, ethnic,

As described above, the key question is whe

liation problem. Why did defendants

national origin and age discrimination and reta

C for over three years after Plaintiff

reject a mediation program and settlement in EEO

filed retaliation charge under ADA, ADEA and

Title VII, and why did they push

Plaintiff to the end of the suit in Federal District

Court, when the issue could have
? Is it because defendants, as a

been settled much sooner and much simpler

ortunity program manaaer, know that

professional attorney and Office of Equal Opp

state official and government agencies can use

the Eleventh Amendment as a tool to
eral district Court under ADA and

become immune from plaintiff's suit in Fed
ADEA? Is it a sin that defendant manipulated

its immunity in a systematic fashion

to discriminate against Federal causes of action?

In a manner similar to that seen in
lth and Mental Hygiene, Ms. Yu's

Ying-Jun Chen v. Maryland Depai Lcuent of Hea

d on national origin discrimination

claim here demonstrated disparate treatment base
21

333 USCA4

Case 1:17-cv-03260-JKB Document

20 Filed 0 3/22/18 Page 22 of 35
m

ants claim that they are immune fro

ce defend
and retaliation under Title VII. Sin

nation and retaliation under ADA

crimi
Plaintiff's complaint concerning dis

and

. Yu's

er defendants are immune from Ms

eth
ADEA. Plaintiff will address wh

statutes as follows.

complaint relevant to ADA and ADE.A

by
diation program recommended
1. Defendants' rejection of the me
in EEOC, voluntarily pushing
nt
me
tle
set
for
t
ues
req
's
Yu
.
EEOC and Ms
.
Plaintiff to file suit in Federal Court
ty
restrict Eleventh Amendment immuni
The United States Supreme Court did
ts of the University System of

v. Board of Regen
on procedural grounds, in Lapides

. 2d 806 (2002). In this action, the

0, 152 L. Ed
Georgia, 535 U.S. 613, 122 S. Ct. 164

venth Amendment immunity when

im Ele
Court rules that States could not cla

court By doing so the
voluntarily remove a case to federal

they

Court concluded that state

ue
y giving a plaintiff the chance to arg

thereb
had voluntarily waived its immunity,
the merits of the case.

EEOC
Plaintiff wrote several letters to the
diation
EEOC about a possible plan for me

investigator and checked with
ween

and settlement in Dec. 2014 and bet

t defendant rejected the mediation

was told tha
Feb and April 2017. However, she

tment of Health on 11/19/2014 to

program (EEOC requested Depar

answer the

settlement in EEOC during 2017.
d
use
ref
and
14)
/20
13
12/
by
m
mediation progra
in Federal
arily pushed Plaintiff to file a suit
unt
vol
ant
end
def
t
tha
ted
ges
sug
is
Th
uld make actions on behalf of the
sho
OC
EE
gh
hou
Alt
.
and
ryl
Ma
of
District Court
ial, ethnic,
te the intention of Congress to stop rac
Plaintiff, a priority in order to promo
22
334 USCA4

35
ent 20 Piled 03/22/18 Page 23 of
Case 1:17-cv-03260-JKB Docum
A if

ination
national origin, age and disability discrim

and retaliation in state government,

nt to lawsuits in Federal Court under

ernme
the EEOC knew the immunity of state gov

tead, grant Plaintiff's right for lawsuit

, ins
ADEA and ADA. While EEOC did not

urt after over three years of her filing

Co
(dated Oct. 16, 2017) in the federal

EA and ADA on Sept. 3, 2014. Thus, Ms

retaliation charges under Title VII, AD

. Yu

the case in this Court.

should have chance to argue the merits of

ffs suit.

2. Defendant has consented to Plainti

not been consented to be sued for

Defendants claimed that Maryland has

tom of paragraph, first line). However, as

bot
violation of ADA (see DML, p.10, at the

cted the
described above, after defendants reje

settlement and mediation program
t in

s have voluntarily driven Plaintiff to sui

which EEOC recommended, defendant

this lawsuit letter to defendant,

t a copy of
Federal district Court. EEOC also sen
istant
Maryland Department of Health, and Ass

to the Attorney General, Mr. Nicholas

endant was aware of Plaintiff's right to

E. Johansson. Thus, it is obvious that def

suit

rs after Plaintiff filed her retaliation

three yea
in the federal court, because it was over
charge with EEOC and past the statute

of limitations to file the lawsuit in the
t filing suit in the Federal court is

aware tha
Maryland State Courts. Defendants are

nic,

intiff to argue the merits of the racial, eth

the only and also the last chance for Pla

ination and
national origin, age and disability discrim

retaliation that caused damages,
t her

e Plaintiff was denied employment, los

and to request justice and relief becaus
health and basically lost everything.

23

335

USCA4

ge 24 of 35
cument 20 Red 03122118 Pa
Case 1:17-cv-03260-JKB Do

ion of the petition with Supreme

onsiderat
In addition, Plaintiff filed her rec

the

ve office decision and requested

inistrati
Court in Nov. 2017 against the adm

e impact on her suit in federal distric

g the negativ
Justice to hold her petition avoidin

t

cate

ration in Supreme Court. The certifi

reconside
court by the potential denial of her

ernor,

ration was sent to the Maryland gov

ide
of service of the copy of this recons

ants' attorney
State Attorney General and defend

consented to Plaintiff's lawsuit

ants
ignored that Maryland and defend
retaliation against her charges with

Nicholas Johansson. It cannot be
for the

EEOC under ADA and ADEA.
in the absence of consent.

Sovereign immunity bars suits only

ment, as a source of congressional

Section 5 of the Fourteenth Amend

authority

rt determined

, became important only after the cou

for the 1974 amendment of ADEA

Eleventh
that Congress could not abrogate

ing

Amendment immunity when act

ole Tribe of Florida v. Florida, 517

(Semin
pursuant to the Commerce Clause,

sued unless they
(1996) and state agency cannot be

U.S. 44

are aware of the suit. Aside from

EA remains valid as to both state and

nt to the AD
this restriction, the 1974 amendme

eral court when suing a local

be enforced in fed
local government employers; it can

of Bedford, 215 F.3d 703).

government unit (Conley v. Village

The earlier decision of Howlett v.

Rose also indicated that the states
ted

by imposing a state-crea
close their doors to Section 1983 claims

could not

immunity. State

ims and cannot change the scope of

l cla
cannot discriminate against federa

federally

unity barrier.

provided rights by creating an imm

24

336 USCA4

2Q Fiied 03/22118 Page 25 of 35
Case 1:17-cv-03260-JKB Document

4frt26)
from the complaint of disability

3. Defendants should not be immune

t unlawful termination under ADA

uen
discrimination and retaliation and conseq
rt

as well as ADEA and Title VII in the Cou

onsistent treatment of people with

The House report on the ADA indicated "inc

ncies is both inequitable and illogical".

disability by state or local government age

). The Fourteenth Amendment does allow

(H.R. Rep. No. 101-485 (II), at 37 (1990)

ty. Section 5 grants Congress the

uni
Congress to abrogate state sovereign imm

ls of the Amendment, which include the

enforcement power to advance the goa

tection
guarantees of Due Process and Equal Pro

of the law. (Ivan E. Boden Steiner

ployment and Labor Law v. 22:1, 2011)

and Rosalie B. Levinson, Berkeley 3. of Em

hibition of disability discrimination by

"The Court should hold that Congress pro

its power conferred by section 5 of the

state governments as employers is within

gress' clear abrogation of Eleventh

re, Con
Fourteenth Amendment and that, therefo

A is valid" (42 U.S.C. §12202)_

Amendment immunity in suits under the AD

aient of Health, receives federal

In addition, defendant, Maryland Depaiti

ters for Diseases Control and Prevention

funding support, such as through the Cen

y the epidemiologist with 100% of time

("CDC")-1305 program. Plaintiff was onl

p.
supported by CDC 1305 funding (see Com
devoted to the CDC 1305 program and
of the Rehabilitation Act of 1973 (29
p.8 under B, and exhibit# 26). Section 504
ividuals with a disability in "any
§794) prohibits discrimination against ind
ncial assistance.- The telin "program or

program or activity receiving federal fina

25
337 USCA4

of 35
ent 20 Filed 03/22/18 Page 26
Case 1:17-cv-03260-JKB Docum

YIP
the operations
activity" is defined to mean all of

of "a department, agency, special
e

te or of a local government," or "th

lity of a sta
purpose district, or other instrumenta

that distributes such assistance and

ment
entity of such state or local govern

each

nce is extended". (29 U.S.C. §794

the assista
department or agency... to which

(b),

.)

incorporating 42 U.S.C. §2000d-4a

une to
Therefore, defendants cannot be imm

the complaint related to ADA. The

dation and consequently termination

ommo
relief for Count II: rejection of acc

due to

h EEOC for

ion against Plaintiffs charge filed wit

disability discrimination and retaliat

national origin
continuous age, racial, ethnic and

and disability discrimination and

ll as ADEA and Title VII) should

(as we
retaliation (913/2014) under ADA.

not be

dismissed.
ation
from complaint of escalated retali
ne
mu
im
be
t
no
can
nts
da
fen
De
E.
h managers in both departments
against Plaintiff's opposition wit
l
sment, racial, ethnic and nationa
and charges with EEOC for haras
V11
origin discrimination under Title
OC
Plaintiff's second charge with EE
of
ce
den
evi
led
cea
con
nts
da
fen
1. De
Plaintiff's
on facts in the time sequence post
ati
ali
ret
the
ns
tai
con
ich
wh
4
in 201
EEOC charge in Nov. 2013:
ed
plaint under Title VII was time-barr
com
iffs
int
Pla
t
tha
ed
im
cla
ts
dan
Defen
Plaintiff
rge filed with EEOC in Sept. 2014.
cha
's
Yu
.
Ms
of
nce
ora
ign
the
of
e
becaus
ation was the key
ument (see above) that the retali
arg
described in part A of the

im of
among three counts, and the cla

retaliation cannot be entirely cut

off or

bility
illful underpayment" and 'Disa
"W
m
fro
ted
ec
nn
co
dis
ely
complet
2E

338 USCA4

35
ent 20 Filed 03/22/18 Page 27 of
Case 1:17-cv-03260-JKB Docum

endants did in the motion. Plaintiff sta

discrimination and retaliation" as def

ted

le VII and ADEA in Nov.

EEOC under Tit
protected activities (filed charge with
(between
2013) and adverse employment action

Dec. 2013 and Aug. 2014) against

2013 and
her first charge with EEOC in Nov.

updated complaints to managers

owed by the statement of her second

n foll
between Dec. 2013 and Feb. 2014; the

EA and ADA in Sept. 2014, and continu

charge with EEOC under Title VII, AD

ously

v. 3, 2014). Plaintiff summarized these

No
escalating retaliation (between Sept 3, and
facts in her complaint (see p. 6-10).

erse

To avoid duplicated description of adv

tate

ciplinary actions, Plaintiff did not res

actions during 2014 including five dis

erpayment" for damages to request

illful und
detailed information under Count I "W

e VII

liation against her complaints under Titl

relief (as Comp. p. 2-3), nor was the reta

ause detailed information was

Court III bec
and ADEA included in the relief for
"2,
summarized in complaint p. 6-9 prior to

Diagnoses" of p. 9.

2. Defendants failed to provide proof

that defendants' actions were proper
not adverse actions in retaliation

icies and
employment practice and neutral pol
for complaints to managers and filing

.

of charges with EEOC under Title VII

ce of a prima facie case: 1. Plaintiff

den
Plaintiff has already provided solid evi
is a protected class (Asian American);

2. Plaintiff filed charges of racial, ethnic

national origin discrimination with EEOC

and
v.

under Title VII (as well as ADEA) in No

ent

nt of Health, Director of HR Employm

2013 and reported Maryland Departme

ice of Equal Opportunity Program by

of Off
Relations in Dec. 2013, and Director
27

339 USCA4

35
ent 20 Piled 03/22118 Page 28 of
Case 1:17-cv-03260-JKB Docum

,0141

emails

ra's harassment, ethnic and national

on Jan. 9 and Feb. 2, 2014 about Ms. Bar

; 3. Plaintiff received adverse action

by

low supervisor's direction, judgment

and

origin discrimination and retaliation

memorandum requiring Plaintiff to fol

3 (although
addressing writing issue on Dec. 17, 201

she was evaluated "satisfied" of

/2014. Furthermore, because the

ion on 2/3
performance), and first disciplinary act

blems and subsequent filing with FMLA

retaliation caused Plaintiffs health pro

as a

rge of harassment, national origin, age

r cha
protected class, Plaintiff filed her anothe

h EEOC under Title VII, (as well as

ion wit
and disability discrimination and retaliat
ADEA and ADA) on Sept. 3, 2014, and

which was meanwhile sent to Office of

Equal

tment of Health on 9/2/2014 by Plainti

Opportunity Program manager at Depar

ff's

eived immediate adverse action by the

ff rec
former lawyer via email. Again, Plainti

ction of her request to use employee's

rejections of accommodation and reje

did not get
donated by her friend on 9/3/2014. She
ent
accommodation process because Departm
response to her appeal and rejected

leave

payment during an interactive

of Budget and Management delayed the
ted.

her appeals until after she was termina

erse
Defendants should not restrict these adv

actions to be claimed under ADA to be

but ignored
dismissed by state agencies ' immunity,
nic and
against Plaintiff's charge of racial, eth

the facts that were also occurred

national origin discrimination and

. According to McDonnell Douglas v.

retaliation with EEOC under Title VII

of shifted
(411 U.S. 792, 1973), the burden of pro

Green,

to defendants who must provide
inatory immediately after

liatory or discrim
proof that those actions were not reta
2

340 USCA4

L._

Case 1:17-cv-03260-iKB Document 20 Piled
7-Plaintiff s opposition and charge based

03122/18 Page 29 of 35

on Plaintiffs filed prima facie case.
r motion to dismiss.

Defendants failed to provide any proof in thei

rpreted Plaintiff's complaint of
3. Defendants misrepresented and misinte
stitutional tort-based case as the
retaliation under Title VII as only the con
pretext of the immunity.
of
Defendants misinterpreted Ms. Yu's statement

civil and constitutional rights

tort case (see DML p.12 and their foot

as Plaintiffs attempting to claim constitutional

ourages individuals from asserting their

note). Retaliation is a tool of power that disc

discrimination (William R. Tamayo,

civil rights and that undeinjines the laws against
et al. 2009). Defendants should not be immune

to the complaint of discrimination and
ngs to protected class under Title VII

retaliation under Title VII because Plaintiff belo

ic and national origin discriminatory

(as Asian American who filed racial, ethn
charges with EEOC). Plaintiff showed that a

reasonable employee would have found

the challenged action materially adverse and
during the investigation while the EEOC

the retaliatory discrimination occurred

charge under Title VII and ADA was

pending. Plaintiff also stated statute on p.13

related to the Count III, and retaliation

for her complaints under Title VII.
Department of Health
Mr. Neill, Current Secretary of Maryland
Department of Budget
and Mr. Brinkley, Secretary of Maryland
and Management, are the Proper Defendants
by speculating whether Plaintiff
Defendants created confusion at the beginning
als (although the complaint did not
is attempting to sue the Secretaries as individu
F.

state any issue directly related to individual

secretary), or to sue the Depaitinents.

29

341 USCA4

nt 20 Filed 03/22/18 Page 30 of 35
Case 1:17-cv-03260-JKB Docume

based cause of action-including disability

Defendants claimed that "Any employmentdiscrimination and retaliation can only be

asserted against Ms. Yu's employer... For
issed as to Defendant David Brinkley

this reason, Counts H and III should be dism

t

nagement)". However, EEOC Enforcemen

(and/or the Department of Budget and Ma

es under Actions That Are Nor Work-

stat
Guidance on Retaliation and Related Issues

may also be an action that has no tangible

Related that "[Ai materially adverse action

takes place exclusively outside of work,

effect on employment, or even an action that

able
as long as it might well dissuade a reason

person from engaging in protected

lated actions would not achieve the goal of

activity. Prohibiting only employment-re

avoiding retaliation because 'an emplo

yer can effectively retaliated against an
ted to his employment or by causing him

employee by taking actions not directly rela

e Court in Burlington Northern observed

harm outside the workplace." The Suprem

mination provisions seek elimination of

that, although the substantive anti-discri

ortunities because of employee's racial,

discrimination that affects employment opp

taliation provisions seek to secure that

ethnic, or other protected status, the anti-re

interfering in a materially adverse way

objective by preventing an employer from

rantees. (Burlington N.. 548 U.S. at 63-64,

with efforts to enforce the law's basic gua

and Santa Fe Railway Co. v. White. 126 S.
Therefore, defendants' motion to dismiss

Ct. 2405 (2006)).

Count II and III for Secretary Brenkley and
uld be denied.

Department of Budget and Management sho

30
342 USCA4

ent
Case 1:17-cv-03260-JKB Docum
t
In addition, defendants stated tha

20 Red 03/22/18 Page 31 of 35
im against

the "complaint fails to state a cla

Depatluient of Budget
Secretary Brinkley and/or the

and Management for

er statement in the motion

contradictory with the oth
anything...", which, however, is
s involving employees
that "there are some allegation

of the Department of Budget
y Brinkley in the Depaltnient

p.1 & 9, at D.). Secretar
and Management". (see DML,
of Budget and Management is the

s:

proper defendant for the following

14, Plaintiff
In February and March of 20

requested Department of

d Labor Relations Program to

ion of Employee an
Budge and Management, Divis

gressive harassment,

caused by Ms. Barra's pro
provide help to alleviate pain
after Plaintiff's initial
discrimination and retaliation
rra's interference
their help in combatting Ms. Ba

report in August 2013 to seek

with her job. (see Comp. p.8- 9,

at

1-c);
atory
Plaintiff's appeals against retali

disciplinary actions were also

bor Relations Program between

ployee and La
forwarded to the Division of Em
sources
and June, 2014 as Human Re

at Department of Health did

April

not respond

linary actions; and
Plaintiff's appeals for the discip
Department
Plaintiff filed appeals with the

of Budget and Management,

e the
partment of Health to overcom
De
for
fits
ne
Be
d
an
ce
rvi
Se
el
Office of Personn
appropriate
ent of Health of her request for
tal
pai
De
at
s
rce
sou
Re
n
ma
Hu
rejection by
time
d asked to use employee's leave
ha
iff
int
Pla
y.
ilit
ab
dis
r
he
for
accommodation
als
2014. The response to her appe
er
tob
Oc
d
an
er
mb
pte
Se
in
d
donated by her frien
31

343 USCA4

Case 1:17-cv-03260-JKB Document 20

Piled 03/22/18 Page 32 of 35

inated meaning that Plaintiff did not get
term
s
wa
she
il
unt
ied
den
and
d
aye
were del
intiff's
tive accommodation process (see Pla
rac
inte
the
ing
dur
er
tob
Oc
in
e
om
inc
at 4).

complaint page 11 and exhibits 36-37,

st

ponding to a pleading, "a parry mu

According to Rule 8. (c) (1), in res
affirmatively state any avoidance or

ributory

affirmative defense, including: ...cont

..", defendants failed to state any

... illegality.
negligence; failure of consideration;

avoidance of harassment, discrimination

action they ever took for correction and
retaliation by one employee against

to another minority employee due to

and

her age,
-

nagers (which are not only employment

by ma
ethnic, and national origin supported

ed to managers and filed appeals

based causes) after Plaintiff report

ination
Departments, and filed charges of discrim

in both

and retaliation with EEOC in 2013
nce on

ording to EEOC' s Enforcement Guida

and 2014 as stated in the complaint. Acc

nagers

ed above, Plaintiff believes that the ma

Retaliation and Related Issues describ

control,
did not take even minimal action to
hostile working environment and the

stop or prevent the establishing of a
ortunity

deprivation of her equal working opp

lity that was caused by harassment,

disabi
and payment, accommodation of her
discrimination and retaliation against

Plaintiff for her engaging in protected

The reclassification of Epidemiologist

activity.
roved

III (Position Identification Number) app

ent
by Department of Budget and Managem

for Ms. Yu was discriminatorily given

to

s not attended to or solved by any

action wa
Ms_ Barra and this discriminatory

ing
tead, Plaintiff was given an insult
manager in both Departments. Ins
'2

344 USCA4

/18 Page 33 of 35
Case 1:17-cv-03260-JKB Document 20 Filed 03/22

d Brinkley is current

recommendation to find another job. Because defendant Davi

nt, Secretary Brinkley is
Secretary of Maryland Depail.inent of Budget and Manageme
dismiss, at p. 1-2, #4).

proper defendant for his official capacity (see Defs. Motion to

It is contradictory with the facts and the significant rulings of

anti-retaliation by

nt II and III should be

EEOC and Supreme Court for defendants to clam Cou

i Lwent of Budget and

dismissed as to Defendant David Brinkley (and/or the Depa
Management)".

g party (who

"If a company does not punish the harasser and the retaliatin

force that retaliation is

might also be the harasser), it sends a signal to the work

consistent with company policy and that is not safe to complain

about discrimination

d to take advantage of

or harassment. The plaintiff employee unreasonably faile

available preventative or corrective opportunities or otherwise

failed to avoid harm."

(Faragher v. Boca Roton 524 U.S. 775, 1998).
taries for the two

Defendants Robert Neill and David Brinkley are current Secre
key Departments. Mr. Neill and Brinkley are being sued

here in their official

tiffs Count I-III should

capacities only. For the above and foregoing reasons, Plain
not be dismissed.
CONCLUSION

Wherefore, the Plaintiff pleads to this Court to enter an
defendants' motion to dismiss. Plaintiff respectfully requests

a

order denying
by jury on all

issues raised in this complaint and award her:
33 -

345 USCA4

ent 20
Case 1:17-cv-03260-JKB Docum
A retroactive reclassification to

Ried 03/22/18 Page 34 of 35

the Epidemiologist ill, with all

attendant

oluments of employment;

back pay, benefits and other em

ages suffered because Of the

satory dam
The sum of $300,000 in compen
discrimination and retaliation;
t—III pay
Front pay at the Epidemiologis
years when she
until she reaches the age of 67

level (including pay increases)

vice
would have retired from State ser

/retaliatory treatment of her;

ory
if not for Ms. Barra's discriminat

s incurred since 2013 and with

s' fee
Costs and reasonable attorney

this

lawsuit with interest thereon and
s.

r relief deemed just.

furthe
Medical costs, other damages and

Respectfully submitted,
X iao-Ying Yu, pro se
557 Kirkcaldy Way
Abingdon, MD 21009
410-671-9823

346 USCA4

1 of 14
Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
NORTHERN DIVISION
X
XIAO-YING YU,
Plaintiff,

Case No.: 17-cv-3260-JKB

-againstDENNIS SCHRADER, et al,
Defendants,
X

PLAINTIFF'S MEMORANDUM OF LAW
AS SUPPLEMENTAL RESPONSE IN OPPOSITION TO
DEFENDANTS' MOTION TO DISMISS
ss submitted on

In addition to the Plaintiffs Response to Defendants' Motion to Dismi
March 22, 2018 (Docket 420), Plaintiff Xiao-Ying Yu, by and through

her undersigned counsels,
emental Response In

respectfully submits this Plaintiffs Memorandum of Law as Suppl
Opposition to Defendant's Motion to Dismiss.
INTRODUCTION

laint (collectively

Plaintiff, Xiao-Ying Yu, filed a Complaint and an Amended Comp
referred to as the "Complaint") in this action pro se against her former
Department of Health ("MDH") and the Maryland Department of

employers, the Maryland

Budget and Management

("DBM") and the Secretaries of such both Departments, alleging causes
underpayment, unequal payment, discrimination and retaliation based

of action of willful

on national origin, age

and/or disability in violation of Title VII of the Civil Rights Act of 1964,

as amended, 42 U.S.C.

§2000e et seq. ("Title VII"); the Age Discrimination in Employment Act,

29 U.S.C. §621 et seq.,

42 U.S.C. §12101 ("ADEA"); the American with Disabilities Act Law,

29 USCS §794 ("ADA"),

and Section 504 of the Rehabilitation Act.

441 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 2 of 14

Plaintiff, a naturalized United States citizen who was born in China, at an age over 60,
worked as an epidemiologist in the Center of Chronic Disease Prevention and Control
("CCDPC") from November 4, 2009 until the wrongful termination of her employment on
November 3, 2014. CCDCP is an independent commission that functions within MDH.
Defendant DBM, as another branch of the State government of Maryland, exerted certain control
over the Plaintiff's employment with MDH.
Defendants brought this instant pre-answer Motion to Dismiss pursuant to Rule 12(b)(6).
As demonstrated below, such Motion should be denied in its entirety because the Complaint
adequately stated cognizable causes of action against the Defendants, and the Defendants are not
entitled to immunity as contended.
Even if the Court inclines to grant such Motion, which it should not, the Plaintiff should
be granted leave to amend her complaint liberally because there is no prejudice to the
Defendants.
STANDARD OF REVIEW
The standard of review on a pre-answer Rule 12(b)(6) motion to dismiss is heavily
weighted in favor of the plaintiff. Poison v. Village of Washinztonville, 382 F.Supp.2d 598
(SDNY 2005). A complaint must be read generously, drawing all reasonable inferences from
allegations in the plaintiffs favor. M In ruling on a motion to dismiss for failure to state a claim,
the Court must accept the material facts alleged in the complaint as true. Id. The Court must deny
the motion unless it appears beyond doubt that the plaintiff can prove no set of facts in support of
his claim which would entitle him to relief. Id.
The issue, thus, is not whether a plaintiff will ultimately prevail, but whether the claimant
is entitled to offer evidence to support the claims. Scheuer v. Rhodes, 416 U.S. 232 (1974).

442 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 3 of 14
p,,NO
o

A plaintiff s complaint "must contain sufficient factual matter, accepted as true, to 'state
a claim to relief that is plausible on its face. — Ashcroft v. Iqbal, 556 U.S. 662 (2009) at 678
(quoting Twombly. 550 U.S. at 570)(emphasis added); accord Little v. KPMG LLP, 575 F.3d
533, 541 (5th Cir. 2009).
A Rule 12(b)(6) motion in any civil case is analyzed under the standard announced in
Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007). To survive a Rule 12(b)(6) motion, the
plaintiff must state a claim that is "plausible on its face.A claim is plausible on its face "when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged."
Id. at 678 (citing Twombly, 550 U.S. at 556); Gonzales v. Kay, 577 F.3d 600, 603 (5th Cir.
2009): Fields v. Dep't of Pub. Safety, 911 F. Supp. 2d 373, 383 (M.D. La. 2012) (Jackson, J.).
STATEMENT OF FACTS
The Court is respectfully referred to Plaintiff's Response to Defendants' Motion to
Dismiss (Docket #20) for a statement of facts.
ARGUMENT
I.

The Complaint should not be dismissed pursuant to Rule 8 of the Federal Rules of
Civil Procedure.
Defendants move to dismiss the Complaint based upon Rule 8(a)(2) of the Federal Rules

of Civil Procedure contending that Plaintiff has failed to make "a short and plain statement of the
claim showing that the pleader is entitled to relief." Defendant arzues that Plaintiff's complaint is
lengthy, single-spaced. underlined.
However, these apparently nominal aspects are not sufficient for a ground of dismissal.
What matters is the detailed factual allegations give sufficient notice to the Defendants.

3
443 USCA4

/18 Page 4 of 14
Case 1:17-cv-03260-JKB Document 30 Filed 05/11

Especially, the complaint was prepared by a pro se plaintiff, a perfect professional pleading is
not expected from her.
Pleadings of pro se plaintiff must be read liberally and should be interpreted to raise
strongest arguments that they suggest. Gray v. Internal Affairs Bureau. 292 F Supp 2d 475.
(S.D.N.Y. Nov. 17, 2003).
Although Plaintiffs pro se. Complaint was long, the Court would not Grant dismissal of
complaint under Fed. R. Civ. P. 8 because under the less stringent standard held for pro se
pleadings, complaints and attachments were sufficient to provide defendants with notice of the
basis of the plaintiffs claims. Peavey v. Holder. 657 F Supp 2d 180 (D.D.C. Sept. 28, 2009).
The system of notice pleading established by Rule 8 does not require a plaintiff to plead
facts or legal theories, and a complaint which sets out claim for relief is sufficient to withstand a
motion to dismiss, as long as there is any set of facts, consistent with allegations, under which
relief could be granted. Nance v. Vieregge. 147 F.3d 589 (7th Cir. Ill. June 17, 1998) cert.
denied, 525 U.S. 973, 119 S. Ct. 426, 142 L Ed 2d 347 (U.S., Nov. 2, 1998).
Although Plaintiffs allegations were not strong, they were sufficient to meet lenient
standards of notice pleading set out in Rule 8 and provided adequate notice to the Defendants,
and therefore dismissal under Rule 12(b)(6) was inappropriate. Weston v. Pennsylvania (3d Cir.
Pa. May 22. 2001). 251 F.3d 420. 85 Fair Empl Prac Cas (BNA) 1477.
Here in this case at bar, though the Complaint pro se might be not organized
professionally and might be lengthy, the Complaint,. Amended Complaint and 39 exhibits
provided adequate notice to defense.
H.

Defendants are not immune in federal courts because the cause of action is not a
tort-based claim.

4
444 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 5 of 14
i

Defendants contend that "Count I for willful underpayment should be dismissed because
it is not a cause of action, and to the extent a claim does exist, it would likely be considered a tort
claim." Defendants' interpretation is out of context of the Complaint.
to
Plaintiff pro se apparently utilized a template form of complaint (Rev. 12/2000)
prepare her complaint. The Amended Complaint (Docket #4) consists of 3 paragraphs numbered
1. Jurisdiction, 2. The facts of this case and 3. The relief I want the court to order.
Under paragraph 2, page 2 of the Amended Complaint, the Plaintiff enumerated Section
I, Underpayment of Salary, Section II, Reports of Retaliation for Engagement in Protected
Activities, Section III Damages to Ms. Yu's Health and Further Discrimination and
Retaliation (Complaint Filed in U.S. EEOC under Title VII, ADEA and ADA). From page 2
through page 7 under Section I and II, paragraph 2, the Amended Complaint made factual
allegations alleging various incidents of harassment, discrimination, retaliations, unequal
payment and underpayment against her. Under Section III, she alleged damage to her health, and
further discrimination and retaliations. Plaintiff further attached 39 exhibits consisting of
correspondences, letters, emails, charges, and other documents in further support of her factual
allegations.
Then under paragraph 2, page 10, the Amended Complaint asserted "the following counts
and allegations of damages supporting her case of action and her request for relief," enumerating
I. Willful underpayment, II. Disability-Discrimination, Harassment and Retaliation after
Ms. Yu Filed Charge in EEOC under ADA in 2014 and III. Retaliation for Complaints
reported to DHMH managers and filed in EEOC in 2013 and 2014 under Title VII and
ADEA.

5
445 USCA4

Case 1:17-cv-03260-JKB Document 30 Hied 05/11/18 Page 6 of 14

Reading the purported Count I in the entire context of the Amended Complaint, it is
actually not a simple tort-based claim, it is actually a factual allegation of combined causes of
action for discrimination, retaliation, unequal payment and willful underpayment. The paragraph
alleges that an epidemiologist III position was expressly approved by MDH and DBM for her,
but unlawfully deprived from her by her supervisors and given to Ms. Ban-a unlawfully, and that
she was under paid and not equally paid according to her job duties. Underpayment is simply a
statement of facts and a claim for damage.
For the same reasoning, Defendants' contention that it is timely-barred by the applicable
statute of limitation because it was a tort-based claim lacks merit and should be denied as well.
III. The complaint against Secretary Brinkley and the Department of Budget and
Management should not be dismissed because the Department of Budget and
Management exerted control over Plaintiff's employment.
Defendants argue that the complaint against Secretary Brinkley and DBM should be
dismissed because Plaintiff was employed by the MDH and CCDPC, not the DBM. Such an
argument is not only an issue of fact which cannot be addressed through a Rule 12(b)(6) motion,
but also is incorrect.
The MDH did not and does not have authority to approve an Epidemiologist III position
identification number without the, DBM. When Plaintiff applied to use her colleague's donated
employee's leave, Plaintiffs director reported to the Department of Budget and Management.
Clearly, to the extent of employment relationship, the Department of Budget and Management
had certain control to a certain extent.
Two or more state or local governmental entities will be treated as a single employer
under Title VII where one entity exerts or shares control over fundamental aspects of

6
446 USCA4

1/18 Page 7 of 14
Case 1:17-cv-03260-JKB Document 30 Filed 05/1
114 /2,4-

s

employment relationships of the other entity to such substantial extent that it clearly outweigh

the presumption that the entities are distinct. Lves v. City of Riviera Beach. 166 F.3d 1332
C
(CA11 Fla, 1999), 79 BNA FEP Cas 330, 75 CCH EPD P 45728, 12 FLW Fed
515, remanded, 169 F.3d 1322, 12 FLW Fed C 617 (CAl l Fla, 1999).
Ordinarily, the question whether a defendant was the employer of a plaintiff in an age
discrimination case is a question of fact for the jury. Woodford v. Kinney Shoe Corp., 369
Supp. 911, 7 BNA FEP Cas 117, 7 CCH EPD P 9239 (1973, ND Ga). Such an issue of

F.

facts

should only be interpreted in favor of the Plaintiff. it cannot be addressed by a Rule 12(b)(6)

pre-

answer motion to dismiss without any discoveries.
IV. Defendants are not immune from disability discrimination suit under ADA

in

federal courts.
Section 504 of the Rehabilitation Act provides: "(n)o otherwise qualified individual with
a disability in the United States as defined in section 705(20) of this title shall, solely by reason
of her or his disability, be excluded from the participation in, be denied the benefits of, or

be

l
subjected to discrimination under any program or activity receiving Federal financia
assistance." 29 U.S.C. § 794(a).
A state is not immune by virtue of the Eleventh Amendment from suit brought against it
h
under the Rehabilitation Act because the Act contains an express waiver of Elevent
Amendment immunity, and by accepting federal funds, the state has accepted waiver. Clark

v.

California Dept of Corrections, (1997, CA9 Cal) 123 F.3d 1267, 25 ADD 146, 97 CDOS 6894,
97 Daily Journal DAR 11140, 7 AD Cas 292, cert denied (1998) 524 U.S. 937, 141 L Ed 2d

711,

118 S. Ct. 2340, 8 AD Cas 480 (criticized in Moyer v. Conti, (2000, ED Pa) 11 AD Cas 55)

and

Cas
(criticized in Frederick v. Dep't of Pub. Welfare (2001, ED Pa) 157 F. Supp. 2d 509, 12 AD

7
447 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 8 of 14

Aff
721) and (criticized in Bradley ex rel. Bradley v. Arkansas Dept of Educ. (1999, CA8 Ark) 189
F.3d 745) and (criticized in Popovich v. Cuyahoga County Court of Common Pleas (2000, CA6
Ohio) 227 F.3d 627, 10 AD Cas 1784, 2000 FED App 330P1 and (criticized in Garcia v. State
Univ. of N.Y. Health Scis. Ctr. (2001, CA2 NY) 280 F.3d 98, 12 AD Cas 538) and (criticized
in Sacca v. Buffalo State College (2004, WD NY) 2004 US Dist LEXIS 91341 and (criticized
in Atwood v .Vilsack (2004, SD Iowa) 338 F. Supp. 2d 985).
A state labor agency was not entitled to constitutional immunity from disability
discrimination action in federal court because the agency waived its immunity by accepting
federal financial assistance, even though the employee worked in a division which did not
receive federal funds. and the waiver encompassed all of the agency's operations regardless of
use of federal funds. Arbogast v. Kansas (2015, CA10 Kan) 789 F.3d 1174, 31 AD Cas 1245.
Here, the CDC program that the Plaintiff worked in has been receiving federal funds.
See. Exhibit 9 to the Amended Complaint. Thus, the Defendants are not entitled to immunity
from Plaintiffs disability discrimination suit in deferral court.
V. Defendants are not immune from age discrimination and retaliation suit under
ADEA in federal court.
ADEA is proper exercise of congressional §5 enforcement power under the Fourteenth
Amendment; thus, Congress appropriately abrogated states' Eleventh Amendment immunity
from suit in ADEA. Goshtasby v. Board of Trustees of the Univ. of Ill., (1998, CA7 Ill) 141 F.3d
761, 76 BNA FEP Cas 1179 (criticized in Humenanskv v. Regents of the Univ. of Minn. (1998,
CA8 Minn) 152 F.3d 822, 77 BNA FEP.Cas 679).
Congress intended to abrogate states' Eleventh Amendment immunity in extending
ADEA coverage to states, and in doing so, Congress acted pursuant to a valid exercise of power

8
448 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 9 of 14

under Section 5 of the Fourteenth Amendment. Scott v. University of Mississippi (1998, CA5
Miss) 148 F.3d 493, 77 BNA FEP Cas 1085.
States and their agencies are liable under ADEA notwithstanding the 11th
Amendment. Davidson v. Board of Governors of State Colleges & Univs. (1990, CA7 Ill) 920
F.2d 441, 54 BNA FEP Cas 956, 55 CCH EPD P 40425 (criticized in Kimel v. Florida Bd. of
Regents (1998. CAll Ala) 139 F.3d 1426. 11 FLW C 1288, 8 AD Cas 1, 22 EBC 2539. 76 BNA
FEP Cas 1201, 73 CCH EPD P 45419).
VI.

Claims under Title VII
The Complaint must set forth "enough factual matter (taken as true) to suggest" a

cognizable cause of action, "even if . a . [the] actual proof of those facts is improbable and . . .
recovery is very remote and unlikely." Twombly. 550 U.S. at 556 (internal quotations omitted).
"A court decides whether [the pleading] standard is met by separating the legal conclusions from
the factual allegations, assuming the truth of only the factual allegations, and then determining
whether those allegations allow the court to reasonably infer" that the plaintiff is entitled to the
legal remedy sought. A Society Without A Name v. Virginia. 655 F.3d 342, 346 (4th Cir.
2011), cert. denied, U.S., 132 S. Ct. 1960, 182 L. Ed. 2d 772 (2012).
A motion asserting failure to state a claim typically "does not resolve contests
surrounding the facts, the merits of a claim, or the applicability of defenses." Edwards, 178 F.3d
at 243 (quotation marks omitted); see Houck, 791 F. 3d at 484: Tobev v. Jones. 706 F.3d 379,
387 (4th Cir. 2013).
A district court did not lack subject matter jurisdiction over a claim simply because it did
not allege all applicable components of a cause of action because the complaint need not set out
all of applicable law or facts, provided it notifies the defendant of the claim's nature. Board of

449 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 10 of 14

Trustees v. Elite Erectors. Inc. (7th Cir. Ind. May 16, 2000), 212 F.3d 1031, 24 Employee
Benefits Cas (BNA) 1481.
Reading the Complaint, the Amended Complaint and the 39 exhibits in their entirety
clearly shows sufficient allegations of discrimination and retaliation claims under Title VII.
Section II, page 3, of the Amended Complaint alleges that:
"Ms. Yu's engagement in protected activities between 2012 and 2014 (via
multiple reports to MDH managers including HR, OEOP and filing
grievance and appeals in MDH and charge about discrimination and
retaliation filed in U.S. Equal Employment Opportunity Commission
("EEOC") under Title VII of the Civil Rights Act and Age discrimination
in Employment Act ("ADEA") on 11/12/2013 were labeled as "disruptive
behavior". Ms. Yu received progressive retaliations, downgrading
performance evaluation from "outstanding" to "satisfied" with
improvement memorandum after Ms. Barra became Ms. Yu's supervisor
for two weeks." See, Amended Complaint, Docket #4.
Paragraph 15, page 6, of the Amended Complaint alleges that:
"15) Ms. Yu's reports to MDH Office of Equal Employment Program
("OEEP") director triggered disciplinary action: Ms. Yu reported to
OEOP director, Ms. Keneithia J. Taylor between 1/9 and 1/31/20i4 about Ms.
Barra's discrimination, harassment and retaliation including frequently
preventing Ms. Yu from accessing the database and training course (E17).
Then on 2/2/2014, Ms. Yu reported to her about Ms. Barra's new
discrimination at National Origin behavior because Ms. Barra sent Ms. Yu a
warning email on the Chinese New Year eve although Ms. Barra had
previously approved her request to take half the day off (E18). Additionally,
Ms. Yu also reported to Ms. Taylor on 2/2/2014 that Ms. Barra retaliated and
interfered with her job including block of her submission of abstract for office
program/projects (E19)." See, Amended Complaint, Docket #4.
Section III, page 7, of the Amended Complaint alleges that:
"Ms. Yu filed her second discrimination and retaliation charge under Title
VII, ADEA and ADA (Case# 531-2014-02468C) on 9/3/2014 in U.S.
EEOC which was emailed to DHMH OEOP Ms. Delinda Johnson on
9/2/2014 by Ms. Yu's former lawyer. Then Ms. Yu received Ms. Johnson's

rejection of her accommodation on 9/3/2014 and was terminated on
11/3/2014. Ms. Yu requested EEOC to amend these adverse events of
termination into her existing retaliation charge file and also filed ADA
complaint in Department of Justice, Civil Right Division, Disability Section."
See, Amended Complaint, Docket #4.

10
450 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 11 of 14

Paragraph 7, page 10, of the Amended Complaint alleges:
"7) The charge of discrimination and retaliation filed in EEOC under
Title VII, AEDA and ADA: Because Ms. Yu did not receive MDH OEOP
Ms. Delinda Johnson response for her accommodation request to correct
hostile working condition for her to work or to assign her to other position,
but was required to only work under supervision of Ms. Barra's harassment
and retaliation during the interactive accommodation process, she filed charge
(which her former lawyer prepared) in EEOC on 9/3/2014." See, Amended
Complaint, Docket #4.
In addition to these factual allegations, the Plaintiff further attached 39 exhibits in support of
her claims and the Amended Complaints. It not only stated cognizable causes of action and gave the
Defendants adequate notice of the claims, but it also substantiated her claims with voluminous
evidence of correspondence, emails, reports and documentation. These allegations not only clearly
stated causes of actions, but they also allow the court to infer that Plaintiff has prima facially stated
causes of action under Title VII.
VII. The Secretaries are proper defendants under Title VII.
Claims against the Secretaries are not to hold them liable under Title VII in their
individual capacities, but in their official capacities.
The Commissioner of a State Department of Mental Health and Mental Retardation was
the employer for purposes of a Title VII action because the Department was employer, the
governor appointed the Commissioner (which was a policy-making position), and the
Commissioner was an agent of the Department, with actual authority to hire and fire employees
of the Department. Cross v. Alabama (1994, CAI I Ala) 65 BNA FEP Cas 1290, 8 FLW Fed C
548, amd, reh, en bane, den (1995. CA1 1 Ala) 49 F.3d 1490, 67 BNA FEP Cas 844. 67 CCH
EPD P 43802, 8 FLW Fed C 1157,reh, en banc, den (1995, CA11 Ala) 59 F.3d 1248 and
(criticized in Fredette v. BVP Management Assocs. (1995, MD Fla) 1995 US Dist LEXIS
14010).

11
451 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 12 of 14

4r1
Pursuant to Section 2102 of Title 5 of the United States Code, the term "employer" was
defined as a person engaged in an industry affecting commerce who has twenty or more
employees for each working day in each of twenty or more calendar weeks in the current or
preceding calendar year, provided, that prior to June 30, 1968, employers having fewer than fifty
employees shall not be considered employers. The term also means (1) any agent of such a
person, and (2) a State or political subdivision of a State and any agency or instrumentality of a
State or a political subdivision of a State, and any interstate agency, but such term does not
include the United States, or a corporation wholly owned by the Government of the United
States.
Clearly, the Secretaries in this action are sued in their official capacity as the agents of
State agencies. They are the proper parties to this action.
VIII. Plaintiff should be granted leave to amend her Complaint.
If the Court granted the Defendants' instant Motion to Dismiss, which it should not, the
dismissal should be without prejudice and the Plaintiff should be granted leave to amend her
Complaint.
If a District Court dismisses a complaint for failure to comply with Rule 8, it should
generally give plaintiff leave to amend. Iwachiw v. N.Y. City Bd. of Elections, (E.D.N.Y. July
26, 2003), 273 F. Supp. 2d 224, affd, (2d Cir. N.Y. Mar. 17, 2005), 126 Fed Appx 27.
If information set forth in a complaint does not adequately apprise the defendant of the
nature of the plaintiffs claim as required by Rule 8, the Court may allow the plaintiff to amend
his pleading to state more clearly a cause of action, rather than dismiss the complaint under Rule
12(b)(6). Chisholm v. T.J.X. Cos. (ED. Va. Oct. 7, 2003), 286 F. Supp. 2d 736.

12
452 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 13 of 14
3/0
Although a complaint failed to make a short and plain statement of a claim, the District
Court abused its discretion in dismissing a pro se complaint without granting leave to file an
amended pleading where, liberally construed, thee complaint alleged sufficient facts to suggest
potentially meritorious claims. Elliott v. Bronson (2d Cir. Conn. Apr. 5, 1989), 872 F2d 20.
Failure to allow a plaintiff leave to amend her complaint, pursuant to FRCP 15(a), in
order to allege the issuance of a right-to-sue letter, is abuse of discretion because the plaintiff's
complaint adequately alleges a basis for a claim, thus eliminating, any possibility of prejudice to
the defendants. Gooding v. Warner-Lambert Co. (3d Cir. N.J. Sept. 28, 1984), 744 F.2d 354, 35
Empl Prac Dec (CCH) P34671, 35 Fair Empl Prac Cas (BNA) 1707.
A plaintiff should be given opportunity to amend under Rule 15, where the complaint
fails to comply with Rule 8(a)(1) and there is nothing to suggest that any prejudice would be
worked upon the defendants by permitting such amendment, particularly where the plaintiffs'
cause of action in state court would be barred by a statute of limitations. Sims v. Mercy Hospital
of Monroe (6th Cir. Mich. Nov. 26, 1971), 451 F2d 171.
Here, the Defendants' Rule 12(b)(6) Motion to Dismiss not only lacks merit, but also
fails to allege any prejudice. In fact, there is no prejudice to the Defendants to grant leave to the
Plaintiff who filed the Complaint pro se to amend her complaint should the Court be inclined to
grant Defendants' instant motion.
CONCLUSION
Based upon the foregoing, it is respectfully requested that the Defendants' instant Rule
12(b)(6) Motion to Dismiss be denied in its entirety and in the unlikely event that the Court
grants such Motion, that the Plaintiff be granted leave to amend her complaint and such other
and further relief as the Court deems just and proper.

13
453 USCA4

Case 1:17-cv-03260-JKB Document 30 Filed 05/11/18 Page 14 of 14
H

Dated: May 10, 2018
Respectfully submitted,
/s/ William X Zou
LAW OFFICES OF XIAN FENG ZOU
By: William X. Zou, Esq.
Federal Bar ID: 808529
Admitted Pro Hac Vice
Attorney for Plaintiff
136-20 38th Avenue, Suite 10D
Flushing, NY 11354
Tel: (718) 661-9562
Fax: (718) 661-2211
/s/ Eric Hawkins
LAW OFFICE OF ERIC HAWKINS
By: Eric Hawkins, Esq.
Federal Bar ID: 20065
Attorney for Plaintiff
6615 Wilson Lane
Bethesda, MD 20817
Tel: (240) 600-1126
Fax: (614) 748-5591

14
454

US CA4

Case 1:17-cv-0326CL-,1KB Document 4-1 Fled 12/081i7 Page 125 o jg-17-c

ixbtki-f,

Page1 of 4

Ms. Jennifer English

e:1;10

a ctt"4-'-'19/2-5

RE: Xiao-Ying Yu
Robert Toney, MD
Concentra Medical Advisory Services
1419 Knecht Avenue
Baltimore, MD 21227

June 18, 2014

CONFIDENTIAL,

Jennifer English
Department of Health and Mental Hygiene
201 West Preston Street
Baltimore, Maryland 21201
Employee:
SS#:
Date of Evaluation:
Position:

Xiao-Ying Yu
xxx-xx-7243
06/16/.2014
Epidemiologist II
WORKABILITY EVALVATION

Dear Ms. English:
Thank you for referring Xiao-Ying Yu to the State Medical Director's Office/Medical Advisory
may
Services for a Workability Evaluation, Ms. Yu was informed that any information provided
ion
examinat
this
of
purpose
be incorporated in my report. In addition, she was informed that the
regard.
that
in
ed
establish
be
was for evaluation only and no doctor/patient relationship would
Al! the submitted administrative documents were reviewed. Ms. Yu was referred for a
Workability Evaluation to determine if she is able to perform the essential duties of her position.
ion
There were no medical records available at the that of this evaluation. The medical informat
provided by Ms. Yu during the interview was the primary source of the medical history.
HISTORY OF PRESENT ILLNESS: Ms. Yu is a 61-year-old female who works as an
Her
Epidemiologist II for DHMH. She has been with the agency for approximately four years.
to
return
to
plans
no
has
she
that
indicates
last day of work was on April 30, 2014, and Ms. Yu
or.
Supervis
her Job unless she is assigned to a new
The administrative documents submitted for this evaluation today indicate that Ms. Yu's
is
Supervisor, Sara Barra, has requested an appointment with our office to determine if Ms. Yu
missed
able to perform the essential duties of her position. It is reported that Ms. Yu has recently
time from work. In addition, it is repeated that the office is concerned about erratic and

164

USCA4

Case 1:17-cv-03260-3KB Document 4-1
Page 2. of e
Ms. Jennifer English
RE: Xiao-Yang Yu

P agelpdpifna/- 3260
Filed 12/0W 7 Pe

e,(Theak.i.kbx_pf2.6

A 'N3
it

The administrative documents list several
disruptive behaviors that Ms. Yu has exhibited.
be repeated in my report. It is also indicated
examples of disruptive behavicrs, which will not
ved several disciplinary actions.
that as a result of these behaviors, Ms. Yu has recei
because of stem that was caused by what
Ms. Yu indicates that she initially went out of work Supervisor, Sara Barra. Ms. Yu feels that
by he:
she heels is a. hostile work environment caused
several months by her Supervisor. Ms. Yu feels
for
st
again
iated
retal
and
ssed
hara
she has been
that she is working in a hostile wore environment
gradually not involved her in all projects at
Ms. Yu states that her Supervisor has over time
away her job responsibilities. Ms. Yu feels
work. Ms. Yu feels that her Supervisor has taken
r employers on her job. Ms. Yu feels that her
that she is not treated fairly compared to the othe
is fearful that she will lose her job because
job duties have been gradually taker away and she
she is being made useless by her Supervisor.
hiatrist, Dr. Sisson. Ms. Yu indicates that she
Ma, Yu was initially taken out of work by her psyc
, to complete some type of paperwork;
did return to work for a half day on May 13, 2014
sent for a mitigation conference, and she
however, as soon as she reported to work, she was
became very emotional and left her-job.
with her union and also filed an EEOC complaint
Ms. Yu admits that she has filed a grievance
by her Supervisor.
based on her perception of her unfair treatment
seen by a cardiologist because she felt like
Prior to being seen by her psychiatrist, Ms. Yu washeart disease. According to Ms. Yu, she was
ed to
her chest pain symptoms were possibly relat
admit that she takes nitroglycerin as needed for
does
she
but
t,
poin
stand
ac
cardi
a
from
cleared
chest pain.
and has a lot of anxiety. She states that her
Currently, Ms. Yu states that she is very stressed
eased appetite. Ms. Yu states that she is
mood is sad. She has difficulty sleeping and a decr
nue to work under her current Supervisor,
unable to report to work as long as she has to conti
PAST MEDICAL HISTORY:
I. Generalized anxiety disorder.
Depression.
GERD.
SURGICAL HISTORY: None.
ed. She denies any use of alcohol or illicit

SOCIAL HISTORY: The patient has never smok
drugs.
REVIEW OF SYSTEMS: Unremarkable other
History of Present Illness.

than what was previously mentioned in the

165 USCA4

Case 1:17-cv-0326g..1f<B Document 4-1 Filed 12/0847
Page 3 of 4
Ms. Jennifer English
RE: Xiao-Ying Yu

11--

Page 127 51493
,
w., ;260

6,14.6.71- <— nz 7

of any of her medications.
MEDICATIONS: Ms. Yu claims that she does not recall the name
anxiety, and another medicine for
She takes one medication for sleep, one for depression, one for
reflux. She does take sublingual nitroglycerin as well.
ALLERGIES: No known drug allergies.
MEDICAL RECORDS REVIEWED: None.
OTHER RECORDS REVIE
1. The job position description for an Epidemiologist II.
PHYSICAL EXAMEN ATION:
who was alert and oriented x 3.
General Appearance: The patient was a well-developed female
the evaluation today. Blood
She showed no signs of physical or emotional distress throughout 94 pounds.
t
pressure 100/60 mmHg. Pulse 72. Height 61-1/2 inches, and weigh urs.
murm
No
.
rhythm
and
rate
ar
Regul
52
Si,
Cardiovascular: Normal
or rales.
Respiratory: Lungs clear to auscultation bilaterally. No wheezes al, thoracic and Ituribar spine
cervic
the
hout
toine: The patient had Atli range of motion throug
without any reported pain.
normal strength throughout the
Upper Extrenities: The patient had full range of motion and
upper extremities.
l strength throughout the
Lower .Extremitler.. The patient had full range of motion and norma
lower extremities.
grossly intact.
Pleura: Nonnal examination of deep tendon reflexes. Cranial nerves
Normal sensation and cerebellar Inction.
device. No limp was present.
Gait: The patient ambulated independently with no assistive
priate. Her speech was
MENTAL STATUS EXAMINATION: Her appearance was appro sed. Her thought
depres
mildly
was
mood
Her
cohernt. Her affect was tearful at times.
or long term memory. She had
processes were logical. She had no obvious deficits in short term
not report any past or current
no signs of auditory or visual hallucinations or delusions. She did
suicidal or homicidal ideation.
IMPRESSION:
Workplace stress.
Anxiety disorder.
Depression.
ar-old female who works as an
SUMMARY AND RECOMMENDATIONS: Ms. Yu is a 61-ye
tted today indicate that Ms.
Epidemiologist 11 for DHMH. The administrative doc.-urnents submi
linary actions over the
discip
l
Yu has displayed disruptive behavior which has resulted in severa
to significant stress
ary
second
last several months. Ms. Yu indicates that she went out of work
retaliation from ber
and
ment
harass
ent,
and anxiety brought on by her perception of unfair treatm

166 USCA4

Page 128 of 193
Case 1:17-cv-0326(4CB Document 4-1 Filed 12/087
Page 4 of 4
Ms. Jennifer English
RE: Xiao-Ying Yu

3I„r

17-60- 3260

&-iertelif---

of work, she has been
Supervisor, and a hostile work environment. Since Ms. Yu has been out
plans on returning to
no
has
Yu
Ms.
.
followed on a regular basis by a psychiatrist, Dr. Bisson
work unless she is working under a different Supervisor.
Yu not report to work at this
Based on the above information; it is my recommendation that Ms.
to get a better assessment
tion
Evalua
logical
Psycho
time. I have referred her for an Independent
Ms. Yu's treating
from
s
record
l
medica
ted
of her psychological status, I have also reques
physicians.
medical records. Her
Ms. Yu refused to sign a consent form that would allow me to obtain her
the Independent
for
going
be
not
may
she
that
ing
lawyer called after her appointment indicat
scheduled Ms. Yu
have
I
d,
release
be
not
would
s
record
her
Psychological Evaluation, and that
Psychological
for a follow-up visit; however, if she does not report for the Independent
me to review her past
have
Evaluation, I have no need to reassess her. She has also declined to
medical records.
impression that Ms. Yu
Based on the limited information available to rue at this time, it is my
of her position in the
duties
al
essenti
the
will not likely be able to return to her job and perform
has significant stress
Yu
Ms.
ed,
perceiv
or
Real
foreseeable thture under her current Supervisor.
she does follow
that
ing
Assum
nment.
enviro
work
and anxiety for what she feels is a hostile
me for a followsees
and
tion
Evalua
logical
Psycho
ndent
Indepe
through with the recommended
up visit, she will be reassessed at that time.

ns,
Thank you, as always, for this referral. If you have any questions or concer
at (410) 579-2775.

please contact me

Sincerely,

ritAD
Robert Toney,
Medical Advisor Services
Medical Director
State Medical Director - MD
RHT/pge
DD: 6/16/2014
DT: 6/16/2014
c.c.: The Neuroscience Team

•
167 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 132 of 193
l/

Pi 3z

Page 1 of 3
Ms. Jennifer English
RE: Xiao-Ying Yu
Robert Toney, MD
Concentra-Medical Advisory .Services
1419 Knecht Avenue
Baltimore, MD 21227
October 08, 2014

CONFIDENTIAL

Jennifer English
Department of Health and Mental Hygiene
201. West Preston Street
Baltimore, Maryland 21201

Employee:
SSfi:
Date of Evaluation:
Position:

Xiao-Ying Yu
xxx-xx-7243
10/06/2014
Epidemiologist II

FOLLOW-UP WORKABILITY EVALUATION
Dear Ms, English:
Thank you again for referring Ms. Yu to the State Medical Director's Office/Concentra Medical
Advisory Services for a Workability Evaluation. She was initially evaluated on June 16, 2014,
seen for a follow-up visit on September 16, 2014, and is here today for another visit. Please
review her previous reports for the details of her case,
In brief review, Ms. Yu is a 61-year-old female who works as an Epidemiologist 11 for DIIMH.
The administrative documents submitted at the time of her initial evaluation indicated that Ms.
Yu displayed disruptive behaviors, which have resulted in several disciplinary actions over the
last several months. Ms. Yu indicated that she went out of work secondary to significant stress
and anxiety brought on by her perception of unfair treatment, harassment, and retaliation from
her Supervisor and a hostile work environment.
After my initial evaluation, it was my recommendation that Ms. Yu not report to work. I referred
her for an Independent Psychological Evaluation to get a better assessment of her psychological
status and also requested medical records from her treating physicians.
Ms. Yu initially refused to sign a consent form that would allow me to obtain her medical
records and she did not report to the Independent Psychological Evaluation that was scheduled.

•
171 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 133 of 193

1-7
Page 21of 3
Ms. Jennifer English
RE: Xiao-Ying Yu

//

'

,Tht5-i7-e-v--32_
eita4= Ex-P/33

When Ms. Yu was seen for a follow-up visit, she did agree to allow me to request her medical
records,-and she did agree-to-proceed-with-the-referral-fmtheIndependent Psychological Evaluation. Ms. Yu continued to complain of stress and anxiety along with a low mood at the
time of my follow-up evaluation. She still felt that she was unable to return to work under her
current Supervisor, and felt that she should be granted the accommodation of a new Supervisor.
Ms. Yu was seen for an Independent Psychological Evaluation on September 23, 2014. The
diagnostic impression was posttraumatic stress disorder, source unclear, anxiety disorder, and
major depressive disorder, possibly in response to work stressors. In summary, it was felt that
Ms. Yu would clearly not be able to return to work and perform the essential duties of her
position if she is to continue to work under her current Supervisor, Ms. Barra. It was also the
opinion of the Independent Psychological Evaluation that the only way to determine whether or
not Ms. Yu can meet the demands of her position is through a change in Supervisor which will
allow her a fair opportunity to prove her ability to work to required levels. It was reported that in
the event that this change can be made, it was suggested that Ms. Yu return to work with careful
attention being paid to her reviews and relationships thereafter. In the event that a change of her
current Supervisor was not possible, it was recommended that Ms. Yu not report to work. It was
felt that a return to work under her current Supervisor would only worsen her anxiety and
depression.
Currently, Ms. Yu's complaints are essentially unchanged. She continues to have stress and
anxiety associated with returning to work under her current Supervisor.
PHYSICAL EXAMINATION:
General Appearance: The patient was a well-developed female who was alert and oriented x 3.
She showed no signs of physical or emotional distress throughout the evaluation today.
Physical exam deferred.
MENTAL STATUS EXAMINATION: The mental status evaluation today was unremarkable.
Her appearance was appropriate. Her speech was coherent. Her affect and mood were normal.
Her thought processes were logical. There were no obvious deficits in short term or long term
memory. There were no signs of auditory or visual hallucinations or delusions. The patient
denied any past or current suicidal or homicidal ideation.
IMPRESSION:
I. Workplace stress.
Major depressive disorder.
Anxiety disorder.
SUMMARY AND RECOMMENDATIONS: Based on the above information, it is my
impression that Ms. Yu is unable to.safely, consistently, and reliably perform the essential duties
of her position as an Epidemiologist II under her current Supervisor. It is felt that if Ms. Yu
were granted the accommodation of a new Supervisor, the only way to assess whether she is able

172 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 134 of 193
J-Kie-f7--W- 326 0
/1 Ng"

Ecietio1/24-4;

Page 3 of 3
Ms. Jennifer English
RE: Xiao-Ying Yu

to perform her job duties would be to give her a trial of returning to work and see how her
performance is at-that time. It is felt that Ms. Yu cletzly canncrperfOrit-heirjobluties
effectively under her current Supervisor, and will not likely be able to do so in the foreseeable
future.
In summary, if Ms. Yu can be granted the accommodation of a new Supervisor, it is
recommended that she be given a trial of returning to regular activity. If Ms. Yu cannot, be
granted the accommodation of a new Supervisor, it is not recommended that she return to work
as it will likely continue to worsen her anxiety and depression.
No follow up has been scheduled with Ms. Yu at this time. However, this office would be happy
to reevaluate her again in the future should the need arise.
Thank you, as always, for this referral. If you have any questions or concerns, please contact me
at (410) 579-2775.
Sincerely,

gAD

Robert Toney,
Medical Advisory Services •
Medical Director
State Medical Director - MD
RHT/pge
DD: 10/6/2014
DT: 10/6/2014

173 USCA4

t/- 3260
Case 1:17-cv-03260-JKB Document 4-1 Flied 12/08/17 PageApf-IlUc
Czynfie,..44--5,),<-12F6-

2/ 1

Exhibit 18
Barra's
Ms. Yu reported to Dr. Shell and Ms. Taylor by the email about Ms.
in Chinese New
email
g
warnin
discrimination at National origin by sending Ms. Yu a
Year Eve.

Forwarded message ----------From: Xiao-Ying Yu -DHMH- <xiao-ying.yu@maryland.gov>
Date: Sun, Feb 2, 2014 at 9:05 AM
Subject: Fwd: Importance of a civil work environment
v>
To: "Keneithia J. Taylor -DHMH-" <keneithia.taylor@maryland.go
el McNally
Cc: Donald Shell -DHMH- <donald.shell@maryland.gov>, Micha
<mmmbjm@live.com>
GoOd morning, Ms. Taylor,
next level
The letter I wrote in the below was initially to Dr. Shell as he is the
ht it is very
thoug
I
Then,
management of my immediate supervisor, Ms. Sara Barra.
letter. Please
my
ing
necessary to also report you, so I added your name without chang
forgive me about this.
oon that the abstract I
By the way, I was informed by Ms. Sara Barra on 1/15/2014 aftern
(CSTE) was
gists
generated for 2014 Council of States and Territorial Epidemiolo
ne is 1/15/2014) due
recommended by Ms. Barra and Dr. Harris to not submit (the deadli
unity-clinical
to the reason: 1. confusing language; 2. improper inclusion of "comm
ded to Ms. Barra with
linkage" and 3. questionable results and conclusion. I have respon
till today (the e-mail
the detail explanation on 1/15/2014 and she has not responded me
and abstract will be forwarded to you soon).
Thanks and best regards,
Xiao-Ying
---- Forwarded message ----.gov>
From: Xiao-Ying Yu -DHMH- <xiao-ying.yu@maryland
Date: Sat, Feb 1, 2014 at 4:06 AM
Subject: Fwd: Importance of a civil work environment
ithia J. Taylor To: Donald Shell -DHMH- <donald.shell@maryland.aov>, "Kene
DHMH-" <keneithia.taylor@maryland.ROv>
Cc: Michael McNally <mmmbjm@live.com>

Dear Dr. Shell:
to me (in the Chinese
I am very surprised to receive Sara's letter that bring the great stress
p.m. of
2:30
at
leave
New Year day as she has approved me to take the annual
1

94 USCA4

PageVPIV- 326a
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17

6:510444.- F.4<- p6y,

r°

our CCDPC
1/31/2014) like she has done on 6/27/2013 for requesting me to update
n about teledecisio
the
websites with burden reports and on 12/13/2013 for informing me
working sheet.

to Sara's unfair
My conversations with you about projects (and some issues are related
2013 memo
treatment) have not been allowed by Sara that she stated in her 10/10/
my personnel
HR
(to
and"
because this has been criticized as "cross the chain of comm
m and NPPA
progra
file, see attached memo document); my discussion about PHHS-HF
interrupted by Dr.
grant application immediately after the HF conference call have been
in your office have
Harris and even my uncompleted report due to Dr. Harris interruption
for HF and
inputs
been prohibited by Sara's letter (stated here) as she regard that my
NPPA in your office should be interrupted with the respect of "civil work
l thinking
environment". Sara's letter recalled my memory about the same logica
to attach her
like
would
I
013.
pattern and characters in the letter Sara wrote on 6/27/2
Ms. Taylor
from
letter with my comments to cause your attention as well as the attention
and Mr. McNally.

finished our
As you know (I am very glad that you were there as my witness), after
had for HF
have
conference call, I have asked Erica the plan what Erica and Dr. Harris
t providing me
because Erica has invited me for today's conference call meeting withou
expectation we
any related information (how much for founding? what resource and what
to answer
ation
explan
some
made
need from HF: short term and long term). Dr. Harris
has
she
so
my question, then, she wanted to immediately stop our conversation,
I hope that Sara,
interrupted my further discussion and input based on her explanation.
014 as well as in
Erica and Dr. Harris would have not rejected your suggestion on 1/22/2
your e-mail on 1/30/3014 for Dr. Harris' Abstract.

her privately
However, I have been requested by Dr. Harris to go her office to talk to
instructed again
(although I was hurry to leave the office for Chinese New Year). I was
the instruction
(same as Sara response my suggestions on 1/29/2014, see below) to follow
changes in
the
ed
inform
of NPPA plan generated by Sara in CCDPC drive and I was also
have
you
which
the direction of the NPPA grant application for objectives and partners
of our CCDPC
suggested. Although I have not understood why Dr. Harris has met each
013 till
11/1/2
from
me
with
g
members privately except me (she postpone the meetin
Oct.. I
last
of
the
end
in
came
she
since
today without any additional explanation to me)
es
diabet
the
d
forwar
have
I
that
office)
have reminded Dr. Harris (in this afternoon at her
Dr.
when
even
loop
the
in
kept
summary to her as I always hope our team members to be
that Dr. Harris
Harris came to CCDPC only a few days after the end of last Oct.. I wish
any chance to
had not been influenced by any negative impact, because I have not had
1/14 /2014 to
talk to her or work with her since she came, except in the afternoon of

2

95 USCA4

57 T7...sv_3260
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page
cvntmi-- - P57
t I drafted for 2014
explain to her HF results and analysis methods included in the abstrac
unicated with
comm
has
CSTE as she requested. Sara's letter indicated that Dr. Harris
your office as well
Sara about our conversation immediately after the meeting for HF in
the facts of our
as in her office as she requested. I do not think Sara's letter reflect
member
team
conversation in your office and bring any benefit to our positive
interaction.

for objectives
Because my suggestion for our team discussing the preparation of outline
be allowed as other
and working plan was rejected on 1/29/2014, I believe that I should
about my
white and young co-worker (Ms. Erica Smith) to tell you and Dr. Harris
have analyzed
I
as
014
1/22/2
concerns for 1-IF and NPPA after our initial discussion on
although I was not
HF data and generated and finalized the CSTE abstract on 1/15/2014
allowed by Sara to submit it on 1/15/2014.

lly, it is better to
In order to avoid Sara's letter to mislead you, Ms. Taylor and Mr. McNa
d those
forwar
to
let you know the background related to Sara's e-mail, so I would like
about our NPPA grant
previous e-mail communications I have had with Sara and Erica
call with HF and the
ence
confer
application and HF program related to this afternoon
many confusion
conversation after the meeting. Since Sara has often intentionally made
survey
betes
and provided untruthful information (like the fact is that BRFSS pre-dia
suggestion) to
question is not included in 2013 based on Dr. Maria Prince and Sara's
necessary to report
is
it
feel
I
s,
aspect
nt
mislead you, PHPA and DHMH leaders in differe
ation and my
applic
grant
you to avoid the potential negative impact on CCDPC NPPA
co-workers including Dr. Harris.
Thank you for your kind attention and have a great weekend,
Xiao-Ying
Forwarded message
From: Sara Barra -DHMH- <sara.barrarc'z4maryland.gov>
Date: Fri, Jan 31, 2014 at 7:08 PM
Subject: Importance of a civil work environment
To: Xiao-Ying Yu -DHMH- <xiao-ving.yuamaryland.gov>
Xiao-Ying,
one occasion, you
Good evening! It has been brought to my attention that on more than
office or cubicle
rker's
co-wo
a
have continued to carry on a conversation and not leave
after the other party has asked for the conversation to end.

3

96 USCA4

58 ca3317-e:17-32bo
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page

It is very important as part of a civil work environment to respect agreed upon
a meeting or
timeframes for meetings and discussions and to respond to social cues for
ker saying
co-wor
a
discussion to end, such as a co-worker asking for the meeting to end,
ker stands
they need to go elsewhere, or if meeting in a co-worker's office, when a co-wor
and escorts you to the door or cubicle opening.
does not
I understand that you may feel in the above situation that your co-worker
you wish
action
an
take
not
understand your entire message or that they have not or will
I ask that you
them to do. However, in order to maintain a respectful work environment,
co-workers
please adhere to agreed upon timeframes for meetings and discussions with
ion.
discuss
or
g
meetin
a
end
and that you respect social cues when a co-worker asks to
Best,
Sara
Sara Barra, MS
Chief, Epidemiology and Special Projects
Center for Chronic Disease Prevention and Control
Prevention and Health Promotion Administration
Maryland Department of Health and Mental Hygiene
201 W Preston St, Rm 306
Baltimore MD, 21201
(P) 410-767-6781
(F) 410-333-7106

4

97 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 59 o1-.,n7_v 3260
f, 323
CaMPAlb .E)A P61

Exhibit 19
Ms. Yu reported to OEOP director, Ms. Taylor about Ms. Barra's interference with her
job by different ways including blocking her submission of abstract with false reasons.
When Ms. Yu clarified with Ms. Barra, she refused to respond to her. So, Ms. Yu
checked with Dr. Shell in the evening of 1/15/2014 when was the deadline of submission
of the abstract to CSTE as it was her part of job.
Forwarded message
From: Xiao-Ying Yu -DHMH- <xiao-ying.yu@maryland.gov>
Date: Sun, Feb 2, 2014 at 9:17 AM
Subject: Fwd: Revised 2014 CSTE abstract (now is 400 words)-clarify your confusion
To: "Keneithia J. Taylor -DHMH-" <keneithia.taylor@maryland.gov>
Good morning, Ms. Taylor,
As I mentioned to you in my earlier e-mail, this is the last e-mail I sent to Ms. Barra
related to the conference call on 1/31/2014 in Dr. Shell's office and NPPA grant
application plan, I have not heard from Ms. Barra till today.
I am very sorry for sending you so many documents as I thought these information may
help you to investigate my case and understand why I have reported you that I have been
treated unfairly by Ms. Barra and have been working in the hostile employment
environment created by Ms. Barra.
Many thanks and best regards,
Xiao-Ying

Forwarded message --------From: Xiao-Ying Yu -DHMH- <xiao-ving.vu@maryland.gov>
Date: Wed, Jan 15, 2014 at 4:47 PM
Subject: Fwd: Revised 2014 CSTE abstract (now is 400 words)-clarify your confusion
To: Sara Barra -DHMH- <sara.barra@maryland.gov>
Cc: "Vanessa W. Harris -DHMH-" <vanessa.harrisamaryland.eov>, Donald Shell DHMH- <donald.shell@marvland.gov>
Good afternoon, Sara,

•

Thank you for responding my e-mail. I am very sorry to learn the confusion you have
made in your e-mail again and I hope to be provided truthful and entire information
related to the final submitted decision from our CCDPC and status of 2014 CSTE two
abstracts. Previously, you informed me that the submitting any abstract require PHPA

98 USCA4

Ag

Case 1:17-cv-03260-3KB Document 4-1 Filed 12/08/17 PageAsof49_ 32,64,

On Mon, Feb 3, 20.14 at 11:35 AM,
Sara Barra -DHMH- <sara.barra@maryland.2ov> wrote:
Xiao-Ying,
Good morning! This meeting cannot be rescheduled for tomorrow.
Thanks,
Sara
Sara Barra, MS
Chief, Epidemiology and Special Projects
Center for Chronic Disease Prevention and Control
Prevention and Health Promotion Administration
Maryland Department of Health and Mental Hygiene
201 W Preston St, Rm 306
Baltimore MD, 21201
(P) 410-767-6781
(F) 410-333-7106

On Mon, Feb 3, 2014 at 10:06 AM,
Xiao-Ying Yu -DHMH- <xiao-yina.yucz.!rnaryland.gov> wrote:
Good morning, Sara,
Could you reschedule this meeting to tomorrow morning as Ms. Michael McNally, (Executive
Director, Maryland Professional Employees Council and AFT health Care-Maryland) does not
have a time in this afternoon?
Thanks,
Xiao-Ying
On Mon, Feb 3, 2014 at 9:29 AM,
Sara Barra -DHMH- <sara.ban-a@marylan.d.gov> wrote:
Xiao-Ying,
Good morning! Please attend a meeting with myself, Dr. Shell, and Donna Gugel (Appointing
Authority) at 2 PM in Room 300 of the 201 building. This meeting is in regard to a call and
voice message you made to Dr. Shell on his work Blackberry after hours on 1/15/14, which you
have been told many times not to do and received a Letter of Counseling for on
10/10/13. During this meeting, you will have an opportunity to present any mitigating factors or
circumstances for placing this call to Dr. Shell after hours.
Sara Barra, MS

•

Chief, Epidemiology and Special Projects
Center for Chronic Disease Prevention and Control
Prevention and Health Promotion Administration
Maryland Department of Health and Mental Hygiene
201 W Preston St, Rm 306

103 USCA4

Case 1:17-cv-03260-3KB Document 4-1 Filed 12/08/17 Page 63-Wp_ uv....3240
State of Maryland
Cc324.=x-/9.0
Department of Budget and Management
Office of Personnel Services and Benefits
301 We-St.Preston Street
Baltimore, Maryland 21201

NOTICE OF DISCIPLINARY ACTION
To Employee:

You or your representative may appeal this disciplinary action to the Cabinet Secretary of
your department (if your agency is not headed by a Cabinet Secretary, appeal must be
made to the agency head): The appeal must be in writing and filed within 15 calendar days
after your receipt of this written notice.

To Agency:

COMPLETE IN DUPLICATE. Give one copy to the employee; and retain one copy for
your files. Please do not send copy to Department of Budget and Management.
This action must be processed via the Department of Budget and Management's
Office of Personnel Services and Benefits electronic MS-310 processing system.
Epidemiologist II
Classification

Xiao-Ying Yu
Name of Employee

213-25-7243
Social Security No.

Check appropriate box and complete:
Z
0

is reprimanded.
Annual Leave days.
forfeits
through
is suspended without pay for 1 work days from
effective
increase
pay
annual
an
is denied
, effective
at
is demoted to
(Salary Level)
(Classification)

DATE OF INCIDENT THAT PROMPTS THIS DISCIPLINE: January 15. 2014.
DATE WHEN INCIDENT WAS DISCUSSED WITH THE EMPLOYEE: February 3. 2014.
REASON FOR DISCIPLINE: (Explain in full) Attach pages as necessary.
Inappropriate work behavior. Employee called her supervisor's supervisor after hours on his work cell phone after
being told not to do so on several occasions, including in a Memorandum of Counseling given to the employee on
10/10/13. Employee presented mitigating factors, but these factors were not sufficient to constitute a work-related
emergency.

Copy to Employee: 2/3/14

Z In Person

Ei Mailed to:

(Date)

2/3/14
(Date)

DHMH/PHPA
(Name of Department)

Donna Guoel, PHPA Deputy Director
(Name and Signature of Appointing Authority)

O

S-4A (Revised 10/10)

108 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed

tg 326

12/08/17 Page 1 of 193 j-K13_q-c,;/-.2t
czvA6K4--EX-- f
BALTIMORE-NIGHT BOX

-------- Forwarded message
2017 DEC -8 PM 21
aryland.gov>
From: Xiao-Ying Yu -DHMH- <xiao-ying.yu@m
U.S. BANKRUPTCY COURT
Date: Tue, Feb 18, 2014 at 5:06 PM
DISTRICT )F 9AR YLAND
Subject: Appeal document
n@maryland.gov>
To: Joshua Sharfstein -DHMH- <joshua.sharfstei
nd.gov>, "gyarbor@mcea.org"
Cc: Harold Young -DHMH- <harold.young@maryla
@live.corn>
<gyarbor@mcea.org>, Michael McNally <mmmbjm
Dear Dr. Sharfstein:
I am very sorry for bothering you and seeking your

help.

1/15/2014 when was the deadline for
I have called Dr. Donald Shell in the evening of
Territorial Epidemiologists. I left the
submitting the abstract for Council of State and
if our office has sent or not the
message in his work cellular phone and asked him
is have rewritten (as I was informed
abstract that Ms. Sara Barra and Dr. Vanessa Harr
nded by Ms. Barra to not submit in the
that the initial abstract I generated was recomme
l wanted me or not to submit the
late afternoon of 1/15/2014) and whether Dr. Shel
reason I have received the "Notice of
rewritten abstract before 11:59 p.m. This is the
ce") based on the memo Ms. Barra
disciplinary action" on 2/3/2014 (see attached "noti
response instructed by my union
wrote on 10/10/2013 (see attached memo and my
representative).
aling should address to you and
According to the instruction of this notice, the appe
e documents (1. the memo, 2. the
today is the deadline. I would like to attach thes
al form, and 5. addendum.
response to the memo, 3. the notice, 4. the appe
the management to consider the fair
Although I have not included the remedy "hope
r's unfair employment practice (Dr.
wages that was deprived by immediate superviso
DHMH and DBPM proper forms), I
Maria Price has refused to do reclassification with
attention. Your consideration and help
would highly appreciate if it can cause your kind
you.
is highly appreciated. I look forward to hearing from
Sincerely yours,
Xiao-Ying

•
40 USCA4

12/08/17 PaoP 46 of 1/98
gratTEE13F104V-WYN8-JKB Document 4-1 Filed

DHMH

377

-3260
C07141-E2c- (46

Maryland Department of Health and Mental Hygiene
Martin O'Malley. Governor — Anthony G. Brown, 1..t. Governor —

Joshua M. Sharfstein. M.D., Secretary

Prevention and Health Promotion Admin
Michelle Spencer, MS, Director
Donna Gugel, MHS, Deputy Director
Health Bureau
!lice D. Marrazzo. RN. BSN. MPH. Director_ Maternal and Child
13ureau
Disease
s
Infectiou
.
Director
PMP.
.
Deborah B. McGrucler.MPH
Bureau
Clifford S. Mitchell. MS. MD. MPH. Director. Environmental Health
Bureau
Disease
Chronic
and
Cancer
.
DcmaId Shell. MD. MA. Director

INTERNAL MEMORANDUM
Xiao-Ying Yu

TO:

FROM: Sara Barra
DATE:

October 10, 2013

RE:

Memorandum of Counseling

repeated contact with Dr.
This counseling memo is a follow-up from our discussion about your
contacting me, Ms. Sara Barra, your immediate supervisor.

Shell, without first

you on his work cell phone: the latest in inane
On September 24 and 25. 2013, Dr. Shell received telephone calls from
occasions to go to your immediate supervisor
calls to his work cell phone after hours. You have been asked on several
the case of an emergency or if 1 am unable to
first for any assistance you may need and to only contact Dr. Shell if in
d at your mid-cycle PEP on January 2, 2013
assist you in a reasonable time frame. Three of these occasions occurre
30, 2013; and at your end-cycle PEP on June
with Dr. Shell, Dr. Prince, and me; via email from Dr. Shell on January
above do not include the period between March 2517. 2013 with Dr. Shell and me. (These occasions referred to
and von were directly reporting to Dr. Shell.)
May 30. 2013, when I was on approved maternity leave

ch Dr. Shell for office matters, without going
Please understand that it is insubordination to continue to directly approa
his work cell phone. iibu must not call his
to me first as you have been previously instructed; this includes calling
by me or during an emergency.
work cell phone during or after normal business hours, unless directed
Disease Prevention and Control, I encourage
In order to ensure an environment of civility in the Center for Chronic
be advised that continuing to not follow the
you to contact with me first to discuss any issues you may have. Please
rdination and therefore not acceptable. Any future
chain of command as outlined above and in your MS-22 is insubo
you. If you have any questions pertainini2.
misconduct of this nature could result in disciplinary action taken against
reasonable time frame for me to respond to
a
or
to: appropriate contact with Dr. Shell, what constitutes an emergency,
provide additional comments you may do so
requests, please see me. if you wish to respond to this memorandum or
within (5) live days of receipt of counseling.

of this
content of this memo, but does acknowledge my receipt
My signature below does not imply agreement with the
lite1170.
E.E)

.e--t.cS

(

DHMH Personnel File
Donald Shell, MD, MA
201 W. Preston Street. Baltimore. Maryland 21201
410-767-6742 • Fax 410-333-5995
Toll Free l-877-4MD-DHM14 • TTY for Disabled
Maryland Relay Service 1-800-735-2258 or 711

500 N. Calvert Street, 5th Fl. Baltimore. Maryland 21202
410-767-5227 • Fax 410-333-6333 • Toll Free 1-800-358-9001
1-800-20 I -7165 Voice for Disabled
Maryland Relay Service 1-800-735-2258 or 711
85 USCA4

Ire)) Site: http://ohoa.dhmh.maryland.gov

3 7-tV- 32-to
nt 4-1 Filed 12/08/17 Page 47 €10 1
Case 1:17-cv-03260-JKB Docume

3:47

October I 8, 2013
To: Ms. Sara Barra, MS
cts
Chief. Epidemioloey and Special Proje
and Control
Center for Chronic Disease Prevention
inistration
Prevention and Health Promotion Adm
tal Hygiene
Men
and
th
Heal
of
nt
Maryland Departme

Response to Memorandum of Counseling.

on October 10.2013

I could not reach Dr. Shell on 9/24.

There was only one phone call on 9/25 since

of command" direction. However, when an
I completely understand the "follow the chain
rvisor, the employee certainly has the right to
employee has issues with the immediate supe
agement.
discuss these issues with the next level of man
e".

My newly revised MS-22 is under "grievanc

Xiao-Ying Yu. M.D.. MS
Epidemioloeist
n and Control
Center for Chronic Disease Preventio
inistration
Adm
otion
Prevention and Health Prom
tal Hygiene
Men
and
Maryland Department of Health

Cc: Dr. Donald Shell, M.D., MA

Director, Cancer and Chronic Disease Bureau

ase Prevention and Control
Acting Director. Center for Chronic Dise
inistration.
Prevention and Health Promotion Adm
tal Hygiene
Men
and
Maryland Department of
DHMH Personnel File

86 USCA4

Ot 34
Case 1:17-cv-03260-JKB Document 4-1 iled 12/08/17 Page 70 of 150..i7._
e_v_3260

STATE PERSONNEL MANAGEMENT SYSTEM .c,„Ijf,s0,/-.' 6x-pra
APPEAL AND GRJEVANCE FORM

(Attach copies of any earlier agency decisions. If ap,o
—ealinga disciplinary action, the notice of discipline must be attached)

rEMPLOYEE'S NAME: Xiao-Ying Yii

SS#: 213-25-724

EMPLOYING AGENCY: DHMH.

DIV. or UNIT: PHPA CCDB

EMPLOYEE'S CLASSIFICATION: Epidemiologist II
HOME ADDRESS: 557 Kirkcaldy Way, Abingdon MD. 21009
.

HOME PHONE #: 410-671-9823
WORK PHONE #: 410-767-5263

Issue of employee's grievance or reason given by agency for taking disciplinary action (attach

additional .

pages as necessary): The Employee received discplinary actions resulting in a written repriman

d,
Managements action were arbitary, capricious and withoutmerit, the employee denies any alledged

misconduct

or wrong doing
Date grievance or discipline was discussed with appointing authority: 2/3/14
•..
State the issues of fact and law
... that support the employee's:action (attach additional pages as necessar
l

y):

The employee appeals under SPPA 11-101 et seq., SPPA All-106 and asserts that there is no factual
basis- for the Agencys actions-the employee denies any misconduct alledged_ Additional issues

or legal

of fact and law

may be developed during discovery.
Employee's Requested Remedy: The employee seeks that management rescind the disciplinary
actions,
remove it from all files and restore all lost wages and benefits provided by law.
EMPLOYEE REPRESENTED BY: Stephen Yarbor , MCEA Labor Relations' Specialist
Address: 7127 Rutherford Road, Baltimore, MD 21244
Phone Number: 410-298-8800
g-t
EMPLOYEE'S SIGNATURE:

DATE SIGNED:

Please Circle Appeal Category:
10 Termination
11 Termination on Probation
20 Suspension Without Pay
22 Emergency Suspension With Pay
3o

Grievance Of complaint involves a denied

give date of last audit:

reclass,

40
1:4:2
50
60
80

Forfeiture of Annual Leave
Written Reprimand
Involuntary Demotion.
Denial of Pay Increase
Retaliation for "Whistleblower" Disclosure

AILURE TO FULLY COMPLETE THIS FORM WILL DELAY THE PROCESSING OF
THIS
PPEAL OR IT MAY RESULT IN ADVERSE ACTION ON THIS APPEAL -

109 USCA4

4 333

Ariedok,3

Summary of the Changes Sara made for my Employee Performance Evaluat

ion (Maryland DHMH)

3
3
3

2013, (1/2)
mid-cycle
3
3
3

2013(6/17)
End-cycle
3
3
3

2014(6/9)
mid v. End cyc
2
?
1
?
2
?

3

3

2

2

?

1

2

2

2

2

2

?

2

2

2

2

1

1

?

1

3

3

3

2

2

?

1

3

3

3

2

2

?

2

3

3

3

3

3

?

1

2

3

2

2

2

?

2

3

3

3

3

3

?

3

3

3

3

3

?

3

2

2

3

2

2

?

2

2

3

3

3

3

?

2

2

3

3

3

3

?

3

3

3

3

2

2

?

2

2

2

2

2

2

?

2

3
3

3
3

3
3

3
1

3
2

?
?

1
1

Rating

3
2.48,
Satisfactory
Maria Prince

3
2.90,
Outstand
-ing
Maria
Prince

1
2.29,
Satisfactory

Supervisor

3
2.75,
Outstand
-ing
Maria
Prince

Sara Barra

1
2.33,
Satisfactor
y
Sara Barra

1
?
Satisfactory
vs. UnSatisfactory
Sara Barra

Memo (not
seen scores
till 6/28/13)

not seen
scores till
6/28/2013

Memo (not
seen score till
6/10/2014)

Elements

Elements

2010

2011

2012

Work Ethic

Maintains good attendance
Follows call-in/leave policies
Reports to work area on time
and does not leave until
designated time
Works cooperatively with
others to implement the
Department's goals
Speaks effectively

2
2
2

3
3
3

3

Writes effectively (clear,
organized, appropriate
grammar, punctuation)
Interacts positively with co- .
workers
Strives to meet customer
requirements
Is courteous to customers and
co-workers
Provides timely, accurate and
appropriate information to
internal and external
customers
Presents a professional image
to customers in attire and
maintenance of workspace
Keeps commitments and
follows through on customer
requests
Solves problems without being
asking
Works to continuously
improve processes
Engages in opportunities for
self-improvement
Appropriately prioritizes work

Team-work

Communication

Customer
service

Initiatives

Work
performance

Completes assignments
accurately and on time
Maintains confidentiality
Exercises appropriate
judgment
Follows directions

Memo to HR

4 .v4
124 4

"Eti r

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 31 ofM_iTcv_ 3260
Summary of Changes in MS-22 (Ms. Sara Barra Deleted, Restricted and curifi ji_E-1)31
Changed My Job Duties and Performance Standards

Elements

Initial
MS22(I1/20094/2010)

Service

Professional

Professional

Initial changed to
"Skilled"

Class Titie

Epidemiologist I

Epidemiologist 11

Position Function

20%: leads in
Same
the processing and
analyzing of
collected data in
order•to determine
changes in trends and
probable causes of
epidemiologic
problems.
20%: Identifies
Same
existing data systems
and analyzes the data
to assess morbidity
and mortality
associated with
chronic conditions,
including heart
disease and stroke.
15% : Leads in
the design, as well as
Deleted
data collection and
"Leads",
analysis of evaluation changed to
associated with
"Consults"
programmatic
initiatives.
I 5%:Characterizes
and presents the
nature of problems
Same
identified from
collected data
I0%: Designs
new data collection
Same
systems, as well as
improvements in
existing system.
Same
10%: participates
in implementation
and evaluation of
control or prevention
measures.
10% recommends
Same
or conducts
investigations or

Deleted it but replaced
with "chronic disease
epidemiologist"
25%: Deleted
"leads"

..Revised MS-22
by Dr. Maria
Prince (5/20107/2013, but was
not signed until
1/21/2011)

Revised.MS22 by Ms.
Sara Barra on 6/12 and
gave it to me on 7/5/2013

25%: Same

Revised MS22 by Ms. Sara
Barra (revised on 7/1 9,
signed on 7/23-724/2013)
Although I have disagreed
Sara to delete and restrict
my job function, she refused
to correct it.
Because I asked Sara why,
then she changed back to the
"professional"
Deleted it but replaced with
"chronic disease
epidemiologist"
I. 25%: Deleted
"leads"

25%: Same

15%: Deleted
"Leads "changed to
"Consults"
-

15%: Deleted
"Leads "changed to
"Consults"

15% : Same

15% : Same

Deleted this
Function

Deleted this
Function

Same

Same

Same

Same

1
70 USCA4

4f2f3,3c
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 32

of

t,7.

3160

Restricted and cpo,p(air.1-4_paz
Summary of Changes in MS-22 (Ms. Sara Barra Deleted,
Changed My Job Duties and Performance Standards

Level, Frequency
and purpose of
work contacts

special studies which
are indicated from
data analyses
Daily contacts:
Office Director
and Medical Director
to provide
recommendation and
seek direction;
Program
administrator: to
provide supervision
and seek direction;
Weekly contacts:
Diabetes coordinator:
to provide
information and
determine
collaboration;
Other staff: provide
information;

3.Heart disease and
stroke council: to
persuade and
negotiate, as well as
inform and educate.
Monthly/Quarterly
contacts:
4.CDC project
officer: provide
information;
5.Administrator: to
provide information
6. Local Health
Departments: to
provide education
and training
analyses

•

Daily-weekly
Daily contacts:
s:
contact
,
for
l . Same
1. Same
Medical Director
or Office Director

2a. Changed:
Program
administrator and :
coordinator: only
provide
information
2b. Added:
1) .Policy
analyst: to
explain data and
provide
information ; and
2) Evaluator to
provide
information

Monthly/quarterly
contacts:
3.Heart disease
and stroke
council: to
persuade and
negotiate, as well
as inform and
educate.
4.Same

2.Added restriction:
1. Request permission
from CCDPC Chief of
epidemiology for all
projects outside of
CCDPC(including those
from CDC) prior to
accepting /working on
them;
.
2. DHMH staff/Local
Health Departments: as
requested by supervisor,
medical director or office
director to provide
information and
recommendations.

Daily-weekly
contacts:
1 .Same

Added restriction:
1.Although I disagreed, Sara
refused to correct it.

2. As I disagreed, Sara
changed to DHMH staff: as
requested to provide
information and
recommendations.
However, for local Health
Departments, she insisted on
keeping same restriction

3. Deleted contacts to
Heart disease and Stroke
Council

3.Same

4&5.Deleted "Provide
information" to CDC and
administrators

4&5.Same

Deleted "provide
education and training" to
local health departments

6.Same

Added additional
limitations for entities
external to DHMH:
As requested by
supervisor, CCDPC
medical director or
CCDPC director to
provide information and

7.Added additional
limitations for entities
external to DHMH:
As requested by supervisor,
CCDPC medical director or
CCDPC director to provide
information and
recommendation and discuss

5.Same
6. Same

2

71 USCA4

-33e

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 33 of 193 ag-q-C4/-3240
Summary of Changes in MS-22 (Ms. Sara Barra Deleted, Restricted and
Changed My Job Duties and Performance Standards
recommendation and
discuss mutual needs and
interests.

Decisions and
Recommendations

I mutual needs and interests.

Changed l&2. As
following:
Recommendations to the
supervisor, office Director
and Medical Director
regarding population based
data on heart disease,
stroke, diabetes, COPD,
obesity, nutrition and
physical activity.

3.Deleted ths job
function

4.Changed to:
Decision/recommendations
to CCDPC Staff regarding
epidemiological
aspects/impacts of
statewide initiatives and
priorities.

Decisions to the
office of chronic
disease prevention
staff regarding
statewide initiatives
and priorities

4. Same

Nature of
Supervision
received

General supervision

Changed to
Managerial
supervision

Nature and level
of responsibility
for work of others
Performance

Lead employees
Train employees

Changed to "No"
Changed to "No"

I .Fact sheets on the

Changed to office ' Deleted all chronic disease

Standards

•

Changed I &2. As
I .Recommendations
to the Office Director following:
Recommendations
concerning heart
to the office
disease and stroke
and
prevention and
'Director
Director
Medical
and
outputs
control
regarding
outcomes.
population based
2.Recommendations
on heart
data
to the medical
disease, stroke,
director concerning
diabetes, COPD
improvements in the
and obesity
quality of heart
prevention and
disease and stroke
control.
care.
3.Same
Decisions to the
heart disease and
stroke Advisory
Committee regarding
Statewide priority
areas.

burden of heart

disease, stroke, and
its risk factors are
developed and
disseminated at least
quarterly.
2. Evaluation plans
are developed,

all programs

related to chronic
diseases as
following:
I. Collecting and
analyzing data to
identify and
I characterize the

Changed to General
supervision

same

related programs/projects

in performance standards:
I. Timely, appropriate
completion of work
assigned, including:
research, data

Colvt.11---.EK -43

Changed l&2. As following:
Recommendations to the
supervisor, office Director
and Medical Director
regarding population based
data on heart disease, stroke,
diabetes, COPD, obesity,
nutrition and physical
activity.
As I disagreed Sara to delete
#3 job function, Sara added
the restriction:
3.Decision/recommendations
to external entities, including
the Maryland State Advisory
Council on Heart disease
and stroke, regarding
epidemiological
aspects/impacts of statewide
initiatives and priorities, as
requested by supervisor,
CCDPC medical director, or
CCDPC director.
4.Same

I disagreed, but Sara
explained she only does
"general supervision", so she
kept it as same.
same
Sara insisted on to deleted
all chronic disease related

programs/projects in
performance standards:
1. Same

3

72 USCA4

14# 0'7
Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 34 of 1R-0,_mcv- 3,26e
Summary of Changes in MS-22 (Ms. Sara Barra Deleted, Restricted and ayyriab.1--.-.,x-/)34Changed My Job Duties and Performance Standards
implemented, and
disseminated in
accordance with
federal guidelines
annually.
3. Formal
presentations and
recommendations are
made regarding
priority areas for
interventions.

epidemiology of
chronic disease
and their risk
factors.
Developing the
Annual burden
outline and data
file for fact sheets
and reports for
heart disease,
stroke, diabetes,
obesity, chronic
obstructive
pulmonary
disease (COPD),
inadequate fruit
and vegetable
consumption and
physical activity.
Developing the
design, data
collection,
analysis and
evaluation for
COPD.

Helping to
prepare data
analysis for
presentations.

collection/analysis, burden
reports and summaries,
analysis/results for
presentations, and
recommendations.
Burden reports related
various types of chronic
diseases performance
standards is included into
#I without listing any
project/program) . In
stead, Sara added
following:
"Timely, appropriate
preparation of meeting
summaries/reports and
other evidence of
appropriate, timely
attendance/participation as
assigned" .
Deleted this job design
and evaluation function
related performance
standards on COPD
project. However, Sara
added following:
"Timely, appropriate
communication with
supervisor regarding work
assigned and potential
projects.
See #1

1 disagreed with Sara, as
this was not listed in my
major job function, but Sara
insisted on keeping this:
"Timely, appropriate
preparation of meeting
summaries/reports and other
evidence of appropriate,
timely attendance/
participation as assigned" .

I disagreed with Sara to
delete this and added
communication with her
which was not listed in my
major job function such as
design and evaluation and,
but Sara refused to correct it.
"Timely, appropriate
communication with
supervisor regarding work
assigned and potential
projects".
See 41

Deleted this job function
related performance
standards

Identifying
existing data
resources.

Deleted this job function
related performance
standards

Presenting
burden summary
to the chronic
disease council
meetings and
CDC site visits

Deleted the presentation
at Council meeting and
CDC site visit

Deleted same

7.Making
recommendations
regarding priority
areas for
interventions

Deleted the
recommendation about
priority areas for
intervention

Deleted same

4

73 USCA4

Arf 42/61-

11-(19,N

8/17 Page 37 of 10(8-(7-CV- 324,
ase 1:17-cv-03260-JKB Document 4-1 Filed 12/0

STATE PERSONNEL MANAGEMENT SYSTEM
APPEAL AND GRIEVANCE FORM

'attach copies of any earlier agency decisions. If appealing

Gir-4--)<-1)37"
ed.)

a disciplinary action, the notice of discipline must be attach

EMPLOYEE'S NAME: Xiao-Ying Yu
EMPLOYING AGENCY: DHMH, PHPA, CCDB "

DIV. or UNIT: Chronic Disease Prey. &
Control

EMPLOYEE'S CLASSIFICATION: Epidemiologist II
21009
HOME ADDRESS: 557 Kirkcaldy Way, Abingdon, MD

HOME PHONE #: 410-671-9823
WORK PHONE #: 410-767-5263

cy for taking disciplinary action (attach additional
Issue of employee's grievance or reason given by agen
es to her MS22 and they were implemented despite
pages as necessary): Employee was made aware of chang
the revised MS22. This is a violation of the process for
the employee's concerns and the limitations included in
revision of employees' MS22.
Date grievance or discipline was discussed with appo

inting authority: July 25, 2013

that support the employee's action (attach
State the issues of fact and law, to the extent possible,
tated Code, State Personnel and Pensions, and any
additional pages as necessary): COMAR Title 17, Anno
apply.

other law, rule, regulation, policy, and procedure that may
that the MS22 be revised to include her original duties,
mployee's Requested Remedy: Employee requests
meetings be removed, and include her new
the limitations on data access and attendeance at scientific
Ata2m.la-in )
—
responsibilities for the new grant. ( Sea.
✓
AFT Healthcare-MD
EMPLOYEE REPRESENTED BY: Debra Perry,

k

ECE8VE
Alin 1 3 2013

4

Address: 7127 Rutherford Road, Baltimore, MD 2124

EMPLOYEE RELATIONS UNIT
utimiwurt-tut uF 1lUmAil BrSOuriCtS

Phone Number: 410-645-3062

EMPLOYEE'S SIGNATURE:
Please Circle Appeal Category:
10 Termination
tion
11 Termination on Proba
Pay
20

QC1

DATE SIGNED:

,..:L%:?

Suspension Without

mergency Suspension With Pay
rievance (If complaint involves a denied rectass,
give date of last audit:

40
42
SO

7-0

Forfeiture of Annual Leave
Written Reprimand
Involuntary Demotion

60 Denial of Pay Increase
80 Retaliation for "Whistleblower" Disclosure

WILL DELAY THE PROCESSING OF THIS
aILURE TO FULLY COMPLETE THIS FORM
ION ON THIS APPEAL.
APPEAL OR IT MAY RESULT IN ADVERSE ACT

l

See reverse side for process to file your appeal

76 USCA4

3240

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 38 of At

co?6,64--Ex- N

V#

/

ADDENDUM

August 14, 2013

To: MS. Sara Barra, Dr. Donald Shell
To: Employee Relations Unit
DHMD/Office of Human Resources

her to respond to CDC
Employee also requests that management have MS-22 continue to permit
s dealing with a deep
requested activities specifically directed to employee. These are content question
as access to various
understanding of chronic disease, epidemiology and pathophysiology. As well
CCDPC program meetings
clinical databases and attendance at chronic disease, surveillance, evaluation,
and scientific conferences.

/ip
2
Xiao-Ying Yu

a-013

Date:

231:1110S381VVAIN dO 3313d0 INHO
.UNII SNOL1Y138 33A01:1113

ECEVE
AUG 1 4 2013
EMPLOYEE RELATIONS UNIT
DHMH/OFFICE OF HUMAN RESOURCES

77 USCA4

z0 _ Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 39
((o

of 1908 _ tT_e_v_ 3260

6714rit--6:-A

gov>
From: Xiao-Ying Yu -DHMH- <xiao-ying.yu@maryland.
Date: Mon, Dec 2; 2013 at 5:27 PM
Subject: seek help for fair treatment
d.gov>
To: Harold Young -DHMH- <harold.you.ng(aimarylan
>
Cc: Donna Gugel -DHMH- <donna.gugel@maryland.gov

Dear Ms. Young,
to change my MS22 and to do my
I understood that my supervisor Ms. Sara Barra has the right
a gave me to respond to the current
PEP as her opnior. I really appreciate the opportunity Donn
decision about my case.
I do not agree the decision for these reasons:
miologist job responsibilities to best
The revised MS22 by Sara has not reflected the the epide
contribute to our Department; PHPA and CCDPC;
The restriction make me can not use my best professional
duty;

skills to do my professional job

rous times in writing and verbally
Although I have tried to communicate with Dr. Shell nume
r treatment, he has tried, the problem has
since 3/13/2 012 to seek his protection from Sara's unfai
s since last year as well as 1/2/2013
not been solved, so he suggested me to contact HR regulation
with PEP memo;
miologist (such as access to the data
I hope that I will be permitted to perform my duty as epide
) without fearing retaliation because I reported
base; meetings and projects/programs information
truth.
Additional documents is attached to this letter.
Thank you and have a happy holiday season!
Xiao-Ying

•
78 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page 51 of allt-a-CV-3260

Exhibit 17.

Ms. Yu reported to MDH Office of Equal Opportunity Program Director, Ms. Keneithia Taylor
on 1/9/2014 about Ms. Barra's harassment and retaliation and requested making an appointment.

Forwarded message
From: Xiao-Ying Yu -DHMH- <xiao-ying.yu@maryland.gov>
Date: Thu, Jan 9, 2014 at 6:25 PM
Subject: Seek help
To: keneithia.taylor@maryland.gov
Cc: Michael McNally <mmmbjm@live.com>

Dear Ms. Taylor:
As the instruction by Mr. Michael McNally, Executive Director, Maryland Professional Employees
Council and AFT Health Care-Maryland, I am writing this letter to you and seek your help, please
protect me from the negative impact by the hostile work environment created by Ms. Sara Barra, my
immediate supervisor.

•

I have received the hard copy of the "Memorandum" (memo) on 12/20/2013 from Ms. Barra for
my 2014 mid-cycle performance evaluation. This memo is similar to the memo for my 2013
mid-cycle evaluation on 1/2/2013. Although I was evaluated as "Satisfactory" for the both
periods, my official work efforts and contributions have been downgraded. Please see attached
memo and the summary table of my PEP.
I would like to clarify some confusion Ms. Barra made in her memo. I have explained to
Ms. Barra verbally at my PEP meetings on 1/2/2013 and 12/17/2013 and also in writing with
these facts: 1. The chronic disease burden fact sheet I prepared have been regarded as easy to
understand by everyone since 3/2010; 2. The recommendations I have previously provided to
office directors and abstracts I initially generated (based on my judgments) have matched with
the CDC's recent instructions and directions and 3. My doing the job duties to provide office
directors recommendations as MS22 required and my seeking Dr. Shell's help to stop the unfair
treatment by Dr. Maria Prince and Ms. Barra have been criticized by Dr. Prince and Ms. Barra as
the "cross the chain of command". Therefore, I have refused to sign the memos, although I am
willing to improve myself as English is my second language.

•

I have reported Dr. Donald Shell on 3/14/2012 at his request (he wanted to meet each of our
staff, while Ms. Barra has not allowed me to have same chance as my co-workers to meet with
Dr. Shell) and I have also written the e-mail to Dr. Shell on 12/5/2012 about the unfair treatment
by Ms. Barra and Dr. Prince and asked Dr. Shell's help. Since then, I have been suffering from
the continuous retaliation and also have been working in the unwelcomed and harassing
environment generated by Dr. Prince and Ms. Barra. The retaliation has included but not limited
as following: a) continuously and repeatedly creating the confusion in my work assignments
and forbidding me to clarify it; b) forcing me out of participation in office projects/programs; c)
diminishing my professional responsibilities via their meeting invitations and the assignments of

90 USCA4

Case 1:17-cv-03260-JKB Document 4-1 Filed 12/08/17 Page
Arp 3c42-

52 Qrkg317- cV-3260,
C.c,rikht--E.— P52

became my supervisor and I
work; d) downgrading my PEP scores immediately after Ms. Barra
for inclusion in my personnel
have complained to Dr. Shell; e) sending negative memos to HR
job duties by revising the MSfile (2 memos within 2 months), and f) deleting and restricting my
22.
ssed me to get the same
All of these problems have not only damaged my health; and suppre
from the professional
working rights as my co-workers had, but also have prevented me
ul working environment and
advancements. In addition, it has been harmful to the office peacef
ms.
positive interaction, and the developing/ improving office progra
As Mr. McNally suggested, could you please arrange a meeting
Mr. McNally at your earliest convenience?

that will include me, you and

Sincerely yours,
Xiao-Yina

Xiao-Ying Yu, M.D., MS
Epidemiologist
Center for Chronic Disease Prevention and Control
Cancer and Chronic Disease Bureau
Prevention and Health Promotion Administration
Maryland Department of Health and Mental Hygiene
201 W. Preston St., Rm 306-J-3
Baltimore, MD 21201
(Phone) 410-767-5263
(Fax) 410-333-7106
e-mail: xiao-ying.yu@maryland.gov

•
91 USCA4

